<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
               SERVICES, EDUCATION, AND RELATED AGENCIES
                        APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                 JOHN EDWARD PORTER, Illinois, Chairman

C. W. BILL YOUNG, Florida        DAVID R. OBEY, Wisconsin
HENRY BONILLA, Texas             LOUIS STOKES, Ohio
ERNEST J. ISTOOK, Jr., Oklahoma  STENY H. HOYER, Maryland
DAN MILLER, Florida              NANCY PELOSI, California
JAY DICKEY, Arkansas             NITA M. LOWEY, New York
ROGER F. WICKER, Mississippi     ROSA L. DeLAURO, Connecticut
ANNE M. NORTHUP, Kentucky        

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
 Committee, and Mr. Obey, as Ranking Minority Member of the Full 
 Committee, are authorized to sit as Members of all Subcommittees.

S. Anthony McCann, Robert L. Knisely, Susan E. Quantius, Michael K. Myers,
                  and Francine Mack, Subcommittee Staff
                                ________

                                 PART 5

                         DEPARTMENT OF EDUCATION
                                                                   Page
 Secretary of Education...........................................    1
 Elementary and Secondary Education, Bilingual Education..........  139
 Postsecondary Education..........................................  243
 Educational Research and Improvement.............................  399
 Office of the Inspector General..................................  443
 Special Institutions for Persons With Disabilities...............  471
    American Printing House for the Blind
    Gallaudet University
    National Technical Institute for the Deaf
 Howard University................................................  593
 Vocational and Adult Education...................................  665
 Special Education and Rehabilitation Services and Disability 
Research..........................................................  703
 Budget Justifications............................................  753
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-509                     WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director








DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1998

                              ----------                             

                                           Tuesday, March 11, 1997.

                         SECRETARY OF EDUCATION

                               WITNESSES

HON. RICHARD W. RILEY, SECRETARY OF EDUCATION
MARSHALL S. SMITH, UNDER SECRETARY
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    We're very pleased to welcome today Secretary Richard 
Riley, the Secretary of Education, to begin our hearings on the 
Department of Education's budget.
    Mr. Secretary, I want to welcome you to your fifth 
appearance before this subcommittee. I would particularly like 
to thank you and your fine staff, including Tom Skelly, your 
recently-appointed Deputy Assistant Secretary for Budget, for 
providing the subcommittee with complete budget justifications 
within a short period of time of the arrival of the President's 
budget.

                    Opening Remarks of the Chairman

    Mr. Secretary, I believe that the Administration's approach 
of simply adding funds to the education accounts with no real 
understanding of their effectiveness is both imprudent and 
harms rather than helps them.
    We give the illusion of assisting and caring, but in 
reality some of the funds go to programs of dubious 
effectiveness, overhead expenses, or narrow categorical 
programs of interest only to policy insiders.
    We need a far better understanding of the impact of 
programs on the children.
    I'm disappointed that the consultation with the 
subcommittee over the implementation of the Government 
Performance and Results Act has begun so late in the cycle. 
Moreover, new proposals such as technology, school 
construction, national testing, after-school centers, and 
others are presented to Congress with no performance measures 
and seem to have been created without any consideration of 
them.
    The Administration is increasing funding for programs such 
as Safe and Drug-free Schools, Eisenhower Professional 
Development, and others that at best show minimal 
effectiveness.
    Mr. Secretary, instead of funding those programs that 
provide broad authority for local educational agencies to 
fashion local solutions for locally-defined problems, I believe 
that your budget continues to focus too much on narrow 
constituency-based programs.
    You take money away from the old chapter two program and 
impact aid, while you fund narrow programs such as after-school 
centers, national tests, and overhead programs such as Goals 
2000 and the many national programs.
    Your budget makes no attempt, with the exception of special 
education, to consolidate, and there is no evidence that any 
administrative actions are under consideration to assure better 
coordination among these various overlapping programs.
    I would also caution you that, from both a fiscal 
responsibility and policy perspective, I am most concerned by 
the trend in the Administration's budget to move programs from 
discretionary to mandatory or tax credit-based funding. I 
cannot understand why, when we have committed ourselves to 
controlling the budget, you propose to move billions of dollars 
into funding mechanisms that Congress and the President have 
been notorious for controlling.
    Mr. Secretary, I hope we can work together to assure that 
the programs we fund actually work, that we are not funding 
multiple overhead and duplicative programs, and that we provide 
maximum freedom for local districts and parents to control the 
education of their children.
    I would now call on Mr. Obey for any opening statement he 
might wish to make.

               Opening Remarks of Ranking Minority Member

    Mr. Obey. Well, Mr. Secretary, I hadn't intended to make 
any, but I will take just a moment to respond to the Chairman's 
opening statement, at least certain portions of it.
    I will simply say I think the last institution that ought 
to be giving lectures to this Administration about harming 
children is the House of Representatives, given what they tried 
to do the last two years to the education budget. The House had 
to be dragged kicking and screaming into providing adequate 
resources for education, and without people like you and Mr. 
Panetta and the President it wouldn't have happened, and I 
congratulate you for it.
    I would also say that, far from attacking the 
Administration for trying to put some funding into after-school 
centers, I would simply point out that, as everyone, I think, 
knows in this country, the overwhelming majority of crime 
committed by young people is committed between the hours of 
4:00 and 6:00 in the afternoon. It seems to me that anything we 
can do to provide additional supervision for young people 
during that time of the day is useful.
    I would say, with respect to the Administration's moving 
money into tax credits for education, I would a whole lot 
rather see that. I think that's a whole lot better use of the 
tax code than lusting for additional ways to find opportunities 
to provide big capital gains tax cuts for people who are 
already making over $100,000 a year.
    So I think the Administration's priorities are largely 
correct. I, myself, might differ on some of the details. As 
Will Rogers said, ``When two people agree on everything, one of 
them is not necessary.''
    I look forward to hearing what you have to say today.
    Mr. Porter. Thank you, Mr. Obey.
    Mr. Secretary, we welcome Mr. Smith, Mr. Skelly, and you, 
and if you would proceed we'd appreciate it.

                   Opening Remarks of Secretary Riley

    Mr. Riley. Thank you so much, Mr. Chairman. I'm so pleased 
to appear before the subcommittee this morning. I have a long 
statement that I'd ask be placed in the record, and we'll give 
a more brief statement here.

                     EDUCATION--A NATIONAL PRIORITY

    Let me begin by saying how pleased I am that education is a 
top priority for both President Clinton and the Congress. It is 
a time when we need to discuss many of these issues, so this 
meeting this morning is in a very appropriate time.
    The Nation, though, is absolutely tuned into education as a 
national priority. The President's call to action on education 
has created some sparks out there and we can all see them.
    As I travel around the country--and I was in New York 
yesterday and Florida on Friday and Michigan on Thursday--the 
President's call to action really is a matter that people are 
talking about. I detect a great deal of energy and excitement, 
and it's with that spirit that I am pleased to work with this 
committee in a bipartisan way to balance the budget, while 
making strong investment in education. I think those two are 
absolutely consistent.

                    FY 1998 EDUCATION BUDGET REQUEST

    For fiscal year 1998, we are asking for a total of $29.1 
billion in discretionary funds, an increase of $2.9 billion, or 
11 percent, over the 1997 level. Part of that is Pell Grant 
increases.

                         NEW BUDGET INITIATIVES

    This budget request seeks to respond to record-breaking 
enrollment increases, with a significant investment for two new 
initiatives, the America Reads Challenge and the School 
Construction Initiative.

                           TAX CUT PROPOSALS

    To complement the education funds in our budget and to help 
Americans pay for college, President Clinton is also proposing 
tax cuts that would save students and families an estimated $36 
billion in postsecondary education expenses over the next five 
years.

                       GOALS 2000 BUDGET REQUEST

    Our effort to improve education begins with a focus on high 
standards. We are requesting $620 million for our Goals 2000 
program, an increase of $129 million over 1997. This would give 
school improvement grants set up by the States for 16,000 
schools as opposed to an estimated 12,000 that now have these 
education reform grants, and an awful lot will be going on in 
these 16,000 schools to improve themselves.

                     ADVANCED PLACEMENT FEE PROGRAM

    We're also requesting $6 million for the Advanced Placement 
Fee program to give more low-income students the opportunity to 
reach excellence.

                      SCHOOL-TO-WORK OPPORTUNITIES

    The President's budget includes $400 million for School-to-
Work opportunities, $200 million each for Education and Labor.

                         EDUCATIONAL TECHNOLOGY

    In addition, we continue our strong emphasis on educational 
technology. The $500 million request is very much needed. At 
present, only 14 percent of all classrooms are connected to the 
Internet. Some 65 percent of the schools are connected, but 
only 14 percent of the classes.
    According to the McKinsey report, ``Connecting K-12 schools 
to the Information Superhighway,'' the Federal Government 
provides about 25 percent of all technology funding. So the 
Federal Government is providing a good portion of that, and 
that's money well spent.
    This rate of funding is much higher than the overall 
Federal contribution, of course, of 6 to 7 percent of 
elementary and secondary education spending.
    There is good reason for that. While many States are 
investing in creating a basic infrastructure, our aim is very 
different. The Technology Literacy Challenge fund is providing 
funding for States to help teachers learn to teach using this 
powerful new teaching tool.
    Federal dollars also have a powerful multiplier effect in 
stimulating funding and in helping to ensure equity in funding.
    Let me turn to other issues.

                             SCHOOL CHOICE

    The President's budget doubles funding for public school 
choice through our support of charter schools. The $100 million 
request would support the start-up funding for as many as 1,100 
new charter schools created by teachers and parents and other 
community leaders and under the public school system.

                        PROFESSIONAL DEVELOPMENT

    Better teaching is also high on our agenda. This is why we 
are including $360 million for our Eisenhower Professional 
Development state Grants program, $50 million over 1997.
    We are also asking for a $16 million increase for the 
National Board for Professional Teaching Standards. We want 
many more master teachers that are board certified in America's 
classrooms.

                    national standards of excellence

    As you all are aware, the President has called for national 
standards of excellence. The focus of this effort is 
challenging, but voluntary testing in fourth grade reading and 
eighth grade mathematics we think is very, very important.
    Mr. Chairman, you and I had the opportunity of being with 
the President in Northbrook, where he talked directly about the 
need for national standards of excellence and looked at 
international comparison of your 20 districts there on the 
TIMSS test, which was very encouraging. I think your students 
there showed that they are among the brightest in the world, 
and I think that's encouraging. But they also recognize very 
clearly that they can learn a lot more, and this was a way to 
focus in on that.
    I would point out also that just yesterday Minnesota, as a 
State, had a sample of all their students take the TIMSS test. 
The results there were very good, especially in science. Math 
was not quite as good, of course, just like in other American 
testing. But in science Minnesota tested very, very strong.
    Right now 40 percent of our young children aren't reading 
as well as they should, and this Nation is below the 
international average when it comes to eighth grade math. 
That's why the President has proposed these voluntary but 
challenging tests.
    The President and I respect the State and local role in 
defining the progress of American education. These tests simply 
give local school districts a new and very powerful way of 
defining that progress.
    As such, these tests are a challenge, not a national 
curriculum. They are voluntary. They are basic.
    The President and I are firmly opposed to any form of 
national curriculum.
    The tests will be based on the widely accepted fourth grade 
National Assessment of Educational Progress, NAEP, in reading; 
and in eighth grade NAEP and TIMSS--the Third International 
Math and Science Study.
    We seek a broad breadth of expertise in developing these 
tests, including sound advice from this committee. We believe 
there is strong support for these national standards of 
excellence.
    I was in Michigan last week when the President received the 
full support of Governor Engler on the testing and committed 
his State to take the test. Maryland had already indicated that 
its students would take the test, as well. And we hope many 
more States will follow soon.

                  fie--development of standards tests

    In support of the testing, we are proposing to use 1997 and 
1998 funding available through the Fund for Improvement of 
Education--FIE--to develop and begin pilot testing of the 
national tests in reading and mathematics. That's not a heavy 
expenditure because we have the NAEP and the TIMSS tests that 
we are building off of. Those are sample tests, though. These 
tests will be individual tests, and you do have to do some work 
in preparation of that.
    The administration then of the test would be the first 
major expenditure, which would not be tremendous, but it would 
be a significant cost in 1999, and that, of course, would come 
before this committee and the appropriation process next year.

                      ``america reads challenge''

    To help young people improve their reading, we are 
proposing the America Reads Challenge led by Carol Rasco, who 
formerly headed the President's Domestic Policy Council.
    My submitted testimony outlines our budget requests.
    I want to emphasize here that the assistance offered 
through the America Reads Challenge supplements the reading 
instruction provided by regular classroom. Any student who 
receives mentoring or tutoring under this proposal would be 
connected with the teacher. The teacher would be the one 
recommending it in public or private schools.

           requests for programs supporting the ``challenge''

    That's why we've asked for increased support for existing 
programs that make a significant contribution to improving 
reading skills such as Title I, Even Start, Bilingual 
Education, adult literacy, and special education.
    For Title I we're asking for $7.5 billion, an increase of 
$347 million.
    I also believe our $50 million additional request for 
immigrant education will help our literacy efforts and, of 
course, deal with the situation where some States have a 
special burden in this area.

                   safe and drug-free schools program

    Safety is another important issue. Children cannot be 
expected to reach high standards if they are worried about 
safety and drugs. To my way of thinking, an unsafe school is a 
school that is failing.
    We have to be concerned when drug use is up among eighth 
graders for the fifth year in a row. That's why we're asking 
for $620 million for the Safe and Drug-Free Schools program, an 
increase of $64 million, or nearly 12 percent over the 1997 
level.
    This money, however, must be spent wisely. Our recent 
evaluation of the Safe and Drug-Free Schools program tells us 
that too many school districts, often with the best of 
intention, are flying by the seat of their pants when it comes 
to prevention. This is why we are proposing appropriations 
language that would require the use of proven, research-based 
approaches to drug and violence prevention.

                     after-school learning centers

    The Department is also seeking $50 million for after-school 
learning centers. We want to help hundreds of public schools to stay 
open after school to serve as safe neighborhood learning centers where 
students can do their homework and obtain tutoring and mentoring 
services.

               rising enrollment and school construction

    Finally, I urge the Congress to recognize that many school 
districts are very hard pressed because of rising enrollment. 
They simply don't get a lot of learning done when 30 or more 
young people are crowded into a single classroom; and the 
enrollment is growing. That's why the President is requesting a 
one-time appropriation of $5 billion in 1998 to jump-start 
school construction. Our goal is to stimulate at least $20 
billion in new construction or renovation projects.

                       pell grant budget request

    Now let me discuss higher education a moment.
    The President seeks to significantly expand college access 
for low-income students, while providing new help to that part 
of the middle class that seems to have been forgotten--the 
group struggling to pay for college. While they might not be 
very poor, they are certainly struggling oftentimes to pay for 
college.
    The request includes $7.6 billion, an increase of $1.7 
billion or 29 percent, to support two significant changes in 
the Pell Grant program. The first is an increase in the maximum 
Pell Grant to an all-time high of $3,000, up from $2,700 in 
1997. This is the fourth year in a row that we have requested 
an increase in the maximum Pell Grant award. As you know, it 
was significantly increased last year from, I think, $2,470 to 
$2,700.
    Second is an expansion of the eligibility of independent 
students with no dependents. This need-analysis change would 
make 218,000 additional independent students eligible for Pell. 
If you add the increases of more students the increased maximum 
award brings in and these independent students, it comes to a 
little less than 350,000 more students eligible for Pell 
Grants.

                    student loans programs proposals

    We also are proposing changes to the student loan program 
that would save billions of dollars for both students and 
taxpayers.
    Our proposal would cut origination fees from 4 percent to 2 
percent for need-based loans, and 4 percent to 3 percent for 
other loans.
    This would help 4 million students save $2.6 billion over 
five years. That's very significant.
    We would further reduce Federal and borrower cost, lowering 
the interest rate during in-school and furlough periods by one 
percentage point, as lender costs are very low.
    Finally, we would save taxpayers $3.5 billion over five 
years by streamlining the guaranteed agency system. We want to 
clarify the Federal Government's role as sole guarantor of all 
student loans and link agency fees to performance in collecting 
on defaulted loans.

           tax-cut initiatives making college more affordable

    The President's budget also includes two major tax 
initiatives that together would save more than 12 million 
postsecondary students and their families an estimated $4 
billion in 1998.

                       america's hope scholarship

    The America's HOPE Scholarship would help make two years of 
postsecondary education universally available by providing a 
tax credit up to $1,500 a year during the first two years of 
college. Students would have to maintain, under the President's 
proposal, at least a B-minus average and be drug-free to 
qualify for the tax credit in the second year. The 
Administration estimates that 4.2 million students would 
benefit from the HOPE Scholarship in 1998, with total benefits 
to students and families reaching $18.6 billion by the year 
2002.

                      middle-income tax deduction

    President Clinton is also offering a middle-income tax 
deduction proposal that will allow students and families to 
deduct up to $5,000 in postsecondary tuition and fees from 
their taxable income. The deduction would rise to $10,000 in 
1999. More than 8 million students would benefit from the tax 
deduction in 1998, with total savings reaching $17.6 billion by 
the year 2002.
    Some have argued that the HOPE Scholarship would merely 
subsidize those who are already planning to go to college, and 
I believe these critics have a narrow view of who makes up the 
middle class.
    In 1994, only 25 percent of high school graduates from low-
income families and 58 percent from middle-income families went 
directly to college, compared to 77 percent of students in 
high-income families.
    Our data show that low-income and middle-income students 
are less likely than higher-income students to earn bachelor's 
degrees within five years. One of the main reasons these 
students drop out of college, of course, is the lack of money.
    What we have here then is what we refer to as the forgotten 
part of the middle class that could use our help for very good 
purpose and increase, really, the productivity of this country.
    If you're making $25,000 to $55,000 a year and trying to 
raise a family, pay off a mortgage, and send a child to 
college, you're probably eating a lot of Hamburger Helper. This 
is a very diverse group of Americans, all races, all ethnic 
backgrounds, still living paycheck-to-paycheck. That's the 
forgotten part of the middle class, but it's the bulk of the 
middle class, about 68 percent.
    Many of these families are headed by high school graduates 
and have never had the hope of sending their children to 
college because they simply couldn't afford it. We want to 
change those expectations.
    Last Friday--as I close my statement--the chancellor of the 
City College of Chicago, Ronald Temple, wrote this in ``The 
Chicago Tribune'' in support of the HOPE Scholarship. He said, 
``I'm very aware of the importance of this proposed legislation 
and its potential impact on a city such as Chicago. We have 
literally thousands of young and not-so-young people walking 
the streets whose family income is too high to receive 
financial aid but who have little discretionary income to 
afford to set aside any savings for postsecondary education.''
    That is precisely the group that we're trying to help with 
the HOPE Scholarship proposal.

                       work-study budget request

    Other postsecondary education priorities include a $27 
million increase for Work-Study to keep us on course toward 
funding one million Work-Study jobs by the year 2000. We want 
to add $25 million to TRIO to support almost 37,000 more 
students, and $132 million to give Presidential Honor 
Scholarships to the top 5 percent of graduating students in 
every high school in America.
    So, in conclusion, I urge the committee to support the 
President's call for strong investment in education. It is an 
exciting and interesting time for education, and I'd be happy 
to hear from each of you and respond to questions.
    Thank you, Mr. Chairman.
    [The prepared statement and biography of Richard Riley 
follows:]

[Pages 10 - 18--The official Committee record contains additional material here.]


                  national voluntary achievement tests

    Mr. Porter. Thank you, Mr. Secretary.
    Mr. Dickey has asked especially to be recognized because he 
has another appointment. I'm going to yield him my questioning 
time initially, then I'll call on Mr. Obey, and then back to 
myself.
    Mr. Dickey.
    Mr. Dickey. Thank you, Mr. Chairman.
    Hi, Mr. Secretary.
    Mr. Riley. Hello.
    Mr. Dickey. I hope your answers aren't as long as my 
questions.
    Mr. Riley. All right. I hope they are not as complicated.
    Mr. Dickey. You're right.
    My concerns today center on maintaining State and local 
control over education. In the past, Federal aid to States was 
mostly categorical and there seemed to be a mutual agreement 
that the Federal role should be one of filling in the gaps 
among school districts. Now, however, the school system climate 
is changing and the Federal Government appears to be taking a 
much bigger bite into the education pie.
    Secretary Riley, last year when you testified before this 
subcommittee you stated, ``There has never been any intention 
on our part to have any kind of national test or to impose 
national standards on the State. The State does its own 
standards and is not connected to any other program or Goals 
2000.''
    Why has the Department now gone back on this word in 
calling for national achievement tests for fourth and eight 
graders?
    Mr. Riley. Well, we've had that position for years and 
still have it insofar as general education testing is 
concerned, and I made a change on that, and I think for good 
purposes.
    First of all, it's voluntary and nobody has to take it. 
Every State--it's purely in the power of the State to decide 
whether they want to take it or not.
    Secondly, it's directly connected and equated with the NAEP 
test, which is already given. NAEP is a sample test. This would 
be an individual test.
    It takes some work, as I indicated in my statement, to 
equate those, but not a lot.
    So it's a test that is already being given to lots of 
American students out there. But this would be an individual 
test where every parent would know exactly how their children 
stand, whether they can read well or do math well in those 
transitional periods.
    I think it is so important, Congressman, to realize that 
these are the very basic of all basics. Reading--there's very 
little controversy about that. I mean, if a person can read 
they can read. It doesn't have anything to do with their 
philosophy, or whatever. The same is true with math.
    We think that by identifying these lined up with TIMSS and 
NAEP, reading and math, we think that that is a solid way to 
go. But even at that it is purely voluntary.

                     nationally certified teachers

    Mr. Dickey. Do you agree that the Administration's call for 
a nationally-certified teacher in every school undermines 
States' authority over teacher certification?
    Mr. Riley. No, I don't. Again, you're getting into the--
this is a complicated area, and we're in the complicated area, 
and we acknowledge that.
    This emerged out of this commission which had business 
people on it and educators and parents and everybody else who 
did a large, major analysis of how to raise standards for 
teachers.
    You know, we talk a lot about raising standards for 
students, and you simply can't raise standards for students 
unless you raise standards for teachers, and the teachers have 
been involved in this. It's not something that's being put on 
them. They are part of it. They want to have an identification 
with these very rigorous national standards.
    While there is not anything mandated by that--again it is 
teachers who voluntarily will come in and reach this national 
standard for certification.
    Some States, like North Carolina, are now saying that if a 
teacher will go through this rigorous exercise--I mean, it's 
months and months and months, and then they take this very 
difficult test and test in the classroom and everything else--
then they will get something like a 15 percent increase in pay.
    It is a tremendous incentive nationally, and what we would 
like to see--and I talked to secondary principals Friday and 
urged them to try to identify a teacher in every one of their 
schools so they would have at least one master teacher being 
developed in every school, and then the other teachers would 
then be helped by this teacher.
    Mr. Dickey. I'm going to have to submit the other 
questions, and I hope you can answer soon.
    Mr. Riley. Thank you, sir.
    Mr. Dickey. I'm sure you will. Congratulations on your 
reappointment.
    Mr. Riley. Thank you very much.
    Mr. Porter. Thank you, Mr. Dickey.
    Mr. Obey?
    Mr. Obey. Mr. Chairman, you go ahead. I can do it later.
    Mr. Porter. All right.

                     school construction initiative

    Mr. Secretary, much of what you described in your 
testimony--and correct me if I'm wrong--requires 
authorizations, all of the new programs. And, in addition, some 
of those you mentioned are not programs for this subcommittee, such as 
school construction.
    We understand in the President's proposal there is one for 
an entitlement program that would not come under our 
jurisdiction at all. In other words, it would be under the 
authorizing committee's jurisdiction and then have mandated 
appropriations; is that correct?
    Mr. Riley. That's right. That's a one-time appropriation. 
The construction matter is a $5 billion one-time entitlement.
    Mr. Porter. But I'm correct that this subcommittee could 
not put it in their bill without having it be subject to a 
point-of-order because there is no existing program?
    Mr. Riley. Yes, sir.

                     after-school learning centers

    Mr. Porter. Let me correct something I said earlier about 
after-school centers. I think the gentleman from Wisconsin is 
exactly right about that particular proposal, although, again, 
this would be a new program; am I correct? Would it require an 
authorization?
    Mr. Skelly. The program is authorized already, Mr. Porter, 
under the 21st Century Learning Centers.
    Mr. Porter. All right. I think that is a wise expenditure 
of funds and would provide, perhaps, some alternatives to kids 
who don't have the opportunity to get that additional help and 
keep them in the school after hours when they do tend to get in 
trouble.

               voluntary national standards of excellence

    Mr. Secretary, one other thing I'd like to comment on.
    It seems to me we need a way--a shorthand way of 
explaining--the President has been very clear about this and 
you have been very clear about this--that what is not being 
proposed are nationally mandated standards, but what is being 
proposed is national standards that can be adopted locally and 
carried out locally.
    We seem--the language that we use, you used the words 
``national standards of excellence,'' and ``national testing of 
reading and mathematics.'' It sounds like it is a program 
imposed by Washington by its description, and while you and I 
know it isn't, I think the people out there aren't clear that 
there is an intent that this be adopted locally and carried out 
locally.
    While they are national in the sense that we hope all 
schools will adopt them so that they can find how they compare 
with others, it, nevertheless, is not something that is to be 
imposed by Washington and required of the States and local 
school districts.
    Mr. Riley. That's a very good point.
    Mr. Porter. We just don't have the right words for it.
    Mr. Riley. I know.
    Mr. Porter. You should develop that, I think.
    Mr. Riley. I'm aware of it.
    Mr. Porter. All right.
    Mr. Riley. But it's very difficult. And we try, as we say 
``national,'' to explain the difference between what we call 
``Federal Government'' and ``national,'' but the public--I 
really do think you're exactly right. It stays confused as to 
the difference.
    Mr. Porter. Maybe use ``State-adopted national standard,'' 
or something, to better describe it.

                roberto clemente high school in chicago

    Mr. Secretary, I recently wrote you concerning allegations 
in ``The Chicago Sun Times'' that the Roberto Clemente High 
School in Chicago seemed to focus its entire curriculum on 
Puerto Rican liberation or independence, and a virulent form of 
anti-Americanism.
    It was further charged that the school was using Federal 
funding to support this curriculum.
    You responded that the reference to the funding in the news 
article was to a State program, not a Federal one.
    Mr. Secretary, this is a school in a low-income area, and 
I'm sure it receives substantial Federal funding. How can you 
assure me that no Federal funding was used to support this 
ideologically-based curriculum that, in my judgment, has no 
place whatsoever in our public schools?
    Mr. Riley. Well, I will point this out. You are exactly 
right: it is a school that certainly is entitled to Federal 
funding. The Title I funds that Roberto Clemente gets are 
around $955,000, so it is a school that is very much entitled 
to Title I funds.
    It gets also $1.3 million from State chapter 1 funds.
    We are told by the Illinois superintendent that there is 
constant confusion with that, but those funds are not inter-
mingled, and I think that's where that issue did arise, as I 
indicated in my response to the letter.
    Mr. Porter. Mr. Secretary, this was a very disturbing 
revelation that this school would bring proponents of Puerto 
Rican independence in from Puerto Rico using funds, and there 
were allegations that there was spitting on the American flag 
and other anti-American activities right in the school, 
sponsored by the school administration.
    I have to say I've been very close to the Puerto Rican 
issue, and in Puerto Rico the people who are for independence 
are considered to be way out on the fringe. They don't have 
more than 4 or 6 percent support of the population.
    I also believe very strongly that if Puerto Rico asked for 
its independence the United States would instantly accede to 
that request.
    The issue of Puerto Rico is not independence; it's between 
continued territorial status or becoming a State. In those 
cases I think we probably would respond very positively to 
whatever direction the Puerto Rican people took. They've never 
been clear as to exactly--it's almost an even split between the 
two.
    But it's very disturbing to see that happen in public 
schools.
    Mr. Riley. We've asked our Inspector General to look into 
that and make sure, in further response to your question.
    Mr. Porter. Thank you.
    Mr. Riley. But we have been assured from Illinois that that 
is not the case and Title I funds are not being used for that 
purpose, but we are having it looked at.
    Mr. Porter. It really gives a terribly bad name to public 
education. And while the Federal Government is not obviously 
intending to sponsor such activities, we ought to do everything 
we can to prevent them and see that they don't happen.

             safe and drug-free schools program evaluation

    Mr. Secretary, I'm concerned about changes that were made 
in the recently-released evaluation of the Safe and Drug-Free 
Schools program after the report was submitted to the 
Department by the contractor.
    In the version originally submitted, the report indicates, 
``With regard to individual student participation in 
prevention-related activities, participation in the DARE 
program was associated with greater drug use and more-tolerant 
views toward drugs.''
    However, in the final version that rather clear statement 
had been modified to say, rather cryptically, that studentshad 
better outcomes when they participated in prevention-related classroom 
instruction other than DARE. No supporting data was discussed.
    Mr. Secretary, the report was changed from one that 
indicated DARE participation was associated with increased drug 
use to one that obliquely inferred it was not effective. What 
was the justification for this change?
    Mr. Riley. Well, let me talk just a little bit about that.
    First of all, the Safe and Drug-Free programs, according to 
our study--and we're continuing those in a serious way--they 
are research-based and are comprehensive work and work well.

                              dare program

    The DARE program has some very valuable involvement of law 
enforcement--and that's very important to have law enforcement 
support these drug prevention programs. But our studies 
indicated that, especially for older students in high school, 
for example, where they had nothing but the DARE program, that 
it was very ineffective.
    Now, when they had the DARE program in fifth, sixth, and 
seventh grade, and especially when it was combined with other 
programs--if the only thing they see is a law enforcement 
person talking to them about drugs, apparently that, in and of 
itself, is not nearly as effective as that being a piece of a 
comprehensive program.
    We're talking with the DARE people and they are very much 
interested, also, in making their programs as effective as 
possible, and we think we're moving in that direction.

                   evaluation report findings on dare

    Mr. Porter. Mr. Secretary, have you answered the part that 
I asked about why was the report changed?
    Mr. Riley. Well, I think as we analyzed all of the data 
that we had, based on what I just said, we felt that the DARE 
program was not causing drugs but it was a whole lot less 
effective, especially for older children, older students, and 
really to be fair about the analysis we felt that was a fairer 
statement.
    Mr. Porter. Even though the contractor didn't think that 
was a fair statement?
    Mr. Riley. I think if you look at everything and not just 
what they looked at, I think that's a fair statement.
    Mr. Porter. This is a very brief--a recent article in ``The 
New Republic'' charged that DARE employs a hardball approach to 
critics. Would you provide for the record any communication of 
any sort between your Department and any DARE organization or 
its representatives, between your Department and General 
McCaffrey's office, or the Department of Justice or OMB and any 
other entity concerning the study's references to DARE? Would 
you do that for us?
    Mr. Riley. Yes, sir.
    Mr. Porter. Thank you.
    [The information follows:]

                                  Dare

    Prior to the release of the report, the Department did not 
communicate with representatives of DARE, OMB, the Office of 
National Drug Control Policy, the Justice Department, or any 
other entity--other than the contractor for the study--that 
influenced the study's findings on DARE. Department staff did 
present overall preliminary findings of the study to the 
Department's Congressionally-mandated Independent Review Panel 
on evaluations, but no changes to the findings on DARE resulted 
from this discussion. Immediately prior to the release of the 
study, we also shared copies of the report with staff at OMB 
and ONDCP to inform them of the study's findings, but doing so 
did not influence or affect the study's findings.
    As might be expected, since the release of the report to 
Congress and the press, we have had various conversations with 
people outside the Department regarding the study. For example, 
after the report was released, we received a call from a 
representative of DARE asking about the methodology used in the 
study and about the wording of the executive summary pertaining 
to DARE. We have also had conversations about the study's 
findings and methodology, again after the report's release, 
with staff at OMB, ONDCP, and the Domestic Policy Council.

            high standards and inequities in school spending

    Mr. Porter. Mr. Obey?
    Mr. Obey. Mr. Secretary, let me first of all raise the 
question of higher standards.
    I am all for helping students and school districts to raise 
their standards, but I am concerned that students from a number 
of districts may be disadvantaged in meeting those standards if 
we don't also have in the Federal Government a high standard 
that States must meet in terms of the equity of their school 
aid formulas within various States.
    My own State has nothing to brag about. In Wisconsin there 
is more than a 100 percent difference between the highest- and 
lowest-spending school districts in the State.
    The Maple school district in my Congressional District 
spends about $6,000 per student. Mapledale School District, 
which is a wealthy southeastern Wisconsin suburb, spends around 
$10,000 per student.
    It's difficult for me to see how students from Maple will 
be able to compete adequately with students from Mapledale and 
districts like it if States don't meet their responsibilities 
to equalize in a more equitable way aid to local districts.
    I helped to secure funding for a National Academy of 
Science review of this issue, but that won't be available for, 
I understand, probably another year and a half to two years.
    I'd like to know what you think the Federal Government 
could constructively do to provide incentives to States to do a 
better job in eliminating this huge disparity between districts 
if we're going to expect students from all of these districts 
to meet higher standards.

             supreme court decision on tax equity spending

    Mr. Riley. Well, thank you, Congressman, for the question. 
I think it's extremely legitimate.
    As you know and we've discussed before, the Supreme Court 
has decided that this tax equity issue is a State issue.
    Mr. Obey. I recognize it's a State issue, but we do provide 
a lot of money to States, not just in the area of education but 
also in the area of Medicaid, some of which goes for kids. I 
wonder how we can use that leverage to get States to meet 
responsibilities that they ought to be happy to meet rather 
than waiting until they're dragged into it.
    Mr. Riley. Well, first of all, of course, there's nothing 
we can do in terms of a mandate of that kind. As you say, you 
could talk about putting mandates connected to appropriations.

               federal role in equalizing school spending

    We think very highly of the reauthorization of Title I that 
was done a couple years ago, and with that we have a lot more 
positive approach to Title I. It is working much better now 
that we've done away with the watered-down curriculum, and now 
Title I kids have the same kind of standards that you're 
talking about for all other kids too.
    When you have things like enhancement in Title I, Title I 
used better, no question that it helps those poorer districts 
and poorer schools.
    Technology is a great equalizer. If a kid in a poor school 
has connection to the Internet, that kid has the same available 
information that a student at Harvard has. Over the years, if 
we can get all the schools and the classrooms connected to the 
Internet, we think that we're having an impact on the very 
issue that you're concerned about.
    Of course, the higher education Pell Grants deal with the 
same zone.
    I understand your concern. When you have an education 
system that's primarily funded on a property tax, the built-in 
inequities are there. Certainly States and school districts 
need to deal with that.
    We do a lot in compensating, but I've not been in favor of 
mandating certain things connected to education appropriations, 
but more trying to define the appropriations where they may 
serve better.
    Mr. Obey. I would simply say that I think the Feds need to 
take a much more active line than we've done for the last 
generation in trying to get States to meet their 
responsibilities to renew their State school aid formulas, and 
I'm certainly getting rapidly to the point where if we're going 
to have the Federal Government encouraging testing to raise 
standards, then it just seems to me that the States have an 
obligation to do a better job than they've done now in 
equalizing financial support for kids who are expected to 
compete with districts that are a lot wealthier.
    I would encourage your Department to search for ways that 
we can increase our persuasiveness in that area.

                       safe and drug-free schools

    With respect to drug-free schools, I was struck, after 
looking at the Department's report, with the fact that the Safe 
and Drug-Free Schools program is virtually a block grant now. 
We distribute the money to States. We leave to States and 
localities the obligation to implement the program in ways 
which will be effective.
    This country seems to worship at the altar of local 
control, hosanna, hosanna. But then we wind up knocking our 
heads against the wall when local control produces not very 
effective results.

           need for comprehensive approach in drug education

    As I read the report, doesn't it indicate that one of the 
reasons that these programs were not as effective as they 
should have been is that very few of these school districts 
were applying enough resources to actually have an intensive 
cross-school, all-school, cross-community program complete with 
parental involvement at a very high level?
    And don't we also have a problem associated with this 
program because of the ability of local districts to run it 
almost any way they want to?
    Mr. Riley. Well, I think it's very clear that 
comprehensiveness works and what you're saying is exactly 
right. All of our research shows us that.
    First of all, research-based information ought to be used. 
Research-based information says certain things. One clear one 
is comprehensiveness involving parents. If we look at the 
problems with young people and drugs, it constantly goes back 
to parents. We need to work, of course, with parents as much as 
young people.
    But the comprehensiveness works with communities and 
parents being involved, and that's basically what our research 
shows.
    And that is, in many, many cases, oftentimes the only 
money--in fact, I'd say most of the times the only money that 
the schools have for Safe and Drug-Free programs is this money, 
and so it is kind of narrow in scope, not as comprehensive, and 
doesn't reach out in a comprehensive way, as you say.
    Mr. Obey. But, again, we ought to understand, it seems to 
me, that if there is a weakness in this program in terms of our 
achieving the results we'd like to achieve, it's because the 
Feds really don't have a lot of control over the way these 
local districts are using that money.
    Certainly this would seem to me to be an example where the 
block grant approach to life does not lead to the kind of 
results that people might like to see.

                     school construction initiative

    Just one other point on school construction. I'm going to 
be a hard sell in that I'm willing to be persuaded, provided 
that the Administration can demonstrate that it's approach will 
not leave out a lot of low-income, rural school districts who 
do not have a capacity to bond.
    I also would like to be assured that if we proceed down 
this road, that there will be a way to take into account recent 
efforts by those lower-income districts to try to improve their 
physical plant.
    I would hate to see a program go into effect that excluded 
a district because in the past four or five years they had made 
a special effort to improve their situation and so they would 
not therefore be eligible, while somebody who had made no 
effort whatsoever would be eligible.
    Mr. Riley. Well, the current way that the $5 billion is 
looked at, is 50 percent into the 100 largest urban areas and 
50 percent--and this is not finalized, but let me add it looks 
like it's shaping up 50 percent to the States, and then the 
States, of course, would use that money to fill in where the 
other money was not available. We would be using Title I as the 
formula for the State allocation.

               ensuring equitable basis for distribution

    Mr. Obey. You can respond for therecord and we can talk 
more about this. I want to make sure that this is not a theoretical aid 
to a district that, in fact, can't be delivered because of the 
district's severe inability to bond.
    Mr. Riley. And I think that's a very good point, and also 
your point about the district that has struggled and done a lot 
this year and gets cut off next year.
    Let me look at both of those points and I would certainly--
I would think, obviously, the best way for it to be handled 
would be for that other 50 percent that goes to the States to 
cover those areas that you're talking about. Again, that would 
probably be a State decision.
    Mr. Obey. That's the problem.

                 access to school construction funding

    Mr. Riley. Yes. Let me look at that again.
    Mr. Obey. With all due respect to our worshiping of local 
control, I have minimum high regard for the ability of a lot of 
States to put the bucks where they ought to go because the 
political rewards are often found by doing something else.
    Mr. Riley. Well, let me look at that.
    [The information follows:]

    Access of Low-Income Communities to School Construction Funding

    On March 14, the Administration submitted to Congress the 
``Partnership to Rebuild America's Schools Act,'' the 
President's proposal to use limited Federal funds to leverage 
additional State, local, and private support for school 
construction.
    Under this legislation, one-half of a $5 billion, one-time 
mandatory appropriation would flow to the States by formula. 
(The other half would go directly to the 100 school districts 
that educate the largest numbers of children from poor 
families.) States would use these funds for State construction 
bonds or other State-level financial activities that support 
school construction, or would sub-grant them to communities to 
support local construction efforts. A number of provisions of 
the bill should make the program attractive to poor, rural 
communities.
    For one thing, the States would give priority for support 
to communities that have the greatest need for construction 
funding, as demonstrated by the poor condition of their schools 
and the inability to meet those needs with local resources. 
Secondly, the provision of funds to the States will allow the 
States to use those resources for State bonds, State revolving 
funds, and other mechanisms that can assist small communities 
that lack the capacity to float bonds by themselves. The States 
are also likely to have higher bond ratings than poor 
communities and, thus, to be able to market their bonds at 
lower interest rates. This will produce construction savings 
that the poor communities could not achieve on their own.
    The proposed program would not pay for 100 percent of the 
financing costs of construction projects. Rather, the Federal 
subsidy would cover no more than the equivalent of one-half the 
interest cost on construction bonds, and the remaining costs 
would have to be met from State, local, or private resources. 
But, again, channeling the money to the States should put 
States in the position of taking some responsibility for 
ensuring that poor communities obtain the wherewithal to 
participate in the program. We hope that a long-term impact of 
this initiative will be to encourage all States to take an 
active role in financing school construction; only 13 States 
(according to a 1995 GAO report) currently have comprehensive 
facilities programs.
    Finally, the bill would require States to increase school 
construction expenditures (from all State, local, and private 
sources) by 25 percent over a four-year period, compared to the 
level of effort in the previous four years, in order to 
participate in the program. Because this requirement would be 
set on a statewide level, it would not necessarily apply to 
individual communities and the additional resources could be 
provided by States. In addition, the bill would allow the 
requirement to be waived in cases where it would be unduly 
burdensome, such as when a State or its localities had recently 
incurred a high level of construction expenditures.

             Tufts university--honorary degree for chairman

    Mr. Obey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Obey.
    Mr. Bonilla?
    Mr. Bonilla. I thank the Chairman.
    Before we start, Mr. Secretary, I'd like to congratulate 
Chairman Porter on the honorary doctorate that he received 
yesterday at Tufts University. He was telling me about the nice 
tie that they presented him, as well.
    Congratulations, Chairman.
    Mr. Porter. Thank you.

              tufts' university mascot--jumbo the elephant

    Mr. Obey. Is that a Republican school? I notice it has an 
elephant on it.
    Mr. Bonilla. There's an interesting story that the Chairman 
would like to tell about the elephants on the tie.
    Mr. Porter. Well, for the benefit of Mr. Obey, this is not 
a partisan tie. This school was founded as a universalist or 
unitarian school originally in 1852, and one of their early 
benefactors was P.T. Barnum.
    [Laughter.]
    Mr. Porter. And P.T. Barnum was on their board of trustees. 
Because he was such a great benefactor, they adopted Jumbo the 
Elephant as their mascot.
    [Laughter.]
    Mr. Porter. And so they're the only school, I think, in 
America that has an elephant as a mascot.
    Mr. Obey. Your elephant is much more dignified-looking than 
Dumbo.
    Mr. Porter. They actually had Jumbo the Elephant stuffed 
and on campus for over 70 years.
    [Laughter.]
    Mr. Porter. It was a wonderful ceremony. I got to meet many 
eminent scientists.
    Mr. Bonilla, I appreciate your remarks very much.
    Mr. Bonilla. And congratulations to you.
    The Chairman reminded me it is Jumbo, not Dumbo.

                  number of federal education programs

    Mr. Secretary, I'd start out by just talking in general 
about the number of Government-wide programs. We have 760 
education programs costing about $120 billion a year. Over the 
past 17 years the Department of Education has seen its budget 
doubled from $15 billion to more than $30 billion. The U.S. 
spends now more than 11 of 12 other comparable countries on 
elementary and secondary education.
    Despite all this spending, we're having trouble with 
student test scores that are continuing to go down, and it 
seems that the more money the Federal Government spends on 
education, for some reason--and I'm not saying necessarily it's 
a cause/effect, but it may not be the solution.
    I'm concerned because of the proposed new spending programs 
that the Administration is initiating. What's the guarantee 
that our children will have that these increased programs and 
increased spending are going to do anything to help them do 
better in school?

             debunking the ``760 education programs'' count

    Mr. Riley. Well, Congressman, if I might, let me discuss 
the 760 Federal education programs which have been talked about 
a lot. I do think that bears some explanation.
    I really don't think the number has any relationship to 
speak of with the Department of Education.
    The 760 figure includes research, and training programs for 
all kinds of special purposes like training airline flight 
controllers, teaching military pilots how to fly jets, having 
really nothing to do with our Nation's schools and colleges and 
universities.

           education program eliminations and consolidations

    I would say this: we have, in every budget we've submitted, 
had significant requests for the elimination of programs or 
consolidation of or phase-out of programs, sometimes as many as 
60 in one year. That many haven't been eliminated, as we well 
know. We now have about 197 programs that we run, and it was 
about 240 when we came here four years ago.
    So I would say to you that we have been able to eliminate 
some 64 programs which amounted to over $700 million.
    So we have tried, in line with your question, to restrict 
and limit programs.
    Our current budget has 10 programs eliminated, and then we 
are prepared to send over reauthorization proposals for 
Vocational Education which will cut 23 programs down to 2 or 3, 
and Adult Education programs will drop from 12 down to 2, so 
we're going to have significant program consolidations that 
will be coming to you in just a couple of weeks.
    I would want to point out, though, that the 760 programs 
figure that's used we think is somewhat misleading, because 
many of them don't pertain to what we're doing.

              new program proposals tied to critical needs

    Your question--and with all these programs, what benefit is 
the new programmatic approach we are taking? When you look at 
the programs we propose, they meet real needs, things like the 
reading proposal tied to the testing--voluntary testing--of 
reading skills in the fourth grade and math in the eighth 
grade, plus those kinds of proposals that would give an 
opportunity for everyone to have a shot at college through the 
HOPE Scholarship, and lifelong learning through the $10,000 
deduction for tuition. We think those are clear needs. Those 
latter ones can certainly move towards the middle-income group, 
which we think, in terms of education--especially higher 
education--really are educationally poor.
    So we think those programs have been carefully thought out 
and always in a balanced budget context, and, again, all within 
an effort to try to eliminate unnecessary programs and 
consolidate where we can.
    Mr. Bonilla. Do you believe in these new programs enough, 
Mr. Secretary, to say that you believe that you could guarantee 
they're going to work?
    Mr. Riley. I guarantee they're going to provide tremendous 
help and improvement, and that, to me, is working. Everybody 
would have a different interpretation of that.
    These programs are carefully thought out, and really, we 
think, are pretty much aligned with the needs in the United 
States of America at this particular time with education being 
the important factor that's out there for our entire future.

             local versus federal involvement in education

    Mr. Bonilla. Mr. Secretary, I'd like to move now to another 
area of local versus Federal involvement in education.
    We're proud in Texas, with our great governor and how he 
has advocated--one of the things Governor Bush says all the 
time, is, ``Please, Washington, let Texas run Texas'' and 
``keep the Federal Government out and we'll be fine.''
    We've made some improvements in a great way in Texas, and 
we're proud of that.
    Along those lines, the Administration's budget inserts the 
Federal Government into local education decision-making at an 
unprecedented level. Even your web page indicates that 
education is primarily a State and local responsibility in the 
United States. Unfortunately that does not appear to hold true 
in this budget proposal.

                  federal role in school construction

    For example, just two short years ago you reaffirmed in 
your budget justification--and it's on page D-40 of your 
testimony that year--``The construction and renovation of 
school facilities has been the responsibility of State and 
local governments financed primarily by local taxpayers.''
    It goes on to state, ``The Administration opposes the 
creation of a new Federal grant program for school 
construction.''
    It is explained in an AP article that I have here, if you'd 
like to see it, that the President was prodded by you, Mr. 
Secretary, to propose this new $5 billion spending program for 
school construction.
    So my question is: what happened between 1995--it wasn't 
that long ago--and today to change your mind and propose now to 
involve the Federal Government in school construction?
    Mr. Riley. Well, that's a very legitimate question and I 
would tell you that it's clearly my view--has been and still 
is--that construction of school buildings is primarily a local 
function but really a local and State function. In most States 
it is almost purely local.

          need for school construction and financing mechanism

    Everywhere we go in this country--and I think of Florida, 
as I look to Congressman Miller and so forth, and Texas--people 
are talking about school buildings falling down, temporary 
facilities in the yard. They're trying to get computers in. 
They aren't capable of wiring computers because they have old 
construction that's not compatible.
    We just hear it over and over again that if you're really 
trying to emphasize education in this country you just cannot 
hardly do it with these old falling-down buildings and the 
enrollment increases.
    So our construction proposal is not bricks and mortar. It 
is not to build schools. It fully recognizes that that 
responsibility is State and primarily local.
    What it is is a financing mechanism to subsidize up to 50 
percent of the interest cost with a building program that is 
submitted and approved.
    The feeling we have is that it could then cause an awful 
lot of areas--that are on the verge of having very needed 
building programs--to go ahead and say, with this incentive, 
``We then plan to go into a building program.'' But it is not 
to build schools; it is to share the cost of the financing.
    Mr. Bonilla. One of the reasons I asked the question, Mr. 
Secretary, is because, you know, when the dollar comes from the 
heartland up here and gets processed through the bureaucracy, 
oftentimes you don't get that same dollar--not oftentimes, all 
the time. You never get that same dollar back to whatever the 
program might be.
    I'm concerned about this $5 billion program for that 
reason.
    Quite frankly, it is--and correct me if I'm wrong, but some 
of us have a suspicion that this program is being created to 
put a feather in the cap for the junior Senator from Illinois 
who introduced legislation to allocate, coincidentally, $5 
billion for school renovation and construction.
    So tell me if that suspicion is without ground.
    Mr. Riley. This program is totally different from that 
previous program. That was really funds to go into building 
schools, and we are not proposing the Federal Government get 
into that kind of involvement.
    This program is totally different. It is a financing 
mechanism to make it easier--in some cases very attractive--for 
a school district to say, ``Well, let's build these needed 
schools during this four-year window that we have to get this 
benefit.''
    Mr. Bonilla. Thank you, Mr. Secretary. I see the Chairman 
reaching for the microphone. I think that means my time is up.
    Is that correct, Chairman?
    Mr. Porter. You have a minute.

              direct loan consolidations--abuse of program

    Mr. Bonilla. I'd like to move now, Mr. Secretary, to 
student loans. I have a document here that is an example of the 
kind of abuse that is occurring in the Federal direct student 
loan program, and if you'd like to look at it I'd be happy to 
pass it along to you.
    As a result of the income-contingent loan repayment 
program, in this case a borrower who defaulted on the FFELP 
loans has consolidated his default loans into a single Federal 
direct student loan. This now has allowed him to be 
automatically taken out of a default status and qualified for 
new student loans, and he will not have any outstanding balance 
left after 25 years, which would have to be repaid by you and 
I, the taxpayer.
    To add insult to injury, this borrower has started a 
company encouraging other FFELP defaulters to contact their 
Member of Congress and to lobby against changing this law. He 
has mailed post cards to other defaulters, and here are some of 
the highlights.
    ``You can drop your student loan payments by up to 90 
percent. You can have the remaining balance forgiven after 25 
years. At the same time, you'll improve your credit. It's all 
part of a new Federal law. I found a Government program that 
can bail you out. If the Republicans win, your chance to get in 
could be wiped out in seconds.''
    It goes on to provide a phone number to call.
    Mr. Secretary, this is atrocious. This is stealing. I'm 
wondering if you are aware of this abuse. And, if you are aware 
of it, what is your agency doing to stop this?
    Mr. Riley. Well, I certainly don't like what you share with 
me, and I would like to see that.
    I would say this: the income contingent repayment method I 
think is very sound. Certainly if a person has a job and 
doesn't make a whole lot of money for 25 years, then they might 
have some amount left due on their loan, but they have had to 
pay a certain percentage of their income.
    If their income goes up--and, theoretically, after 
acquiring a college education it would go up--then they 
theoretically would pay it back over a certain number of years 
and wouldn't be anywhere close to the 25 years.
    The consolidated loan provision then enables people who, in 
a very complicated way, have gone to different schools and gone 
to different banks, and they might have a half dozen different 
loans around the country. This puts them all in one place under 
one set of rules.
    If somebody is trying to take advantage of that, of course, 
we need to be aware of that and to take a look at it.
    I still say this person would not have his loan eliminated 
until after 25 years he paid the income-contingent amount. If 
he had a default, that default sticks. I think you would give 
us credit for doing all we can on loan defaults. We brought 
defaults down from the 20s to just about 10 percent, and saved 
about $1 billion a year. So we are very strong on defaults and 
collection activities, and we feel that over a period of years 
this income-contingent repayment plan will not have that kind 
of misuse of consolidation.
    Mr. Bonilla. I just want to make you aware of that, and I 
hope you can fight people like that and pull them out of the 
program as quickly as possible, because you can tell by the 
tone of this that they're interested in stealing money from the 
Federal Government. That's what it amounts to.
    Mr. Riley. And it's hard for me to believe that somebody 
would publicly admit such a thing the way this guy did. There's 
all kinds of people.
    Mr. Bonilla. Maybe he's not as smart as he thinks he is, 
and hopefully we'll nail him.
    Mr. Riley. Yes. We'll take a look at that.
    Mr. Porter. Thank you, Mr. Bonilla.
    Secretary Riley has a speaking engagement at 12:15 and must 
leave by noon.
    I have on my list, according to the time of arrival, the 
following Members to be recognized in this order: Mr. Miller, 
Mr. Wicker, Ms. DeLauro, Mrs. Northup, and Mr. Stokes.
    The Chair recognizes Mr. Miller.

               balancing the budget and education funding

    Mr. Miller. Thank you for coming today, Mr. Secretary.
    We're talking about education, something with noble goals 
that we all support--Republicans, Democrats, Liberals, 
Conservatives--we all want the best quality education for all 
Americans.
    But you brought up earlier the question of balancing the 
budget. And despite having all these high-quality issues, we 
have our differences or problems over the seriousness about 
balancing the budget.
    I know you're just one relatively small part of the total 
Federal budget. Of course we recognize that. But sitting on the 
Budget Committee we have the problem that it's not a very 
serious budget the President presented, and even most editorial 
writers--the ``Post'' and ``New York Times'' have not given it 
a lot of credit.
    The education part is increasing at 10 percent a year, so 
it's obviously not a major contributor to balancing the budget. 
It is actually making it more difficult. We have to make 
decisions about financing cancer research or Head Start and 
other programs. We have to make some tough choices.

           federal programs influence on local control issues

    And the other part of it is the issue of local control, 
which is an ongoing problem.
    Let me just mention one thing about local control issue and 
give an illustration from my home town. And it's just an 
illustration, because I don't have all the details.
    There has been a debate going on at our local school board 
level on Title I money. An overcrowded elementary school in 
Manatee County needs to transfer kids out. They're in horrible 
classrooms. And there are two other elementary schools they 
could put some kids in.
    The school board has tabled the issue because their problem 
is they're going to lose Title I money because the school 
they're in now is a Title I school and they'll shift kids to a 
non-Title I school. That's affecting local policy decisions. 
They should transfer the kids, most of them agree on the board, 
but they're all concerned about the Title I money issue. That 
is Federal Government driving policy without realizing it, and 
it's voluntary.
    My source of information is the local newspaper, but it's 
from the school board debate, so I use that as an illustration 
of the problem that we have more impact at the local level than 
we think we do in driving local decisions.
    As I say, I don't have the details to have you respond.
    Mr. Riley. No, but that's an interesting point. We welcome 
hearing those kind of suggestions.

                 use of title i and goals 2000 waivers

    I would say to you that we have--and you were here involved 
in it--the reauthorization of Title I where we do have waivers, 
and also in Goals 2000, that you can have waivers for certain 
local situations that make the use of the Federal dollars 
inappropriate with certain regulations.
    As you know, we've cut way back on our regulations, cut 
them almost in half.
    I would suggest to you that that might be something where a 
waiver could be looked at, and we'd be happy to talk to you 
about that.
    Mr. Miller. It's a temporary thing this year because 
another school is being built, so the question is really can you go 
through that process. And I know I sat in that Labor Committee back 
when we did the reauthorization, and there has been a dramatic 
improvement of simplifying Title I.
    Mr. Riley. Yes, but for the temporary time it really sounds 
like the waiver would make real good sense.
    Mr. Miller. I'm just using that as an illustration of the 
problems at the local level they face.

           number of programs in the department of education

    You mention there are 197 education programs within your 
Department; is that right?
    Mr. Riley. Yes, sir.
    Mr. Miller. How many are there in the Federal Government? I 
mean, the goal of the creation of the Department of Education 
about 20 years ago was to kind of help coordinate all these 
education--and I know Agriculture Department has theirs and the 
Veterans Department has theirs, and they affect elementary and 
secondary.
    Do you have a good number? And if you have the number could 
we get the list?
    Mr. Riley. Well, you sure can. This was brought up to me in 
the Authorizing Committee, so I did take a look at it.
    We administer about 197 programs. As I say, when we came 
here it was about 240. There are approximately 294 education 
programs throughout the Federal Government, according to our 
count.
    Mr. Miller. Counting the 197 or not counting the 197?
    Mr. Riley. Counting the 197. Counting the 197, there are 
294 throughout the entire Federal Government.
    Mr. Miller. Yes.
    Mr. Riley. To add on to the 197 we have, we have added 
things that had programs listed outside the Department that had 
a primary purpose other than education.
    For example, senior ROTC, energy conservation for college 
buildings, health training, FBI Academies, highway training 
grants, and so forth, those have some education connection so 
we counted them.
    We didn't count things under the 760 Federal education 
programs list like welfare and programs like--the 760 really 
had some strange things--the Colorado River Basin salinity 
control program, Appalachian loan access roads, or aquaculture 
program.

         total number of federal government education programs

    Mr. Miller. Could we get a copy of the 294 list?
    Mr. Riley. Yes. We'll certainly get you that.
    Mr. Miller. Great.
    [The information follows:]

[Pages 36 - 46--The official Committee record contains additional material here.]


                    total federal education programs

    Mr. Riley. And the 294 I think is legitimate, and that's a 
legitimate question.
    There is a staff group that meets periodically that deals 
with inter-agency relations, and we're thinking about really 
doing more with that.
    I think it's a good point for discussion.

                          rising college costs

    Mr. Miller. Let me switch to the issue of college cost. 
There have been some current articles in ``Time'' magazine and 
today's ``Wall Street Journal.'' I don't know if you read the 
magazine, since it just came out. The cover on ``Time'' 
magazine is, ``How Colleges are Gouging: Special Investigation 
into Why Tuition has Soared.''
    One of the articles is, ``His Plan: More Harm than Good.''
    The ``Wall Street Journal'' article today, front page, is, 
``Student applications for financial aid give lots of false 
answers. Cheat sheets, Pell Grants for the well-off.''
    I don't mean to hit you with articles that are just 
immediately out, but I want to talk about higher education. The 
``Washington Post'' did an article last month, and Dick Morris 
talks about it in his book that your proposal was basically a 
politically-driven idea, the idea of the tax deduction and 
scholarships. Mr. Greenspan even, before the Budget Committee 
last week was saying the impact of this is going to drive up 
costs.
    As ``Time'' magazine points out in here, ``President's plan 
could become part of the problem as well as part of solution.''
    The director of the University of Pennsylvania's Institute 
for Research in Higher Education, ``This is just plain 
hucksterism. Lots of people told the White House and the 
Education Department that this was nuts. I imagine every 
treasurer of every private university in America is just 
licking his chops.''
    I have a daughter still in college getting her master's in 
social work and a son that just finished his master's. I know 
the high cost of college as a parent. And I'm a former college 
professor, too.
    We want to help all kids go to college. There's no question 
about that. The Republicans have been very supportive of the 
Pell Grant to help the lower income. Many liberal Democrats are 
opposed to this loan program because it's so targeted.
    But how well has it been really thought through, and the 
impact? I mean, we were going to have a hearing last week in 
the Budget Committee, because the cause of the problem is that 
higher education is increasing at two or three times the rate 
of inflation, and that's been going on for the past 15 years. 
That's part of the problem, and that's what this article is 
about.
    The Philadelphia Inquirer did a great article here a few 
months back on this issue.
    And all we're talking about doing now is, ``Let's just pour 
more money into the system.''
    Is that the solution, to just throw money at it? It might 
help. I suppose----

           impact of federal education initiatives on tuition

    Mr. Riley. I appreciate the question, but let me make just 
a couple responses.
    First of all, in terms of the tuition inflation issue, 
we're told by people in Georgia that have a similar kind of 
HOPE Scholarship in place that it has not caused the kind of 
inflation on grades or tuition that some people would be 
concerned about.
    I'm just as concerned as anybody about the cost of colleges 
and universities. Our community colleges really are kind of a 
grand escape valve because the costs have not gone up in those 
areas.
    The whole HOPE Scholarship is really designed to afford 100 
percent of community college in most cases.
    When I meet with college presidents and trustees and others 
connected with colleges and universities, I would submit to you 
that they are just as concerned or more concerned than anyone 
else, those leaders who are responsible leaders in higher 
education about the cost of tuition.
    We have a wonderful system of higher education in this 
country. Part of it is the competitive nature of it, and part 
of it, I think, is the different kinds of competitive natures--
State schools, private schools, community colleges, the 
advanced learning schools.
    And I think all of that comes out well. We get a grand 
opportunity for higher education.

         need for voluntary efforts by colleges to reduce costs

    I would propose that--and every time I talk to college 
presidents, I talk about this issue and I tell them that--you 
know, if we are trying to help the students, the Federal 
Government comes in and tries to help the students with the 
HOPE Scholarship, the $10,000 tax deduction, the Work Study, 
and Pell Grants, and they have got to do their part, and their 
part not in some form of mandate, some form of cost control--I 
don't believe in that--but they need to provide the leadership.
    You'll begin to see that, Congressman. The responsible 
schools all around the country are really making an effort to 
level off tuition and to cut expenses more than they would have 
in the past.
    I've urged them to make a statement that they are not in 
any way going to raise tuition as a result of these Federal 
increases. That's not to say they can't raise tuition, and they 
could. I'm talking about leadership, a voluntary kind of 
leadership.
    I can see--I think you're going to see colleges and 
universities respond to that, and I think they are responsible 
and I think they will be willing to do that.
    Mr. Miller. Thank you. Let me just conclude here a minute. 
The core problem is exactly what this article is saying. For 15 
years it has gone up at a very rapid rate and there's a lot of 
anecdotal evidence here.
    The Wall Street Journal article--I hope you can respond to 
at some stage. I don't have time for it and I know you haven't 
had a chance to read it--I assume you haven't read it yet.

                             campaign funds

    But, just to conclude questions, since it is being asked of 
everybody else in the Cabinet, let me ask you: did you do any 
solicitation from your office for campaign funds in the past 
election cycle?
    Mr. Riley. No, sir.
    Mr. Miller. Fine. Thank you. That clears it up for you, 
too, so that's great.

                        state colleges tuitions

    Mr. Riley. One final word on the rapid rate of increase 
that's interesting to look at. When the States cut back on 
support for higher education, the increase in State tuition--
the big State colleges--that's a big part of our education--it 
was almost consistent with the State cutbacks. That's very 
clear and very noticeable. So it's not all to the harm of 
decision-making of higher education.
    Mr. Miller. One sentence in here does say, ``For example, 
in Georgia total State spending on colleges is up while 
spending per student is down.''
    That's a concern by that program if we're using it as the 
model. The total per student spending is going down, so maybe 
the quality will go down too, now.
    I'm not sure we've thought it out. I suspect it's more 
politically driven than it is well-thought-out, and I think as 
more education economists evaluate it they're going to see some 
real problems.
    Mr. Porter. Thank you, Mr. Miller.
    Mr. Wicker.
    Mr. Wicker. Thank you, Mr. Chairman.

                 safe and drug-free schools evaluation

    Mr. Secretary, it's always a pleasure to have you back 
before the subcommittee and to talk with you about a very 
important issue in this Nation.
    As a State legislator, I was a strong supporter of public 
education in my home State, and I realize that sound education 
and a sound public education system is the answer to quite a 
lot of the problems that we have.
    I wrestle, as I think many of the members of the 
subcommittee do, with this issue of what our role is at the 
Federal level given that State and local governments have 
always had the predominant amount of decision-making in this 
area.
    Let me return first to the subject of Safe and Drug-Free 
Schools.
    The Chairman asked about it, Mr. Obey mentioned it, and I 
think perhaps a reference has already been made to the study 
entitled, ``School-based Drug Prevention Programs'' by the 
Research Triangle Institute.
    But if I could, for the record, just highlight some of the 
findings of this study: that drug prevention programs in 
schools had a very small effect; that few schools employ 
effective approaches; that program delivery was inconsistent, 
sometimes even within the same school; that even among students 
participating in the program, behaviors continued to reflect 
national trends; and that the entire drug prevention efforts 
within our schools should be rethought, larger social 
influences should be considered, and that school-based 
prevention programs face an uphill challenge.
    Now, this study to me, Mr. Secretary, indicates a largely 
ineffective school-based drug prevention program at the Federal 
level to date.

               safe and drug-free schools budget increase

    My question is: given that, why is the Administration 
asking for $620 million for the Safe and Drug-Free Schools 
program, an increase of $64 million and 12 percent? Shouldn't 
we concentrate on spending the money that we spend now 
effectively before we pour another 12 percent into such a 
program?
    Mr. Riley. And that's a very logical question and 
Iappreciate it.
    The fact is that in most schools, as I indicated, these are 
the funds that they use for Safe and Drug-Free Schools, and 
usually it's the only funding source a school has.
    As I've indicated and observed, the amount of young 
people's involvement in drugs is going up; overall drug use is 
down. We're encouraged by that. But for young people it's going 
up, and the trends are very bad, even for very young children--
fifth, sixth graders. The concern about the dangers and drugs, 
and so forth, is not there.
    So the need is even greater, and it's a State/Federal 
problem; but it is a State-run program.
    We are working with the States. We've developed some 
principles of effectiveness which deal directly with what 
you're talking about, and we are in contact with the States 
regarding their drug-free schools programs. These principles 
are going to have to be responded to based on a local needs 
assessment, and be designed to meet measurable goals and 
objectives, based on research and evaluation, evaluated 
periodically to assess their progress, and improved over time.
    We're asking States then to give us a response to these 
kinds of issues.
    There are answers, and comprehensiveness is an answer, 
parents are an answer, research-based is an answer, and so we 
think we can certainly help States and local school districts 
shape these programs to be much more effective.
    Some of them, Congressman, are very, very effective now. A 
lot of them aren't. And all of them need to be.
    But, again, it is a complication with it being a State-run 
program.
    Mr. Wicker. Well, I would simply renew my point that while 
you are making these assessments it seems to me that this is 
not a time for increased spending to the tune of 12 percent 
when we haven't done a good job with the money we've already 
spent. I simply renew that point.
    Do you have any information on what programs might have 
been effective when drug use was relatively low in the early 
1990s?
    Mr. Riley. Well, I think you have to look at the changing 
nature of things, cultural changes, and so forth. You had in 
the 1960s a certain period that involved more abuse of drugs by 
young people. Those young people are parents now. That causes 
different kinds of attitudes about drugs, especially soft 
drugs--marijuana, tobacco, alcohol.
    I think you go through cycles of things that none of us can 
really judge in futuro, but we've got then to look at where 
things are and attempt to respond to them.
    We think parents really play a very key role in trying to 
help deal with this problem now.

                coordination of drug prevention programs

    Mr. Wicker. I do, too. Do you coordinate with other 
departments, Mr. Secretary, on this issue? I note that the 
youth substance abuse prevention initiative is asking for $63 
million, another $4 million for public awareness, $28 million 
for national household survey on drug abuse. Are you going to 
be coordinating with those agencies to make sure----
    Mr. Riley. Absolutely. And General McCaffrey, as you know, 
is the overall person that deals with this subject for the 
White House, and we constantly are in touch, our office and his 
office. Health and Human Services is also involved. We are 
trying to do a very good job of that.
    Mr. Wicker. Well, I appreciate your efforts in that.
    Mr. Obey mentioned tough sells. Increasing money at this 
point for something that sounds very, very good like drug abuse 
prevention is going to be a tough sell for me until we have 
some evidence that the money that we're spending is done more 
effectively.

                  national voluntary assessment tests

    Let me ask you just quickly about national voluntary 
testing.
    I understand there is no mention in the Department of 
Education budget about testing proposals. What specific 
category of funding will the Department use to develop the 
tests, and what specific authority will the Department claim to 
develop these national tests?
    Mr. Riley. Well, the response to that is, first of all, 
this testing came as an idea late in the budget process. In 
fact, the budget was already put together and the President was 
really looking at how then to help States and school districts 
increase standards generally.
    The TIMSS test came out late last fall--that was very, very 
helpful, and it was a comparison with 41 countries, math and 
science.
    So then we looked at the NAEP test, which is a sample test 
in math and reading, and, the TIMSS test, which is a sample 
test, in math and science. The President felt that with a small 
amount of money we could equate the NAEP reading test in fourth 
grade with a reading test, which is a good transition period--a 
kid ought to be able to read independently when they finish the 
third grade--and to equate the TIMSS test in the eighth grade 
with a math test, which included algebra--and a lot of our 
schools do not include algebra in middle school.
    He felt with a small amount of money he could develop those 
tests and have them available for State use. It is strictly 
voluntary, as you know.
    Then the real cost, the more serious cost, comes then when 
you apply the test, the administration of the test. That would 
come in 1999. So you would have a chance at that. That would be 
a budget item before you next year.
    This year, under our Fund for the Improvement of Education, 
FIE, within our research and improvement area, OERI, we can 
fund, with 1997-98 funding, the developmental cost of 
converting the NAEP test from a sample test to an individual 
test, and the same with TIMSS.
    So it's a very moderate cost, and the tests would be 
available by 1999. And the President proposes for the Federal 
Government to pay for the cost the first year but, again, that 
has not been funded yet.
    Mr. Porter. I'm sorry. Your time is up. I'm sorry. We----
    Mr. Wicker. I thought I had that one additional minute.
    Mr. Porter. No, you're actually one minute over.
    Ms. DeLauro?
    Ms. DeLauro. Thank you, Mr. Chairman.
    I don't know if you know this, but Connecticut was a home 
to P.T. Barnum, and every year in Bridgeport, Connecticut, 
there's a P.T. Barnum festival. We hereby invite you to come to 
the P.T. Barnum festival, and you can be the grand marshal of 
the parade with your tie.
    Mr. Porter. I'll wear my Jumbo tie.

               professional judgment budget for education

    Ms. DeLauro. Mr. Secretary, it's a pleasure to see you 
today.
    Mr. Secretary, when the National Institute of Health came 
to testify, our Chairman asked the Institute Director about the 
funding level for the ``professional judgment'' budget.
    A professional judgment budget is a budget put together 
assuming that there are no funding constraints, no competing 
priorities, and no need to balance the budget. It is not a 
``pie in the sky'' budget about how much money you can throw at 
every problem. However, I submit, it is, however, a judgment 
about the worthy activities which should be pursued were 
funding levels without constraint, a reasoned estimation of 
what a responsible budget would look like if we were able to 
take advantage of all of the opportunities for wise 
investments.
    I believe that the budget that you have submitted 
represents a sound investment in children's education and the 
future of our country, and I thank you for bringing it to us 
today. However, I'm sure that you had to make some difficult 
choices in putting the budget together, and I wonder if you 
would give us a sense of what a professional judgment budget 
for the Department of Education would look like.
    Mr. Riley. Thank you.
    First of all, education is, as the President said, his top 
priority, but the President also is very much committed to a 
balanced budget by the year 2002, but I am, of course, very 
pleased with his focus on education and, as far as I can tell, 
other people in the country are.
    We think, in terms of education, as we're all well aware, 
and we talk time and time about it--that education is a State 
responsibility, local function, but a national priority.
    And so the funding framework, of course, of education is a 
complicated one, but it is primarily State and local, as we all 
know, with 6 to 7 percent coming from the Federal Government.
    Now, if you look at things that we say could certainly 
qualify as a professional judgment budget, if you look at IDEA, 
where you have an authorization of 40 percent of excess costs 
already, $14 billion could be added to get to that. Up to $2 
billion for technology initiatives at one time would be ideal. 
We need all that, but it's going to take several years to bring 
it about.
    Goals 2000, of course, goes to schools for education 
reform. It now covers, if this year's budget is approved, some 
16,000 schools. We'd like to see it available, of course, for 
practically all the schools that want it.
    You could add $3 billion to get Pell Grants to the same 
purchasing power as in 1980. We have tremendous increases in 
Pell Grants in the budget which are justified, and we think 
they are important. But, if we really want to get the Pell 
Grant doing the same job that it did in 1980, it would take 
another $3 billion.
    There's $1 billion for Title I that could be added for our 
targeting proposal.
    If you look at all these things, you could come up with $18 
to $20 billion a year, but we have a very bold budget here, one 
that's carefully thought out and one that we think is directed 
by the needs in this country to improve education from a 
national standpoint.
    Ms. DeLauro. Thank you, Mr. Secretary.

                 training teachers to higher standards

    Let me ask you about the issue of teacher training. How 
does the Federal Government support training teachers to teach 
to higher standards?
    Mr. Riley. Of course, the Eisenhower State Grant program is 
the main program, and we do request an increase in that 
program, but the significant change is the Eisenhower 
professional development Federal activities.
    It is taken from, as you know, the Teaching in the Future 
Commission, and Jim Hunt, who is the chair of that widely-
representative group that had worked for years on how to bring 
about master teachers in the country. We think that makes real 
good sense.
    It's not large numbers of master teachers. The plan is to 
have it grow to 100,000 teachers over a period of years to 
where we could have at least one master teacher in every 
school. It is very rigorous, very time-consuming. But it lifts 
up teachers--and we think to have one in every school would be 
a tremendous help, having a master teacher to help other 
teachers.
    So the President does have that proposal in here to 
increase that to $30 million for enhancement of that program.
    Ms. DeLauro. I think if we're going to raise the standards 
of our youngsters in terms of their ability, then you have to, 
at the same time, focus on teacher training.
    Mr. Riley. Absolutely.
    Ms. DeLauro. We need to help our youngsters be able to 
raise----
    Mr. Riley. If you're going to have student standards 
raised, you have to have teacher standards raised and involve 
principals and parents and communities. I'm a great believer in 
a broad definition of standards. I really think the whole 
community has to have an enhancement of standards and an 
interest in education.
    But while the Federal Government role we see as kind of a 
leadership role, helping with these master teachers, there is a 
great part of that role that belongs to the States and 
localities, and the basic budget of schools would have to be 
State and local primarily, like teachers' pay and that kind of 
thing.

                    parental involvement and concern

    Ms. DeLauro. I think it's clear that the public is very 
interested in this area. At the local level, school districts 
are focusing on something called ``parents' summit.'' They're 
trying to get parents to look at ways in which they can get 
engaged in what's going on in the schools and with their 
children's teachers.
    They are beginning to lose faith in what is happening at 
the local level when they see that their children are not able 
to read and to write.
    I think there's a whole issue and debate and discussion 
about an interest in what the outcomes are with their kids. 
These parents are not just passing kids along and coming out 
the other end of this process without having the ability to 
have the opportunities that they need to be able to compete and 
succeed.

                 voluntary national assessment testing

    Mr. Riley. I think, Congresswoman, the voluntary testing is 
going to really deal with that for every parent and every 
child. Again, it's voluntary by the State, but if they have it, 
every parent of a fourth grade child will know whether they can 
read well. If they can't, they need to ask some questions why 
and they need to get busy and make sure that child has special 
resources. It's the same with math in the eighth grade, 
including algebra and some geometric principles.
    That's what they do in Japan and Korea and Singapore. Of 
our kids, 20 percent have algebra in the eighth grade, and then 
we wonder why we don't score well and do well and kids go into 
high school without having that kind of background.
    We think that's going to add to it. It's voluntary. We 
think it's going to have an uplifting effect.
    Ms. DeLauro. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. DeLauro.
    Mrs. Northup.
    Mrs. Northup. Hello, Secretary Riley.

                   kentucky education reform program

    I'm from Kentucky. I know in the afternoon they referred to 
Kentucky's education reform several times. Are you familiar 
with the Kentucky education reform that was passed six years 
ago?
    Mr. Riley. Yes.
    Mrs. Northup. It's actually thought by many to be a model 
for other States.
    I'm interested in it because--I, by the way, was very 
supportive of that--one of only two members in my party that 
voted for it, including the largest increase in taxes in our 
State's history.
    Many of the points in your testimony sort of run counter to 
what we did in Kentucky.
    First of all, Kentucky has established that each child 
learns in a different way, each classroom succeeds classroom-
by-classroom, each school succeeds school-by-school, each 
district succeeds by district.
    The problems and challenges we have in Louisville, 
Kentucky, are very different than the challenges in Appalachia.
    So we allocated money in a block grant, if you will, or per 
child, higher by risk, based on risk, and gave it to the 
schools with a tremendous amount of what we called ``extended 
services,'' and we gave control of each school to parents and 
teachers that were in those schools so that they could assess 
what the unique obstacles to learning were in each school, what 
unique talents existed in that school, and how to use those 
monies to help each child succeed.
    What we went away from and realized is that the State nor 
the Federal Government can allocate money and target what the 
unique challenges are in each school.

          value of block grants vs. targeting education funds

    It looks to me like what the President is doing is 
attaching a huge new budget expense to only the problems if 
they are the targeted needs that exist in a particular school. 
A school that might need other needs--and I can name a variety 
of them--wouldn't be able to access those funds.
    Mr. Riley. Well, I appreciate your willingness to support 
education improvement in Kentucky, and it did, as you know, 
come from a court order, kind of top-down. The people in 
Kentucky got a hold of that, and I was very proud to see what 
they've done with it, and I thank you for that and appreciate 
it.
    I say this: it went through some rough sledding. Any time 
you tighten down, make things more difficult, you hone in on 
problems and don't let kids drift through school, it gets 
complicated and often gets very difficult.
    Kentucky, as I read it now, has test scores that are doing 
much better and it is an example out there, I think, of serious 
education reform. Involving people in the State really can make 
a difference, and I think it's making a difference in Kentucky.

                education programs providing flexibility

    I would mention a couple of things.
    First of all, of course, Goals 2000 is money that's totally 
usable by the State to send down to a school district, however 
the State handles it, and that school district or school then 
can use those funds, as you point out, in any way they choose 
to use them to meet their particular needs.
    For example, in Kentucky, since it was a top-down thing, as 
I recall, their first use of Goals 2000 money involved parent 
involvement. That made good sense because they needed kind of 
bottom-up involvement in what was happening.
    So they used the Goals 2000 money, I think, in a very 
sound, smart way, and Goals 2000 is some Federal dollars that 
are flexible enough to use.
    Title I, of course, deals with that as far as disadvantaged 
children are concerned, and it is a fundingsource that they 
would have in a poorer area, for the poorer students that you 
mentioned.
    The afternoons and evenings tutoring and the use of mentors 
under the President's proposal on reading I think would be very 
appropriate to deal with the particular problems that children 
have.
    What it is intended to do is to have a connection for kids 
who often lack a family support system, enabling students to 
connect up with someone in the community and the teacher and 
have some special attention shown to that particular child--and 
they are very different, as you point out. Every single one of 
them is different.
    Mrs. Northup. Well, Mr. Secretary--I'm sorry, I'm going to 
run out of time here, but I think my question was: why are we 
designing specific programs that only can be used for certain 
problems when maybe one school already is allocating money for 
a particular problem in that area and maybe their needs are 
quite different?
    Mr. Riley. Yes.
    Mrs. Northup. What we need is to give every school, as we 
have in Kentucky, the resources. We've got all these programs. 
They all come down in these channels and can be used for a very 
narrow program. Why don't we just bundle all that money 
together, send it down in an as-need basis targeting at-risk 
students so that those schools can do what you've just said is 
successful in Kentucky, use that money in the way that most 
needs them.
    Some of our schools have year-round programs, some of them 
have after-school schools for all the kids at risk, some have 
Saturday programs, some have entirely different programs. But 
they know what their unique needs are far better than we know 
up here.
    My question is: why don't we take all of these programs and 
do this if this person on the front line best knows, as we seem 
to have proven in Kentucky?
    Mr. Riley. Well, what my answer would be, in a general way, 
is that many of these programs allow that. That's why I say 
Goals 2000 is a grand example of a new program that came in 
during our term last term, and it does exactly as you point 
out. The States shape funds and the use of the funds. It can be 
totally different from State to State.
    Everything you mentioned that a particular school might 
need that's different, they could use their Goals 2000 funds 
for, if they, themselves, decided to do it.
    I think if you would look at Title I, Title I, under 
especially the school-wide program, where you have a high 
percentage of poor kids in a school, they can shape that 
largely how they want to shape it.
    So I think we've done a lot. I'm sympathetic to what you're 
saying, but I think we have done an awful lot, doing much of 
what you are concerned about.
    Safe and drug-free schools is another one that purely the 
money goes down to the State, but then, you know, we've got to 
make sure it's being spent as effectively as possible, as best 
we can.

             reading for children with learning challenges

    Mrs. Northup. Let me ask you specifically about kids that 
have learning challenges. We just had the National Institute of 
Health in here on Friday, who told us the most effective way to 
deal with kids that have reading disabilities is to teach them 
in intensive phonetics, phonics-based systems, and if they 
aren't remediated by about the fourth grade, that it's very 
hard to ever provide any effective remediation for them 
throughout their school years.
    Yet, there is strong support for whole language and I feel 
like that's the prejudice in Goals 2000. By the way, they name 
20 percent of the school population that fell into this 
category.

                      proposed reading initiative

    But this tutoring that's going on is just the opposite of 
what they would recommend. They recommend for kids that we're 
saying need the tutoring, these kids be in intensive classrooms 
that are based on phonics, not one hour a day, not one hour 
three days a week, but maybe all day, at least half a day, and 
early before they lose forever.
    I wish we would think about using this. I mean, why are we 
spending all this money at the National Institute of Health to 
tell us the most effective way to deal with a child with 
learning disabilities in reading and then instituting a Federal 
program that goes in an entirely different direction?
    Mr. Riley. I have some reference to Dr. Alexander and his 
testimony and so forth, and, as I read the testimony--and my 
staff has supplied this for me, as some questions were raised 
about it--he indicated that any additional reading is helpful. 
No question about it. A child with a learning disability needs 
special help, and we are very supportive of that and agreeable 
to it.
    But if that child doesn't have parents who are interested 
in reading or, as a result of a single parent who is working 
two jobs, or whatever, and this kid has very little support 
system at home, Dr. Alexander, as I would read his statement, 
says, ``Yes, that child needs special help in school, no 
question about that, from somebody who really knows how to deal 
with a special problem, but any reading help by a concerned 
person, adult, is helpful.''
    So I think the situation with learning disabilities is 
somewhat different, but even for those kids, someone who is a 
companion, reading with them, interested in their reading, and 
so forth, is a help.
    Mrs. Northup. I know my time is up, but I think what he 
told us is there is a critical component here, and we're 
missing the critical component in most of these children's 
lives.
    To come with sort of an afterthought that he added at the 
very end and fund that program before we fund the critical 
component just is a real concern of mine.
    Mr. Riley. Of course, the main expense of our proposed 
reading initiative is a volunteer expense. I mean, the cost--it 
is not a large-cost item because the volunteers really provide 
most of the service.
    Mrs. Northup. Paid volunteers?
    Mr. Riley. No, not paid volunteers. These would be paid 
reading specialists who would train volunteers and reading 
coordinators that would put them together, working with the 
teacher.
    You mention whole language and Goals 2000, and I don't see 
the relationship. There's nothing in Goals 2000 about whole 
language. I mean, anybody would understand, especially for 
children in very young years, heavy use of phonetics seems to 
me would always be important, and the combination of whole 
language and phonetics--probably most reading people would 
say--later on. But there's nothing in Goals 2000 that presses 
one way or the other.
    Mr. Porter. Thank you, Mrs. Northup.
    We understand that the Secretary will be able to stay a 
little bit longer than he originally had thought, and I think 
we'll have time for our remaining questions.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Secretary, it is nice to see you here again. We enjoyed 
having you out in Cleveland this past year.
    Mr. Riley. It was my pleasure.
    Mr. Stokes. Thank you.

                     school construction initiative

    Let me preface my first question to you with a brief 
comment.
    We recently saw the national media in this country go into 
a frenzy about something called ``Ebonics.'' This is something 
that occurred in one school district in the entire Nation, but 
we saw Ted Koppel, night talk shows, and both electronic and 
written media in this country go into a frenzy about it because 
of the racial connotation that it had.
    I notice in your budget submission that you are asking for 
$5 billion for State and local school construction and repair.
    I have a CRS report that says that over 60 percent of the 
Nation's 110,000 public elementary and secondary school 
facilities need major repair. It says further that these 
include the hazards of asbestos, poor indoor air quality, poor 
heating, nonexistent air conditioning, and energy inefficiency.
    Further, most schools in need of major repair exist in 
disadvantaged, predominantly poor, minority, inner city, and 
rural school districts where money for repairs is scarce and 
basic needs tend to be ignored.
    I haven't heard any frenzy or seen any frenzy in the media 
about this type of a drastic condition existing in this 
country, and the fact that $5 billion is being requested to 
address it. So I understand and put Ebonics in its diversionary 
category, which is what all that frenzy was about.
    Tell us about the real problem here affecting America's 
schools.
    Mr. Riley. Well, I don't know about what is written about 
the construction needs, the renovation needs, but I'll tell you 
everywhere I go--and, as you know, I'm out a lot all across the 
country and try to go to all kinds of schools--it is very rare 
that I go into a school or into a community talking to parents 
and educators that they don't talk about the physical plant.
    If we're going to have high standards, we can't do it with 
the roof leaking and with a bucket of water being caught in a 
room that's so hot you're sitting in there sweltering, and in 
the next room you're freezing. And you don't have the 
connection possibilities for computers because you've got this 
antiquated building. You've got mobile classrooms all around 
the building and out in the back yard.
    People say, ``We understand what you're saying about high 
standards and getting kids to high standards, and so forth, but 
you just can't do it in these circumstances until you do 
something about construction.''
    I think all of us recognize that construction has always 
been accepted as pretty well a local and State matter. The 
Federal Government has never gotten involved in bricks and 
mortar, and we don't propose to here, but this $5 billion would 
operate as a financing mechanism to pay up to 50 percent of the 
interest cost during this four-year window.
    In Cleveland, if they were on the verge of approving a 
construction bond issue, if this was passed it would be a very 
logical impetus for them to come in and say, ``Now's the time 
for us to do it.''
    We think that it could cause some $20 billion--over a four-
year period--of construction that otherwise would be delayed, 
and we think that's a very important part of education, and 
this is a way we think the Federal Government could be involved 
that would make a lot of sense.

          value of national testing with inequitable spending

    Mr. Stokes. Mr. Secretary, recently I went to Chicago, 
along with Senator Tom Harkin, at the request of Reverend Jesse 
Jackson. He wanted us to visit two of the schools in that area, 
along with a jail, and then compare that with what is happening 
to children in this country.
    I want to put that experience in the context of your 
national testing initiative.
    First we visited a school in the suburbs of Chicago, 
Glenmont South High School. Glenmont has 2,000 students and 98 
percent of them go to college. Teachers' salaries there are 
$65,000 per year. Per pupil cost or expenditure is between 
$12,000 to $14,000 per capita.
    Glenmont has a new modern library and modern computer room 
where the children spend their free time. The students can get 
extra instruction if they want, that type of thing. It's a room 
full of computers. They're tied into the Internet, and e-mail.
    They have two gyms, a swimming pool, a field house, tennis 
courts, and a golf course.
    Children there participate in 23 sports. Glenmont High has 
83 coaches on staff.
    We then left Glenmont, and went to another school, also in 
a suburban part of Chicago. That school is 50 percent Black, 
and 50 percent Hispanic. There they spend $5,250 per capita, 
per child.
    Whereas at the Glenmont school, they have 23 children per 
classroom, over here they have 30 per classroom.
    They don't have the two gyms, field house, and all that 
type of thing. What that school has is a multi-purpose room 
which serves as the gym, cafeteria, and assembly hall all in 
one room.
    They have one computer per classroom and they are not even 
linked to the computers in the other classrooms. There is no 
Internet or e-mail.
    Interestingly enough, for a school that is 50 percent 
Hispanic, they have no faculty that teach Spanish. So when they 
have a problem related to a Hispanic child they go out in the 
street somewhere and find a person somebody that speaks Spanish 
and bring him in to address problems related to that child.
    After that visit, we went to visit a $150 million new jail, 
big turrets outside and everything. At that facility 80 percent 
of the inmates are under 30, Hispanic, and African-American. 
They spend $17,000 per annum for maintenance cost and another 
$7,000 per annum for education for a total of about $24,000 per 
inmate.
    The question to you is--how do we do national testing with 
this type of disparity in the school systems in this country?

                      need for testing assessments

    Mr. Riley. That's a very legitimate inquiry, and I wonder 
about that, myself. I know we did when we changed Title I 
around here--you were involved in that, and I was--again, by 
saying that no longer are we going to have a Title I watered-
down curriculum with watered-down testing, for disadvantaged 
kids, that we were going to give them the same high standards 
as everyone else, starting from kindergarten forward, and it 
will make a difference. And it is making a difference and it 
was the right thing to do.
    You cannot permit, under any circumstances, young people to 
go through the education system, drift through the education 
system and come out the other side without an education. That's 
not acceptable.
    A testing program is part of the very basics of education. 
A child who cannot read by the end of the third grade, or 
certainly within the fourth grade after some special help is 
given, is not going to get a good education, I don't care what 
you do, until that child learns to read well.
    It's the same with math. Math, as you know, is kind of the 
gateway going into high school. A lot of people are looking at 
algebra in middle school. Our kids don't get that. Kids in 
Japan do. Our kids get it later in high school, most of them.
    We think, by centering in on these things, yes, it might 
show that some kids don't do well in this school that you 
mentioned, and it might be the very thing to open some eyes and 
say, ``You know, we've got a job to do here. Let's get busy and 
do it.''
    But you cannot serve those students well by being dishonest 
with them. If they can't read well at the end of the third 
grade, their parents need to know it. And all of the people in 
whatever community--that's in Chicago--whatever community it 
is, they need to know it.
    I really think that's right, Congressman. We might go 
through some time that causes some difficulty for students who 
are in a transition, but when we get all young people thinking 
high standards, working hard, competent teachers, construction, 
and where they have the internet, they have teachers who are 
well-prepared to teach kids who are coming out of Spanish and 
learning English, when all those things are present, then this 
testing is going to be equal and I will be happy when that day 
arrives.
    Thank you.
    Mr. Porter. Thank you, Mr. Stokes.
    Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman.

                importance of early childhood education

    Mr. Secretary, thank you very much for being here. I am 
sorry my other committee responsibilities prevented me from 
hearing your full presentation; however, I did read your 
testimony and I want to commend you and President Clinton for 
the leadership of this Administration in making education a 
national priority and putting emphasis on creating the best 
educational system in the world.
    I was pleased that you mentioned in your testimony the 
importance of recent scientific discoveries concerning how a 
child's brain develops and how in early childhood development 
well-designed preschool programs can help many children 
overcome glaring deficits in their home environment.
    Can you comment on how effectively programs like Head Start 
and Even Start address the needs of those children, especially 
those from low-income communities?
    Mr. Secretary, in the past you have been here with 
Secretary Reich and made joint presentations, and I wonder if 
there were any interdepartmental initiatives or if there should 
be any interdepartmental initiatives among Labor, HHS, and 
Education to train people for Head Start and Even Start to be 
child care providers, because I think that the scientific 
evidence is clear that these children are ready to learn, in 
broad definition of the word ``learn.'' But people can't give 
what they don't have.
    I think, wonder it's job training out of Labor or education 
out of your Department injecting into curriculum at the higher 
education level, and also addressing the needs that come out of 
HHS, whether there is any initiative or should be any 
initiative in that regard.

          interagency cooperation in early childhood programs

    Mr. Riley. Well, we have lots of ways that we work 
together, but I'm not going to say that we perhaps ought not to 
do more.
    You make a very good point. We worked with HHS, of course, 
in a strong way on Head Start and those early childhood 
literacy programs connected--Even Start, and Head Start. Also, 
the Parents as First Teachers program is a proposal in our 
reading challenge.
    All of those make a whole lot of sense for us to work 
together with HHS promoting Head Start and so forth.
    It's the same with Labor on the top side. When a kid comes 
out of high school and goes into the labor market, or after 
college, or whatever, that makes a lot of sense, too, for us to 
coordinate with them.
    And we have a wonderful working relationship with them, our 
people do, but I would welcome any ideas or suggestions you 
have, and I certainly will take another look at that, myself.
    This brain research, Congresswoman, is very fascinating.
    Ms. Pelosi. It really is. It adds to our responsibility on 
this committee.

            training of child care/early education providers

    Mr. Chairman, I think we have an opportunity here, since we 
have these three departments that we appropriate for, because 
my point was: what are we doing in education to train the 
people to do the child care and the Head Start? I think that we 
could solve many of our country's problems by enriching the 
lives of our young people, first and foremost, preparing them 
for school, and also provide jobs for many people who would 
function--who would do well in those kinds of nurturing 
professions.
    But I don't see a comprehensive approach to it, and our 
child care providers, for example, I think need much more 
training than they are receiving and they need much more pay 
than they are getting.
    It's the same thing with some of these early childhood 
education programs.
    Mr. Riley. And that's absolutely right. The Carnegie 
studies and others show child care is just really a back burner 
thing in this country and it ought to be front burner.
    The President cites these numbers coming out of this brain 
research, that in the first four years 700,000 positive 
interconnections take place in the child's brain for a child 
who has a mother and a father who spend time with the child and 
nurture the child during those four years.
    A child who does not, who might have a single parent who 
works, or whatever, that doesn't have the time with the mother 
and the experience of being nurtured, ends up with about 
150,000 of these positive interactions.
    They are directly related then to the struggle this child 
will have all through life. They can make it and learn, but it 
is an enormous struggle that you can pick up on those early 
years.
    Mr. Chairman, it is something all of us ought to be really 
thinking more and more about. It's very, very significant.
    Ms. Pelosi. Thank you, Mr. Secretary.

                  voluntary national assessment tests

    Mr. Secretary, a specific question with regard to the 
President's plan for voluntary national assessment tests for 
reading and math.
    It is my understanding that limited English proficient 
students will be excluded from the reading test. Is that so? If 
so, why is this? And what can be done to ensure that these 
students have equal opportunity to receive adequate or 
comparable assessment?
    Mr. Riley. I might ask Dr. Smith----
    Mr. Smith. Yes. The same rules will be followed as in the 
National Assessment of Educational Progress, which is that a 
student who is limited-English proficient and hasn't had three 
years of instruction in English won't be tested.
    If the child has had three years of instruction in English, 
they will be tested in the same way.
    At the present time there is no plan to have a test in 
Spanish, since the idea really is to test reading in English.
    Ms. Pelosi. So are we compensating in some way to prepare 
them to take this test eventually?
    Mr. Smith. I think the whole motive here is to highlight 
the need for students to take the test. Absolutely. And the 
President's call to action, with the points about the teachers 
and other things, all emphasize the need to prepare these kids 
for reading well in fourth grade, for taking the test in 1999.

                           the ``b'' average

    Ms. Pelosi. I know that time is short, so I'm going to just 
cut to one personal question--that is, one that bothers me but 
isn't a major policy question, I suppose, and that is: While I 
commend the President for making education a priority and 
recognize the superior knowledge that he has in the field and 
what a commitment it has been to him in his political life and 
yours too, Mr. Secretary, I always have some concern about the 
value of rewarding the B student all the time when we have so 
many other students who need more opportunity, who are doing 
their best, who are working hard.
    And while yes, we want children to do their best and reward 
that, I don't think we can leave kids by the wayside because 
they don't achieve that B average.
    Could you tell me why that's a B, because a B is so 
relative? It relates to the program you're in. It relates to so 
many deficits that may have gone before it.
    Mr. Riley. That's a difficult issue and one that we've 
heard a lot about. Some college and university people raised 
the question. What a B is in one school is not a B in another.
    The President's proposal is really for a B-minus, a 2.75, 
grade ratio.
    He and I had numerous discussions about incentives for this 
program for our young people. A lot of people felt like we 
should require a B average coming out of high school to get in 
the program, and the President absolutely wanted to tell every 
single high school graduate in America--tell young people, ``If 
you work hard and finish high school, you then will have a shot 
at college.'' That's the whole concept of the idea, and we 
think it's going to impact grades at a second grade level and a 
fifth grade level and so forth.
    Now, that's really a real wide open admission policy.
    Then the President wanted to develop some incentive to say 
that this is a serious student. It's not just a student who 
came there because he could go to a community college or pay a 
good portion of their State college cost.
    And then we talked about what, and that's kind of where we 
ended up, that a B-minus average would show a serious student.
    Other programs we have require that you're making 
satisfactory progress in school and so forth, so this is not 
brand new. I mean, every student that gets Pell Grants or other 
loans or grants is supposed to be making satisfactory progress.
    We'll continue to follow that. The proposal that we have is 
for a B-minus average.
    People in Georgia tell us--and the president of the 
University of Georgia, whom I talked with a couple of months 
ago, said that in his school--and it's amazing how many Georgia 
HOPE Scholarship students go to University of Georgia; I mean 
it's way up there--and he says that he has not observed any 
grade inflation as a result of that, and he thinks it has 
caused an awful lot of students to work harder to reach the B 
average.
    So we see right now the positive things that it could bring 
about, but we'll all continue to watch it.
    Ms. Pelosi. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Mr. Porter. Thank you, Ms. Pelosi.

         raising public consciousness on childhood development

    I might say to the Secretary, because we talked about it 
earlier, that the focus on the early years of life--and you 
mentioned this just a moment ago--is very, very important.
    I'm sure you've sat down, as I have, with Rob Reiner, who 
is now about to launch this early childhood initiative with 
private resources. I think that's going to raise consciousness 
in our country a great deal about the importance of the first 
three or four years of a child's existence and how we can do a 
much better job of nurturing that will lead to people reaching 
their potential.
    I'm very impressed with how they plan to reach the 
consciousness of the American people, and I believe that if 
they do all the things they plan to do it will be a model as to 
how we get from where we are to where we want to be in terms of 
what reaches people's minds.
    I've heard that from so many different sources.
    Mr. Riley. I appreciate your comment, and I think, from an 
equity standpoint and all these other things that concern us 
all in education, I think that really is one of the real waves 
of future interest or must be a wave of future interest.
    I'm very appreciative of Rob Reiner's effort and those 
others that are bringing public consciousness as we work 
through these matters.
    They say a parent reading with a young child, even a child 
six months old or four months old, constantly, 20 minutes a 
day, or whatever, just reading with them, builds up to where 
they're totally ready for reading when they get to it.
    So I think those simple things like that that all parents 
could be involved with could make a big difference.
    Mr. Porter. It is to me very interesting, Mr. Secretary, 
that we have all this knowledge but the Government is somehow 
prevented from sharing it with people and we don't ask our 
national media who, after all, are licensed by the Federal 
Government to really be a participant in the process of getting 
knowledge that we have into people's minds.
    We used to do a lot more of that. We've cut it back instead 
of increasing it, and it seems to me it's really shortchanging the 
opportunity to change people's lives for the better.

                            Closing Remarks

    Mr. Secretary, I very much appreciate not only the 
expertise that you bring to your position, but the 
forthrightness and honesty and caring that you bring.
    We appreciate the fine job that you're doing for the 
children of our country and for all of us in the Department of 
Education. Thank you for being here today.
    Mr. Riley. Thank you, and I can say the same for you, Mr. 
Chairman.
    Mr. Porter. Thank you, Mr. Secretary.
    The subcommittee will stand in recess until 1:30 p.m.
    [The following questions were submitted to be answered for 
the record.]

[Pages 66 - 138--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                   ELEMENTARY AND SECONDARY EDUCATION

                   BILINGUAL AND IMMIGRANT EDUCATION

                               WITNESSES

GERALD N. TIROZZI, ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
    EDUCATION
DELIA POMPA, DIRECTOR, OFFICE OF BILINGUAL EDUCATION AND MINORITY 
    LANGUAGES AFFAIRS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
THOMAS M. CORWIN, DIRECTOR, ELEMENTARY, SECONDARY, AND VOCATIONAL 
    ANALYSIS DIVISION, BUDGET SERVICE

    Mr. Porter. The subcommittee will come to order.
    We are pleased to welcome this afternoon Doctor Gerald 
Tirozzi, the Assistant Secretary for Elementary and Secondary 
Education, and Ms. Delia Pompa, the Director of the Office of 
Bilingual Education and Minority Languages Affairs. Let me 
apologize to both of you. I had an appointment in my office 
with John Grunsfeld, the NASA Astronaut who comes from my 
district. He talks in such broad concepts that I was fascinated 
and I loss track of the time, very frankly, and suddenly woke 
up to the fact that I was late. I do apologize.
    Why don't both of you proceed with your statements and then 
we will start the questioning. Thank you.

                       Introduction of Witnesses

    Dr. Tirozzi. Thank you, Mr. Porter. First, I would like to 
introduce the guests at the table. Delia Pompa, of course, who 
is our Director of Bilingual Education, who will follow my 
presentation, and from our Budget Office is Tom Skelly and Tom 
Corwin, who I think you know. They are here to answer the very 
hard questions for me and for Delia.

                    Opening Statement of Dr. Tirozzi

    It is a pleasure to have this opportunity to appear before 
you. I am not going to read my prepared statement, I am 
submitting that for the record. Rather, I thought I would like 
to share some general thoughts in terms of what the Office of 
Elementary and Secondary Education is recommending this year.
    I would like to start very briefly by pointing out that 
I've had the opportunity in my career, which spans 
approximately 36 years, of being a school principal, a 
classroom teacher, a guidance counsellor, a school 
superintendent, and a commissioner of education. I say that 
because hopefully it gives some broader level of credibility to 
my understanding of what takes place in schools. I'm honored to 
be an Assistant Secretary of Education. I've been in this 
position for approximately 14 months and it has really been a 
great growth experience. I've learned a lot. And in particular, 
as I look at the various programs I am responsible for, I have 
continually tried to cast my own point of view in terms of my 
previous experience. So, hopefully, as I share some of these 
programs with you, you get the sense that I'm speaking directly 
from the field and not only as the Assistant Secretary of 
Education.

                          overview of request

    The request that we have before you totals $11.1 billion, 
which is approximately a 5 percent increase over last year. In 
addition, we have $5.3 billion that we're requesting in a 
mandatory funding appropriation for two major initiatives--
school construction, and America Reads, a challenge program 
which I'll get to in a few moments.
    In terms of the $11 billion request, if we look at that 
very carefully, I really want to talk to you about six main 
areas. These six areas account for approximately 92 percent of 
the request, totalling $10.2 billion. That's why I naturally 
pick on these six. And again, building on my field experience, 
I'm very pleased that the Secretary of Education and others are 
using key words that I think are going to make a difference in 
our schools--high standards, assessment, rigor, accountability, 
program integrity, and a very strong commitment to State and 
local control and responsibility which I personally think is so 
important because that's where the power really lies.

                               goals 2000

    Having said that, let me start with Goals 2000. I honestly 
want to represent to you that, having been a commissioner and a 
superintendent, I wish I were a commissioner or a 
superintendent today and had the availability of Goals 2000 
money, because that to me is really a form of venture capital. 
I think it is one of the most flexible programs the Federal 
Government has ever had.
    I think the fact that it drives a State to look at issues 
of standards, of rigor, of accountability, of assessment is 
really important for States to understand the role the Federal 
Government wants to play. However, and it's a very important 
point, while we drive that as an agenda, we respect of course 
the fact that all States develop their own standards, all 
districts develop their own standards, and so on. It is a State 
and local responsibility and the Federal Government is a major 
partner in that effort. I'm pleased to report to you that we're 
basically in 49 States now. It is my understanding based on the 
comments recently from the Governor of Virginia that we will 
have all 50 States on board relatively soon.
    In addition, within the request of $620 million for the 
program, we're asking for an additional $15 million for our 
parental assistance centers. We're now in 28 States with 
parenting centers, and will expand that to 42 States in 1997. I 
think, again speaking from my experience, the fact that Goals 
2000 is highly flexible, has no regulations, and is intended to 
provide support to States, speaks very, very well for the 
purpose of this program. We really see it as a cornerstone of 
what we're about.

                                title i

    Title I is very significant. This is the largest Federal 
program that provides direct assistance to local school 
districts for youngsters who have the greatest need, including 
the poorest youngsters in our society and also the youngsters 
with the greatest academic needs in reading and math. Our 
request is for $8.1 billion overall, which is about a $379 
million increase. But when you look specifically at Title I 
grants to local districts, that accounts for about $7.5 
billion, and that basically includes most of our entire 
increase or about $346 million.
    As you know, Title I has undergone some major changes, and 
I applaud those changes. I remember having been a 
superintendent and having been commissioner and really looking 
at some of the regulations for the former Title I and wondering 
why we couldn't have more flexibility at the State and local 
level. I'm delighted that in the reauthorization process a few 
short years ago that was addressed. Today, of course, there is 
a lot of flexibility in Title I. It allows for school-wide 
programs, and we've seen a significant increase that we can 
talk about later, in terms of school-wide programs. We've seen 
smaller classes, and more after-school programs. We have more 
summer programs, and more districts are getting involved in 
preschool programs. So we're really seeing a major expansion in 
our Title I program.

                           title i targeting

    Our entire LEA grants increase is for the new Targeted 
Grants formula, which targets money directly to the districts 
that have the greatest need. Of course, in reauthorization 
targeting was a key point, and the statute now requires that 
new money, in fact, go to the Targeted Grants program. Title I 
would serve 10 million children at our requested level and 
reach two-thirds of all the elementary schools.
    A particular point I want to make that people miss when we 
talk about targeting is that 50 percent of the districts 
receive only 5 percent of the dollars. So while I'm a proponent 
of targeting, and we want more targeting, I think the formula 
does a pretty good job of targeting. And 7 percent of the 
districts receive $1 million or more, which represents 64 
percent of the dollars.
    So I think, without question, there has been a significant 
attempt to target. Do we need more? I would say yes. But at 
least we're moving in the right direction. I know you probably 
have a number of questions you'd like to ask later on Title I, 
but I do want to represent to you, especially from someone who 
has been in the field, this is one of our most significant 
programs. It continues to be a very significant program in 
terms of providing significant resources to districts.

                         other title i programs

    Within Title I, our Migrant Education program is also very 
important. This deals with 610,000 highly mobile children of 
migratory workers. These youngsters are difficult enough to 
track, let alone to program for. And so this money is 
definitely needed.
    Also within our Title I program, we operate Even Start 
which is, for this particular request, a $108 million program 
representing a $6 million increase. Even Start forms a strong 
link between early childhood education, adult education, and 
parenting education, which is so important.

               safe and drug-free schools and communities

    Safe and Drug Free Schools--I know you have a significant 
interest in that program, as do we. This year we're requesting 
$630 million, which is about a $64 million increase. We would 
absolutely agree, as the Secretary has said over and over 
again, that schools must be safe, and they must have an orderly 
environment in order for learning to take place. We have zero 
tolerance for drug use and we want strong disciplinary action 
in our schools.
    We're very concerned about the increased use of drugs, 
especially marijuana, among teenagers. However, having said 
that, and fully respecting the important role that school 
plays, the issue is still very broad. It is community-based. 
There is an issue of peer pressure. There's even an issue in 
terms of a lack of family guidance. I also like to remind folks 
that schools are a microcosm of society and the problems of 
society don't wait outside the school; they come in. Schools 
can't do it alone but schools must do it in concert with their 
communities. So we're trying very hard to do that.
    I also want to point out for your edification that of this 
particular grant, 80 percent must be used for prevention. It 
probably represents the most significant amount of prevention 
money any district has because most districts in this country, 
especially the large urban districts, use just about every 
other dollar available for school safety--to buy metal 
detectors and to hire security guards which are necessary--I'm 
not suggesting they're not--but if we're ever going to address 
this problem, we have to be involved in prevention.
    One way we're trying to address some of the problems with 
this--I'm not suggesting problems with the program, but in 
terms of getting districts and States to really take more 
seriously the types of programs they have--is in our 
appropriations recommendation before you, where we're 
recommending that you adopt Principles of Effectiveness which, 
if put in place, would give us even more say in terms of what 
happens at the local district level. We think there are some 
specific things that districts need to do, and we're 
articulating them in our Principles of Effectiveness.

                  eisenhower professional development

    For the Eisenhower Professional Development program, this 
year we're requesting $360 million, that's up $50 million. Our 
goal here is to improve teaching and learning. Drawing on my 
own experience, something I've really come to resonate with 
over the years is that we can talk about school reform, we can 
talk about standards, we can talk about rigor, we can talk 
testing, but unless and until you have a quality teacher in 
every classroom in America it is going to be very, very hard to 
turn schools around. The Eisenhower program is a major 
component--not the only component, but a major component--to 
link teachers with high quality professional development in 
math and science, in particular, and also in all the core 
academic subject areas.
    Generally, 85 percent of a school district's budget is tied 
up in personnel. And if you examine most districts' budgets 
carefully, less than one half of 1 percent is linked to 
professional development. We're simply not doing a good job. 
Roughly 90 percent of our teachers in this country have three 
or more years of experience. So we need to make this commitment 
to professional development. As I think you know, if you look 
at business and if you look at industry, they are totally 
committed to professional development. Our school districts 
have not made that commitment over time largely because of 
budgetary issues.
    I also want to point out when we talk about Eisenhower and 
that particular grant, we need to understand the TIMSS report 
that came out a couple short months ago. It clearly pointed out 
we have significant needs in the area of math and science. That 
report clearly pointed out the importance of quality teachers 
in classrooms. The Eisenhower program can in fact help address 
some of the findings in TIMSS and help us in our respective 
school districts.
    Also in the Eisenhower program we're recommending in 
appropriations language that we adopt Principles of 
Effectiveness so that we can do even a better job with 
districts, by clearly articulating what makes sense in a 
quality professional development program while respecting local 
control but at least giving them some broad parameters.

                   technology literacy challenge fund

    Technology, the way of the future. I don't know how else to 
say it. I think the Federal Government would be totally remiss 
if it weren't immersed in helping districts with technology. 
The $425 million request--up $225 million--is a substantial 
increase for the Technology Literacy Challenge Fund. It is a 
formula grant program. It goes to all States. It has been 
extremely well received by States. The cut-off date is March 
31st and in January we had a significant number of States 
already with applications on file. So this is moving along very 
well. It has four major themes. The President and the Secretary 
referred to them as the four pillars of technology--ensuring 
that we have adequate software and curriculum, buying 
equipment, computers in general, professional development for 
teachers, which is essential, and ideally hooking our 
youngsters to the Internet by the year 2000.
    I should note for your background that only 14 percent of 
the schools in this country presently are hooked to the 
Internet. Recently, the Rand Corporation pointed out that only 
3 percent of schools have more than one computer for every five 
children. So we have a long, long way to go to meet the 
technology needs of our schools. But we really would be in the 
Dark Ages if we didn't understand that technology is the future 
and we need to address this with our youngsters.

                            charter schools

    Charter Schools is another area I want to highlight. This 
year we have approximately $50 million. Next year the request 
is for $100 million. That's a significant increase but I can 
honestly tell you this is one of the fastest growing waves 
across this country. There is tremendous support from 
communities for Charter Schools. We've almost doubled the 
number of Charter Schools that were in place a year ago. These 
are break-the-mold experimental schools. They empower teachers; 
they empower communities. They are intended to remove many of 
the regulations and, in some cases, some of the union 
contractual obligations. And they represent public school 
choice which keeps the concept of choice within the public 
domain so that local school boards, and State boards can still 
monitor these schools and we do not lose total control.
    The President is recommending that by the year 2000 we have 
3,000 Charter Schools. The funding we're talking about would, 
in fact, allow us to pretty much double every year through the 
year 2000. So I'm optimistic we could reach that goal.

                        america reads challenge

    Two other major programs I want to mention just very 
quickly are new initiatives. The America Reads Challenge, I 
know you heard from the Secretary this morning, in our budget 
is $260 million. That is a major attempt, and I want to say 
this very carefully, to supplement what we're doing in our schools. 
Without question, again having been a superintendent and a commissioner 
of education, if you want to improve reading, you improve it first and 
foremost in the classroom structure with those quality teachers. We do 
that in the classroom. Of course the Federal Government has been very 
supportive, with Title I as a major resource of supplemental funds. But 
the school day is traditionally 8:30 in the morning to 2:30 in the 
afternoon for 180 days. Youngsters are in class about 1,000 hours, but 
we have the after-school hours, we have the summer hours, we have the 
weekend hours. This program is really calling upon America to provide 
approximately a million tutors to work closely with our youngsters, 
especially those youngsters behind in reading in the primary grades K 
through 3. I can tell you from my own experience, I can tell you from 
the research, if youngsters are not reading at grade level by the end 
of grade three, they fall further and further and further behind. I 
think this is a tremendous step in the right direction. The program 
would, of course, have to be fully coordinated with the schools, not an 
appendage of the schools. We definitely want all of the tutors trained, 
and that's where most of the money would go.
    Another major component would be Parents as First Teachers. 
I'm not in any way going to give a lecture on this, but if 
you've seen the recent news on brain research, it clearly 
points out that we have to do much more in the first five years 
of life, birth to age five. We can't wait until kindergarten. 
We really need to work with parents who want the help with 
parenting skills, and with making the home environment more 
conducive to learning. We have many parents who themselves have 
to learn how to read. So I think this is pretty much on target. 
I can honestly represent to you that, having been a 
superintendent of schools, I would really applaud this program 
in my district.

                          school construction

    The other new initiative is School Construction. I was the 
superintendent of schools in New Haven, Connecticut, and I knew 
construction problems then. I still am a resident officially of 
the State of Connecticut. By the way, I do want to point out 
that Hartford and New Haven are the seventh and fourth poorest 
cities in America, but that Connecticut is the richest State in 
America, which is really quite an issue. But the point is we 
had tremendous needs then, and they have tremendous needs now. 
When you look at the GAO report which came out last year, it 
clearly pointed out that a third of our Nation's schools are in 
need of tremendous repairs. I think this is a very, very timely 
consideration for the Federal Government.
    The money would go toward paying an interest subsidy up to 
50 percent for districts. I think the operative word here is 
leverage. I don't think we're suggesting the $5 billion in and 
of itself will cover all costs. But I can tell you, as a 
superintendent, it would make it a heck of a lot easier for me 
to go to my community if I knew I could underwrite the cost of 
interest to get them to agree to float the bonds, and 
especially if they knew it was a one-time commitment, a four-
year window of opportunity, and if I didn't move, it wouldn't 
happen. The money can go to renovation projects, it can also go 
to building new facilities. Looking at a dramatic increase in 
student enrollment expected over the next ten years, I think 
this too becomes very, very timely.

                             other programs

    Other programs in our budget I just want to touch on very 
quickly. They're all important, but time doesn't allow for a 
comprehensive discussion of each. We have our comprehensive 
centers, for which we are requesting additional funding in our 
budget. These are fifteen centers set up across the United 
States. We work very closely with the Office of Bilingual 
Education, and the goal of the centers is really to coordinate 
technical assistance services--one-stop shopping is what we 
like to call it--and to integrate services for all of our 
various programs under one roof, if that is possible.
    Magnet Schools is a $95 million program. This is the major 
program the Federal Government has to help local school 
districts operate magnet schools that are part of court-ordered 
or Federally approved desegregation plans. We also have dollars 
over the last couple of years to support innovative grant 
programs for those schools desegregating by means other than 
magnet schools. So magnet schools assistance is a very 
important and timely program.

                            indian education

    The other program I want to mention that's very important, 
and it's the first time we've had the opportunity to talk about 
this program before this subcommittee, is Indian Education. 
Many people have a sense that Indian Education basically is 
addressed by the Department of the Interior and the Bureau of 
Indian Affairs. They essentially provide dollars to those 
students who attend school on Indian lands, reservations, or 
they provide dollars to programs that are affiliated directly 
with various tribes. In our program, which has a $62.6 million 
request, we serve about 90 percent of the Indian youngsters who 
are in the public schools of America. That is a major 
supplemental grant for these youngsters, who have tremendous 
needs. If you look at Indian youngsters, they basically have 
the highest poverty rate in the country, and the highest 
dropout rate. In fairness, we really think this is a program we 
all should support, and I hope we will.

                    education for homeless children

    Education for the homeless is a program that I think speaks 
for itself. It's a $27 million program. We're asking for your 
help in supporting homeless children. These are youngsters who 
are at great risk.

                               impact aid

    One other program I want to mention and then conclude is 
Impact Aid. Again, a very important program. This provides 
support to districts on behalf of federally connected children. 
We are requesting funds for the two groups of children for whom 
the Federal Government has primary responsibility because they 
present the biggest financial burden to school districts--
children living on Indian lands, and children whose parents are 
in the uniformed services and who live on Federal property. So 
while you will see a decrease in our Impact Aid request, and 
I'm sure we're going to talk about that in your questions, I do 
want to point out that if we deal with those two categories of 
children--and we feel that is our primary responsibility--we 
are basically level funding the request for these categories.

                         performance indicators

    I'm going to conclude by pointing out that I fully respect, 
understand, and appreciate the need for all programs the 
Federal Government supports to be accountable and to be 
responsible. Having been a superintendent and commissioner, 
believe me, I want the same thing. I'm pleased to work in a 
Department where we are totally committed to being held 
accountable for the programs that we are responsible for.
    I think you know that GPRA has a requirement that next 
February all departments have to come in with 
performanceindicators for all of our programs. The Department of 
Education is basically there. As a matter of fact, we continue to work 
through our performance indicators, and late last week there was a 
meeting held with key Congressional staff on this issue. I think you 
get a sense from your staff we're at least on target and moving 
forward. Not only are we trying to develop indicators, but benchmarks, 
time lines, data sources, and outcome measures. My sense is over time 
we'll be in a position to better evaluate all our programs for you.
    I want to conclude with the statement that we're all 
interested in school reform and we want systemic high quality 
reform. That's going to take time, and I know at times that 
worries people. But in fairness, if we're going to do this and 
if we're going to do it well, it does take time. However, the 
fact that we have performance indicators, the fact that we can 
report to you annually on how we're addressing those indicators 
I think will give you an annual report of how we're doing, and 
we will have annual information on our progress. But the whole 
concept of school reform is going to take time.
    I think I'll stop there. I'm sorry if I took a couple of 
minutes too long, but this is a major request of $11 billion or 
$16 billion, depending upon how you want to look at it. I would 
be happy to answer your questions. But before I do that, I 
would like to turn it over to Delia Pompa for her presentation.

                     opening statement of ms. pompa

    Ms. Pompa. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to testify before you today on 
the fiscal year 1998 budget request for Bilingual and Immigrant 
Education.
    For fiscal year 1998, the Department requests a total of 
$354 million for bilingual, immigrant, and foreign language 
education. My written statement, which I would like to submit 
for the record, includes a detailed explanation of the 
Department's fiscal year 1998 request.
    When I came before the committee last year, I argued that 
there was a very large need for Federal bilingual education and 
immigrant programs. The number of limited-English proficient 
students was considerable and schools districts were clamoring 
for assistance in meeting the needs of these students.

             number of limited english proficient students

    I come today to say the situation is even more dramatic 
than I presented last year. The number of limited-English 
proficient students has grown by at least 46 percent in just 
four years. LEP students comprise about one in four public 
school students in California, Alaska, and New Mexico, and 
about one in eight students in Texas and Arizona.
    But the increase in limited-English proficient, or LEP, 
students is not limited to the Southwest. LEP student 
enrollments grew by 120 percent in Arkansas, 42 percent in 
Wisconsin, 99 percent in Oklahoma, 35 percent in Illinois, 70 
percent in Florida, and 118 percent in Kansas between the 1990-
91 and 1994-95 school years. Nationwide, over 364,000 teachers 
had at least one LEP student in their class in 1992, and I know 
that number has grown since then.
    In sum, the education of LEP students is rapidly becoming a 
concern for nearly every State and school district in our 
Nation and they are looking to the Federal Government for 
resources and assistance.

                         performance indicators

    The Office of Bilingual Education and Minority Languages 
Affairs'--OBEMLA's--mission has become more focused to meet the 
new challenges posed by the rapid growth of LEP students. 
First, we are placing a renewed emphasis on accountability. 
Using the new authority and requirements of the Government 
Performance and Results Act of 1994 (GPRA), which mandated the 
creation and implementation of performance indicators for every 
Federal program, OBEMLA is developing new, easy-to-understand 
benchmarks for the performance of our programs.
    We do believe that it is important to show that the 
Bilingual Education, Foreign Language Assistance and Emergency 
Immigrant Education programs work. But this does require money. 
I note again that GPRA mandates performance indicators to hold 
us accountable, but we cannot develop them if we do not have 
the funds.

                              flexibility

    Second, we want to provide our grantees the flexibility 
they need to integrate LEP students into the mainstream of the 
school. Flexibility goes hand-in-hand with accountability. We 
have simplified the reporting requirements for the grants, 
streamlined our grant-making process, and established a single 
point of contact through which grantees can communicate with 
the Department. We have also eliminated almost all regulations 
for the program. All this so that grantees can focus on the 
important thing--serving students.
    Our grants are as diverse as the Nation's LEP student 
population. I recently visited St. Louis, Missouri, a school 
district that had not been heavily impacted by LEP students in 
the past. Today, however, the school district is home to over 
35 languages including Spanish, Serbo-Croatian, Haitian Creole, 
Somali, and Vietnamese, which are the largest language groups 
there. St. Louis has used its grant to expand their capacity to 
teach English and academic content to its new, diverse, and 
growing LEP students.
    Our programs reflect local needs and local planning while 
highlighting the national priority placed on education by the 
President. With the additional resources, schools can help to 
ensure that all students, including LEP students, can read 
independently by the third grade, can master algebra by the 
eighth grade, can access the Internet, and can have a well-
trained teacher who understands the needs of LEP students and 
is qualified to serve them.

                           training teachers

    In his plan of action, the President designated the 
training of dedicated teachers as a national priority. 
Accordingly, OBEMLA's final priority for fiscal year 1998 is 
teacher training. The California State Department of Education 
has estimated that the State needs over 20,000 more teachers 
qualified to serve LEP students than they currently have. 
Nationwide, 80 percent of school districts have difficulty 
recruiting teachers to serve LEP students.
    School districts cannot serve LEP students if they don't 
have the teachers. That is why we are asking for $25 million in 
professional development for grants to institutions of higher 
education to train over 6,000 teachers annually.
    During consideration of our reprogramming request, members 
of the committee asked if school districts funded under 
Bilingual Education Instructional Services train teachers. 
Nearly all of them do by providing in-service training for 
current teachers. But they cannot shrink the teacher shortage 
and certify new teachers. That is the province of colleges and 
universities. There is simply not enough capacity within our 
current teacher training system to train all of the bilingual/
English as a second language teachers that we need.
    Our grants help to build that capacity. That is why school 
districts as different as Oakland, California, and Catawba 
County, North Carolina, have written in support of providing 
bilingual/ESL teacher training grants for our programs.
    Most would-be bilingual/ESL teachers do not qualify for 
student aid, like Pell Grants, because they currently work in 
schools, are part-time students, and may exceed the income 
limitations of the program. They work in schools during the day 
and attend night school or squeeze in a few classes as they 
progress towards certification. The professional development 
programs administered by OBEMLA are the only funding streams 
dedicated to training bilingual/ESL teachers and are therefore 
critical to providing school districts with the teachers they 
need.
    I am a product of an OBEMLA professional development grant. 
I taught as a classroom teacher for several years in Texas 
before becoming Director of Bilingual Education for the Houston 
Independent School District. The support I received during my 
schooling was instrumental in my training and has brought me to 
the point where I can now testify before you about the 
importance of investing in teacher training.

                           effective programs

    Finally, I want to give members of the committee an idea of 
how powerful our programs can be. The AMIGOS two-way bilingual 
education program in Cambridge, Massachusetts, serves both 
English-speaking and Spanish-speaking students. English 
speakers learn Spanish, Spanish speakers learn English, and 
both become bilingual. Spanish-speaking students in the program 
outperformed Spanish background students not in the program. 
English-speaking parents, anxious for their children to be 
bilingual, are on long waiting lists to get their kids into the 
program.
    Project SUCCESS in Glendale, California, is reforming every 
operation in the school district--administration, technology, 
curriculum, instruction, family involvement--to ensure that it 
addresses the needs of the district's LEP students who come 
from diverse language backgrounds. The results are stunning. 
The LEP students, who I emphasize are still learning English, 
scored at or above testing norms for math in grades 3, 4, 5, 
and 6. And students who were LEP but have since been designated 
as English proficient are scoring above their English-speaking 
peers on math, reading, and language achievement tests.
    Spring Branch school district in Houston, Texas, is using 
its grant to target LEP high school students with little or no 
previous education. This is a challenging group because they've 
had little contact with a school yet are already high school 
age. Nevertheless, when compared to students who didn't 
participate in the grant, the project students score higher on 
reading and language arts on the Iowa test of basic skills and 
have better grades, higher attendance, and higher grade 
completion.
    These results are borne out in a massive research project 
funded by the Office of Educational Research and Improvement 
that has examined over 700,000 student records between 1982 and 
1996. The study has found that good bilingual education 
programs, like the ones I mentioned, are effective in improving 
the most important academic achievement data--data from the 
last years of high school.
    These examples demonstrate not just the effectiveness of 
our program, but they also make a statement about the ability 
of LEP students and all students to achieve to the very highest 
levels.
    Thank you for your attention. I would now be happy to 
answer any of your questions.
    [The prepared statements and biography of Gerald N. Tirozzi 
and Delia Pompa follow:]

[Pages 151 - 164--The official Committee record contains additional material here.]


    Mr. Porter. Thank you Doctor Tirozzi and Ms. Pompa.
    I want to begin my questioning with Doctor Tirozzi but I'm 
sure we'll have time for a second round and I'll have a chance 
to ask Ms. Pompa some questions.

                            indian education

    We are just getting for the first time jurisdiction over 
Indian education. Doctor Tirozzi, if you are an Indian student 
who comes from a poor family, and that's probably more likely 
than not, and you live on a reservation, does your school then 
receive money from the Indian Education program, the Title I 
program, and the Impact Aid program? You're counted in each one 
of those programs?
    Dr. Tirozzi. It is conceivable that if you're an LEA you 
could receive Title I money, not necessarily Impact Aid money, 
but all of our other programs you would be eligible for.
    Mr. Porter. Aren't you eligible under the Impact Aid 
program if you live on a reservation?
    Dr. Tirozzi. If you live on a reservation, yes.
    Mr. Porter. This is a question just for edification. I'm 
sure you wouldn't have the answer here, but could you take a 
student like that and see what would be the result if they were 
in a highly impacted school and that school received Impact 
Aid. Could you compute for us the amount that it would receive 
from those three programs and any others that would be relevant 
to that individual's status. I would justbe interested to see 
what the funds look like.
    [The information follows:]

                      Funding for Indian Students

    Native American students who live on a reservation and 
attend public school may generate funding under several 
Department of Education programs. However, only the Indian 
Education program provides funds based on their status as 
Indians. In addition, districts may receive Impact Aid funds on 
behalf of students who live on Indian lands. Further, because 
most Indian students come from poor families, they would be 
counted for Title I allocations to districts and schools. The 
Bureau of Indian Affairs (BIA) in the Department of the 
Interior also administers educational programs for Indian 
students. Most of these programs provide funding to BIA-
operated or Indian-controlled schools, but the Johnson-O'Malley 
program provides limited funds to public schools on or near 
reservations based on the number of Indian students served. At 
the fiscal year 1998 request level for these programs, we 
estimate that:
    The Indian Education program would provide local school 
districts with about $141 per student.
    On average, school districts would receive $2,190 per 
student under the Impact Aid program for students reside on 
Indian lands.
    Under the Title I program, a poor Indian student would also 
generate funds averaging $930.
    Johnson-O'Malley would provide about $63 per student.

                 responsibility for school construction

    Mr. Porter. Let me ask a question, while we don't have 
jurisdiction because we understand the President's proposal is 
for a new program to subsidize the bonding cost of school 
construction, but since you and the Secretary this morning 
raised this in your testimony, I would like to know, especially 
given your background as an on the ground educator, it seems to 
me that any school board has as its first responsibility taking 
care of the physical plant that their stewardship covers. And 
yet, we find, and there's no question about the need, that 
there are literally $100 billion or more in untended properties 
that have been allowed to deteriorate over the years and now 
must be repaired if we are going to have good use of them.
    What's happened? School boards used to keep up with these 
things. They used to put them at a high priority. Now what the 
Federal Government is saying is, well, you failed in your 
responsibilities so we will bail you out and subsidize you and 
make certain you can do it. It seems to me a little--I would 
just like to know what the explanation is.
    Dr. Tirozzi. I think there are a lot of reasons for that. 
Again, having been a superintendent of a fairly large urban 
district, most of your budget is built around a number of 
competing needs--personnel, for example, staffing your schools, 
curriculum programs. Of course, if you look at what schools are 
now responsible for, some of these things we talk about here, 
like drug education, you name it and districts do it.
    I think what's happened over time is many school districts 
across this country, especially the urban districts and the 
poor rural districts, really haven't had the resources for 
competing interests, if you will. They haven't had the 
resources to put the money into maintenance, so what we have is 
deferred maintenance. We have a number of schools out there 
where the situation is just abysmal in terms of the conditions 
of those schools, health and safety factors, and other things 
we have to address, with this new baby boomlet that's coming 
along, like the need for more classrooms. We have a significant 
number of mobile units now being used in our schools across 
this country.
    Mr. Porter, as to your question, I agree that school 
construction is the responsibility of the States and local 
communities. I see this particular grant as really a challenge 
grant, if you will, or as major money to leverage more local 
and more State support to aggressively move forward and build 
schools and to renovate schools. I would sincerely hope we're 
never going to get in the business of trying to replace that 
local and State responsibility. To me, and I've used the word 
several times and apologize for being redundant, it is really 
leverage, trying to help them use this money to leverage.
    Mr. Porter. Oh, I understand what the program is designed 
to do. I am simply saying that it seems to me that what we've 
got in many places in our country, and I'm not certain this is 
all urban schools, I think we have school boards that are 
personally liable for negligence. We hold people on boards 
accountable all the time when they're negligent in the 
performance of their duties. It seems to me the schools boards 
that allowed their schools to deteriorate and didn't provide 
the funds, which seems to me is their first responsibility, are 
absolutely personally liable for damages, for allowing it to 
happen.
    I think it is criminal, I really do. I think coming to the 
Federal Government now and saying, well, we didn't do our job 
so you have to help us correct our errors is really a 
tremendous cop out. If we insist on local responsibility and 
local control, it seems to me this is a place where we ought to 
insist that our local officials do their work.
    Dr. Tirozzi. If I could just add, Mr. Porter, that I 
respect what you're saying, but if we're going to hold people 
liable I think we also need to hold the taxpayers liable, 
because for many school boards across this country--and I've 
been there--go out there every year and you try very hard to 
float bonds, try very hard to get support, but communities vote 
down these budgets.
    Mr. Porter. But I asked you the question and you didn't 
include that as part of your answer. I agree with you 
thatprobably the case in a lot of places where the community has aged, 
they don't have as many kids in school, they don't think it's their 
responsibility because nobody any more thinks they have any civic 
responsibility, and so they vote down bond issues and you can't get the 
funds and the schools deteriorate. That's a different matter. That's a 
different matter. If that's the primary reason, I can understand it. If 
the primary reason is that the school board caved in to the union 
because the union wanted more money and didn't keep up the schools, 
that's a different matter.
    Dr. Tirozzi. I think it is a combination of factors. But I 
think if we did a survey, you'd find a significant number of 
school districts where they've had the problems have, year 
after year, tried to raise dollars to renovate schools and they 
just don't have the taxpayer support to do it.
    Mr. Porter. If I were on the authorizing committee, I think 
I would put a provision in the law that says you get a subsidy 
if that's the reason why you've failed to keep up the schools, 
otherwise you don't. Something similar to that.

                evaluation of safe and drug-free schools

    Let me ask you about Safe and Drug-Free Schools. If I read 
the recently released evaluation of the Safe and Drug-Free 
Schools program correctly, a major reason, if not the major 
reason, for the lack of success of the program is the high 
degree of variation at the local level or in individual 
classrooms. Is that correct?
    Dr. Tirozzi. Yes.
    Mr. Porter. In education, as in other areas, we're moving 
toward decentralized management. But in the evaluation, 
decentralized management is identified as one of the barriers 
to successful implementation, and you referred to this in your 
opening remarks. Doesn't the inherently decentralized nature of 
education mean that the underlying strategy in the Safe and 
Drug-Free Schools is fatally flawed? And how do you remedy that 
by successful practices issued as regulations?
    Dr. Tirozzi. I think one of the dilemmas, and it really is 
walking a fine line, is that, over the last several years, and 
I think rightfully so, there's been a greater push to move away 
from Federal regulations and allow much more flexibility 
respecting State and local control of education. I think as you 
walk down that path, you do run the risk of not necessarily 
knowing exactly how your money is being spent and for what 
purposes. I think what we find in a number of our surveys as we 
look at Safe and Drug-Free Schools is communities are not 
really using research-based programs that work.
    In the Principles of Effectiveness we would like to build 
into our appropriations language--and just for a moment, we're 
talking about every district doing a local needs assessment, 
having measurable goals and objectives, using programs that 
have a research base, involving teachers in professional 
development aligned with those programs--these are broad enough 
requirements that make sense and still allow districts to have 
local control. But I think, unless we really figure out ways to 
work more closely with school districts and at least have some 
parameters they must address, we're going to continue to have 
this problem with a lot of variation and schools not 
necessarily using programs that work.

                  accountability for taxpayer dollars

    Mr. Porter. Did you hear my question this morning to 
Secretary Riley about the Roberto Clemente School?
    Dr. Tirozzi. Is that the situation in Chicago?
    Mr. Porter. Chicago.
    Dr. Tirozzi. I know of it, yes.
    Mr. Porter. I'm going to ask you to answer this for the 
record, but I really would like to know what the Federal 
Government--and I'm not presuming that Federal funds were used, 
but I'm certainly presuming that there is in this school 
substantial Federal funds that allows them to use other funds--
what the Federal Government can do to see that decisions like 
those made in that school are caught before they get 
implemented. What controls do we have, or should we have?
    I just want you to think about this for me, because it 
seems to me a situation like that where practically everyone 
who reads it says ``My God, what are they doing with our 
money?''--and whether it's local money or State money or 
Federal money, it is still the money of the people of this 
country--that really brings a bad name to school administration 
and to public education generally. It seems to me we've got to 
have a way to head those off.
    And I think that falls into this, where decisions are made 
as to the use of money for Safe and Drug-Free Schools that 
aren't using proven programs that work or are doing things that 
don't make any sense. How do we manage that and keep local 
control? I think it is a question that really is a fascinating 
issue but I think I'd like to hear what your thoughts are on 
the record.
    [The information follows:]

                     Flexibility vs. Accountability

    There is always a trade-off between flexibility and 
accountability in the use of tax dollars for education. The 
more flexibility, the fewer controls and the greater the risk 
that the funds may not be well spent.
    Most educators and school administrators spend their public 
funds wisely and carefully. Few spend them poorly or wastefully 
on purpose. For example, in the case of Safe and Drug-Free 
Schools, it is likely that all school officials receiving these 
funds have the intention of creating a safe and drug-free 
school environment for their students. However, some of these 
officials may not know the most effective or proven method of 
designing and implementing drug and violence prevention 
programs. In these instances, they may be using tax dollars to 
support programs that enjoy broad community support or are easy 
to carry out, but are not necessarily based on what research 
says is most likely to reduce the incidence of drug use or 
violence among their students.
    That's not to say that Washington, or even a State 
government, should mandate a one-size-fits-all approach or 
prescribe exactly how each school must spend its funds. 
Instead, in the case of Federal funding for education, Congress 
and the Department, through legislation and regulations, should 
establish some broad processes and parameters--such as 
specifying the purposes and setting reasonable limitations on 
the use of funds, and requiring measurement of the performance 
and outcomes of programs supported with the funds.
    This is precisely what we are trying to do with our 
proposed principles of effectiveness for the Safe and Drug-Free 
Schools program. These principles would preserve State and 
local flexibility, but ensure that program funds are used in a 
manner most likely to result in positive outcomes, by requiring 
that the funds are used for prevention strategies that are tied 
to an objective assessment of local needs related to drugs and 
violence, based on research, and tied more closely to 
evaluation. The Department (as well as State educational 
agencies) also has other tools to promote accountability and 
deter misuse of taxpayer dollars. These include monitoring and 
providing leadership and technical assistance to grantees, as 
well as auditing for compliance with statutes and regulations.

    Mr. Porter. Ms. DeLauro.

                           WELCOMING REMARKS

    Ms. DeLauro. Thank you very much, Mr. Chairman. I'm 
delighted to welcome Doctor Tirozzi here and Ms. Pompa. I can 
attest to Doctor Tirozzi's education background as a high 
school teacher, as a superintendent. We grew up together in New 
Haven, Connecticut. As a matter of fact, I worked for Dr. 
Tirozzi for a while as a substitute teacher in the New Haven 
school system.
    Dr. Tirozzi. We won't talk about that on the record.
    Ms. DeLauro. We will not talk about that on the record. 
[Laughter.]

                         AFTER-SCHOOL PROGRAMS

    Ms. DeLauro. But I also might add here, it would be 
wonderful to have Dr. Tirozzi come up for an informal gathering 
to talk about the whole issue of after school programs and 
community schools. And I'll tell you why. He did his doctoral 
thesis on community schools. In New Haven, we had one of the 
first in the country, the Conti Community School. 
Unfortunately, they came to an end at some point for lack of 
funding and other reasons. But if you're reinventing that 
wheel, talking about how we keep our youngsters occupied 
between 2:00 and 6:00 in the afternoon, as well as to bring 
parents and grandparents and others into our schools and to use 
them as a resource, I think it would be a good thing to do as a 
bipartisan group to come together and have an informal 
conversation about that.
    Dr. Tirozzi. I would be happy to do that.

                        PROFESSIONAL DEVELOPMENT

    Ms. DeLauro. That would be a good thing to do. Dr. Tirozzi, 
let me ask a couple of questions. A recent study by the 
Carnegie Corporation states that U.S. school districts spend 
less than 1 percent of their resources on staff development, 
far less than 8 to 10 percent of expenditures on training 
invested by most corporations and many school systems in other 
countries.
    We are trying to move our youngsters toward international 
excellence in this country. The request for the Eisenhower 
program, the $360 million for the professional development 
program, a $50 million increase, is the increase, in your 
estimation, adequate enough to try to match what other 
countries are doing in this area, what our Nation's 
corporations are doing in this area, to bring our teachers up 
to speed?
    Dr. Tirozzi. Well, in terms of the need--and there is a 
tremendous need and a number of statistics I could cite would 
support the need--I probably would answer no, it is not enough. 
But having said that, over time we're going to have to get 
States and local school districts to understand the importance 
of professional development and commit their own funds.
    I think the Eisenhower program is at least moving us in 
that direction. I would sincerely hope over time it is the kind 
of program that could grow exponentially. We really need quite 
a bit of money in that program.

                   TECHNOLOGY LITERACY CHALLENGE FUND

    Ms. DeLauro. In Connecticut, there has been a very active 
effort, and I've been really proud to be involved, in the 
Connect '96, a program to get area businesses to help local 
schools get onto the Internet. What we've tried to do is to 
link businesses, like the Bayer Corporation, a pharmaceutical 
corporation in Milford, Connecticut, to link them with a school 
district to help sponsor these linkups. How does your 
educational technology initiative utilize private support to 
help hook up the public schools?
    Bayer provided the funding to hook up 20 of the schools in 
New Haven. Other companies did this in other areas, in Hamden, 
in West Haven, in Milford, etc., to try to make sure that our 
schools were being put on-line.
    Dr. Tirozzi. These particular grants are formula-driven 
grants that go to all States in the Nation, and every State has 
to develop a technology plan. As part of that plan, we do in 
fact ask them to look at how they're going to leverage that 
money to work with other community resources including business 
and industry. We have found instances where some States do that 
very successfully, depending upon a number of factors including 
the resources they have in their States.
    But I would definitely agree with you that while this is a 
school's responsibility, it is an excellent area for business, 
for corporations, for industry to come on board with school 
districts to really support their efforts. I think some of 
these ``Net Days'' we've had across the country have been 
creative ways to get the business community revved up about 
getting involved in schools. You're from New Haven. I think the 
telephone company there should be very much involved in these 
efforts. So I support that and our grant attempts to drive that 
kind of support.
    Ms. DeLauro. We should encourage businesses in any way. 
I've found that the business community was enormously 
responsive. What we tried to do, just within my district with 
18 towns, was to try to take the responsibility for being in 
touch with the businesses and corporations in the area. I found 
in some instances that someone who went to the Edgewood School 
or went to the North Branford Elementary School, and they had 
their business there, was very interested in providing that 
$600 or $700. This amounts to helping get the schools hooked 
up. I think that this is a way in terms of resources, of which 
we are short. And if there's any way in which your efforts can 
encourage the business communities to make an investment, I 
think that would be----
    Dr. Tirozzi. That's a significant part of our strategy.

                            CHARTER SCHOOLS

    Ms. DeLauro. A recent report by the Hudson Institute notes 
that State charter laws regarding charter schools are 
``stronger on theory than practice when it comes to 
accountability and evaluation. No State has in place a fully 
satisfactory plan, though several are making good progress.'' 
The President's budget request doubles funding for charter 
schools. How will this increase help to enhance accountability 
in these schools?
    Dr. Tirozzi. While hopefully States will develop 
legislation that waives a number of regulations, the way our 
legislation is written they must be held accountable for 
student achievement. We're not backing away from that. The 
irony is it is easier to close a charter school that is not 
addressing accountability than it is to close a traditional 
elementary school that goes on year after year after year and 
does not address accountability. It's almost as though we have 
two standards.
    I think in fairness to the charter school movement, it is 
really only in its second full year nationally. We're in the 
process right now of doing an evaluation, the first evaluation, 
which really will not address achievement as much as a number 
of the characteristics around charter schools. That should be 
available in a month or so. But we drive very hard the issue of 
accountability, and the State laws and local school boards 
really have to work with us very closely.
    I said in my opening statement, and I want to say it again, 
I don't think the Federal Government in and of itself can, nor 
should it, ever be responsible for all of these issues. We have 
to have a real sincere good faith effort with States and local 
communities because that is where accountability really resides 
and that is where I think we're going to have to hold people 
fully accountable.
    Ms. DeLauro. It would seem that if we are embarking on this 
new direction, it is critical that piece be front and center at 
the outset. We have all talked here today about the instances 
of where we don't have that accountability and it would seem 
that if we go down a road, which seems to be a good 
alternative, that we build in that piece right away so that we 
don't find ourselves a few years down the line in some of the 
same circumstances we are today with some of these programs.
    Dr. Tirozzi. We agree with that.
    Ms. DeLauro. Thank you very much, Mr. Secretary. Thank you, 
Mr. Chairman.
    Mr. Porter. Thank you, Ms. DeLauro. Mr. Bonilla.

                     PUBLIC APATHY ABOUT EDUCATION

    Mr. Bonilla. Thank you, Chairman. Earlier the Chairman was 
talking about something that I talk about all the time when I'm 
back home or, frankly, when anyone is willing to listen to an 
argument about what's happening to our society and education. 
In talking about why people don't turn out for bond elections 
and why they don't approve them. I'm just appalled oftentimes 
in our part of the country that you can hardly get 10 to 15 
percent of the people to vote in a bond election. Yet, people 
spend 40 percent of their waking hours watching television and 
they won't take enough time to learn how important it is to 
build classrooms for their students. They won't go to the 
student activities at school and they won't spend 15 minutes a 
night talking about their homework. In the last 20 years, we 
have research galore pointing out how significant it is for a 
parent to care about their child's education.
    Quite frankly, I don't know what the answer is except to 
stimulate more local involvement. But I think it is human 
behavior and human nature to say, well, it's somebody else's 
problem to solve, and that maybe if we get Washington to 
provide more funds for something it is going to go away. We're 
spending tons more money now than we ever have on education in 
this country. You look in our own backyard here where they 
spend $9,000 per pupil in the District of Columbia and they 
still can't educate their kids.
    I don't know what the answer is, and I know that you think 
about this all the time. But the Chairman set me off when he 
brought this up earlier about school board members. I grew up 
in a district that the school board was so bad that all the 
teachers quit when I started high school and we had to go to 
school in shifts because they were more interested in their 
little territorial turf battles. And most recently, about two 
or three years ago, during the school board elections they had 
candidates going after each other with hammers and they had to 
call the police out. It's funny, but who loses? The students.
    Frankly, these stupid parents that sit at home and watch TV 
all night and check out videos. They have wonderful television 
sets, they have all the videos they want to watch, some of them 
get great cell phone deals, they wonder what they're going to 
do Saturday night, and they don't care about the kids. Again, I 
don't know what the answer is. God bless you if someday you can 
think of it, but so far I have not heard how to get in that 
home and get those parents to care about what is going on at 
school.
    Dr. Tirozzi. You've raised a very significant issue, a very 
fair issue. I've actually lost sleep thinking about that issue 
myself.
    Mr. Bonilla. It's a serious problem.
    Dr. Tirozzi. As a matter of fact, only 8 to 15 percent of 
the population votes in school board elections. We talk about 
local control, and that's a very small percentage. I think 
there are a lot of issues regarding our civic responsibility in 
this country that we have to think about long and hard. I think that 80 
percent of the households in this country don't have children in 
schools, and 25 percent of the voting public now belongs to the AARP. 
It is an older society. I think it is something Congresswoman DeLauro 
spoke to earlier. I'm not going to suggest this is the answer, but I 
think if the community could see the schools in a different light, if 
they were open longer, if they served myriad community functions, 
parenting functions, and were open weekends and summers, maybe people 
would begin to think differently about the schools.

                    parent involvement in education

    I also think that, for some of the initiatives we're 
talking about in this budget and in other programs dealing with 
parenting education, we make the assumption that everyone is a 
good parent. That's just not true. By the way, I want to make 
it clear that I'm not suggesting that the Federal Government 
has the answers to parenting. But I think if we provide 
districts with money and support so schools can begin to work 
with parents in the formative preschool years in programs like 
Head Start, Even Start, and Parents as First Teachers, to me 
these all make sense. I'm not writing off a generation, but 
unless we begin to start early, you're going to sit in that 
seat 20 years--or someone is going to sit there for you--and be 
asking the same question of another Assistant Secretary. Notice 
I didn't say I was going to be here in 20 years. [Laughter.]
    Dr. Tirozzi. So, without question, I think that's a very, 
very serious question you raise. I can't give you a simple 
answer.
    Mr. Bonilla. I don't expect you to. The reason I asked it 
is not just because the Chairman brought it up, but also 
because I think there is a tendency to cop out and say that if 
we only had one more Federal program, if we only could give you 
$10 billion more, it would go away. It's not going to go away 
until somehow we change. I often speak about becoming victims 
of our own materialistic success in this country and, 
therefore, spending more time on those things than on what 
really matters. I'll stop with that and get on to a specific 
question.

                reprogramming bilingual education funds

    Ms. Pompa, I would like to ask you, first of all, a 
question about the issue that you and I have corresponded about 
over the last few months, and that is reprogramming of 
bilingual funds. Just to review, and I know you know this, but 
for the benefit of others, I grew up in a Spanish-speaking 
neighborhood. I understand the significance of bilingual 
programs and I have supported transitional bilingual programs 
lasting only three to five years to get kids mainstreamed so 
that they can become immersed in English and learn as quickly 
as possible. I supported the bill last year which provided 
bilingual education for an additional 1.1 million students. You 
know where I'm coming from.
    The controversy we all got involved in last year was the 
reprogramming request from Bilingual and Immigrant Education 
Instructional Services to Professional Development and Support 
Services. Simply put, taking money from out of the classroom 
and giving it to administrative functions. I met with educators 
back home about this who were very concerned about it. I was 
concerned it was going to cut 315,000 students out of the 
program. I also spoke about not being opposed to training 
bilingual teachers but instead taking the money from the pot 
that's designated for students. Why couldn't the Education 
Department find other sources of funding to reprogram? For 
example, the Office of Education Research and Improvement, 
which received $15 million more than the administration's 
fiscal year 1997 request, and $16 million over fiscal year 
1996. Also the Eisenhower Professional Development account, 
which was increased by $35 million over the previous year.
    My simple question is, why couldn't we find money to 
reprogram from areas like this that we feel we're providing 
lots of money for rather than take it from money that was 
designated to be used in classrooms for bilingual education?
    Ms. Pompa. And my not so simple answer is that I would like 
to bring in my fellow assistant secretaries to testify as to 
the need in their own offices for the money that they received. 
The Office of Education Research and Improvement did receive 
additional money but the money was spent on other important 
areas. There were many other mandates that had been placed on 
them for which the money was needed.

        professional development of bilingual education teachers

    I would respectfully disagree that it is taking money out 
of the classroom and into teacher development. Teacher training 
and teacher development and the creation of new teachers 
actually is money that goes into the classroom. Without those 
teachers there, we cannot teach these children. Unfortunately, 
the shortage is so great in bilingual education that we do need 
a designated flow of money to train these teachers. There are 
other programs in the Department, such as Eisenhower 
Professional Development and Pell Grants, but bilingual 
teachers are in a way a unique breed.
    Most bilingual teachers actually are already in a classroom 
but they don't yet have the skills and what's necessary to 
teach LEP children. So most bilingual teachers in training are 
actually teachers who are going to school on their own at night 
part-time. That is coupled with the fact that universities and 
colleges have not had the capacity to train bilingual teachers 
because they don't have faculty on board, they haven't 
developed the course structure, they haven't put an 
infrastructure system in place to provide bilingual certification. Much 
of our money goes for that sort of infrastructure development which is 
capacity-building for the universities and colleges.
    Some of our money goes toward tuition to provide these 
teachers with some financial assistance. Unfortunately, not all 
the universities that are geared up to train bilingual/ESL 
teachers are public universities. Many are private 
universities, and the tuition on a teacher's salary is almost 
prohibitive. So for a person who is spending all her or his day 
in the classroom to support a family and then going to school 
at night, that person needs some financial support to go to 
school to get the skills he or she needs to work with LEP 
students during the day.
    As I said, it is a complex answer because it includes 
infrastructure development at the universities, tuition 
assistance to teachers who are in training, and the fact that 
we really do not have any place to move the money from in other 
offices outside of Bilingual Education.

                reprogramming bilingual education funds

    Mr. Skelly. Mr. Bonilla, I might add that when the 
conference committee met last year, it indicated to us in its 
report that the Appropriations Committee would be willing to 
consider a reprogramming in Bilingual Education. The kinds of 
changes you were talking about, moving money from other 
accounts, would not have been a reprogramming. That would have 
been a formal transfer of funds that would have required an act 
of Congress and would have had to be signed by the President. 
That's not something we could have done in that time period.
    Mr. Bonilla. Mr. Skelly, I don't think some people 
anticipated that the reprogramming amount would be as large as 
I think we eventually were looking at in the last few months. 
But I appreciate your comments.
    My point on this whole thing, the teacher who is working 
all day and needs that special training at the end of the day 
and an extra break, we're totally supportive of that. Again, it 
is just a question of whether the Department of Education in 
general was placing its priorities in the right place. I just 
felt very strongly then, and continue to feel strongly, that if 
we need to reprogram money and if we need to do it a different 
way, then we ought to keep what is supposed to be in the 
classroom first and take it from someplace else.
    Do I have any time remaining, Chairman?
    Mr. Porter. I'm afraid not. We will probably have time for 
some additional questions after the first round, however.
    Mr. Bonilla. Thank you.
    Mr. Porter. Thank you, Mr. Bonilla. Mrs. Lowey.

                        proposed national tests

    Mrs. Lowey. Thank you, Mr. Chairman. Welcome Assistant 
Secretary Tirozzi. I'm very interested in the President's 
proposal to develop voluntary standardized tests to assess our 
students' English proficiency in the fourth grade and math 
proficiency in the eighth grade. As you know, my State of New 
York has embarked on an ambitious goal requiring all students 
to take math and science courses at the level of the State's/
regions honors exam. As a result, entering freshmen at the City 
University of New York have become the most academically 
prepared in decades.
    I don't think this is the first time that the idea of a 
national voluntary standardized test has been proposed. In 
fact, I think President Bush called for a voluntary nationwide 
exam in five core subjects, and correct me if I'm wrong about 
that. To allay fears that this would represent a Federal 
intrusion into local control of education, can you tell us how 
you expect local school districts to use these tests? Will 
there be any sanctions imposed in those local districts that do 
not use the test, say a loss in Federal funding? And once the 
tests are developed, what role will the Education Department 
play?
    Dr. Tirozzi. First, it is crystal clear that this will be a 
totally voluntary effort. There will be absolutely no sanctions 
imposed if the State or district does not want to participate. 
The President is recommending that we use the National 
Assessment of Educational Progress (NAEP) test in grade 4 for 
reading. NAEP has been around for about 27 years, it is 
recognized as very rigorous, it has been validated, and it has 
very high standards. As a parent myself, I think it would be 
great to know how well my child was doing in relationship to 
other youngsters in the country in fourth-grade reading. We've 
isolated that fourth grade on purpose, for the NAEP test, 
because, as I said earlier, if we determine that a youngster is 
not reading independently or at grade level by the end of grade 
3, there are some serious problems ahead for that youngster. So 
I think that the proposed test would make a very strong 
statement as would a test in the eighth grade that looks at 
math and algebra. We want youngsters to master at least algebra 
functions by the end of the eighth grade. In this country, 
we're not doing a good job of that. Again, it gives parents an 
opportunity to know how their children and schools are doing.
    The kind of information tests will generate, if districts 
participate, is not only a district score, but a school score, 
a classroom score, and a student score. The parent would get a 
copy. The other thing we're talking about is that every year we 
would develop a new test so the old test could be put on the 
Internet, and copies can be sent home. This is a perfect 
example of where you want people to teach to a test. Once you 
clearly identify the skills that students should master, there 
is nothing wrong with teaching to a test, especially a basic 
reading and a basic math examination.
    We propose to pay for the start-up costs of the exam. We 
would pay for the first year of administration. We wouldalso 
hope that districts would become creative and figure out ways that this 
test could take the place of some of the tests they now use or, in a 
variety of ways, supplement what they're now doing.
    I personally want to step back and again call on my own 
experience. I would really support this if I were a 
superintendent or a commissioner right now because I've 
developed statewide tests. They cost a fortune. There are 40 
governors in this country with Project Achieve who are thinking 
about national standards. I applaud them; I hope they do it. 
But it costs money to do all that.

                      need for rigorous standards

    Also, one has to question the rigor of standards. I want to 
give one example to this committee, just one. Education Week 
came out with a report approximately a month or two ago. Some 
people call it a report card on schools. They showed standards 
State-by-State. There is one particular chart--and I won't name 
the State, you can look it up. I don't want to embarrass the 
State, that's not my intention--it shows a particular State 
where in the fourth grade 85 percent of the kids meet the State 
standard in reading. So I think the people in that State will 
go to bed at night, sleep well, feeling good. If you look in a 
parallel column, same youngsters, same year, NAEP, 15 percent 
of the youngsters reached the NAEP standard. That talks about 
dumbing down the curriculum, a watered down standard.
    I think what the President is saying, what the Secretary is 
saying is let's talk about rigor. Let's raise the bar. I think 
it is a heck of a challenge for America. We absolutely do not 
anticipate any intrusion or penalties. It just won't happen. I 
can't imagine Congress ever allowing it to happen, nor should 
they. I've never heard that intention.

                        Analysis of Test Results

    Mrs. Lowey. But will the Education Department do any 
comparative analysis of perhaps school districts, different 
parts of the country following up on these tests?
    Dr. Tirozzi. What's interesting is what those results--
correct me, but we're not going to see those results 
necessarily for the individual schools--could do over time. We 
will continue to administer the national NAEP. So if students 
are improving, we'll get a sense of how the country is doing, 
which we think is our role, and if Connecticut is not doing 
well, that's a responsibility for Connecticut and its school 
districts. That's the power of this, and I think it proves our 
respect for State and local control.

                            charter schools

    Mrs. Lowey. I want to follow up on a question my colleague 
asked about charter schools. You are requesting doubling of the 
funding for charter schools. I know that many educators see it 
as a way to bring about innovation and improve student 
achievement in public education. Yet, I think it is extremely 
important that the use of Federal funds be thoroughly 
evaluated, particularly since the process for establishing 
charter schools varies so widely from State to State.
    You were talking before I believe about accountability, 
that there needs to be State and local accountability. Could 
you just perhaps discuss with us again the Department's plans 
to evaluate the charter schools. This is a lot of money and I 
have real concern about what the charters consist of. Since it 
is Federal dollars going in there, I think perhaps we have an 
additional role other than just leaving it to the State and 
locals.
    Dr. Tirozzi. We do have a definitive role. We're doing a 
several-part study. The first part, which will be ready this 
year, is basically--and I've talked with the evaluators and I 
get a sense of what they're trying to do--going to give us a 
good look at what charter schools are, what the basic 
demographics are, where the kids are being recruited from, some 
of the critical questions on special education, equity, gender, 
and any bias. We're going to really be able to look at that 
across the country.
    Also, they are going to be looking at the issue of 
accountability. They are actually going to be administering a 
pre- and a post-test to youngsters in charter schools and using 
a control sample population to do a comparison study. That 
won't be ready until the second year of the evaluation. So in 
that respect, we are going to be able to give you a report.
    One of our goals, however, in working very cooperatively 
with States, is where States have to take a major 
responsibility to monitor their own legislation, the quality of 
the programs within the State. We think that's very important. 
On average, right now we're providing about $50,000 to $60,000 
per school as start-up money, planning money. It is really the 
local money and the State money that largely supports these 
programs, not really the Federal money, per se. Even with the 
new proposal, we maybe could go up to $100,000 per school, 
which is just a very small amount of the money they need to 
really get one of these schools up and running.
    I think in a very positive way what I would represent to 
you is that I think charter schools fall into this context of 
looking at public school choice and really trying to give 
parents a choice in the public sector. I think the safeguard we 
have with public school choice is if it doesn't work, as I said 
before, our local school board can shut the school down; 
whereas, if it is a voucher and you're dealing with a private 
school, you don't have the authority to do that and you just 
keep giving the money away. You have a failsafe in this 
program.
    Again, it goes back to the partnership concept, with States 
and local communities working together. Believe me, we're going 
to try to make certain we're accountable, but we have to make 
sure the States and locals do their job.

                             school-to-work

    Mrs. Lowey. I thank you. In another area, those of us who 
have followed the development and implementation of the 
administration's School-to-Work program have had high hopes for 
its success. I see the program as a high quality alternative to 
the traditional college preparatory curriculum. It provides an 
option to those students who want a demanding curriculum and a 
solid career but may not choose to attend college. For years, 
many of these students fell through the cracks.
    The Departments of Education and Labor have begun a five 
year independent national evaluation of the School-to-Work 
program. I understand that you have some preliminary findings. 
Could you discuss with us the highlights of these findings. Did 
the study examine whether the program has had a positive impact 
on earnings or look at other measures of its impact on the 
long-term career opportunities of participants?
    Mr. Corwin. Mrs. Lowey, the program isn't in Dr. Tirozzi's 
jurisdiction. Assistant Secretary McNeil will discuss it 
tomorrow morning. However, I can say the first phase of the 
evaluation should be available this spring. Because School-to-
Work is very new, this first report won't really get to program 
outcomes, particularly in earnings where you have to go out a year or 
so after the students have completed a School-to-Work program to really 
know what's going on.
    It will look at State and local progress in putting 
together their School-to-Work systems, what School-to-Work 
looks like in different communities, because it is a very broad 
concept and it means different things to different people; how 
early it starts, for instance, the extent to which it begins as 
early as elementary school; the kinds of experiences that 
students are having, for instance, what the work experience 
component looks like; and whether the work experience is really 
tied to their curriculum or is it just the typical job at 
McDonalds or something like that.
    Another major area will be the extent to which the 
practical part, the vocational part of the curriculum is really 
tied to academics, something we've been hearing about for many 
years. In the past, there has been mixed experience with that. 
But Assistant Secretary McNeil will be able to tell you more 
about it tomorrow.
    Mrs. Lowey. I don't know if my time is up. Is it?
    Mr. Porter. It is.
    Mrs. Lowey. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Mr. Porter. Thank you, Mrs. Lowey.
    Mrs. Northup.
    Mrs. Northup. Thank you. I guess I should start by saying 
that some of my questions are geared towards an overall 
confusion or doubt that the programs we're putting in place 
really halt the major efforts that many of the States are 
making. In fact, it is like walking in half way through the 
show and mixing the whole pot, causing resources to go in 
entirely new directions even when the States have made fairly 
substantial progress of their own. I want to ask a number of 
questions along those lines.

                   problems in meeting high standards

    The first question is about higher standards. You used 
Kentucky as an example of the higher standards, the higher 
standards of tests. And you're quite right, our standards are 
going up. But I would like to tell you what two unrecognized 
problems with this are. First of all, one of the pressures as 
soon as you have higher standards is to raise the number of 
curriculum hours that most children have to take to graduate 
from high school. Say you have to take three years of math 
instead of two. Most of the people in this room are able to do 
that and they would achieve at a higher level. But there are 
lots of students in our high schools that simply can't pass a 
third year of math.
    Some of the problems that it engenders are, number one, we 
have an increasing number of children that are in our schools 
that are in vocational tech programs where there are crying 
needs for their talents, for their skills. These programs 
turned out 30, 40 students in each one of these skill levels. 
But now they are turning out one or two because the child can't 
pass geometry. And so he goes back and takes geometry the next 
year. That pulls him out of the whole fourth, fifth, and sixth 
period of carpentry skills or electronic skills or so forth.
    So what you're really creating is a situation of where 
children who have the best opportunity at a skill and really 
have successful School-to-Work transition have no chance now. 
Like I said, in the schools in Kentucky where we've raised 
these standards, it is great for the kids that are in the 70, 
80, and 90 percentile. But for the kids that are in the 30, 40, 
and 50 percentile, they can't even get in the skill programs 
because they can't get out of high school.
    The second problem is it causes tremendous pressure to 
water down, for example, algebra II. Believe me, these are very 
tough problems. For a child that cannot pass algebra II, the 
high school is faced with a dilemma of either watering down the 
class or the child does not get a diploma. Would you care to 
comment on that?
    Dr. Tirozzi. I think one of the reasons many youngsters in 
our country, especially urban youngsters, can't pass algebra II 
is because people have told them over and over again over the 
years they can't pass algebra II.
    Mrs. Northup. Well, that's easy for somebody that is a 
teacher to say. I happen to have a child who is going to take a 
fifth year of high school and she will never pass algebra II.

                     problems with low expectations

    Dr. Tirozzi. Mrs. Northup, without question, we have 
youngsters who will probably never pass algebra II. On the 
other hand, I am simply trying to make the point that if you 
look at the percentage of youngsters in our urban communities 
and our poor rural communities who are taking advanced math, I 
think it is a national disgrace--I'll say that very candidly. I 
think we have a lower set of expectations for those youngsters. 
And guess what they do? They rise to the lower level. And in 
many of our high schools we teach terminal math that leads 
absolutely nowhere.
    Unless and until we can get those youngsters the skill 
background they need, even if they want to go into a vocational 
career--and most things are automated today, most things are 
linked to technology today--short of going to a McDonalds, with 
all due respect, and putting out a hamburger and a hot dog, 
they are not going to get the types of jobs we want them to 
get. So when we try to say we're raising the standards, I think 
it is making a strong statement for equity, that we would like 
to think or we believe that all children can achieve to a high 
standard, respecting the distribution of youngsters and that 
some youngsters may never get there. But the point I'm trying 
to make is at least they should know they have a chance to 
climb the mountain.
    And to your point about taking more courses, one of the 
problems with school reform--and I saw this myself--if you look 
at most States, what we've done is--we call it school reform--
we require more courses. You pass four years of English and you 
graduate from high school. But no one knows what you take in 
four years of English or what it attests to at the end of the 
journey. I call it ``we sentence you to schooling''; you serve 
the sentence of 12 years.
    I think high standards, some way to assess the high 
standards, is a great way to address equity and to meet the 
needs of youngsters.

                      realistic goals for children

    Mrs. Northup. Well, there are certainly children in some of 
our schools that are not achieving at their level. But the 
point is that when we listen to the President talk about every 
child going to college, it flies exactly in the face of 
understanding that successful school-to-work transition that 
ought to be the goal that many children have. It absolutely 
drives us in the opposite direction. If you want an example of 
it, I'll take you to Louisville, Kentucky, where we have kids 
who could have come out of high school and had a job that's 
waiting for them in electronics, in carpentry and they aren't 
in these programs because they can't pass geometry today and 
they have to have that.

          school construction and prevailing wage requirements

    I would like to ask you about school construction money. 
What percentage of the $5 billion would you imagine that would 
be in the total school construction budget nationally? Would it 
add 10 percent, would it add 15 percent?
    Dr. Tirozzi. Our goal--what we estimate--is that the $5 
billion could leverage approximately $20 billion in new 
construction.
    Mrs. Northup. Would those new projects have to fall under 
Davis-Bacon protection?
    Dr. Tirozzi. Yes.
    Mrs. Northup. Yes. So let me give you another example. In 
Kentucky, we just put school construction under prevailing 
wage. It is going to cost school construction projects an 
additional $35 million to what it would have cost before they 
were under these requirements. So any State that currently does 
not put State construction money under Davis-Bacon, or 
prevailing wages as it is usually called locally, if they 
leverage this money, it is liable to be a trade-off. They will 
get Federal dollars, but the fact that they have 20 percent 
additional costs now because of the Davis-Bacon provisions will 
drive up their costs and absolutely negate the fact that they 
will get any more school buildings. Is that not true?
    Dr. Tirozzi. The research I've seen on Davis-Bacon would 
not support that. It really deals with the prevailing wage. 
Most States and most districts are, in fact, paying the 
prevailing wage.
    Mrs. Northup. Excuse me. I think that there is a study that 
GAO did that shows there is about a 20 percent increase in each 
school that is done under prevailing wage or Davis-Bacon. That 
was just completed and it was a very broad-based study. It 
shows that States that implemented prevailing wage legislation 
pay considerably more.
    We happen to know in Kentucky because this is the first 
year that we're under prevailing wage and it has increased the 
cost of schools $35 million. So there is very concrete evidence 
that if the Federal law is applied to school construction it 
will push up local construction costs.
    Dr. Tirozzi. Tom, do you want to respond?
    Mr. Corwin. We don't have a lot of expertise in the 
Department on Davis-Bacon. It is enforced by the Department of 
Labor. We've spoken to them recently about it because of this 
issue in connection with the school construction legislation. 
They haven't said anything to us about a recent GAO study. The 
only one that they could tell us about was from back in the 
1970s which they said, at this point is out of date, doesn't 
reflect changes in Davis-Bacon regulations that occurred back 
in about 1983, and doesn't reflect modern practices in the 
construction industry.
    Mrs. Northup. Well I would be glad to provide that report 
to you.
    Mr. Corwin. Okay. But Labor does not believe that there are 
reliable statistics, at least nationally, that show an 
increased cost due to Davis-Bacon. I know there will be in some 
areas, but they say in others you end up making it back in 
productivity.
    Mrs. Northup. Actually, that is one claim that was made in 
a study at the University of Utah that was funded by the AFL-
CIO. That is the only one that shows there is no increase in 
cost. There is another study, if you look at Indiana, they just 
changed their law to eliminate prevailing wage. They bid a 
school, there was a problem with it, they came back two months 
later and rebid it, it saved $600,000. So I think that if you 
look at the most recent information, you will see that by 
adding Davis-Bacon's provisions to school construction, that 
will offset any money we put out there by making it comply with 
those Federal building regulations.
    I know I've gone over, Mr. Chairman. I apologize.
    Mr. Porter. Thank you, Mrs. Northup.
    Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman. Secretary Tirozzi, 
Director Pompa, thank you for your testimony today. More 
importantly, thank you for the dedication that you bring, all 
of you, to your work.
    I know that this is not a labor part of our hearing, but I 
want to continue on the previous line of conversation. I think 
if we're going to talk about Federal outlays of the taxpayers' 
dollars, we have to do it in a very comprehensive way. And, 
indeed, on this very committee and in other subcommittees of 
the Appropriations Committee, we are subsidizing low wages in 
this country, whether it is with food stamps, housing 
subsidies, earned income tax credits, the list goes on and on. 
I think it is very important for us to recognize that as we 
subsidize low wages, we are increasing the burden to the 
taxpayer. At some point, we have to look at this 
comprehensively and not rob Peter to pay Paul someplace and 
think that we are saving money.

                       bilingual teacher shortage

    But my question that I came to the hearing to talk to you 
about is about bilingual education. Ms. Pompa, you know that 
America's schools face a shortage of professionally trained 
bilingual and English as a Second Language teachers. The 
Department of Education has stated that approximately 80 
percent of all school districts have reported difficulty in 
obtaining qualified bilingual education instructors. The 
California State Department of Education has recently reported 
that it has a need for an estimated 32,797 teachers to serve 
its LEP population but there are only 12,105 qualified teachers 
available.
    The bilingual education teacher training program is the 
only departmental program that directly addresses this 
bilingual and ESL teacher shortage. I want to follow up on some 
of the conversation before. The budget request for Bilingual 
and Immigrant Education is $354 million, an increase of $92 
million over fiscal year 1997. Bilingual education support 
services and professional development were eliminated in the 
subcommittee last year. You made a reprogramming request for 
$33.4 million, and $15 million was reprogrammed.
    Our subcommittee did not provide funding for bilingual 
education support, as I mentioned, which led to the 
reprogramming efforts. Can you tell us why it is important for 
the Department to fund support services and professional 
development? You touched on it earlier, but I want to give you 
more expanded opportunity to comment. And if you would, also 
address the consequences of not being able to reprogram all of 
the fiscal year 1997 bilingual education funds that the 
Department requested.
    Ms. Pompa. Thank you. Let me start with the consequences of 
reprogramming. We were unable to address the massive teacher 
shortage. We proposed to reprogram $20 million for professional 
development in fiscal year 1997, $5 million less than we're 
requesting in fiscal year 1998. Under the fiscal year 1996 
reprogramming, last year we only received $1 million and in 
1997, we received $5 million. So in 1996, we trained about 
4,800 fewer teachers than we would have. In 1997, we're going 
to train about 4,000 fewer teachers than we wanted. Also, we 
were forced to cut back on a number of the dissemination 
activities that we undertake through our support services program.

                      need for bilingual education

    Bilingual education, and this goes on to the rest of your 
question, is a fairly new approach in this country. I say that 
even after 25 years because bilingual education has evolved in 
some very meaningful ways. We used to think of bilingual 
education as that program for those children who spoke Spanish, 
and it was a much smaller number of children. We now serve well 
over 100 languages in this country. Our populations are very 
diverse. Not only are they diverse, LEP students are now found 
throughout this country in places where one would not expect to 
find them or historically we have not found them. We used to 
think of bilingual education as something that only happened in 
Florida and California and Texas and New York. We now have 
students in Wisconsin, we have students in Arkansas, we have 
students in Missouri, we have students everywhere.
    What this all leads to is the need for a coordinated 
program that has what we call the three legs of the stool. If 
you conceptualize bilingual education as a stool, it needs the 
three legs to support it. One important leg is the 
instructional services grants that go directly to the 
classrooms and to teachers to implement programs in districts.
    That second leg is the support services leg. This leg is 
the component that disseminates information to Fayetteville, 
Arkansas about what to do when they get immigrant students in 
their schools, how to provide services for those students. This 
is not something the State of Arkansas, for example, was 
prepared to do when the poultry packing plant was built in 
Fayetteville and suddenly they had immigrant students and 
students who didn't speak English in their districts. Someone 
has to coordinate those support services. The State education 
agency provides training in this area, they provide the 
infrastructure for the State to serve these students, to 
provide the information to districts. In addition to that, we 
provide the information from a national level for new and 
start-up programs.
    The third leg of the stool is professional development, 
which is a very, very important leg and must be very strong. We 
have a severe shortage, as I mentioned earlier, of bilingual 
and ESL teachers in this country. The shortage tracks the 
increase in the number of students, clearly. But we still have 
shortages in districts that have traditionally had bilingual 
programs. We just can't keep up with the growth. Teachers need 
very specific skills to be able to work with LEP children, 
whether or not you use the native language in the program. Even 
ESL teachers need very specific skills and they need a very 
focused program of training to help them prepare to teach LEP 
children.
    Without this coordinated effort of professional development 
to make sure we have qualified teachers in the classroom, 
instructional services that allow districts to create the 
programs they need to meet the local needs of the students, and 
the support services component which provides the 
infrastructure of information dissemination, capacity-building, 
and development of overall technical assistance, you can't run 
a bilingual education program.

                        proposed national tests

    Ms. Pelosi. I appreciate that. This morning I asked the 
Secretary about the President's plan for voluntary national 
assessment tests for reading and math, stating that it was my 
understanding, and it is so, that the LEP students will be 
excluded from these reading tests. Can you relate what you just 
said about the need for the reprogramming to that?
    Ms. Pompa. Certainly. Let me clarify a little bit. They 
won't be totally excluded. What we have built into the national 
reading test at the fourth grade level, which is only offered 
in English, is a three-year exemption. That means if a LEP 
student has been in the public schools less than three years, 
that student would be exempted. However, we are very eager to 
determine what accommodations would have to be made so that 
students could take the test. We really want our students to be 
assessed so that we can be held accountable as districts and as 
a Nation for how the students are performing.
    Part of the funds that we are requesting would provide the 
research money necessary to determine at what point a student 
is ready to be tested in the second language, to determine what 
accommodations can be made so that LEP children can be tested, 
can be assessed. Also, that money would provide us some of the 
necessary piloting for a national assessment of those students.
    At the eighth grade level, however, we are planning that 
those algebra tests would be translated for the populations 
which have a sufficient number of students to warrant that.

                          violence prevention

    Ms. Pelosi. Thank you, Director Pompa. Secretary Tirozzi, 
this morning some of my colleagues expressed serious concerns 
to Secretary Riley about the effectiveness of the Safe and 
Drug-Free Schools Program with regard to drug prevention. But I 
would like to know about the success of the violence prevention 
efforts. Also, is there any part of the program that responds 
to the needs of children who experience violence at home?
    Dr. Tirozzi. Yes. In fairness, some of the very same 
problems we experience in drug programs we experience in some 
of the violence programs as well. People are just out there 
picking up programs that they think are going to make a 
difference. I would make some of the same comments I made 
earlier about our Principles of Effectiveness for all of our 
programs, including these.
    One of the things we strongly encourage schools to have is 
significant outreach to communities and to parents and to 
community organizations. Bill Modzeleski, who is our Director 
of Safe and Drug-Free Schools, is here and has personally gone 
out to a number of communities and assisted them in working on 
violence prevention programs.
    I think what's interesting is that, across the country, 
most of the violence ``prevention'' programs are not 
prevention. It is just hiring of more security guards, or 
putting up more metal detectors. You have some wonderful 
programs, things like--and actually this program would cross-
over to drug prevention as well--Jim Comer at Yale, his school 
development program. Programs like that are very, very 
instructive and helpful in terms of what we can do in our 
schools.
    But unfortunately, regrettably, I think a number of school 
districts are just rushing forward to try things. They aren't 
basing it on research. They aren't necessarily basing it on 
what works. I should add, parenthetically, that this is one of 
the reasons why all the national activity money forthe 
Department is so very important, because it allows our program 
directors to work with communities and States to develop some national 
initiatives, some institutes, some programs, some conferences, 
materials, and literature to support what they're doing.
    Ms. Pelosi. Thank you, Secretary. My time is up.
    Mr. Porter. Thank you, Ms. Pelosi.
    Mr. Miller.

                            davis-bacon act

    Mr. Miller. Good afternoon. One comment, following up on 
Ms. Northup, about Davis-Bacon. Being from Florida where we do 
not have a prevailing wage, if this was implemented, which a 
lot of people have doubts about, even Mr. Obey was questioning 
it this morning, a State like ours that does not have 
prevailing wage would probably be eliminated from the program. 
A State like Connecticut that has one, it won't affect them. 
But it would definitely cost money. CBO, by the way, has 
scored--if we eliminated Davis-Bacon, the Federal Government 
would save close to a billion dollars a year. So it is a costly 
thing according to CBO.

                  evolution of proposed national tests

    At any rate, let me move on. On this issue of testing, you 
made the comment that this is voluntary, you would never want 
it otherwise. Well, history says all kinds of Federal programs 
end up evolving. Where the money is tied to it or such, it 
becomes almost mandatory. Correct me, is this an outgrowth of 
the Williamsburg visit where then Governor Clinton was very 
involved in the idea of testing?
    Mr. Skelly. Charlottesville.
    Mr. Miller. Charlottesville, right. I'm sorry. Right State, 
wrong city. So it is an outgrowth of that program, is that 
correct?
    Mr. Skelly. Yes.
    Mr. Miller. The question is, how was it envisioned at that 
conference of I believe it was the National Governors 
Association? Was it envisioned that the Federal Government 
would do it, or would it be an outside group such as the 
National Governors' Association or another trade group? And was 
it ever discussed to use any other vehicle besides the Federal 
Government to run the program or develop it, such as the 
National Governors' Association or some national association of 
elementary and secondary schools or something? So there's a 
whole list of questions lumped in there. I don't know my 
history as well as you do on this one, so please enlighten me.
    Mr. Skelly. I went to school both in Williamsburg and in 
Charlottesville and I've got all this down. [Laughter.]
    Mr. Skelly. And my daughter is also in the fifth grade and 
has to take the Virginia Standards of Learning test next month, 
so we're studying up on some other Virginia history.
    The 1989 summit included all the governors--for, I believe, 
only the second time in history that they had all gotten 
together--with then President Bush. One of the governors was 
then Governor Clinton. They talked about education reform. As 
an outgrowth of that, they developed something called the 
National Education Goals Panel which was trying to be sort of 
an independent body. It started off getting some administrative 
support from the Department of Education, but now it is 
completely independent of the Department. It's part of the 
Federal Government and is funded by an appropriation of--I 
think it is $1 million a year. It has representatives of the 
National Governors' Association and Congress as members. It is 
not entirely independent but it is quasi-independent.
    Mr. Miller. But the testing that is being proposed now is 
not going to be part of this independent group. It is going to 
be directly under your control, right?
    Dr. Tirozzi. Yes.
    Mr. Miller. Why wouldn't it be kept under the quasi-
independent panel?
    Dr. Tirozzi. The six national goals came out of that 
meeting that Tom was referencing. And, of course, President 
Bush and the Congress enacted eight national goals for 
education. And also there was a standards board, you may 
remember, that was enacted at the same time, the National 
Education Standards and Improvement Council, a national 
standards board where they would review standards from the 
States and give their opinion. That was abolished last year in 
legislation so that board no longer exists.
    There is a Goals Panel that still does exist. The National 
Governors' Association now has a group of 40 governors just 
beginning to work together on a project called ``Achieve,'' to 
look at national standards and how they can be achieved.

                    federal role in national testing

    I think what you're seeing here is an attempt by the 
Federal Government to provide the resources to develop a 
national assessment in reading in grade four, rigorous math in 
grade eight in the TIMSS test, then provide the dollars to 
support the development of the exam and the first year of 
administration. Of course, we would ask the local districts on 
a voluntary basis to get involved in taking the examination, 
which would give districts and States a wonderful snapshot of 
how well their youngsters are doing on a very rigorous 
assessment in grade 4 in reading and grade 8 in math.
    My own sense at the moment is that there is a rightful role 
for the Federal Government in doing this. I think we should do 
it. I don't know of any independent board that's available 
right now that could do it. I think you run into all types of 
political ramifications if we start doing that again, 
especially since we just got rid of the last group that was 
supposedly just going to look at standards, let alone testing.
    Mr. Miller. Was that part of the original Goals 2000?
    Dr. Tirozzi. Yes, I think it was part of the Goals 2000 
legislation.
    Mr. Miller. I'm talking about the outgrowth of the National 
Governors' Association. To me, that's where the emphasis should 
be is on that organization to do it.
    Dr. Tirozzi. I think in fairness, and I've never discussed 
it, I can't predict the future, but I think down the road if 
the national governors get their ball rolling, there may be 
some creative ways everyone can be involved.
    I think the problem with some of these initiatives is it's 
going to take years before some of those things happen and we 
don't think we have years to provide the kind of leadership we 
want to provide.
    Mr. Miller. A lot of us are suspicious of the Federal 
Government getting a bigger grip on public education. We can 
support the goal, but I just wish there were a more independent 
entity more responsive to the States than a Washington-based 
program.

                      number of education programs

    How many programs do you have within your jurisdiction? I 
think Secretary Riley said this morning 194. Do you know how 
many you have in your----
    Dr. Tirozzi. You mean the full Department?
    Mr. Miller. No, your area.
    Dr. Tirozzi. It depends on how you count the programs. For 
example, is all of Title I one program or do you separately 
count Even Start--and Even Start has several components--and so 
on. I would have to say in the ballpark of 45 to 50.

                     literacy and reading programs

    Mr. Miller. Okay. Getting into the question of literacy and 
we're starting this new program about America Reads Challenge, 
how many programs would you say are involved with literacy now 
under your jurisdiction? I guess some would be in the pre-K 
which isn't under yours, is that right?
    Dr. Tirozzi. We don't have pre-K. We have Even Start. We 
have the Even Start program----
    Mr. Miller. Is that considered a literacy program?
    Dr. Tirozzi. Yes. It's linked to literacy, yes.
    Mr. Miller. How many other literacy programs are there? I 
guess Title I to some extent.
    Dr. Tirozzi. Title I to some extent, yes. The major 
emphasis would be in schools. I'm trying to think as we're 
talking.
    Mr. Corwin. The various Title I programs would be Migrant 
Education----
    Dr. Tirozzi. Migrant, Indian education, and----
    Mr. Miller. I've heard there are 16 or 30 literacy 
programs. Title I being affected, obviously a lot of them are 
not directly. I guess my question gets down to, do we need 
another Federal program? Is this the best way to get a group of 
volunteers to help kids read? Mr. Bonilla was talking about we 
need to get the families involved. Maybe we should put more 
money into Even Start. But do we need to create another $3 
billion program, or was it $2.75 billion, and is this the best 
way? Do we know it is going to work? Do we have anything that 
works now?
    Dr. Tirozzi. I think something interesting--and I'm sorry 
Mr. Bonilla left because I was thinking of this after he left, 
about his concern about civic responsibility, and I agree with 
him, we're losing it in this country for a variety of reasons--
if you could look at the possibility of a million tutors 
working in our schools who will largely be drawn from 
communities, that places them in schools. I think over time, 
ideally, they will get a better sense of what is going on in 
schools and maybe we will develop a lot of community support 
for schools.
    There are studies that do show that tutoring, where the 
tutors are trained, does in fact make a difference. I guess my 
concern when we look at the reading issue in this country and 
youngsters' learning--I said it before, I don't think you were 
here--the teacher is first and foremost in the classroom. Title 
I is a very important resource, but youngsters go home at 2:30 
every day and we've got those hours after school, we've got 
those weekends, we've got those summers, and we can't just 
forget about that. In public education we take the summer off 
every year for 13 consecutive years. If we look at any of the 
research, it tells us youngsters who are behind fall further 
behind. So I think we could really substantiate the need to 
move in this direction very aggressively and try to provide 
even additional support for schools in terms of the after-
school hours, the weekends, and the summers.

                funding for the america reads challenge

    Mr. Miller. I don't disagree with you, but the question is 
do we need another new program. Why don't we just increase 
Title I funding or maybe the Even Start program, pour more 
money into Head Start, of course we're doing that anyway.
    Along the same lines, and you may not have been very 
involved with this budget, why is it a mandatory program? It's 
a game I think we're playing to get around the budget cap. It 
should be an appropriated program rather than a mandatory 
program in the budget.
    Dr. Tirozzi. Well, one thing about America Reads--again, as 
the legislation is being drafted and discussions have gone 
forth, and I've been involved--we're really going to be asking 
for schools and communities to form significant partnerships to 
develop the network of tutors we're going to need, and for 
schools to really gear up very differently to get their reading 
staff and others involved in extensive training.
    I think if they see this as maybe a one-year program, not 
being sure what the funding may be like, I'm not sure a number 
of them will jump in feet first. But if we say it is a five-
year commitment, which is what mandatory funding is about, I 
think we'd have a greater sense to really see. Actually, it 
goes right to your question--if we really had a concentrated 
effort and were committed to it over five years, could we make 
a difference? I think when we look at those NAEP scores, and 
that's what we're going to use, in four years maybe we could 
see a difference. I guess that's part of the way I would answer 
that question. But my colleagues to my right may have a 
different answer.
    Mr. Skelly. No. That's a very good answer. [Laughter.]
    Mr. Miller. I think the administration is trying to play a 
game with caps. The problem is how do you get the money and 
stay within the discretionary cap. If we're going to be serious 
about balancing the budget, two-thirds of our budget is in the 
mandatory area, we're not going to get anywhere. So creating in 
effect a new entitlement is not the right way to go. And then 
the question is do we create a new program.
    I think we will have a lot of debate. It has to obviously 
go through an authorization program. It is not something that 
we can create in this committee. We'll see how they proceed. 
Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Miller.

                           title I targeting

    Dr. Tirozzi, you said 50 percent of the schools in Title I 
receive 5 percent of the dollars. Is that correct?
    Dr. Tirozzi. Approximately, yes.
    Mr. Porter. What would 50 percent of the schools amount to? 
How many schools is that in round numbers?
    Dr. Tirozzi. Districts, I'm sorry. I apologize.
    Mr. Porter. Say districts then.
    Dr. Tirozzi. About 6,800.
    Mr. Porter. So 6,800 districts receive 5 percent of the 
money?
    Dr. Tirozzi. Yes.
    Mr. Porter. Frankly, that is wasting 5 percent of the 
money.
    Dr. Tirozzi. I agree.
    Mr. Porter. There's more paperwork involved in getting that 
5 percent, and they've got to do it because it means some 
money, but it really isn't significant money to any of them. 
We've got to do a better job of targeting. That's $400 to $500 
million the way I figure it. It's like throwing the money away. 
That's the old politics of buying off everybody so they get a 
piece of the action so you can get their vote. I hope we're 
past that stage around here and we can start putting the money 
where it does the most good.
    Can you provide for the record how much percentage of the 
money 60 percent, 70 percent, and 80 percent get?
    Dr. Tirozzi. Sure. We can do that.
    [The information follows:]

                       Targeting of Title I Funds

    In general, school districts receive a share of the Title I 
funds that is proportionate to their share of the Nation's poor 
school-age children. Thus: 60 percent of the districts have 9 
percent of the poor children and receive 8 percent of the Title 
I funds; 70 percent of the districts have 13 percent of the 
poor children and 12 percent of the funds; and 80 percent of 
the districts have 19 percent of the poor children and 19 
percent of funds.
    A large percentage of districts receive a relatively small 
proportion of Title I funds because most school districts are 
very small in size, so they receive small allocations.
    Another way to look at targeting is to look at the share of 
Title I funds going to the districts and schools with the 
highest and lowest concentrations of poverty. For example, in 
1993-94:
    Districts in the highest poverty quartile (those with 
poverty rates of 25 percent or higher) received a share of the 
Title I funds that is proportionate to their share of the 
Nation's poor children (49 percent). Districts in the lowest 
poverty quartile (those with poverty rates of 8 percent or 
lower) received a share of the Title I funds (9 percent) that 
is greater than their share of the poor children (7 percent).
    Nearly one-fifth (19 percent) of the highest-poverty 
schools did not receive any Title I funds, even though almost 
half (45 percent) of low-poverty schools received funds. This 
occurred because high-poverty districts had only enough 
resources to reach the very highest-poverty schools, while low-
poverty districts also received funds even if they only had 
low-poverty schools. As a result, many low-achieving students 
in high-poverty schools went unserved while higher-achieving 
students in low-poverty schools received Title I services. For 
example, one-third of the children in high-poverty schools who 
scored at or below the 35th percentile on reading tests did not 
receive Title I services.
    Title I is more targeted than most Federal education 
programs, and the 1994 reauthorization made some changes to 
further improve targeting. However, our 1998 request is based 
on the critical need to concentrate the funds even more 
intensively, because high-poverty districts and schools have 
disproportionately greater educational needs. Research shows 
that low-income students in high-poverty schools are doubly at 
risk; they have lower achievement levels than low-income 
students in low-poverty schools. In fact, in schools with 
above-average poverty rates, the poverty level of the schools 
influences the test scores of all children, including those 
from more advantaged families.

                           title I targeting

    Mr. Porter. I can tell you right now, and I've talked to 
Chairman Goodling about this till I'm blue in the face, I want 
to put into our bill a cutoff for those 50 percent of the 
districts. They'll knock it out on a point of order, but I want 
to raise the issue because I think we're wasting that money. It 
is just nonsense to be paying it to school districts like some 
of mine, like New Trier High School. We simply have to get this 
money where the kids need it. So if you can give me those for 
the record, I'd like you to do it.

                               impact aid

    Now this will be a statement rather than a question, but 
you can answer it on the record if you would like. The budget 
justification indicates that the President's proposal will 
target Impact Aid to schools with the greatest need. I want to 
dispute that in light of the fact that one considers the budget 
proposes a 5 percent cut for basic payments and a 62 percent 
cut for very heavily impacted districts.
    Impact Aid is already much better targeted than the Title I 
program. But let me give you some specific examples provided by 
the National Association of Federally-Impacted Schools and ask 
for your response on the record if you wish.
    Browning Elementary School District in an Indian community 
in Montana is one of the poorest in the country and under the 
President's proposal would lose $1 million, or 28 percent of 
its Impact Aid appropriation. The two districts serving the 
largest Army base in the country, Kileen and Coparis Cove would 
lose 16 percent and 70 percent of their funding, respectively. 
The Lac du Flambeau School District in Wisconsin with 90 
percent impact would drop from $2.2 million to $1.5 million. 
According to these same figures, some of the wealthiest school 
districts in the country would receive large increases in 
funding.
    These are just a few of the examples my staff and NAFIS 
culled out but there are many, many more. It seems clear to me 
that the President's budget doesn't do a better job of 
targeting the funding, it does a worse job. It seems that the 
President is simply using the targeting argument to cover for 
drastically cutting the appropriation and cutting services for 
over 1 million children.
    I believe, as I've said often, that Impact Aid is a Federal 
obligation that ought to come before any other funding. It is 
something they owe because they're getting services for 
children and the children's families are not paying for those 
services at the local level. It seems to me we've got to do a 
much better job than the President's budget does on Impact Aid.

                bilingual education technical assistance

    Now, Ms. Pompa, let me ask you a question. I'm still 
baffled in spite of justifications provided in previous years 
by the Department's need for multiple sources of dissemination 
and technical assistance. According to your budget 
justification, you are proposing $1.4 million in part to fund 
the Bilingual Education Support Services to identify and 
document successful models for serving limited-English 
proficient students and disseminate these models through the 
Department's dissemination activities.
    The Secretary is also requesting funds for comprehensive 
regional assistance centers ``to maintain appropriate staff 
expertise and provide support training and assistance in 
improving the quality of bilingual education.'' Title I funds 
can be used for technical assistance in eligible schools for 
this purpose as well. So too can Safe and Drug-Free Schools 
national program funds. There is a broad range of technical 
assistance offered by the OERI-funded mechanism and they too 
offer assistance in the areas of bilingual and migrant 
education.
    How do you propose to coordinate all these funding sources?
    Ms. Pompa. We have begun the coordination process. 
Secretary Tirozzi and I jointly administer the comprehensive 
centers which you described earlier as providing technical 
assistance. They also serve all of our elementary and secondary 
education programs in addition to bilingual education.
    But beyond just the coordination, education, as you know, 
has many, many components. And because our society is 
increasingly complex and education has become increasingly 
complex, we find children in our schools with various and very 
specific needs. Unfortunately, professional development has not 
been readily available, not just to bilingual education but to 
all education programs, such that we have been able to keep up 
with the research, to keep up with the literature, to keep 
people trained in specific needs.
    This then cuts across the entire scope of technical 
assistance. It is virtually impossible for one person to know 
about Migrant Education, to know about Bilingual Education, to 
know about Safe and Drug-Free Schools, to know about research, 
and on down the list. Right now, we have several technical 
assistance sources within the Department. Most of them are 
targeted to a specific need.
    What you described under the $1.4 million request is our 
academic excellence program. These grants actually go to school 
districts that have proven that their programs work and that 
they have a deep understanding of serving LEP students. They 
receive the money so that they can work with other school 
districts who wish to replicate some of the methods they have 
set in place. So it is not going to a separate technical 
assistance entity, it is money provided to help these school 
districts get their information out and to work with other 
school districts to increase the amount of replication that can 
take place when we see a good program.
    Mr. Porter. Thank you. I am going to turn the Chair over to 
Mrs. Northup. But let me thank you both, Dr. Tirozzi and Ms. 
Pompa, for your statements and your forthright answers to our 
questions today and for the fine job you're doing in the 
Department.
    Mrs. Northup, would you take the Chair please.

                  federal role in school construction

    Mrs. Northup [assuming chair]. I would like to come back to 
the school construction question, about why we would get 
involved in school construction. There were sort of two reasons 
that were given. Your first answer, the Chairman responded to 
you that maybe schools have decided they want to spend their 
money differently than on school construction. What I would 
suggest to you is that maybe they have more desperate needs. 
Maybe they need more technology. Maybe they need different 
programs. Maybe they need to invest their money somewhere else.
    If we get into school construction, what we do is we put a 
little bit of Federal money out there and then they have to put 
up money that they may believe they more desperately need 
someplace else and spend it on school construction to access 
the Federal money. Is that correct?
    Dr. Tirozzi. I can't attest to the fact of what decisions a 
local community is going to make. I simply can point out again 
that, without question, we have significant facilities problems 
in this country.
    Mrs. Northup. We've got lots of problems. Not just 
facilities.
    Dr. Tirozzi. Okay. But a safe and orderly and conducive 
environment is a major condition for learning. You can go to 
schools across this country, largely in urban and rural 
communities, and see conditions that are frightening and not 
safe. You have a situation right here in Washington, D.C., 
where they haven't been able to open schools for safety 
reasons.
    And the other issue is going to be this baby boom we're 
looking at, and California was mentioned earlier as an example 
of where there is going to be a significant increase. 
California, Texas, Florida, New Jersey. I guess our point is to 
try to provide incentives to cause districts, States to use our 
monies as leverage for school construction bonding issues.
    Mrs. Northup. First of all, it doesn't help them pass a 
bond necessarily. And that was the second question. But the 
point I'm making is that it might be that some districts have 
done a great job in building schools, they've kept theirs up-
to-date, and they now in order to access any of the $5 billion 
are going to have to use more resources. That may no longer be 
their critical need. That's what we do here. We begin to decide 
what is the critical need in Louisville, Kentucky, in 
Cincinnati, Ohio, in Salt Lake City, and it is going to be 
school facilities. Every tax dollar in every State paid into 
this money, but the $5 billion will only be available if you 
decide to prioritize within your own district money that is 
required to leverage the Federal dollars.
    Dr. Tirozzi. But that's your decision at the local level.
    Mrs. Northup. Or then you can just lose out on the money 
entirely and Salt Lake City taxpayers can fund them for 
Washington State, for example.
    Dr. Tirozzi. Federal dollars fund programs all across this 
country, all of our programs.
    Mrs. Northup. On the other hand, we said what about these 
communities where people have turned down school bonds. When I 
voted for the education reform bill in Kentucky I raised taxes 
on corporate tax, on income tax, on property tax. I guess I 
wonder what it's going to cost our local districts when we find 
that shortly after we by-pass the masters and the doctorate 
level we're going to be paying teachers rank 1 possibly one 
year after they get out of college.

             impact of national board teacher certification

    Mr. Tirozzi. First of all, that can never happen because 
you have to have at least three years of experience before you 
could ever sit for the national board. I haven't looked in the 
last year or so, but the first two years, on average, the 
teachers who sat for the national board had between 12 and 15 
years of teaching experience. It is a very rigorous 
assessment--very difficult for a first, second, or third year 
teacher to get through.
    Mrs. Northup. Okay. Thank you. That is an explanation. I do 
think there are wonderful teachers, I think that there are 
wonderful teachers who have gone through it and they talk about 
how much it meant to them--but I do think that if it becomes 
the way teachers move to rank 1, it is doubtful our education 
graduate programs will be significant. And while I agree with 
you they have a long way to go, I'm not yet willing to accept 
that their demise is really what we really want to look at.
    Dr. Tirozzi. I'm not in any way saying that. At some point, 
if your schedule allows or with your staff, I would be happy to 
have a long conversation on the national board.

                               impact aid

    Mrs. Northup. Okay. I have one more question. The impact 
studies, the payments for children with disabilities----
    Dr. Tirozzi. Impact Aid.
    Mrs. Northup. I notice that Kentucky is zeroed out on 
Impact Aid, right? I notice that in both of those Kentucky has 
been zeroed out. About four or five States fall in that 
category in each case. I just wondered if you could explain 
that to me.
    Dr. Tirozzi. I haven't looked at any particular State; I 
might call on a staff member. But what this budget is doing is 
really supporting significant policy decisions. We feelthe 
Impact Aid program, as I said earlier, should deal with the federally 
connected children, children for whom we have a primary responsibility. 
In essence, either children who live on Indian lands or children of 
uniformed services who live on Federal property.
    What we don't feel, and these are the so-called ``B'' 
children, we don't have a responsibility for children, for 
example, whose parent works for the Federal Government but they 
live in the community. That family is paying taxes within the 
community to support the local schools. That's a form of double 
dipping if we support those folks. And then also we've been 
paying a number of districts for a number of years for property 
that was taken off the tax roll years and years ago for Federal 
use. It could be a park, it could be a military base no longer 
in use. So many of these districts have had close to 50 years 
to adjust their tax rolls to make up the difference.
    I guess what we're trying to say is that we're trying to 
meet the needs of the schools enrolling children who present 
the greatest burden because they do not generate local 
revenues. I haven't looked at State-by-State lists but it is 
conceivable Kentucky could have lost out in that policy 
decision. Tom knows.
    Mr. Corwin. That's correct, the States that go down to zero 
are the ones that don't have any what we used to call the ``A'' 
children, they only have what used to be called the ``B'' 
children, which are the children who live on a base or on 
Federal property or whose parents work on Federal property, but 
not both. I think in Kentucky you have also what are called 
Section 6 schools. I think there is one at Fort Knox.
    Mrs. Northup. Yes, I was wondering about Fort Knox.
    Mr. Corwin. That's funded through DOD. I haven't looked at 
their budget but presumably that's taken care of.
    Mrs. Northup. Would it be something you could give me 
information on? I know that Kentucky was concerned about that. 
If you could look into that for me, I'd appreciate it.
    Mr. Corwin. Yes, I'd be glad to do that.
    [The information follows:]

                      Impact Aid Funds in Kentucky

    The Department's proposal for Impact Aid in 1998 is to 
target payments to school districts whose financial obligations 
are increased because of a Federal presence that results in 
increased student enrollment while limiting the district's 
ability to raise revenues. In 1998, Impact Aid Basic Support 
payments would be made only to help school districts pay for 
the education of children who reside on Indian lands and 
children whose parents are in the uniformed services and live 
on Federal property. Kentucky school districts do not enroll 
students in these two categories and, thus, would receive no 
payments in 1998.
    Funds for ``section 6'' schools, such as the ones at Fort 
Knox and Fort Campbell, that are located on military bases, are 
provided for in the Department of Defense budget.

    Mrs. Northup. Okay. Thank you. I want to thank both Doctor 
Tirozzi and Ms. Pompa for their testimony and for answering our 
questions today.
    Mr. Tirozzi. Thank you very much.
    Mrs. Northup. The subcommittee stands adjourned until 10:00 
tomorrow.
    [The following questions were submitted to be answered for 
the record.]

[Pages 195 - 241--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                    POSTSECONDARY EDUCATION PROGRAMS

                               WITNESSES

DAVID LONGANECKER, ASSISTANT SECRETARY FOR POSTSECONDARY EDUCATION
MAUREEN MCLAUGHLIN, DEPUTY ASSISTANT SECRETARY FOR POLICY, PLANNING, 
    AND INNOVATION
ELIZABETH M. HICKS, DEPUTY ASSISTANT SECRETARY FOR STUDENT FINANCIAL 
    ASSISTANCE PROGRAMS
CLAUDIO R. PRIETO, DEPUTY ASSISTANT SECRETARY FOR HIGHER EDUCATION 
    PROGRAMS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
ROBERT DAVIDSON, DIRECTOR, POSTSECONDARY ANALYSIS DIVISION, BUDGET 
    SERVICE

    Mr. Miller [assuming chair]. The subcommittee will come to 
order. Mr. Porter is temporarily delayed. He will be here 
shortly. But because of the delay due to the votes, let's go 
ahead and begin. We don't expect any more votes for a couple of 
hours. So, as Mr. Porter is coming in, I'll let him welcome you 
and proceed.

                       Introduction of Witnesses

    Mr. Porter. Thank you, Dan. Doctor Longanecker, welcome. 
Have you introduced the people with you?
    Dr. Longanecker. No, I haven't.
    Mr. Porter. Why don't you do that and then proceed with 
your statement, please.
    Dr. Longanecker. Mr. Chairman, I'm fortunate to have a 
number of colleagues with me. To my immediate right, your left, 
is Tom Skelly, who is the Budget Director for the Department. 
Most of you know Tom I believe. Next to Tom is Claudio Prieto, 
who is our Deputy Assistant Secretary for Higher Education 
programs, which includes all the nonfinancial aid programs that 
we operate. To Claudio's right, your left, is Betsy Hicks, who 
is the Deputy Assistant Secretary for Student Financial 
Assistance. To my immediate left, your right, is Maureen 
McLaughlin, who is the Deputy Assistant Secretary for Policy, 
Planning, and Innovation. And Bob Davidson, to her right, heads 
up the Postsecondary Education Analysis Division of the Budget 
Office.
    Should I proceed?
    Mr. Porter. If you would, please.

                           Opening Statement

    Dr. Longanecker. For the record, I am David Longanecker. 
I'm the Assistant Secretary for Postsecondary Education with 
the U.S. Department of Education. I have introduced my 
colleagues who are with me today. I will ask that my prepared 
statement be entered into the record. If that's okay with you, 
then I will just give you a summarized version of those 
comments here this afternoon.
    We're very pleased to be before you today to discuss the 
President's fiscal year 1998 budget request for those programs 
that are operated by the Office of Postsecondary Education in 
the Department of Education.
    As the Secretary indicated in his testimony to you 
yesterday, the fiscal year 1998 budget request that I'll be 
discussing with you this afternoon is one of three integral 
parts of an overall comprehensive strategy to fundamentally 
change the ethic of postsecondary participation in this 
country, all presented of course within the context of a 
balanced budget by the year 2002, which I understand you have 
been discussing this afternoon.
    One important aspect of this three-part agenda is the set 
of five tax initiatives. The most well-known of those is the 
proposed HOPE Scholarship tuition tax credit of $1,500 for the 
first two years of postsecondary experience. The second piece 
is the $10,000 tax deduction for virtually all other 
postsecondary students. The third piece is the expansion of the 
IRA to encourage families to accept greater responsibility for 
saving for their children's education. The fourth piece is the 
tax incentives for businesses to provide employee educational 
assistance. And the fifth piece is the elimination of tax 
liability for borrowers for whom loans are forgiven under 
certain circumstances.
    In combination, those five tax proposals will provide $38 
billion of targeted tax relief for middle income families for 
investing in education over the next five years. We believe 
that's an important Federal investment that will make it clear 
to people how important the Federal Government believes it is 
for all people to continue their education beyond high school.
    We will place the second part of our three-part agenda on 
the table later this spring. That is our proposal for 
reauthorization of the Higher Education Act. Although 
reauthorization will occur on a slightly different schedule 
than the budget and the tax proposals, we believe that it is 
awfully important to assure that all three of these very 
important policy instruments lead to an overall comprehensive 
approach for the Federal involvement in postsecondary 
education. Ourreauthorization package is being designed to do 
just that, to assure that the Federal investment provides all Americans 
access to a quality educational experience in which they can achieve 
their educational objectives. This is consistent, very consistent, with 
our tax proposals and the budget proposals we will be discussing with 
you.
    Of course, the third, and critical leg of this important 
strategy will be our topic today, and that's our fiscal year 
1998 budget request in which we have embedded some very 
important components of that overall three-part package. The 
most significant initiatives in our budget request are the 
proposals to substantially increase benefits to students 
through increases in the Pell Grant program and through 
reductions in fees in the student loan programs.
    For fiscal year 1998, we have proposed a $1.7 billion 
increase in the Pell Grant program, which would increase the 
maximum Pell to $3,000, a $300 increase in the maximum from 
1997, and would change the treatment of income for independent 
students without dependents, bringing equity to the 
consideration of resources for those students by restoring the 
allowance to what it was prior to the amendments of 1992. This 
change in eligibility for independent students alone would 
increase the awards for 900,000 independent students by an 
average of $800 per student, resulting in an overall increase 
in funding of $725 million for that one piece alone. The 
combined approach that we have for Pell Grants would increase 
Pell Grant funding to $7.6 billion in fiscal year 1998, and 
would provide more than $40 billion over the next five years 
for Pell Grant recipients.
    Rather than expecting all programs to serve all students, 
what we have tried to do is to develop an integrated approach 
that would use grants where they work best to serve the most 
needy students, and would use tax benefits where they work well 
for middle income students. But they would be complimentary 
programs rather than redundant programs.
    With respect to the loan programs, our most important 
proposal would reduce the origination fees currently charged to 
students. The fees would be cut in half for the most needy 
students, for those students with assessed financial need, and 
they would be cut by one-quarter for students who are 
unsubsidized borrowers in the student loan programs. Over the 
next five years, those reductions in fees would save students 
$2.6 billion.
    We have also proposed a number of changes in the way the 
Federal Government would subsidize lenders and guarantee 
agencies in the Federal Family Educational Loan program. These 
proposals, if adopted, would streamline that program and make 
it more efficient and cost-effective by eliminating excess 
profits and by redesigning the arcane guarantee reimbursement 
system that exists today. In combination, these changes would 
provide $3.5 billion in Federal budget reductions over the next 
five years.
    We also propose increasing the college Work-Study program 
by $27 million. And as you have heard, the President has 
challenged the higher education community to focus at least 
half of the increase in community service jobs, with special 
encouragement to join the America Reads program to fight early 
reading illiteracy.
    Those are obviously the big idea proposals that are in our 
budget request. In addition, we have included other important, 
more modest changes. We have requested a $25 million increase 
in funding for the TRIO program which recent evaluations 
continue to show, contrary to what we've heard recently, is 
successful in expanding educational opportunity and 
persistence.
    And we have proposed modest increases for minority serving 
institutions within the Title III program, a modest $1.5 
million increase for the Minority Teacher Recruitment program, 
and $6 million for the Advanced Placement Test Fee program 
which was authorized in 1992 but has never been funded.
    As we did last year, we have requested $132 million for the 
new Presidential Honors Scholarship program to reward the top 5 
percent of every high school graduating class in the country, 
sending the message that working hard and achieving at a high 
level is worthy of reward.
    The rest of our budget is basically consistent with our 
past proposals and is sort of a steady state budget. We have 
proposed in some areas to eliminate funding, consistent with 
what we've done in the past. For example, we are recommending 
zero funding for the State Student Incentive Grant program and 
the Community Services programs.
    That's an ambitious agenda, to say the least, combining tax 
benefits, substantial increases in spending for the most needy 
students, needed finance reform in the Student Loan programs, 
and, yet to come, proposed changes in the Higher Education Act 
to further enhance the effectiveness of Federal programs in 
providing educational opportunity to a quality higher 
education. It is a package of proposals presented as part of an 
overall balanced budget that invests in what the President has 
said should be our highest priority--that being the education 
of the people of this country. I am pleased and proud to be 
here today to present it and to discuss it with you. I look 
forward to our discussion.
    [The prepared statement and biography of David Longanecker 
follows:]

[Pages 247 - 251--The official Committee record contains additional material here.]


    Mr. Porter. Thank you for your statement. I'm going to 
begin with a question that is probably as long as your 
statement, Dr. Longanecker.
    Dr. Longanecker. Okay. I'll take that on.

                           policy consistency

    Mr. Porter. As you know, over the last two years we've been 
looking very carefully at how to get the maximum impact from 
Federal spending. We want Government programs to work for 
people. We're going to continue looking very seriously at 
effectiveness and duplication, and this year I also want to 
look at the administration's consistency. Your budgets have 
sent us widely varying proposals, and I don't think we've ever 
gotten a clear vision of where the Department of Education is 
going on higher education and student financial assistance 
programs.
    Last year, I asked you why the President changed his policy 
on the Title III program. You told me that he had changed his 
policy on certain programs but generally his budgets were very 
consistent on student financial assistance and higher education 
programs. Let me review some of the President's budget 
requests.
    For Title III Part A, Strengthening Institutions, the 
President requested full funding of $88 million in 1995, a two-
year phase-out of the program in 1996, a halt of the phase-out 
at $40 million in 1997, and now another reversal to a request 
for 57 new grants in 1998.
    For the Institute of International Public Policy, the 
President told us initially we needed not less than $4 million 
for that program. Now he tells us we can do the full job with 
$1 million.
    For a sole source construction grant to Bethune-Cookman 
College, the President originally told us we needed $12.5 
million for the first three phases of construction. Now the 
President tells us that construction is not a Federal 
responsibility and we shouldn't provide any funds to Bethune-
Cookman for phases II and III.
    For the Byrd Scholarship program, in 1996 the President 
proposed full funding for all cohorts of grants. In 1997, he 
proposed reducing funding for all Byrd scholarships by more 
than 25 percent. This year the President is proposing full 
funding for all scholarships.
    For the Javits Fellowship program, in 1995 the President 
requested full funding for all four cohorts of grants. After 
enactment of the 1995 bill, the President proposed to rescind 
the 1995 funding he had requested. For 1996, the President 
proposed no funding for Javits. For 1997, the President 
proposed funding continuing grants but no new grants.
    Then in negotiations on the final 1997 bill, the President 
proposed funding a new cohort of Javits Fellows in 1997. Now 
the President is proposing that we terminate the Javits program 
and fund continuing Fellowships under the Graduate Assistance 
in Areas of National Need program.
    For the Perkins Loan program for 1994, the President 
proposed a $25 million cut to fund other priority programs. For 
1995, the President proposed to terminate Perkins Capital 
Contributions. For 1996, the President proposed to restore the 
program to $158 million.
    For the State Student Incentive Grant Program, in 1994 and 
1995 the President proposed to terminate the program. In 1996, 
the President said he made a mistake, we should phase it out 
over two years. In the 1997 budget, the President said we 
should terminate the program consistent with the two year 
phase-out recommended in 1996. But then in the negotiations on 
the 1997 bill, the President suddenly demanded that we fund 
SSIGs at $50 million. Now the President has changed his mind 
again and tells us we should terminate the program in 1998.
    On Work-Study, the President proposed for several years to 
hold the line on funding. In 1997, he proposed about a 10 
percent increase for the program. The House actually provided 
more than the President had requested. And then in the final 
negotiation on the 1997 bill, the President suddenly demanded 
not less than a 35 percent increase in the program. This year, 
the President wants a 3 percent inflation increase.
    On Student Loans, the President initially insisted that the 
Direct Loan program replace the FFEL program but now proposes 
that we preserve the current balance between the programs. In 
addition, in 1996 and 1997 the President insisted that the 
Direct Loan program needed the full authorized funding level 
for administration in order to operate efficiently. Now the 
President is proposing to reduce administrative funding by 30 
percent, or $220 million below the fully authorized level. But 
the budget request does not include the appropriations language 
necessary to implement the proposal.
    Dr. Longanecker, I've given you a very lengthy recital 
here. I want to ask you if we should really treat the 1998 
request as a serious proposal, or is it just a place-holder 
that is likely to change fairly dramatically by the time we get 
around to finalizing the 1998 bill in September or October?
    Dr. Longanecker. Mr. Chairman, I would hope you would take 
it very seriously. We take it very seriously. Let me give you a 
couple of general responses. Where we think we have been very 
consistent is that we have been very supportive of the programs 
in the Office of Postsecondary Education, particularly the 
student financial assistance programs, and have consistently 
built what we think is each year a more aggressive and more 
informed approach to overall good public policy in those 
programs.
    We have also tried to respond to both the tenor and the 
reality of the times in which we were operating. The nature of 
the discussions with the Congress certainly have changed from 
the time we came to town in 1993. In the fall of 1994, the 
leadership in the Congress changed and that led to some changes 
in the way in which we tried to work with the Congress. We 
think we are working in a much more favorable bipartisan 
environment at the present time than we believed we were 
working in for the last two years. So that has affected what we 
propose.
    In general, I think we have also learned some lessons as 
we've come along. We believe we have been consistent in 
pursuing very aggressively a strong Pell Grant program and a 
strong loan program. But let me take, for example, the loan 
area. Our preference clearly when we passed direct lending 
would have been that we would have gone as quickly as possible 
to full implementation of direct lending. It became clear to 
us, however, that if we wanted to work productively with the 
Congress, we ought to really accept the fact that there were 
going to be two programs and try to make both of those programs 
as strong as possible. And so we've sort of tried to come to 
grips with that and be honest to that as we've moved forward.
    That's a partial response, but----
    Mr. Porter. Let me say, Dr. Longanecker, that we are very 
anxious to work productively with you. As you know, when we 
were given the assignment of making huge cuts in discretionary 
spending two years ago we attempted to put funding for higher 
education at a very high priority. And while we made the cuts 
we had to make, we generally protected funding for higher 
education and did carry out that priority.
    But if you look at the history of what the President has 
sent us, it's hard to make much sense out of it or to know what 
direction you really want to go in. We would look for a greater 
consistency in proposals that follow some thread of philosophy 
if we're going to have a good solid working relationship where 
we can be helpful.

                      preventing tuition increases

    Let me ask one other question before I yield to Mr. Obey. 
The President has a number of proposals regarding TRIO, Pell 
Grants, and his tuition proposals that would raise funding for 
higher education very substantially. How do we ensure that if 
we do all these things that the costs of tuition don't simply 
rise to meet the new revenues that are in the stream. In other 
words, how do we ensure we make progress and provide greater 
access to kids that are most at risk and most in need and don't 
simply have this all gobbled up out there in terms of cost and 
tuition increases that simplyleave us making no progress 
whatsoever?
    Dr. Longanecker. Mr. Chairman, Members of the Committee, I 
think that's an awfully important question. It is one that the 
Secretary and the Under Secretary and I talk about a great deal 
because we are concerned. We see the cost as a Federal concern 
more than a Federal responsibility. But we also want to make 
sure that when you provide additional funding, when we make a 
request for additional funding and it comes through, that it 
goes to benefit the student and doesn't essentially become a 
pass-through.
    How do you do that without essentially getting into a cost 
controlled environment is a very interesting challenge. We have 
tried to do that in some of the ways in which we have fashioned 
our proposals. For example, on the HOPE tax credit there has 
been some expressed concern that by providing a tax credit of 
$1,500, that credit would simply become an avenue for increases 
in tuition fees. To avoid this, what we've tried to do is 
target that towards a specific category of students, meaning 
the institutions would essentially have to find a very clever 
way of assuring that they were just charging those freshmen and 
sophomore students who were eligible for the tax credit.
    We are providing a targeted benefit--as we do through Pell, 
which targets the lowest income populations. The tax credit is 
targeted on middle income students in the first two years. We 
think what we've done is create a situation where we don't have 
such a universal benefit that it will have unwanted price 
effects. That's one factor.
    Having said that, we think this is an area where leadership 
can be awfully important. We believe that political forces will 
be as important a factor as economic forces. Through 
leadership, people understand that we're making this kind of 
effort. And if you join with us in doing that, the people of 
the country will expect that benefit to accrue to them, and 
State legislators or State higher education people who take 
advantage of that will face substantial political pressure on 
the other side, we believe.
    Mr. Porter. Thank you. Mr. Obey.

                           policy consistency

    Mr. Obey. Thank you, Mr. Chairman. Dr. Longanecker, I would 
dissent from the Chair's impression that the administration is 
somehow inconsistent in its recommendations with respect to 
higher education. The Green Bay Packers just won the Super 
Bowl. They won it by sometimes employing two tight ends at the 
same, then they might switch to three wide receivers. Different 
components of the same offense but they had the same doggone 
goal, which was to get to the other guy's goal line. It seems 
to me that's what the Administration has been doing in 
recommending a different mix of programs depending upon what 
kind of opposition they were presented with and what kind of 
context they were operating in. I don't see any problem with 
that.
    Mr. Porter. If the gentleman would yield.
    Mr. Obey. Sure.
    Mr. Porter. I didn't know we were playing football here.
    Mr. Obey. Well, Illinois doesn't but Wisconsin does. 
[Laughter.]
    Mr. Porter. Northwestern does well. [Laughter.]
    Mr. Obey. Yes, but that's a private college.
    Mr. Miller. The Gators were number one this year.
    Mr. Obey. Yes, but they buy their wins. [Laughter.]
    Mr. Porter. The subcommittee will come to order.
    Mr. Obey. I would say our friends on the Republican side 
have been consistent, too, in their position on education--
aiming for the wrong goal line. If you take a look at their 
package, the Republican Congress initiated two rescission 
bills. The first one rescinded $100 million from education--$65 
million for infrastructure, and $35 million for Pete Grants. 
The second rescission would have cut $1.6 billion. The 
President argued with them and we wound up getting a little 
different result than they started out trying to get.
    We had the 1996 appropriation bill which this Committee 
produced that cut $3.6 billion in education programs. The 1997 
bill produced by this Subcommittee cut $500 million below the 
1996 level after adjusting for Pell surpluses. We had to fight 
like the devil in conference both years in order to get those 
decisions reversed.
    So I would say both parties have a pretty clear record of 
where they're going on education. I would much rather defend 
our record any time.

                            tax initiatives

    But having said that, let me simply make one point with 
respect to the Administration's package. I don't think the 
Administration ought to be apologetic at all for the effort 
that they're making to provide tax credits and tax deductions 
as well as providing Pell Grant increases. If you take a look 
at what has happened in the area of education, States simply 
have not kept up with requirements in the area of higher 
education. As I understand it, the percentage of State funding 
at public colleges and universities has declined from 46 
percent of the budget revenues in 1981 to 36 percent in 1994. I 
don't know what it is by now.

                          rising college costs

    Costs are projected to double every ten years at the 
University of Wisconsin where I graduated from. They expect it 
to reach $18,000 by the year 2005 and $33,000 by the year 2015. 
In 1981, students working their way through college had to work 
25 hours a week for 50 weeks to finance their college budget 
exclusively from their own earnings. By 1984, they had to work 
33 hours per week, and by 1990, they had to work 44 hours per 
week.
    It seems to me that the demand and the need is there. If 
you take a look at the relative ratio between loans and grants, 
as I understand it, in 1976 the ratio of loans to Pell Grants 
was 1.2-to-1. In 1986, the ratio was a whole lot worse than 
that. And by 1995, you had a loan volume topping $27 billion 
with the ratio at 5-to-1. So it seems to me that the 
Administration is correct to try to get student aid up any 
blessed way they can do it given the resistance that we've had 
coming from certain segments on Capitol Hill.

                         corporate tax increase

    I think you're also handicapped, frankly, by the fact this 
has been a debate on one-half of the ledger. I, for instance, 
would be happy to go far beyond what the Administration has 
done. I would be happy to provide a 1 percent tax increase for 
corporations that make more than $10 million a year and apply 
that all to increased Pell Grants. That could get you up to 
$3,700 a year, it could get you $4 billion. It would hardly be 
noticed by corporations given their record profits, and we 
would have a lot more money than the Administration is asking 
for. So I don't think you ought to be shy about what the 
Administration is asking for because I think it is apparent 
that the country wants it and I think it is apparent that we 
need it.

                      preventing tuition increases

    I would urge you to look at one thing. I do think thereis a 
legitimate concern about increasing tuition as we have these increases 
in student aid. I, for one, would be happy to vote tomorrow to limit 
the ability of institutions to participate in these programs if their 
tuition increase exceeds 120 percent of the national three-year 
average. I know that's a political can of worms for the Administration 
to get into or for the Congress to get into. But I am perfectly 
prepared to do that because I think that we do need to take into 
account that if we don't do something, we run into the risk of being 
ripped off in that regard.
    I would urge the Administration to look for mechanisms that 
we can use to discourage increases in tuition. My proposal may 
be an imperfect one. If it is, I think this committee and 
others ought to be prepared to work with you in finding a 
mechanism that is useful so that instead of simply nitpicking 
what the Administration does, we can make constructive 
suggestions to change it and perhaps find a bipartisan way to 
proceed with it.
    Dr. Longanecker. If I might respond to that. As we look at 
our reauthorization package, I think we're trying to find out 
whether there is a way in which we could address that. As I 
indicated earlier, this is a federalist program where we are in 
significant partnership with the States, and to a great extent 
with private institutions that are independent and have 
autonomy. We want to be respectful of their appropriate roles. 
But we're also concerned about the increases in price. I think 
we will be looking to see if there are some ways in which we 
might be able to provide, if not mandates, perhaps incentives.
    Having said that, we don't have any great ideas at the 
present time. I'm not real keen on the one you just put 
forward, but we'll think toward that. I think there is an awful 
lot of interest in this area. I think one thing we have to keep 
in mind is that we are a pretty small piece of the pie. Pell 
Grant funds, for example, are less than 3 percent of the 
revenue stream for America's higher education. So Pell Grants 
aren't going to affect the price. But when you add Pell Grants 
and student loans and substantial tax benefits, pretty soon 
we're talking about a more significant Federal role and we have 
to be sensitive to the possibilities.
    Past history would not suggest price effects, except for 
possibly in the proprietary sector of higher education. There 
is some fairly good research on that. But having said that, I 
think we need to be very sensitive to rising costs. Prices have 
gone up very rapidly. In fact, they've gone up more rapidly 
when grant assistance didn't go up than vice versa. We will 
work with you more in the reauthorization context, I believe, 
than at the present time.
    I might also mention my colleague, Betsy Hicks, is going to 
have to leave us. She has a prior arrangement. So when she gets 
up it is not because she's disappointed.
    Mr. Obey. Let me just respond by saying that I'm aware of 
the fact that the Administration doesn't much like that 
trigger. I would simply point out that you could remove some of 
the concerns about it were the Secretary given the authority to 
wave that limitation where institutions could demonstrate that 
there was a good reason for them having missed that target.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Obey. Mr. Miller.

                           hope scholarships

    Mr. Miller. Good afternoon. I would like to pursue this 
issue of the scholarship. I recognize that it is an 
entitlement, mandatory issue rather than part of the 
discretionary budget. But it is a $35 billion number, so it is 
a lot of money. I've asked Secretary Riley and I actually have 
asked the same questions of Mr. Greenspan and Mr. Rubin 
yesterday. And Mr. Obey was bringing up what the unintended 
consequences of this could be. As you well know, there is a 
front page article, one of the reasons we're addressing the 
issue is the growing cost of college. We tried to have a 
hearing last week on the Budget Committee and had to cancel it 
at the last minute.
    I think it is something we can work together on. We agree 
there is a problem there, we're just not sure what it is. The 
Time article is interesting, the Philadelphia Inquirer did a 
great series of articles last year about the question. But when 
we get to the unintended consequences, there is a little 
article here in Time about the plan doing more harm than good. 
Dick Morris has been the one that's been advocating this last 
year during the campaign. It talks about it in here and in 
other articles as well. I'll just read to you from Time: 
``Almost every senior Clinton aide at first opposed the plan 
which was championed by Dick Morris.'' This article is by 
Robert Zemsky, the Director of the University of Pennsylvania's 
Institute for Research on Higher Education, University of 
Pennsylvania professor. ``It is just plain hucksterism.'' 
``Lots of people told the White House and the Education 
Department that this was nuts.'' Were you told it was nuts?
    Dr. Longanecker. Bob Zemsky never told me it was nuts. But 
he's absolutely wrong. I know Bob well and I have a lot of 
respect for him, but he doesn't understand this issue and he's 
just plain wrong.
    Mr. Miller. Okay. Did anybody evaluate the consequences? 
What is the impact on grade inflation? What is the impact on 
the inflation of cost? One idea, to demonstrate the difference 
between liberalism and conservatism, one idea from a liberal 
perspective is just to throw money at an issue. That's what 
we're talking about doing is throwing money at the issue. Does 
that really solve the problem? Are we really addressing the 
core problem? What is the core problem you're really trying to 
go after?
    This is something we all agree on. I've got a daughter 
still in graduate school right now and I've had children in 
college on and off for the past eight years. So I know the cost 
of college personally. I'm a former college professor. So we 
all agree we want to make college as affordable as we can for 
all the children of this country, no question about that. So we 
have a common goal. But let's not make the problem worse. I'm 
concerned whether you've thought this through or is really just 
a Dick Morris idea that I don't think economists can accept.
    Dr. Longanecker. Dick Morris claimed a lot of things. I'm 
close enough to this one to know where the ideas did come from. 
Dick was supportive of this but this wasn't Dick Morris' idea. 
The people for whom this was an important idea are at the 
highest levels of the Federal Government.
    Mr. Obey. Would the gentleman yield?
    Dr. Longanecker. Yes.
    Mr. Obey. Have you ever known Dick Morris not to claim 
credit for any good idea?
    Dr. Longanecker. I don't know Dick Morris that well.
    Mr. Miller. I'm just reading from Time magazine and itwas 
also reported in several other articles. I don't know Dick Morris.

                           hope scholarships

    Mr. Longanecker. I do know many of the people who were 
raising concerns. We addressed virtually every concern that has 
been raised and worked those through. We believe that this is a 
good idea that's time has come. Our objective here is twofold. 
One is to provide relief to middle income Americans, relief we 
think is necessary--and we're not ashamed of this. If you look 
at what has happened to middle income Americans over the last 
few years, it is easy to understand why they are somewhat 
disenfranchised from their Federal Government and from the 
economy when they haven't been tremendous recipients. So here's 
a chance to provide them some relief. There's going to be some 
tax relief, it appears. If there's going to be tax relief, we 
would like to see it targeted to those people who need it, the 
middle income, for something that we think is a public good--
education. So that's part of it.
    The second thing is we want to change the ethic of 
participation, the way people think about and look at American 
higher education. Many of us who call ourselves middle income 
have kids in college. What we know from the data is that 
students from many lower income and middle income families 
don't attend college at the same rates as higher-income 
families. And, if they do attend, they are less likely to stay 
in college to completion. We think that providing them with 
this kind of assistance will reduce the need for them to take 
out loans, and will increase their perception about the 
importance of postsecondary education.
    Now that won't happen if the additional assistance is eaten 
up in other ways. That would just heighten frustration. But we 
don't think that's going to happen, because we think we've 
targeted this program in the right way. We've looked at grade 
inflation, and we have a couple of historical episodes to find 
out whether grade inflation occurred. We can look back to the 
Vietnam Era and, indeed, there was some increase in grades. But 
not all increase in grades are grade inflation. Much of it is 
what we hope to achieve. If students are achieving at higher 
levels because they want to get the HOPE Scholarship, then 
that's what we're hoping to achieve. Frankly, if there is a 
better way than the B average to send the message about high 
achievement, we'll listen to people on that one.
    Mr. Miller. Let me just conclude. I only have a couple more 
minutes to go. I get very concerned about tax policy. I saw 
what happened in my area of Florida when we had the luxury tax 
on boats. The luxury tax on boats destroyed our economy in 
Florida. It was repealed in 1993. It was only kept in effect 
three years. The unintended consequences of tax policy has to 
be evaluated. I'm not sure it has been fully evaluated here.
    If you have $35 billion to spend to achieve your goals, is 
this what you think is the best way to spend $35 billion? I bet 
you Mr. Obey could come up with a better way. Whether it is the 
subsidizing of college student loans or greater increase in the 
Pell Grants, is this really the best way? Helping people on 
April 15th--I mean, the day you write the check is in August or 
in December for the next semester. I write those checks. So 
having it on your taxes, is that really the best way? Isn't 
there a better way to help than a $35 billion tax credit that 
Dick Morris thinks is such a good idea?
    Dr. Longanecker. We think for middle income families this 
is a very appropriate vehicle. Actually, what you just 
described is one of the reasons why we think there would not be 
the tuition effect, because the family still is engaged in the 
market decision and the market activity. They pay the check, 
you're right, in August or September, and they don't benefit 
from it until the next fall. That means they have to endure the 
pain, albeit they get the relief sometime later, so they remain 
active and their participation should diminish some of the 
tuition effect. Also, they do eventually get the benefit which 
we think is very useful to them.
    Mr. Miller. Wouldn't it be better to have an IRA that you 
could save for your children's education?
    Dr. Longanecker. Well, we've proposed an expansion of the 
IRA. We wouldn't disagree with you on that one.
    Mr. Miller. I think we have a common goal. I think part of 
the problem in achieving our goal is understanding what is the 
cause of this high cost of college. Having been around it for 
eight years, I've seen it go up very fast. We should address 
that problem to find out, if we can, the cause of the problem 
and the best solutions, and are there unintended consequences. 
I'm not sure this is a well-thought out idea from a tax 
perspective because I've seen bad tax policy at work in the 
past.
    I think I've used my time, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Miller. Mr. Wicker.

                   supporting postsecondary education

    Mr. Wicker. Thank you, Mr. Chairman. Let me just say at the 
outset, Mr. Longanecker, that I'm certainly committed, as I 
think all the members of this subcommittee are, to doing 
whatever we can to enhance the ability of American students to 
attend college. I have a public record in seven years in the 
State legislature and in a little over two years in the 
Congress of supporting that. Quite frankly, I would disagree 
with my colleague from Wisconsin, and I'm sure he's shocked at 
that. [Laughter.]
    Mr. Wicker. I think members of my party have a pretty good 
record on higher education. Mr. Miller mentioned expanded IRAs. 
I think that's an excellent way to allow American families to 
save for education. And in the area of Pell Grants, I think the 
record will show that the Republican Congress last time 
increased the maximum Pell Grant, that we increased funds for 
student loans. So I'm proud of our higher education policy in 
the 104th Congress, and I think we'll do what we can in the 
105th Congress.
    Within the context of a balanced budget, and you mentioned 
that in your testimony, I have to say it seems to me that you 
don't get to a balanced budget by embarking on huge new 
Government programs. I do worry about what is being proposed by 
the administration, well-intended though it may be, because of 
the unintended consequences issue that Mr. Miller raised. For 
the record, my friend from Wisconsin has departed the room 
temporarily, but it is inconsistent of the President to one 
year propose additional funds for a program and then the next 
year turn around and propose the program's termination. He has 
said at one time, either in 1995 or 1996, if you don't like the 
President's position, just wait a few weeks and he'll change 
it. I have to say that the Chairman's concerns were well-
founded.
    I intend to work with the administration. Particularly in 
the area of Pell Grants, student loans, things that we can show 
have been working, there is room for a conversation,there is 
room for improvement.

                            hope scholarship

    It is a fact that this HOPE Scholarship is based on a 
Georgia model, is that correct?
    Dr. Longanecker. That's correct.
    Mr. Wicker. And did you participate in the development of 
the program?
    Dr. Longanecker. In the development of the Federal program?
    Mr. Wicker. The development of the proposal?
    Dr. Longanecker. Yes, I did.
    Mr. Wicker. Well, the key difference in Georgia that 
prevents the tuition inflation is that the State of Georgia 
controls the cost of tuition. This is set by State officials. 
That would not be the case in this situation of the HOPE 
Scholarship.
    Dr. Longanecker. That's correct.
    Mr. Wicker. Is there any alternative other than this 
federally-mandated price control that Mr. Obey mentioned?
    Dr. Longanecker. To assure that the costs don't go up?
    Mr. Wicker. Yes.
    Dr. Longanecker. Along the same lines as I was mentioning, 
we think that both the economic and the political forces will 
work to avoid that kind of price effect. The economic forces 
will work in that it is not a universal benefit. As a result, 
because it is targeted to freshmen and sophomores, institutions 
aren't going to increase tuition for freshmen and sophomores 
alone, they couldn't get away with that, but if they wanted to 
capture those funds from those students, they would have to 
increase tuition for juniors and seniors.
    Mr. Wicker. But community colleges could, could they not?
    Dr. Longanecker. Most of their students now are less than 
half-time students. They would ostensibly have to increase 
their tuition for those students, alienating them, in order to 
capture the share for the students who were benefitting from 
the tax credit. Plus, they would have to increase tuition for 
the Pell Grant recipients, who get the Pell Grant instead of 
the tax credit. Because we have created different markets, we 
think we have created economic forces that will work against 
that. It is not strictly a full substitution of that effect.
    The second reason is the political one, which we mentioned. 
We think that people knowing about this, hearing about this, 
will cause them to expect the benefit to accrue to them, and 
will reward those people who appreciate that at the State 
level, and not reward those who basically take advantage of 
that, if you will.
    It's a real dilemma that you speak of. One of our problems 
is if you take your argument to a potential logical conclusion, 
you wouldn't increase benefits because it couldn't benefit the 
individuals. And so you get caught in a sort of loop where 
you're chasing yourself around. But we're very sensitive to 
that. We look forward to working with folks to try to find ways 
in which we can address those concerns, if they are unconvinced 
that we're on top of that now. We're not quite convinced that 
price controls are the effective mechanism.
    Mr. Wicker. Let me ask you to enlarge on that. As you know, 
Mr. Obey just proposed for discussion at least that type of 
approach, that the HOPE Scholarship and this tax deduction 
would not be available to students in institutions that 
exceeded a certain percentage of the national average. Could 
you tell us what's wrong with that? I suspect you and I might 
have the same ideas on that.

                      preventing tuition increases

    Dr. Longanecker. There are a lot of factors that come into 
why one institution might charge more than another institution. 
One is that they may provide substantially more institutional-
based financial aid than another institution and, as a result, 
need to charge higher tuition in order to generate the 
institutionally-based financial aid. Another might be that the 
nature of their education might be substantially different and 
more expensive. Providing an engineering education is much more 
expensive than many other types of education, and an 
institution that offers that is going to face higher costs and 
as a result probably need to charge a higher price.
    There are many legitimate similar reasons why price differs 
in higher education. Now, as the Time magazine article points 
out, there are other reasons less legitimate why college costs 
have gone up in the last few years. That's where we want to try 
to find a way to stem the tide of rising costs. There are also 
strong arguments that some States, by maintaining their tuition 
levels, haven't provided the level of general overall service 
they could have if they had charged a higher tuition. So there 
are a lot of decent arguments to be made on both sides. I think 
we need to work to find a way to not impinge on the reasonable 
arguments for higher price, while maintaining concern about the 
other ones. Is that responsive? I want to be as responsive as I 
can to you. It is not an easy question to answer.

                            hope scholarship

    Mr. Wicker. It certainly is responsive. Who is going to 
work out the details of all of this? Are we going to have a 
whole bunch of new IRS regulations, for example? How are we 
going to do the drug testing?
    Dr. Longanecker. On drug testing, we would do what we 
basically do for Pell Grants and other Federal aid today--if a 
person has been convicted of a felony, they would not be 
eligible. But we're not going to go out with campus police to 
find out whether people are using drugs. That's not the 
purpose. It is to say that if you have been arrested, convicted 
of a felony associated with drugs, you would not be eligible.
    Mr. Wicker. And that will be the definition of being 
``drug-free.''
    Dr. Longanecker. That's correct.
    Mr. Wicker. Before I yield back my time, let me just say I 
want to do whatever we can within a balanced budget, and I 
think we all do, to enhance college education. But your own 
testimony said this is nothing less than a major, major 
overhaul of the way we've been thinking about financing college 
education. I think that being the case, caution is called for. 
Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Wicker. Mrs. Northup.

                      hope scholarship eligibility

    Mrs. Northup. I'd like to return to who would be eligible 
for these college scholarships for freshman and sophomore 
years. Part-time students would not be eligible?
    Dr. Longanecker. If they were enrolled greater than half-
time, they would be. But students enrolled less than half-time 
would not be eligible for the tax credit. They would be 
eligible for the tax deduction.
    Mrs. Northup. What about students that are in vocational 
schools?
    Dr. Longanecker. Absolutely. They would be eligible for 
these programs as would students enrolled in any 
postsecondaryinstitution that currently participates in the Federal 
student aid programs. That's roughly 7,000 institutions that would be 
eligible. The same criteria would apply for eligibility at each 
institution.
    Mrs. Northup. What about my children that just got out of 
school in the last three years that have student loans right 
now. One works here on Capitol Hill and makes $20,000, she is 
paying taxes, she's carrying a student loan. Would she get any 
relief paying taxes into this for the education expenses she's 
just incurred?
    Dr. Longanecker. No, she would not. We made a major change 
in 1993 which was designed and intended to help just that type 
of student, and that was by changing the repayment options 
available to students, substantially expanding the array of 
repayment terms including income contingent repayment.
    Mrs. Northup. Right. Except we just heard testimony 
yesterday, I believe, that said we would be shocked if somebody 
that successfully completed college couldn't repay it over 25 
years. The point is, she would fall into a lower income, middle 
class income level and she is going to be the loser to pay. 
She's going to keep assuming the cost of her loan while new 
students--My son that's going to be a senior next year, I guess 
he might get part of a year, maybe none, but then he's going to 
assume the responsibility as he pays taxes for those other 
students.
    Dr. Longanecker. Yes.

                             school-to-work

    Mrs. Northup. What about students that are in school-to-
work transition programs where we recognize that what's most 
appropriate for them is to come out of high school in a 
training program and move into an internship and a job and not 
go on to higher education. What sort of help is this to them?
    Dr. Longanecker. If you look at our language, we really 
encourage them to be part of a postsecondary experience in 
school-to-work. We are really making a statement here that we 
think postsecondary is important for virtually all of the 
people who are coming out of school in the future. School-to-
work is an awfully important transition component for that. We 
think it should include the last two years of high school, the 
first two years of college, often times leading on to further 
college as well. School-to-work designed at its best is a 
rigorous academic but applied program that prepares people for 
college or careers.
    Mrs. Northup. Well, I've had a couple of days of the 
Department of Education, it's very hard for anybody over there 
at the Department apparently to imagine that there are kids in 
the 40 percentile in standardized tests. They have a really 
tough time getting through even high school. The real 
possibility of going to college isn't a possibility for them. 
Unfortunately, everybody making policy over there must be in 
the 90 percentile and they still tell each other if math were 
taught the right way everybody could pass third year math in 
high school. That's very unrealistic.

                            hope scholarship

    But what happens is those policies have exactly what Mr. 
Wicker said, they have a profound effect. First of all, 
ultimately, those people on the front line realize the reality, 
and that is that they have to water down classes if they're 
going to have people who aren't appropriately placed in these 
classes successfully.
    What I could imagine is, number one, colleges are going to 
have tremendous pressure with every student desperate to have a 
B average. We already worry about colleges and the watered down 
effect. The word gets out among students. I have six kids, four 
of them are in college or out of college. They know the record 
of colleges and whether they flunk kids out or not. This is 
talked about.
    If it matters for a tax credit, you can bet when they get 
down to that last class and that last exam and their average 
depends on it, they're going to be in that professor's office 
begging their heart out for that B or A that they need to 
maintain that credit. And if that professor says no, what do 
you think the next thing a desperate student is going to do? 
He's going to go to the chairman of that department and say I'm 
desperate and this guy is not giving me the benefit of the 
break I deserve. There will be some reason why the test was 
held on a day when he couldn't do well or whatever. They're 
going to have a whole student body like that. Does that seem 
farfetched to you?
    Dr. Longanecker. Let me answer that two ways. The 
alternative is just as unattractive. We can't have a system of 
higher education that doesn't have high expectations of 
students. The physician that I work with that attends to me, 
I'll bet, was a pretty good student who achieved at pretty high 
levels. I am glad that the medical school that accepted him 
accepted a person who had demonstrated their academic ability 
and didn't just sort of have a lottery for all the people who 
would have liked to have been physicians. So that's the other 
side.
    We do want students to achieve at the highest levels 
possible. If the mechanism we have chosen to get there is one 
that people don't think is the right one, then help us find a 
very good way of providing the message that working up to one's 
ability is an important part of the student's responsibility. 
Maybe we can work on that.
    What we do know is that grades have been an effective tool 
for getting students to achieve at high levels in the past. 
People do work hard to achieve high grades to achieve benefits 
in the future. They work hard to get high grades in high school 
so they can go to the college that they want to attend. They've 
worked hard in college so they can go to the graduate school 
they want to. They have worked hard in college to avoid the 
draft at one point. Those have been effective mechanisms. 
Perfect mechanisms, no. If there's a better one, we'd love to 
work with you to come up with that.
    But what the President and the Secretary are very dedicated 
to is the high standards, the high achievement theme. That is 
for the individual student.
    Mrs. Northup. I would just suggest to you that by driving 
every student to college whether they really belong there or 
not, and there has been great recognition that students benefit 
by different types of school-to-work transitions, and by 
requiring this B average--it's not the B average that bothers 
me, it's the fact that you are creating an impetus that pushes 
us in a direction that colleges are having a great deal of 
trouble resisting now.

                      preventing tuition increases

    I would also like to mention, I notice that Mr. Obey 
mentioned this, about the college cost doubling every ten 
years. That right there is exactly the concern. I don't think 
there's any excuse for colleges to be doubling the price of 
college every ten years. We ought to hold them to the cost of 
inflation or somewhere in that area. But one ofthe reasons that 
costs have doubled so fast is because they have had access to huge 
influx of money; i.e., in part, the States, the loan programs, the 
number of students that have access to funding sources. They haven't 
had to hold down their costs in order to attract the students.
    I would ask you, is there any student today that can't 
secure a loan, that does not have resources to go to college? 
It is part grant, part loan, but they can secure that if they 
need it.
    Dr. Longanecker. We have through the Higher Education Act 
assured that every student will be able to receive some form of 
financial assistance, mostly in the form of loans, not grants.
    Mrs. Northup. And who is going to benefit? The student. The 
student is going to have a higher income the rest of their 
life. So what's so odd about them and their families taking out 
a loan so that the truck driver from Eastern Hollow in Kentucky 
isn't paying taxes so that children from middle class families 
can go to school.
    Dr. Longanecker. There's nothing wrong with students and 
their families borrowing a reasonable amount to attend or send 
their children to college. That's why we have the student loan 
programs. What we are concerned about is that many of the 
students are taking out more debt than they should be taking 
out, and we would like to relieve that burden for them and for 
their families that are middle income families. We may differ 
on that one. We aren't ashamed of that. We would also like that 
truck driver who is probably making $35,000 to $40,000 a year 
to be able to send his or her child to college as well, and we 
believe they would benefit substantially from this tax credit 
as well.
    Mrs. Northup. My time is up. Thank you.
    Mr. Porter. Thank you, Mrs. Northup. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. Doctor Longanecker, 
nice to see you.
    Dr. Longanecker. Good to see you.

                 COMMUNITY COLLEGES AND WELFARE REFORM

    Mr. Stokes. Thank you. As you know, our nation's community 
colleges play a very special and critical role in workforce 
development. It would seem to me that in light of the recently 
enacted welfare legislation that our community colleges ought 
to be playing a very special role in terms of that reform 
legislation. In your professional judgment, what is the role of 
community colleges as it relates to welfare reform?
    Dr. Longanecker. They are an absolutely critical part of 
whether we're going to be able to secure the future for those 
people who are trying to move from the AFDC rolls onto the work 
rolls, in part because they provide an awful lot of the shorter 
term and medium term vocational programs. One of the dilemmas I 
think with the welfare bill is that it doesn't allow students 
to continue to participate in the medium term vocational 
programs.
    However, I think with some clever work with our community 
colleges, with our school-to-work programs and others, we can 
provide an avenue where people are in fact productively 
employed and productively engaged in academic life through co-
op work-study programs, through school-to-work programs, and 
others. The community colleges will be absolutely key in this.
    Our Federal student aid programs have been very important 
programs to welfare recipients in the past. In 1994, 400,000 of 
the Pell Grant recipients were either themselves welfare 
recipients or from families that were welfare recipients. So we 
already in our other programs play an awfully important role. I 
think as we continue that partnership with the institutions of 
higher education, particularly the community colleges, that's 
going to be awfully important. We're going to have to be 
creative with this new bill to find ways to make sure that 
people are true to the spirit of the bill, and also able to get 
the best education possible for them. But I think through some 
creative work we can get there.

                          FEDERAL TRIO PROGRAM

    Mr. Stokes. Good. Let me ask you about the TRIO programs. I 
am pleased to see that your budget submission includes an 
increase for the TRIO programs. At our hearings last year, you 
shared with us some preliminary data relative to the evaluation 
of the TRIO programs. Are you able to bring us up-to-date in 
terms of that evaluation?
    Dr. Longanecker. Sure. Actually, we've now received another 
year of evaluation information on two of the five programs in 
TRIO, our Upward Bound program and the Student Support Services 
program. The Upward Bound program is showing substantial gains 
for students as they participate in that program. They are 
taking 17 percent more academic courses and maintaining the 
same grades, so that they are taking a much more rigorous 
curriculum than they would have had they not participated in 
that program. And that's a fairly intensive program with fairly 
substantial costs. So we would hope to get some fairly 
substantial gains, and, in fact, we're seeing that.
    We're also seeing gains in the Student Support Services 
program, not only in the grades of students in college, but, 
more importantly I think, the students are staying in college 
longer. Their persistence is up by 7 percent if they 
participate. What we're also finding in the Student Support 
Services program is that the intensity of the experience makes 
a heck of a lot of difference. Some programs have one or two 
contacts and that's about it, others will have very substantial 
involvement and engagement, mentoring. The more time you spend 
with that student in the support services the more difference 
it makes. That will probably help us as we come forward in 
reauthorization and with some other ideas for you down the line 
on how we can further improve these programs.
    Mr. Stokes. How many students are currently being served by 
the program? How many will be served under your requested 
increase? Also, how many will still go unserved?
    Dr. Longanecker. I believe that we will be at 725,000. 
We're currently serving about 700,000. Claudio, why don't you 
answer that, if you would. I am going to ask Claudio Prieto to 
address that.
    Mr. Prieto. In the 1997 fiscal year, we had a total of 
688,194, close to 700,000 students. Our request for fiscal year 
1998 would allow us to increase it to 725,000 students.
    Mr. Stokes. In terms of those who will go unserved in the 
program, do have any estimate or data relative to that?
    Dr. Longanecker. A huge number. We're serving about 10 to 
15 percent of the population.
    Mr. Stokes. Is that the percent of the eligible population 
being served?
    Dr. Longanecker. Yes.

                      NUMBER OF AVAILABLE TEACHERS

    Mr. Stokes. Okay. For some years, the agency has indicated 
that we must find ways to help people see the rewards of 
teaching. That includes not just becoming a teacher, but 
equally important, remaining in theteaching field. What is the 
state of the teaching pipeline in the United States and how does it 
compare to that of other countries?
    Dr. Longanecker. We have a real challenge ahead of us in 
development of our core of teachers for the future. Over the 
next decade, we'll need 2 million new teachers in this country. 
Our current production of teachers in higher education is a 
little over 100,000 a year, which would give us about a 
million, plus the individuals who flow in and out of the 
profession would give us up to perhaps another 400,000 to 
600,000 teachers. So we will have a substantial gap between now 
and the year 2010 in the number of teachers produced as opposed 
to demand.
    As we enter our discussions about reauthorization of the 
Higher Education Act and look particularly at Title V of the 
Higher Education Act, which has the teacher education programs, 
we think there are three really critical issues we have to look 
at. One is how we attract people into the field of education, 
particularly people from communities of color who are sensitive 
to different cultural milieus. Because what we know is that in 
this wave of retirements, many of the teachers who are from 
communities of color will be retiring. And the share of 
teachers from minority backgrounds will go down, whereas the 
number of minority students will go up. So that's got to be an 
area that we focus on.
    The second is we want to make sure those people are getting 
a very strong education. There are concerns about the efficacy 
of our teacher education programs in this country. We know 
enough to know how to prepare people well, and we want to make 
sure we're providing the right messages to teacher education 
preparation programs so that they are preparing people well.
    And the third is that we know that about half of our 
teachers leave the teaching profession within five years of 
entering it. That's partly because we don't have the induction 
process that they have in medicine and some other professions 
that basically prepares people well and provides a clinical 
experience. And so we want to provide strong incentives on 
that. You can expect from us in our reauthorization proposal a 
substantial initiative in the area of initial preparation of 
teachers for the future.
    Mr. Stokes. You mentioned, and I appreciate your mentioning 
the situation with regard to minority teachers. Let me just 
pursue that a little further. I understand that the proportion 
of minority teachers is projected to be only 5 percent by the 
year 2000.
    Dr. Longanecker. That's correct.
    Mr. Stokes. What particular fields of teaching are hardest 
hit by this shortage?
    Dr. Longanecker. I do not know which fields are hit 
hardest. I can't even tell you if it's secondary or elementary 
education. What I can tell you is that we're very concerned, 
and this shouldn't come as any surprise, we know that given the 
reading and math standards that we're talking about for the 
fourth and the eighth grades that we do not have today the 
cadre of teachers prepared to assure that students are able to 
read at the third grade. The preparation programs don't prepare 
elementary teachers with a strong enough background in reading 
to assure that they're able to help all the students achieve at 
the highest levels. And in math, the middle school area has not 
been our strength, and we need to do much more to bring those 
students along and make sure that they have those algebra 
skills by the end of the eighth grade, not necessarily that 
they're taking algebra in the eighth grade because we may want 
to provide them those skills from the fifth to the eighth 
grade, but to make sure that they're competitive on a world-
wide standard by the time they leave eighth grade.
    Mr. Stokes. Does your budget allow you to address this type 
of shortage?
    Dr. Longanecker. The budget we're requesting this year for 
postsecondary education does not include major initiatives in 
teacher education. The one exception is the Minority Teacher 
Education program where we've requested what could only be 
termed I think a modest increase, $1.5 million. That, of 
course, is on a $2 million base so it looks like it's a 
whopping increase, but it is still only $1.5 million. So it's 
sort of a statement about the importance of this effort. Our 
budget next year almost certainly, as we bring forward the 
reauthorization proposal, will include an initiative in this 
area.
    Mr. Stokes. Mr. Chairman, do I have additional time 
remaining?
    Mr. Porter. Actually, you don't, sorry to say.
    Mr. Stokes. Okay. Thank you, Dr. Longanecker. Thank you, 
Mr. Chairman.
    Mr. Porter. Thank you, Mr. Stokes. Mr. Bonilla.

                    FRAUD AND ABUSE IN LOAN PROGRAMS

    Mr. Bonilla. Thank you, Chairman. I'll be brief because I 
know I'm going ahead of some colleagues who have been here much 
longer. David, I would like to just bring to your attention 
something, it's not a question, it is a request that you 
investigate. While I'm talking I'm going to ask Christine to 
hand you a copy of this mail-out.
    Yesterday, I brought up with the Secretary a question about 
Federal loan programs that are in place that are prone to fraud 
and abuse. I think you'll find the evidence clear-cut that this 
is a case. You may have heard when I shared with the Secretary 
that this is a prime example of the kind of abuse that's 
occurring in the Federal Direct Student Loan program as a 
result of the income contingent loan repayment program. It is 
worth repeating that a borrower who defaulted on FFELP loans 
has consolidated his defaulted loans into a single Federal 
Direct Student Loan. You can see some of the things in the 
mail-out that he is publicly initiating now. ``You can drop 
your student loan payments by up to 90 percent.'' ``You can 
have the remaining balance forgiven after 25 years.'' ``I found 
the Government program that can bail you out. It's all part of 
a new Federal law.'' ``If the Republicans win, your chance to 
get in can be wiped out in seconds.''
    Christine in my office called the number last night and the 
president of the company on a recording gives you a step-by-
step of how to avoid paying back what you owe and encourages 
you to buy a 100-page book at a cost of $79.86 from his 
company. He states that the Federal Government helped to 
explain to him how to do this and now he is selling it to 
others. He encouraged that users do this fast because the 
Federal Government could turn it off at any time because it 
could cost the Government money. It also said that he is having 
trouble keeping up with demand for the book.
    David, I hope you're aware of this and I hope that you nail 
this guy to the wall, turn it over to the U.S. Attorney if 
that's applicable. This is a prime example of someone out there 
who is stealing money from the Federal Government that ought to 
be going to students who truly need student loans inthis 
country. Again, in the interest of time, if you would like to comment, 
fine, otherwise----
    Dr. Longanecker. Yes, let me just respond briefly. That 
provision of the law actually was an amendment from the House, 
from Mr. Petri. It is in the law that we have to provide that 
option. Having said that, let me also say I think that's not 
bad.
    What this guy is advertising is wrong. In fact, it is not 
entirely true. Interestingly, we went back and called the 1-800 
number last night as well to see. There are some misleading 
aspects and we will follow up on that.
    But when Mr. Petri proposed this, he said the reason we did 
income contingency was to prevent people from going into 
default. It allowed people who didn't have the income right now 
to avoid default and thus prevented defaults. In the past we 
didn't have that. And so his idea was with respect to those 
poor people who went into default not because they were jerks, 
but because they didn't have the resources with which to repay 
their loan, shouldn't we provide that opportunity for them to 
sort of rehabilitate themselves so that over their life they 
can repay in full their debt. Our analysis shows that most 
people who have an education repay their debt in full over 
time.
    The concern we have is that not everybody went into default 
because they were low income. Some did go into default because 
they were jerks. What I think we're trying to work on inside 
the Department is a way to make a legitimate distinction 
between those people who, if you will, deserve the opportunity 
to rehabilitate themselves and those who don't.

                        work study--minimum wage

    Mr. Bonilla. I appreciate that, David, and I think you 
appropriately call them jerks because they are taking money 
from people who could use it, and that's what I'm concerned 
about.
    I want to switch now to another subject. Last fall there 
was an initial hike in the minimum wage which has adversely 
affected colleges in my district which have participated in the 
Work-Study program. Doctor Vic Morgan, who is president of Sul 
Ross University in Alpine, Texas, wrote me with a concern that 
``There have been several increases in the minimum wage over 
the years which have reduced the number of participants in the 
Work-Study programs.'' I'm sure that each time there's an 
increase in the minimum wage, the Department hears about this 
from other colleges. Have you raised the concern with the 
Department of Labor and the President when he considers minimum 
wage hikes?
    Dr. Longanecker. When there is a proposed increase in the 
minimum wage, we always have those discussions within the 
administration in terms of whether we will support them or not. 
In this case, this has been a wonderful year for college Work-
Study. With the increases that you folks provided, you trumped 
us last year and that was pretty neat, and with that increase 
institutions are both able to meet the minimum wage 
requirements and to provide more work-study jobs than they have 
in the past.
    Most institutions, in fact, are already paying 
substantially more than the minimum wage for college work-study 
jobs. To some extent the markets have demanded that in order to 
get good employees. That's not universally the case, but the 
majority of students in work-study make more than minimum wage.
    Mr. Bonilla. Well, as clearly stated, in an area that's 
fairly impoverished like I represent, that's not the case. Can 
you answer how many students were cut from the Work-Study 
program due to the increase in the minimum wage?
    Dr. Longanecker. Keep in mind, the minimum wage went into 
effect the same year for which we're providing a 36 percent 
increase in college Work-Study program funding. But I'll tell 
you what I'll do--what was the name of the college?
    Mr. Bonilla. Sul Ross University in Alpine, Texas.
    Dr. Longanecker. What we'll do is I'll give you some 
information on how much their allocation is going up and we can 
do some specific work on that.
    Mr. Bonilla. I appreciate that. David, thank you. Chairman, 
thank you. Thanks Jay for letting me go first. You're a great 
guy.
    Mr. Porter. Thank you, Mr. Bonilla. The long patient Mr. 
Dickey.

                            hope scholarship

    Mr. Dickey. Thank you long patient Chairman. Dr. 
Longanecker, the HOPE Scholarships are going to create more 
paperwork. How is it going to be handled at the local level? Is 
there any way of helping the people at the local level?
    Dr. Longanecker. Yes. We've been working very closely with 
the higher education community, when I say we, I mean both the 
Treasury Department and ourselves. The language that you can 
read in the Green Book talks about the relationship that the 
two secretaries have on this program so that we will reduce as 
much as possible the burden on the institutions and the 
individuals. We're trying to make a simple straightforward 
program.
    Having said that, there indeed will be some additional 
burden. We'll have to know whether the student was a student, 
whether they paid anything out of pocket. There are about five 
things that we've come down to that we'll need to get some help 
on. We're trying to design those in a way that they are as easy 
as possible for the institutions to provide to both the 
taxpayer and to the IRS. In terms of definitions, of what those 
are, we will use all of the definitions that are in the Higher 
Education Act so it's not confusing. We're going to work as 
closely as we can to keep that burden as minimal as possible. 
But we obviously want to have enough information to ensure that 
there is integrity in the program. And it's that balance that 
we're trying to achieve.
    Mr. Dickey. Are there any other ways in other reporting 
requirements that you're trying to make simplicity your goal?
    Dr. Longanecker. Absolutely. One of the four themes we're 
pursuing in our reauthorization is to reduce the administrative 
burden on institutions. We actually believe we can continue to 
reduce the burden on institutions and provide better oversight 
and management of our programs. That doesn't necessarily sound 
like it is intuitively obvious. But if we reduce the burden 
where it is unnecessary, then we can focus our attention where 
it is most necessary. We think that this is a win-win 
situation. It's a major portion of our overall effort in 
reauthorization, both in terms of simplifying, if you will, the 
need analysis and FAFSA--Free Application for Student Financial 
Assistance--all the way to the kinds of requirements that we 
place on institutions for reporting to us.
    Mr. Dickey. I hear that second as far as complaints about 
our educational system. In first place is the lack of 
discipline in the class and what a burden that puts on the 
teachers. Is anything being done as far as bringing discipline 
to the classroom?
    Dr. Longanecker. Actually, that's a serious issue that we 
hear in elementary and secondary education. We don't hearthat 
as often in postsecondary education.

              historically black colleges and universities

    Mr. Dickey. I'm sorry. You're right, I did get off on that. 
I'm trying to track the funding for Historically Black Colleges 
and Universities. Are you the authority on this panel on that 
subject?
    Dr. Longanecker. Yes, I would be.
    Mr. Dickey. Are there 17?
    Dr. Longanecker. Actually, I think we recognize 103 
Historically Black Colleges and Universities. There are 
approximately 108 additional predominantly black colleges and 
universities. There's a difference there in that there is a 
statutory definition of Historically Black College. It is 
driven by when they were created and for what purpose. But 
there are other institutions, for example, in Illinois, Chicago 
State is a predominantly black college and university but it 
doesn't have the ``historical'' designation. Our programs in 
statute deal with the Historically Black Colleges and 
Universities.
    Mr. Dickey. The University of Arkansas at Pine Bluff?
    Dr. Longanecker. That's a Historically Black College.
    Mr. Dickey. Even though it's a land grant school?
    Dr. Longanecker. That's correct.
    Mr. Dickey. In your budget, does it share in any funds?
    Dr. Longanecker. Yes. It would share in two or three 
special programs that are available for Historically Black 
Colleges and Universities. Title III, Part B of the Higher 
Education Act provides every Historically Black College or 
University in the country an allocation. The overall funding 
for that is $113 million.
    Then there is another program for which Historically Black 
Colleges and Universities are eligible, and that is a capital 
financing program that was created exclusively to provide the 
access to loan capital that is often not available to those 
institutions from other State sources like a tax exempt, 
bonding fund. That was created in the 1992 amendments. There 
has been one loan under that program to date. We think there 
will be substantially more financings this year.
    Mr. Dickey. Thank you, sir. That's all the questions I 
have, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Dickey.

                           policy consistency

    Dr. Longanecker, back on the matter of consistency. The 
budget proposes to limit spending for the administrative 
activities of the Direct Loan program, as I mentioned before. 
This is something this subcommittee has done legislatively in 
each of the last two years. The President proposes to limit 
such spending to $532 million as opposed to the statutory 
limitation of $750 million. If the President intends to limit 
administrative funding, why doesn't the budget include the 
necessary language to implement the limitation?
    Dr. Longanecker. Tough question. I'll have Tom answer that 
one.
    Mr. Skelly. Mr. Chairman, that limitation of $532 million 
would be reflected in the President's legislative package to 
make a change in the authorization for section 458.
    Mr. Porter. Are you going to do it by actually changing the 
authorization?
    Mr. Skelly. We have proposed a change in the authorization.
    Mr. Porter. And when will you send that up?
    Mr. Skelly. I believe they will make that announcement next 
week.
    Dr. Longanecker. We think it will be next week. How about 
that, we both said it at the same time. That's probably about 
the first time anybody from the administration has said the 
same thing with respect to this bill this year.
    Mr. Skelly. That's consistency.
    Mr. Porter. We're happy to hear that. That will obviously 
help us get the job done.
    Mr. Skelly. Your committee gets credit for savings in the 
appropriations bill if you have the change or the limitation in 
your bill.

                           policy consistency

    Mr. Porter. Right. We just didn't notice it in the budget 
justification and thought you should have had it in there.
    Mr. Skelly. We had information on the numbers in the budget 
justification, just didn't have the language.
    Mr. Porter. Right. In fiscal year 1997, the Department 
requested an increase for the Work-Study program reflecting, 
according to page L-30 of the justification, ``The 
administration's commitment to expand educational opportunities 
for students.'' The justification also noted ``A commitment as 
stated in the President's State of the Union Address to 
increase the number of Work-Study recipients to 1 million 
students.'' This subcommittee agrees with that goal, and last 
year we provided, as you mentioned a moment ago, more funding 
in our bill for Work-Study than was requested by the President 
to get to that goal of 1 million students more quickly. 
According to the Department, the final appropriation provided 
enough funding to serve 960,000 students, almost, but not 
quite, 1 million.
    Now we learn that the President is exercising his 
regulatory authority to cut the number of Work-Study students 
served by waiving the institutional match requirement in 
certain circumstances. We have the numbers from your Budget 
Office but I would like to get them on the record. What is your 
estimate of the number of students that will actually be cut 
out of Work-Study as a result of the President's new policy? 
And how much funding will be cut?
    Dr. Longanecker. It is my understanding that the numbers 
would go down by 15,000 Work-Study awards in 1997-98. Without 
that waiver, the Work-Study program would provide benefits to 
960,000 students. With the waiver, it will provide benefits to 
945,000.
    Mr. Porter. And the amount of money?
    Dr. Longanecker. The amount of money total between the 
Federal and the match would be reduced from $1.23 billion to 
$1.07 billion.
    Mr. Porter. That's $16 million?
    Dr. Longanecker. Yes. Bob, do you want to respond.
    Mr. Davidson. Mr. Porter, I'd like to just add that this 
authority by regulation allows the institutions to waive that 
matching but does not require it. Institutions use their own 
matching in very different ways and they may, indeed, continue 
to provide the capital for the match. Also, these are estimated 
projections based on past experience. We can't say that it is 
exactly a cutting of students out of the program. It is simply 
a different projection based on estimates.
    Mr. Porter. Right. Now let me look at the maximum, and we 
already have these numbers as well but I'd like to get them on 
the record. If every school took full advantage of the waiver 
of the institutional match requirement, how many students would 
be cut out of the program, and how much funding would be cut?
    Dr. Longanecker. If everyone took full advantage, then we 
would fund 729,200 students in 1997-98.
    Mr. Porter. A drop of?
    Dr. Longanecker. A drop of roughly 200,000 students from 
what I indicated.
    Mr. Porter. And how much money?
    Dr. Longanecker. The total amount available would be $776.7 
million.
    Mr. Porter. We have from your staff 231,000 students and 
$247 million.
    Dr. Longanecker. Yes, that's right.

                    presidential honors scholarship

    Mr. Porter. The President is proposing to cut $130 million 
out of existing need-based student assistance programs to start 
a new, as yet unauthorized, untested Presidential Honors 
Scholarship program that duplicates an existing but unfunded 
Presidential Access Scholarship program. I call it a cut 
because if we didn't put that money in the new scholarship 
program, we could put it in existing programs that we know work 
and serve Federal responsibilities.
    You remember that in his first two years the President held 
Pell Grants at level funding. Then the Republican Congress 
increased the Pell Grant maximum for two years running and the 
President decided to catch up. Now he's proposing a maximum 
Pell Grant of $3,000. Is that sufficient to assure that all low 
income students have full access to the school of their choice, 
or is there still unmet need in the Pell Grant program if we 
raise it to $3,000?
    Dr. Longanecker. We believe that if we could, we would love 
to do more in the Pell Grant program.
    Mr. Porter. Can you answer that for me though? Would there 
still be unmet need or would that assure that all low income 
students have full access to the school of their choice?
    Dr. Longanecker. No. There is unmet need at a $3,000 
maximum Pell.
    Mr. Porter. Can it be quantified?
    Dr. Longanecker. It's huge, because essentially the current 
authorization level which would have Pell at about $4,500 for 
the coming year, which would increase the cost of Pell by about 
$7 billion per year.
    Mr. Porter. Assuming that the Congress decided not to cut 
funding for Pell Grants in order to fund the Presidential 
Honors Scholarships as the President proposes and instead put 
that $130 million into the Pell Grant program, how much could 
the maximum grant be increased, how much would the average 
grant be increased, and how many additional students would be 
served?
    Dr. Longanecker. The $130 million would increase the Pell 
maximum by between $35 and $40. It takes about $300 to $330 
million per $100 increase in maximum. We can provide the 
specifics on those others. I can take a guess at those. The 
average grant would go up by an average of $35 to $40.
    Mr. Porter. And additional students?
    Dr. Longanecker. Additional students, we would bring in 
probably about 10,000 to 15,000 I would imagine.
    Mr. Porter. Dr. Longanecker, I have a number of additional 
questions for the record. I would ask that you answer those.
    Dr. Longanecker. Yes.
    Mr. Porter. We appreciate your good statement today and 
your answers to all our questions. We thank you for the job 
that you're doing.
    Dr. Longanecker. Thank you very much. It's always a 
pleasure to testify here.
    Mr. Porter. Thank you, sir.
    The subcommittee will stand in recess until 10:00 a.m. 
tomorrow.
    [The following questions were submitted to be answered for 
the record:]

[Pages 276 - 398--The official Committee record contains additional material here.]


                                          Thursday, March 13, 1997.

                   EDUCATION RESEARCH AND IMPROVEMENT

                               WITNESSES

MARSHALL S. SMITH, UNDER SECRETARY
PASCAL D. FORGIONE, COMMISSIONER OF EDUCATION STATISTICS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    We're pleased to welcome this morning Dr. Marshall Smith, 
the Under Secretary, who will testify in behalf of the Office 
of Educational Research and Improvement. Dr. Smith, why don't 
you introduce the people you have with you and then proceed 
with your statement.
    Mr. Smith. Thank you, Mr. Chairman.
    I have on my left Dr. Pat Forgione, who's the new 
Commissioner of the National Center for Education Statistics. 
On my far right, the ever-present Tom Skelly, Director of our 
Budget Service; and Carol Cichowski on my direct right, who is 
an Associate Director of the Budget Service.

                           Opening Statement

    Mr. Chairman, I would like to submit my written testimony 
for the record and just briefly make some highlights of that 
testimony before you today.
    Mr. Chairman, I am pleased to have the opportunity to 
appear before you today to discuss the President's proposed 
1998 budget for the Office of Educational Research and 
Improvement. Our total request for OERI is slightly more than 
$500 million, less than 2 percent of our entire budget. But the 
activities are an important part of our effort to help improve 
American education.

                      increases requested for oeri

    Our request does include an increase of $100 million. And 
today, I am going to focus upon that increase. You have the 
details of our overall $500 million budget for OERI in the 
written testimony. What I'll focus today on are the five main 
increases in the budget for OERI, and then I'll conclude with a 
short description of the President's plan for national tests, 
since, in particular, it is funded under the Fund for the 
Improvement of Education, which is part of OERI's overall 
agenda.
    So now to turn to the $100 million in increases. First, 
we're requesting an $8 million increase for the National 
Research Institutes, so that we can support the field-initiated 
studies program on a stable basis. This increase now will allow 
us to support this program on a stable basis over time without 
having to increase the overall funding amount in the future.
    This program allows us to fund studies such as a current 
one that is testing what we know about the causes and 
conditions of school violence. Using our knowledge of school 
violence, the project will develop methods and programs to 
reduce and prevent violence in inner-city schools in New York 
and then rigorously evaluate that effort.
    Another example is a project studying how to support young 
children's mathematical development in preschool classrooms and 
at home in order to enhance their readiness to learn math in 
school. This project is developing pre-kindergarten and family 
math curriculum.
    The second area of increase is in statistics. We are 
requesting a $16 million increase. The amount will allow us to 
provide the public and policymakers with data they have come to 
rely on, while pursuing activities in several crucial areas 
that have been under-supported. One of the most important of 
these activities is the early childhood longitudinal study. 
Researchers confirm that early learning is critical to later 
educational success. Indeed, brain research points to the 
importance in children's development of experiences from the 
earliest weeks and months of their lives.
    We went into this issue in some detail in the Secretary's 
testimony. This particular study will gain us lots of knowledge 
about the progress of children as they grow from the very 
earliest weeks of their lives up to school, so we can get them 
better prepared for school.
    Our third substantial increase is $18 million for 
Technology Innovation Challenge grants. Challenge grants 
provide powerful models of how technology can be used and 
integrated effectively into school curricula, enhance learning 
opportunities and improve achievement for all students. The 
increase will allow us to support 20 new high quality models in 
1998. The program is very competitive, generating nearly 600 
applications each year from consortia of schools, colleges and 
the private sector.
    Fourth is the $16 million increase for the National Board 
for Professional Teaching Standards. These new resources will 
help accomplish the goals of the Board, and the President's 
goal of providing all students with talented, dedicated and 
well-trained teachers. The Board administers a voluntary 
assessment and professional certification process for 
experienced teachers, based on national standards of teaching 
excellence. This is an important initiative to recognize and 
reward excellent teachers.
    Finally, the last major increase is our request for $50 
million, a $49 million increase, for after-school learning 
centers, a new initiative to be funded under the existing 21st 
Century Community Learning Centers Authority. This new program 
will help rural and inner-city public schools stay open after 
school hours, on weekends and during the summer to serve as 
safe neighborhood learning centers, where students can do their 
homework and obtain tutoring and mentoring services.
    This program will be built upon successful models and will 
be rigorously evaluated. The request will support the 
development of 200 to 300 new after-school programs focused on 
providing activities to improve student achievement and prevent 
juvenile violence and substance abuse.

                             national tests

    Now let me turn to the plan for voluntary national tests. 
Beginning in 1997, we will be using resources from the Fund for 
the Improvement of Education to develop national tests in 
fourth grade reading and eighth grade mathematics, as well as 
to develop and disseminate materials to help schools, teachers, 
parents and students prepare for these tests. The President has 
called for these challenging national tests so that parents and 
teachers will know how well students meet rigorous standards 
and how well they compare to their peersaround the country and 
the world. He announced in his State of the Union address that these 
tests will be available for use in the spring of 1999. Our budget for 
1999 will include funds to reimburse participating States and districts 
for the cost of administering the tests the first year.
    Mr. Chairman, our budget documents were sent to print 
before the President made the decision to go forward to develop 
these tests. That is why you find no mention of them in the 
materials we have provided you. The President made his decision 
on the tests after returning from Northbrook, Illinois, where 
he participated with you in a release of the results comparing 
the performance of the First in the World Consortium with the 
performance of the 41 countries that participated in the Third 
International Math and Science Study. What these new tests will 
do is to allow every parent to compare the performance of his 
or her child with the performance of children around the 
country and the world. We will absorb the initial costs of 
developing these tests within the current funding level for the 
Fund for the Improvement of Education. These tests will make 
high standards a reality. The notion of establishing high 
standards is generally accepted throughout the country by the 
public, but some of the standards being adopted have not been 
rigorous.
    These tests will offer a common set of expectations and 
standards in the basic skills of reading and math. We all know 
that being able to read independently by the fourth grade is a 
critical skill. Children who are unable to read independently 
by that critical transition period cannot read to learn science 
and history and so on. And they are the children who most often 
drop out or fail in school.
    Mathematics is the second basic. And the critical 
transition here seems to be at eighth grade. Students who do 
not have a strong background in mathematics by the eighth grade 
are not able to take the kinds of courses in high school that 
prepare them for college.
    These are the reasons, Mr. Chairman, that we have decided 
to develop voluntary tests in fourth grade reading and eighth 
grade mathematics.

                     program performance indicators

    Finally, Mr. Chairman, to ensure that our investments are 
productive and efficient, we are in the process of developing 
detailed measures of performance and indicators of 
effectiveness for our programs. Finding appropriate ways to 
measure the effectiveness of our investments in research has 
been a particular challenge, because the effects are often only 
seen over a long period of time.
    However, if we consider today what the payoff has been from 
the past 25 years of education research, we see that in the 
aggregate, it has been tremendous. We have only to consider the 
research that NIE and later, OERI, supported in the areas of 
reading, effective schools, technology, teaching, and career to 
work, to conclude that the investment in the National Institute 
of Education and OERI has had dramatic effects in the quality 
of American education.
    More recent work in math and science and in assessments, 
and studies such as the Third International Math and Science 
Study (TIMSS), promise similar benefits. Nonetheless, we 
realize how important it is that we document better than we 
have in the past the effectiveness of OERI activities. We have 
made progress and have fairly well-developed plans for our 
major programs.
    Mr. Chairman, that concludes my summary of our budget 
request for the Office of Educational Research and Improvement. 
My colleagues and I will be happy to respond to any questions.
    [The prepared statement and biography of Marshall Smith 
follows:]

[Pages 403 - 410--The official Committee record contains additional material here.]


                             national tests

    Mr. Porter. Dr. Smith, I think you've got the rights now, 
for voluntary national test sounds about right. We want to make 
certain we understand what we're talking about. And the 
subjects are limited to reading at fourth grade and math and 
science at eighth grade?
    Dr. Smith. Just math at eighth grade.
    Mr. Porter. All right. And I assume that, you said there's 
already authority for this, so no authorization is needed?
    Dr. Smith. That's exactly right. Authority for the tests 
exists under the Fund for the Improvement of Education.
    Mr. Porter. And what you're doing is providing funds to 
encourage States to undertake this voluntary national testing 
program, using the TIMSS test for eighth grade math and the 
NAEP test, is it?
    Dr. Smith. Not exactly. What we're doing is providing funds 
for the development of individual tests, based upon the 
National Assessment of Educational Progress (NAEP)--at fourth 
grade in reading and at eighth grade in mathematics. The math 
test will also be equated with the math test used in the Third 
International Math and Science Study.
    Mr. Porter. So the funding is to be used to develop two 
tests?
    Dr. Smith. That's right. Exactly.
    Mr. Porter. And how long will it take to develop those 
tests?
    Dr. Smith. The President has asked us to have the tests 
ready for the spring of 1999.
    Mr. Porter. And the math test would not necessarily be the 
TIMSS test that the consortium took in my district?
    Dr. Smith. That's right. It will be equated to the TIMSS 
test, however.
    Mr. Porter. What does that mean?
    Dr. Smith. Well, it means we'll be able to make a judgment 
using the score on the new mathematics test to estimate a TIMSS 
score that will tell us at roughly what percentile a student 
would score on the TIMSS test. For example, we'll know whether 
or not a student can score above the international median, for 
example, or whether he or she would score as high as 
Northbrook.
    Mr. Porter. Why not just use the TIMSS test?
    Dr. Smith. Well, first of all, because the TIMSS test is a 
sample test. A number of different students take the TIMSS test 
in order to create one score. In that test, perhaps the four of 
us sitting here and the two of you would all take different 
parts of the test. And then they'd be statistically aggregated 
to come out to be a single test, in effect.
    So, the test can't be given to an individual student in the 
form it is now. What we'll do is base the math test on the 
National Assessment of EducationalProgress eighth grade math 
test, because that test is a little bit closer to the kind of 
curriculum we have in the U.S. But it will be close enough to the TIMSS 
test to equate it. So we'll be able to get a predicted score to the 
TIMSS.
    So a son or daughter of a person living in Illinois or 
anywhere else would be able to know that yes, they have scored 
above the international median. Perhaps they've scored in the 
top 10 percent internationally.
    Mr. Porter. And tell me what your target is for actually 
having students take this test?
    Dr. Smith. It's the spring of 1999.
    Mr. Porter. Spring of 1999.
    Dr. Smith. Right.
    Mr. Porter. Two years from now. It's going to take that 
long.
    Dr. Smith. Yes. We'll actually have a test constructed for 
1998, but then we have to validate it against both the Third 
International Math and Science Test, and against the National 
Assessment Test. Typically, constructing a test will take three 
or four or five years. We were able to shorten that time, 
because we're basing the tests on well-developed standards that 
have already been created for the National Assessment.

                       funding for national tests

    Mr. Porter. And how much money are we asking for, for the 
next year?
    Dr. Smith. In 1997, that is, in the current year, we're 
going to be spending somewhere between $8 million and $10 
million. And next year, we're going to be spending perhaps a 
little bit more, $9 million to $12 million.
    Mr. Porter. Why is it costing so much money to do this?
    Dr. Smith. Well, there's a whole set of processes 
involved--developing the tests and making sure that they equate 
to the National Assessment tests, which means you have to 
actually run the tests in 1998. And when you're in the process 
of developing tests like this and trying to equate them to 
other tests, sometimes your first attempt at it doesn't work. 
So we're actually going to do two or three or four or five 
attempts all at once. Because we need to move fast on this.
    Mr. Porter. And pick the best.
    Dr. Smith. And then pick the best. Exactly. So it will cost 
a little bit more.
    There are two other reasons for the cost. One is that the 
tests are going to be a little bit better than many of the 
tests which are now on the market, in that they will combine 
both multiple choice items and what are called extended 
response items. We used to call them open answer questions, 
where students would actually fill in something with words and 
so on. Using extended response items costs a little bit more, 
because they are harder to equate and work with statistically.
    The other reason is that we want to make sure that these 
tests can be given to almost all kids in the country. And so we 
were trying to work on some accommodations for special 
education students and bilingual students.

              states' role in administering national tests

    Mr. Porter. Now, many States, I assume, because I'm looking 
at my own state, already give a battery of tests. We test, I 
think, for these same things at third grade, sixth grade, ninth 
grade and twelfth grade in Illinois.
    Dr. Smith. Right.
    Mr. Porter. Is there an intention that States only test 
with these tests or, you're not discouraging that, you're 
simply adding that to what they already do?
    Dr. Smith. That's right. In fact, what we're trying to do, 
for States that give tests in fourth grade and eighth grade, is 
develop the tests so that they can actually be integrated into 
the testing package, into their overall assessment strategy. 
We've been looking at these tests, not only as add-ons, which 
they might be in Illinois, because Illinois doesn't test in 
fourth grade. Many States do test in fourth and in eighth 
grade. In that case, they could be part of the overall battery 
of tests that a student takes.
    We're not going to administer the tests. Everything will be 
done by contractors. First of all, the construction of the 
tests will be done by contractors. But second, a contractor or 
a third party will work with States and local districts and 
private test publishers to have them, in effect, administer the 
tests. So these tests will be certified to be given by a 
private testing company or by the State of Illinois or by the 
State of Michigan. And they will take responsibility for 
carrying out the actual administration, scoring and reporting 
of the tests.

                       publishing test questions

    Mr. Porter. Won't the test have to be changed annually in 
some way? Because otherwise you'll teach to the specific 
questions, and those who teach to them might score much higher 
than those who don't.
    Dr. Smith. You're absolutely right. It's an excellent 
question. And in fact, we're going to try to do something 
that's quite different from what happens with other tests. Most 
schools now give their assessments some time between the middle 
of March and early May. That's the testing period in most 
schools. We'll work with the contractors, the folks who do 
testing, both at the State level and with private industry, to 
figure out when that window is.
    After that window is closed, that is, there's no more 
testing, we're going to immediately release the tests. The 
tests are going to go on the internet and be available to 
everybody. Those tests will never be given again. Those items 
won't be used again. A person who has a home schooling child 
could use that test, too. We'll supply them with the answers to 
the test. We'll also supply them with information about how the 
child might study for the test. So everybody in the country 
will be able to see the tests, and think about what children 
need to know.
    This is done, actually, in France and some other countries. 
In France, they publish the questions from the baccalaureate 
the day after the test. They're put in the newspaper, and 
people sit around and say, can I answer that question? This is 
a question my 16-year-old has taken or my 12 year old, or 
whatever.
    Mr. Porter. Now, when the tests are given, and they're 
voluntary, the States can choose to or not, will the results be 
published, or will that be up to the States to decide?
    Dr. Smith. That will be entirely up to the States and local 
districts. Reporting will be done in the same way they normally 
do it, unless they want to change that way. The Federal 
Government will not gather any data on individual students at 
all.
    Mr. Porter. So we will have no national assessment of where 
we stand relative to other countries, unless we do it by some 
kind of sample privately and not release the name of the 
participating schools, maybe?
    Dr. Smith. That's exactly right.

                  value of federal education research

    Mr. Porter. A recent article in Educational Researcher by 
Robert Slavin indicated, ``Federally funded education R&D has 
created few well-validated programs or practices that have 
entered widespread use. At the same time, there are very 
important developments taking place in school by school reform 
almost entirely outside of the Federal R&D structure.''
    This is an article that was funded by OERI. Obviously, 
you're permitting dissenting views. Tell me whether you agree 
with Robert Slavin's generalization, and if so, how do you 
propose to deal with the implications of it.
    Dr. Smith. Well, Bob and I have talked about this. I don't 
fully agree with him. There are a variety of different models 
being developed and disseminated under the auspices of the New 
American Schools Development Corporation, for example. There 
are two or three of those models that have never received any 
Federal funding. There are a number of models in that group, 
however, which have received a lot of Federal funding.
    There are also models like Henry Levin's Accelerated 
Schools which are being used around the country, and which have 
received only a smattering of Federal dollars.
    I think there are two answers to his point. One is that 
there are a lot of models, including his own, which are more 
widely used than practically any other model, which have 
received Federal funding over a long period of time. That's 
number one. There are a variety of models that have received 
Federal funding and that are widely used.
    Number two is that a lot of the research that's carried out 
in OERI is not research on specific model development. It is 
more basic research about how children learn, about how they 
learn to read, about how they learn mathematics, about 
effective schools in general and their basic characteristics.
    What comes out of that research is often principles. Core 
principles that determine, then, the nature of the models that 
people develop. It's more often the underlying knowledge that's 
important, that comes out of the OERI research.
    The development of models themselves often costs a lot of 
money. And during the period of the last 15 or so years, OERI 
has not been in the business of supporting large development 
efforts. It may be time for OERI to move into that field. But 
it costs on the order of $4 million to $5 million a year to 
develop a major model. That's a big effort. And it should not 
replace the basic research that goes on, the research that 
creates the principles for others to develop those models.
    In fact, if you look across the country, most schools are 
not using any of these models. But they are using the 
principles. So for example, in the school district where my 
wife is a principal, in Arlington, I don't believe there are 
any schools that use any of the well-known models, so-called 
models. But many of the schools are using basic principles that 
have come out of the OERI research.

           evaluation and dissemination of research findings

    Mr. Porter. We used to fund an organization called National 
Diffusion Network.
    Dr. Smith. Right.
    Mr. Porter. I was a big fan of the concept of getting what 
we know out to institutions, so they could decide whether it 
would work for them. What do we do to provide the research to 
learning institutions around the country? How do we let the 
schools know what has been discovered?
    Dr. Smith. Let me answer that in two parts. First, OERI has 
a very active dissemination effort. They have people putting 
out publications. They have an incredibly effective Web site 
that has a large number of hits every day, literally in the 
thousands and thousands across the months. It includes very 
good information about what is effective and the kinds of 
interventions that people need to make in order to improve, for 
instance, reading.
    There's also the ERIC network which is extensive and 
provides ready access to information for teachers and 
principals and others all over the country. So there is an 
extensive dissemination effort.
    There's another answer to this question, though, which also 
links to your question about model development. The legislation 
reauthorizing OERI three or four years ago, created the 
Priorities Board. It was charged with creating some criteria 
for evaluating the effective interventions in education, for 
looking at the best practices for teaching reading, for looking 
at the best models of the sort you were talking about.
    We are trying to figure out how the Federal Government can 
facilitate letting people know that particular projects are 
really research-based, and that they have consistent, effective 
results. Consistency is very important, because often things 
will work in one place and not another place, or they'll work 
for a year or two but not work after that.
    The Board is working hard on those criteria. They would use 
peer review to apply them. We expect the criteria to be 
completed some time early next year, early 1998.
    Even though it's done through peer review and done with 
criteria, we have to be very careful about creating a consumer 
report guide from the Federal Government. We have to depend a 
lot upon the views and understandings of the field as we do it.

                     after-school learning centers

    Mr. Porter. Let's talk a minute about the after school 
learning centers. The amount of money involved is $50 million?
    Dr. Smith. Right.
    Mr. Porter. The funding mechanism is 21st Century Learning 
Centers, is that it?
    Dr. Smith. That's right.
    Mr. Porter. That was slated in the last Presidential budget 
to be terminated. Suddenly it has life.
    Dr. Smith. It was given $1 millon in the 1997 
appropriation.
    Mr. Porter. Not in the President's budget, though.
    Dr. Smith. Right. It was not included in the President's 
budget.
    Mr. Porter. He indicated zero. Now this year's budget, the 
next year's budget, it's suddenly coming back.
    Dr. Smith. Yes.
    Mr. Porter. How did you arrive at the figure of $50 
million, and if I'm correct, can this have a lot of impact? I 
mean, it can't go very far considering how many schools we 
have. What do you intend to accomplish with the $50 million?
    Dr. Smith. I think two things. We received quite a few 
inquiries from schools all over the country about whether or 
not they could get some of these funds. In fact we funded six 
different sites, as a start.
    Dr. Smith. We also have been looking closely at the 
research----
    Mr. Porter. For after school?
    Dr. Smith. Right. We've also been looking closely at the 
research on this. We now have a better understanding, I think, 
that many of these kinds of programs can be very effective, not 
just for academic achievement, but also for reducing violence. 
We know that the hours between 3:00 and 6:00 are the peak hours 
for youth violence--those after school hours--whereas they're 
later at night for adults. If there is some way of working with 
students to keep them around the school and in productive 
activities, we can work on that.
    The $50 million is in the budget to have a catalytic 
effect. As you say, there are 90,000 schools in the country. To 
fund 200 or 300 is barely a dent. We would hope that those 200 
or 300 would be schools that are in the most needy areas, 
number one. And number two, we expect to evaluate them 
rigorously. And number three, we expect to let people know 
about their experiences.
    It costs about $150,000 for a school, roughly $2 or $3 or 
$4 per child per hour at a school. It's possible that local 
districts and States could, if they see clear benefits from 
these things, begin to pick up some of this expense on their 
own.
    We don't see it as a massive Federal program at all. We see 
it as providing a lot of information through evaluations and 
through disseminating descriptive data about these programs to 
places all over the country that might be thinking about doing 
it themselves.
    Mr. Porter. This wouldn't actually provide services?
    Dr. Smith. This would provide services.
    Mr. Porter. For those schools?
    Dr. Smith. For those schools.
    Mr. Porter. Then you would evaluate the experience they 
had?
    Dr. Smith. Exactly.
    Mr. Porter. And if my memory serves me correctly, teachers 
have often said, we're not here to take care of children's 
after school needs, we're here to educate them.

                     after-school learning centers

    Dr. Smith. Right.
    Mr. Porter. Are you going to have to expect to bring in 
other personnel? How is this going to work?
    Dr. Smith. That depends upon local decisions. There may be 
places where the teachers themselves wouldn't mind staying 
after school and working in these programs.
    Mr. Porter. You'd have to pay them more money.
    Dr. Smith. Perhaps they'd be paid more money. On the other 
hand, changing the care giver, I think, is not a bad idea. 
Teachers often need the afternoons and evenings to prepare for 
the next day's work, and so on. And if you, for example, 
brought in folks who might have part time jobs, perhaps older 
persons, who knew something about the arts, knew something 
about a variety of other things, building trades for example, 
or had other experiences, they could work with children in ways 
that the teachers might not be able to work with them.
    So you could have study halls, for example, for an hour 
after school. You might have some cross-age tutoring. At the 
same time, you might have people working with children on arts 
and crafts, and maybe even some sports activities. You can 
create a place the kids enjoy, but where they'll also get some 
learning, where they can practice on their own work and be able 
to catch up, and where they'll be able to see another part of 
the world.
    Mr. Porter. This is already done in a lot of schools, there 
are sports activities, clubs and associations and the like 
going on in many schools, is there not?
    Dr. Smith. There is. And often they're done in suburban 
schools, where it's safe to go home in the evenings, where the 
schools are kept open as a regular course. That's happened for 
years, and they continue to do it.
    But there are a lot of inner-city schools where you have to 
set up special arrangements to get the kids home, where the 
schools aren't kept open after 3 o'clock or 4 o'clock. We're 
hoping to stimulate that kind of effort in the inner-city so 
kids who wouldn't ordinarily have this opportunity would be 
able to get it.
    Mr. Porter. Thank you.
    Mr. Dickey.
    Mr. Dickey. Thank you, Mr. Chairman.

                       funding of national tests

    Good morning. I'm interested in where you're getting the 
money for the national voluntary test that the President 
announced in the State of the Union speech. Is it coming out of 
the Office of Educational Research and Improvement?
    Dr. Smith. It is. It will come out of the Fund for the 
Improvement of Education.
    Mr. Dickey. Is that the Fund for Innovation in Education? 
Is that the same fund?
    Dr. Smith. Yes.
    Mr. Skelly. That's the old name, Mr. Dickey. The law has 
changed.
    Mr. Dickey. Well, I'm trying to go back. I don't want any 
of this modern stuff. [Laughter.]
    Mr. Dickey. How much are you intending to spend?
    Dr. Smith. We expect to spend, this fiscal year, 1997, 
between $8 million and $10 million, and next fiscal year 
between $9 million and $12 million.
    Mr. Dickey. So it won't approach $40 million----
    Dr. Smith. No, not at all.
    Mr. Dickey [continuing]. For 1997 and 1999?
    Dr. Smith. That's right.
    Mr. Dickey. How will you spread the funds over the two 
years? Did you just say that?
    Dr. Smith. I can't give you an accurate figure. There will 
be contracts that will be bid upon, and there will be a price 
on those contracts, but we don't know what that is yet. We also 
don't want to release specific cost estimates before we release 
the contracts themselves.

                    authorization for national tests

    Mr. Dickey. We are hearing objection from the Authorization 
Committee that this program is unauthorized.We hear that quite 
often. It is understood that programs focused on research and 
development have to have some flexibility. This is why the 
authorization law for this office created a priorities board so that 
the funds would never be used for the discretionary activities of the 
Secretary of Education.
    Has the new Office of Educational Research and Priorities 
deliberated on this priority and included it in their plan?
    Dr. Smith. They have certainly not included it in their 
plan. They've been informed about this priority, and they have 
raised no objection that I know of.
    Mr. Dickey. Have they had enough notice to deliberate on 
this?
    Dr. Smith. Well, they've known about this for almost as 
long as we've known about it, over the last month and a half. 
It's really just a month and a half old effort. They have not 
met, I believe, and discussed it in detail.
    Somebody remind me whether or not they discussed it in the 
last board meeting.
    Mr. Skelly. They didn't.
    Mr. Dickey. Is this board functioning?
    Dr. Smith. Oh, yes. It meets regularly about every two 
months.
    Mr. Dickey. I never intended any funds that I voted for 
last year to be used for this purpose. It might even be a good 
purpose. However, without the authorizing law--well, I want to 
know--excuse me.
    Dr. Smith. Can I just add one thing to this? Mr. Dickey, 
the Priorities Board is a research board. The Fund for the 
Improvement of Education is not in the research side of the 
agency. Think about OERI as having three sides, one's a 
research side, one's a side that does development and 
dissemination, and then there's the statistics side. It is in 
the development and dissemination side of the agency.
    And the Fund itself gives broad authority to the Secretary, 
in effect, to carry out activities, a wide range of activities, 
to improve the quality of education.
    Mr. Dickey. Without referral to the board?
    Dr. Smith. Without referral to the board, yes. I believe 
so. We will research that for you.
    Mr. Dickey. I'm just concerned about that, and I want to 
know that the board has looked at this and if it hasn't why 
not, and if it has, how is it affecting priorities that they 
have already set. Will we get that board before this committee?
    Dr. Smith. No, I don't believe you will, unless you ask 
them. I'm sure they'd come if you ask them.
    Mr. Dickey. Will you help us with that information?
    Dr. Smith. Sure. We'll be delighted to.
    The Board has developed research priorities. They produced 
a document, and they've honed in on a couple of priorities for 
this particular fiscal year. We can discuss this testing plan 
with them in quite some detail.

                     education research fellowships

    Mr. Dickey. I want to cut, not add staff, to the Department 
of Education. Does that surprise you?
    Dr. Smith. Not at all, sir.
    Mr. Dickey. I noticed that you have $1 million for 
fellowships coming out of the money we gave you last year. And 
you're asking for another $1.5 million in fiscal year 1998. Are 
you planning to have these people come to Washington? Are you 
going to be putting folks out in the research centers and the 
laboratories where the bulk of the money is supposed to be 
spent?
    Dr. Smith. Actually, I believe there are two types of 
fellowships. One kind of fellowship would be out in the field, 
for people developing, for instance, doctoral dissertations, 
their theses. Those persons would be working often, I believe, 
with some of the research centers.
    They might also be working in institutions that don't 
necessarily have research centers. Persons in those 
institutions should also have the opportunity to receive 
fellowship funds.
    There's another kind of fellow that might be brought to 
Washington in order to provide technical assistance and 
expertise to the Washington-based staff. These fellows could 
help our staff be on the cutting edge of research and 
understand priorities from the perspective of the field.
    Mr. Dickey. I'm from Arkansas. Can you imagine whether I 
would want it centered up here or out there in the rest of the 
United States?
    Dr. Smith. Well, sir, if you were a professor in Arkansas, 
say a professor of mathematics or mathematics education, you 
might be very interested in coming and spending six months and 
seeing what's happening at both the Department of Education and 
the National Science Foundation.

                   regional educational laboratories

    Mr. Dickey. I have trouble going for two days.
    One of the things I really like about this program is that 
not all of this money is controlled from Washington, as I just 
said. This is why I like my regional educational laboratory. 
They have two members on their board from my home town of Pine 
Bluff. This is why we put language in the report last year 
saying that the laboratory boards are to have total control of 
all their funds.
    How are you evaluating this?
    Dr. Smith. We've recently sent out a survey to them. And I 
have a draft of a letter for the Chairman about the results of 
that survey that I've just reviewed today. We intend to send it 
up this afternoon or tomorrow morning. Basically what the 
survey says is that by and large, the laboratories believe that 
their boards do have control over their funds. As you know, the 
laboratories have boards that represent the various States that 
they serve.
    But by and large, the laboratories are serving the States, 
through activities they're carrying out. There are concerns in 
two areas. One is with some of the provisions that were in the 
request for proposals to which they responded. Those provisions 
ask them to collaborate among themselves, for example, or to 
collaborate with the Department in certain areas. They believe 
this collaboration distracts from their primary mission of 
serving their States. We've laid that out, and we believe we've 
accommodated the concern.
    At a recent meeting of the laboratory directors with staff 
from OERI, they talked through these issues and began to work 
them out. So I believe that we're reaching full accommodation.
    In the meantime, a very large percentage of thefunds have 
been going directly to the needs that have been identified by the 
individual boards.
    Mr. Dickey. Thank you for your answers.
    Mr. Chairman, thank you.
    Mr. Porter. Thank you, Mr. Dickey.

            role of nces in measuring program effectiveness

    The major indicator for success of programs is improvement 
of educational outcomes. I gather isolating the impact of 
programs from other variables is very difficult. What role is 
NCES playing in developing ways to measure the effectiveness of 
programs?
    Dr. Smith. Let me ask Mr. Forgione to answer that question.
    Mr. Forgione. Good morning, Mr. Chairman.
    The National Center conducts longitudinal studies to look 
at the progress of our schools and our children. This work 
forms a data base that will help us understand the 
effectiveness of our programs. For example, last fall we 
reported the grade eight results from the Third International 
Math and Science Study. And that helped us to understand 
America's relative position in science and math, versus our 
competitor nations. Similarly, we have a National Assessment of 
Educational Progress that measures the areas of reading, 
writing, math and science. And that provides information at the 
national level as well as for States that voluntarily join in 
the State-level assessments. A week ago we announced how four 
of these States at grade eight and four at grade four have done 
over time.
    This type of information is useful for the programmatic 
activities of the Department. As a statistical agency, we bring 
credible information that you and your committee, as well as 
the Department, can use. In our budget, we have a series of 
studies that hopefully give you the timely information to 
address your decision needs.
    Mr. Porter. Thank you.

                     after-school learning centers

    Dr. Smith, did you say 200 to 300 after school centers?
    Dr. Smith. That's our estimate, yes, sir.
    Mr. Porter. For fiscal 1998?
    Dr. Smith. Right.
    Mr. Porter. Can you provide for the record a schedule of 
obligations and outlays for the $50 million request?
    Dr. Smith. Absolutely.
    [The information follows:]

       Obligations and Outlays for After-School Learning Centers

    We estimate that all of the funds for the After-School 
Learning Centers program will be obligated late in the third 
quarter of fiscal year 1998. We estimate that 12 percent of the 
funds ($6 million) will be outlayed in 1998, 68 percent in 1999 
($34 million), 18 percent in 2000 ($9 million), and 2 percent 
in 2001 ($1 million).

                  use of fie funds for national tests

    Mr. Porter. Dr. Smith, let me quote from your last year's 
budget justification for the Fund for Improvement of Education. 
The Department requests funding to continue ongoing projects 
and to expand two initiatives underway since 1995, each with a 
distinct purpose. One is the area of assessment development and 
the other in character education.
    In 1995, using Goals 2000 national activity funds, the 
Department awarded nine grants to States for the development 
and evaluation of assessments aligned with challenging State 
academic standards. These grants will continue in 1996, 1997 
and 1998 with FIE monies.
    In addition, the Department will make $20 million available 
in 1997 for more grants to additional States and districts for 
essentially the same purpose.
    Congress provided you with the amount of money you 
requested, added some suggestions for projects for funding, and 
relied upon your justification for guidance as to the funding 
priorities. Against that background, can you tell me how you 
intend to finance the national testing activities announced 
recently by the Administration? And if funded within NIE, how 
is it consistent with the statement in the justification?
    Dr. Smith. The continuations will all be funded in the way 
that we have always planned to do them. We have met the 
suggestions that the Congress provided in report language. 
Those activities will be funded.
    There will be funding for character education, and for a 
variety of other projects that had been described in the more 
detailed justifications.
    All of the grants for State assessments that had been 
funded in prior years will be continued. The new funding for 
assessments will be cut back for a number of different reasons, 
one of which is to provide funds for the national tests. But 
also because there's been quite a bit of money put into State 
testing. That State testing has been coming along at a fairly 
rapid pace. Our sense now is that we can continue to put out 
some new money that will fit the basic need and carry us 
through the next couple of years at the State and local level. 
As you know, States have been developing new tests for about 
the last five or six years. Those efforts are beginning to 
reach a point of fruition.
    So our belief is that we'll spend $3 million to $4 million 
of new money, as well as the continuation money, and that that 
should meet the needs.
    Mr. Porter. To spend money on the development of anational 
test, other activities in the Fund for Improvement of Education will 
have to be--no, I'm not going to ask that question.

       profits from federally funded children's t.v. programming

    Productions of children's programming which were begun with 
Federal funds such as Sesame Street have made tens of millions 
of dollars through licensing and other agreements for 
characters and other products. Unfortunately, these early 
agreements were structured in such a way that the Government 
and the CPB received little in the way of benefit from these 
profits.
    You indicate that Ready to Learn TV is funding several new 
productions by the Children's Television Workshop. What 
provisions are included in grant or other award documents to 
assure that the Government and CPB obtain an appropriate share 
of any profits deriving from similar successes?
    Dr. Smith. Mr. Chairman, I don't know the answer to that.
     We'll provide it for the record.
    [The information follows:]

         Profits Deriving From Ready to Learn Television Funds

    The Ready to Learn funds are awarded as a grant to the 
Corporation for Public Broadcasting (CPB), which enters into 
contracts for the development of programming. The CPB contracts 
contain an ancillary revenue clause which specifies that 
producers are expected to put money back into the project for 
future programming. All Ready to Learn Television shows have a 
provision for sharing profits and putting money back into 
future programming; this money is needed by producers to keep 
the series going.
    The CPB reports that there have been very few situations 
where such shows have made huge profits. Sesame Street has not 
received any funding from CPB, the Public Broadcasting Service 
(PBS), or the Department of Education for over twenty years. In 
fact, Sesame Street is still on the air producing new shows 
because the Children's Television Workshop also puts a large 
percentage of the profits back into the show. CTW also uses 
profits to fund other children's programming and outreach, as 
well as research on programs and young children. Another 
successful program, Barney, was not made with CPB, PBS, or 
Department funding.

    Mr. Porter. I think it's important.
    Dr. Smith. I agree.
    Mr. Porter. We fund also the Corporation for Public 
Broadcasting. And they today are now making certain that they 
have a greater participation and derive some return for their 
participation. And if you're going to be developing the same 
kinds of things, I think you ought to think about it right now.
    Dr. Smith. I agree.

                       departmental research plan

    Mr. Porter. Mr. Under Secretary, as you know, concern about 
the multiplicity of research and demonstration programs has 
existed in the subcommittee since at least the 103rd Congress. 
Two years ago, the subcommittee directed the Department to 
develop an overall plan for research, demonstration, 
dissemination and technical assistance activities, both in OERI 
and in the various programmatic components of the Department.
    I believe that a draft of that plan was delivered to the 
subcommittee in May of 1996. The plan, however, is very broad 
and seems to contain kind of a laundry list of existing 
programs and projects, rather than focus multiple funding 
streams on a few critical areas.
    How is this plan used to develop specific requests for 
proposals for research or technical assistance, and what real 
role does the Office of the Assistant Secretary for Education 
Research and Improvement play in assuring the substance of non-
OERI activities as consistent with this plan? What role does 
your office play?
    Dr. Smith. Well, Mr. Chairman, there actually have been two 
documents that I believe your office has received. You should 
have received both of these. The first was a draft document 
dated May 24th, 1996; the second has just come out in the last 
few months. If you don't have a copy of this, we'll be glad to 
provide it for you.
    The first document was prepared in order to stimulate 
discussions about research across the country. The board went 
out and talked with people in a variety of meetings all across 
the country. I was lucky enough to participate in some of their 
meetings where they got together with people to talk about 
specific kinds of research and areas where there were 
interesting breakthroughs that OERI might take advantage of.
     I believe it's fair to say that, in both documents, the 
priorities are spelled out in fairly general fashion--even in 
the second document, which lays out a combination of general 
principles for research and seven broad areas in which it is 
important to fund educational research. There are three or four 
steps between these broad areas and specific RFPs. The broad 
areas serve to focus a general lens, to look at the landscape. 
Specific RFPs or grant requests are created in the context of a 
time, of a particular year. You can think about a number of 
illustrations for this. One is a new interest that might come 
up on the part of the Nation about schooling. As you know, over 
the last three or four years, concern about violence and drugs 
has risen, as drug use has risen. So for good reason, we're 
doing more research in that area.
    That issue falls under a general category of schooling. The 
idea of safe and drug free schools is embedded in that category 
of effective schools. But funding more research on safe and 
drug free schools has come up because the times have changed. 
So that's one reason.
    The second reason is that the knowledge base changes. As we 
learn more about how people grow and learn and so on, our focus 
can change. Again, a classic example is the brain research 
that's now coming to the fore, just over the last two or three 
years. We are now going to be focusing some real attention in 
our early childhood programs on seeing whether or not that 
brain research relates to the kinds of work that goes on in 
schools and how it relates to interventions. It will affect the 
kinds of work that Mr. Forgione's group is doing, because 
they're looking at a longitudinal study on early childhood and 
so on.
    So these priorities focus theattention on broad areas; the 
times and the circumstances and the development of knowledge determine 
the specific RFPs.
    Another example is the development of technology in this 
incredible, rapid growth of the internet. We didn't even think 
about the internet four or five years ago. Now, there are tens 
of billions of dollars being made on it, and it's in lots and 
lots of homes. We're trying to wire up every school in order to 
give all students access to it.

                       departmental research plan

    So suddenly, we now need to do research on the intersection 
between technology and learning in ways that we haven't ever 
had to do before.
    It's a long answer, and I apologize. But the idea is to 
identify these broader categories or priorities, and then the 
Priorities Board can focus in. This year they focused in on 
teaching. This was stimulated in part by the commission that 
Governor Hunt ran and that produced a report just a few months 
ago.
    The Priorities Board said, this is terribly important; we 
need two million new teachers in the next five to seven years. 
We've got to figure out how to prepare them better, how to 
certify them better, how to license them better and so on. 
Based on the report that Governor Hunt came out with, they 
asked the OERI to put together some projects that would address 
that need.
    So it's a process that's affected by a lot of different 
things, but is guided by these overall research priorities.

                   overview of progress in education

    Mr. Porter. Finally, let me ask you to look beyond the 
beltway, out across the Nation's schools, and tell me what you 
see in the last five years and what you expect to see in the 
next five years in terms of progress in preparing young people 
for a productive role in society, citizenship in a free country 
like ours. Are you encouraged and optimistic? Are the problems 
overwhelming? Are capabilities--give me kind of your overview.
    Dr. Smith. I think a broad overview would be that I'm 
optimistic. And I'm going to put a caveat on that in just a 
second.
    I think the standards based reforms, the notion of higher 
standards for all children, setting out clearly what children 
need to know and be able to do, and making it more challenging 
than we have in the past, is beginning to pay off. I think the 
recent National Assessment of Educational Progress math results 
suggest that. I think the First in the World Consortium gave us 
a shooting star to look at, and to try to emulate.
    There was a recent TIMSS test result just announced in 
Minnesota, with very little fanfare. And it turns out that the 
entire State of Minnesota did very, very well in science. They 
didn't quite come in second, but they came in among a cluster 
of nations that are statistically called in second place. They 
didn't do as well in math, but they did quite a lot better than 
the United States as an average.
    So we are beginning to see places, 16 districts in northern 
Illinois, the entire State of Minnesota, other States, that are 
showing real strength. And as you know, the overall achievement 
results in mathematics have gone up recently. We've now had 
four or five years of constant increases in the SAT. Not as 
much as we'd like. Americans are eager to get rapid change. 
They don't like slow change in things; they like to see things 
happen quickly.
    But I think we've got a nice sustained effort now that we 
can continue over time. One of the President's reasons for 
asking for these two carefully chosen tests, one in math, one 
in reading, was that he wanted to keep stimulating the kind of 
progress that's being made, and to keep setting high standards, 
because he noticed that in some States standards weren't 
particularly high. He wanted to make sure that high standards 
were being set.
    So I'm cautiously optimistic in that general area. I'm 
still very bothered by the problems we have in many inner 
cities. The irony here is that we have wonderful schools in 
many inner cities.
    If you were to go to District 2 in New York City and walk 
around District 2, with Tony Alvarado, who's the superintendent 
of schools there, you'd see absolutely wonderful schools 
focused on learning. He's moved the average test scores from 
about sixteenth place among the districts in New York City to 
second place in four or five years. They have terrific work on 
reading recovery and working with their children, teaching them 
how to read. It's really wonderful stuff.
    And you'll see all sorts of other small high schools in New 
York City; at the same time you'll see terrible schools in New 
York City.
    So we need to figure out how in those big cities we can 
provide constantly effective high quality education. We owe it 
to ourselves to do that. I believe the entire Nation's future 
depends on getting all children to the point where they are 
successful. If we continue to have the kind of disparity in 
test scores and in job opportunities that these kids get in the 
Nation, I think we're headed for a very bad time.

                   overview of progress in education

    Mr. Porter. I think most Americans would agree that we have 
for a long time in America kind of lost our way, no standards, 
social advancement, kids walking across the stage who really 
literally couldn't read their diploma, and schools that were 
not performing, teachers that were not performing and students 
that were not performing in ways that obviously would lead to a 
crash of our society in a competitive global economy like we 
exist in today.
    You're telling me you think we've turned the corner on 
those bad old days and are beginning to show some results. 
Quoting to me from the schools in my district, or even 
Minnesota, they've always done well.
    Dr. Smith. Right.
    Mr. Porter. They've always done well. I suspect the State 
of Minnesota has always been one of the leaders in our country, 
or at least close to the top. I'm not worried about them. They 
have the right stuff, whatever it may be. I'm worried about the 
schools that have been allowed to languish, where kids are 
unmotivated and where violence and drugs are part of their 
daily lives, and what we can do to bring them along toward the 
higher standards that we want for the country.
    Thank you for your overview and your answers to those 
questions.

                    higher standards for every child

    Mrs. Northup.
    Mrs. Northup. I've been part of the State of Kentucky that 
you have used that State as an example. I think that the idea 
that all children can learn at a high level came from a very 
good, well-intentioned goal. That is, when I think of the high 
schools that I visited when I was first elected in the 1980s, I 
would go and speak to primarilythe honors classes. That's what 
I was invited to do. And they were very impressive.
    But as I walked down the hall past classroom after 
classroom where kids heads were down on their desks or where 
chaos reigned, I realized that what we did was leave all the 
other children behind. We did not challenge them, we did not 
set high expectations for them. The message was conveyed that 
they were not going to be our academic stars, and they were 
often overlooked. And kids that had well-intentioned, and 
parents that were engaged in their education, found that they 
were in a classroom of non-starters, often, and the teachers 
were sort of going, this is impossible, and they did not learn.
    So when we passed education reform that's used so often as 
a national model up here, about all kids can learn at a high 
level, I think it was those three-fourths of the kids that we 
were gearing our program to. But there are some consistent 
problems that we have run into. And I feel like that, excuse me 
for sounding arrogant about this, that we're six years ahead of 
the actuality of this. Not every child can learn at a high 
level. And what they can do is learn much more than they ever 
did in the past. And we can prepare them for a much better way 
of entering the job market, in a future of where their niche in 
this world is much more defined for them, and much more has the 
promise of prosperity.
    Perhaps our math classes should be about balancing 
checkbooks, what insurance means, how you run a budget, how you 
invest your money, all of the things that give them the hopes 
and dreams that middle America hopes for.
    But what in fact has happened, when you put, why do we 
change testing? The point of testing is to drive the 
educational process. Teachers do teach to the tests. Schools do 
teach to the tests, and that is the point of having high 
quality tests.
    What's now happened is, we have added more and more 
curriculum to what kids should learn. When I hear that all 
eighth graders should take algebra by the end of eighth grade, 
I want to scream when I hear that. There are kids that can't 
get through algebra in eighth grade. It may be all they can do 
their entire academic career, is to get through algebra. That 
may be the most academically advanced program they can go 
through.
    And what we're doing is, we're pulling them out of School 
to Work transitions, we're frustrating them beyond belief, and 
in order to drive schools to higher goals and higher standards, 
we've added one more year of high school math you have to have 
in Kentucky, one more year of other curriculum things. And we 
are just making sure that fewer and fewer kids get the three 
hours of carpentry, the three hours of plumbing, the three 
hours of electronics. Because that test is driving the 
curriculum in an academic direction that, I am sorry, not all 
children can succeed in.
    And you know, it's very popular today to say all kids can 
learn this. But they can't. And if you would listen to your 
best teachers, if you would listen to the moms and dads who are 
parents of these kids, who have become increasingly frustrated, 
increasingly behind, more depressed, because if you say all 
kids can do this, what does it say to the child who can't?
    Not all people are in the 90th percentile, the 80th 
percentile or the 70th percentile. There's an additional number 
that's in the 20th percentile, 30th percentile and 40th 
percentile. There is a place in this world for those children, 
a wonderful place. We need to prepare them to achieve in the 
way that they can achieve and have real opportunities in this 
life, too. And I do not think when the President talks about 
every child having algebra by eighth grade, we talk about high 
standards for every child, that we yet understand that that 
doesn't mean curriculum that you're talking about.

                    higher standards for every child

    Dr. Smith. Would you like a response, Congresswoman?
    Mrs. Northup. Sure.
    Dr. Smith. I respectfully disagree with your analysis. I 
understand it. I think there's a sense often, when we compare 
children, as we often do in the United States, that children 
who come out on the bottom end of it can't learn more, for one 
reason or another.
    Let me respond to three or four specific parts of it. One 
is that we really haven't given most kids a chance, most of the 
kids that I believe you're talking about. They often don't have 
the early childhood experiences that our children have, for 
example. They don't get the attention of being read to every 
night by an attentive parent. They are often babysat by a 
television rather than by an adult who's caring for them and 
nurturing them.
    And when they get older, they often don't go to these kinds 
of day care settings and preschool settings. When they get even 
older, they go to a kindergarten where the teachers are, in 
effect, having to try to catch up for all the things they've 
missed over that four or five year period of time.
    And as we know, in many inner cities and in many poor rural 
areas, the nature of the curriculum itself in the earliest 
grades is very different from the nature of the curriculum in 
the suburbs. Partly, that's because these kids aren't really 
ready, but it's partly because that's the way it's been for 
years and years and years. And people haven't broken into it 
and tried to change it.
    So we get one curriculum often for poor kids and many 
minorities. And we have another curriculum for our well to do 
children who are in suburbs. And it's not surprising that those 
children are able to learn algebra, because many of them have 
already studied algebra.
    My wife's a principal in Arlington. She happens to be 
principal in a fairly well-to-do school. She also just most 
recently back in California taught in East Palo Alto. I don't 
know if you're familiar with East Palo Alto, but it is about 99 
percent poverty. It's not a school system that is of the sort 
that Palo Alto is, for example.
    In that school system, children come in with the same kinds 
of concerns. And what you see is that in certain classes they 
thrive, and in others they don't. In classes where the teachers 
really believe that children can learn and give them the 
context--it takes more than belief, it takes especially hard 
work--but the children will thrive and learn all sorts of 
things that they wouldn't otherwise learn.
    So I think the conclusion that these kids are somehow set 
in place is inaccurate, that in fact for many of them, their 
experiences are determined by their environment. We do try to 
listen to the teachers all over the country. We have a teacher 
who was a teacher of the year in America, in South Carolina. 
And Secretary Riley brought her--her name's Terry Dozier--to 
the Department. She's been at the Department for the last four 
years. And she's constructed a network of teachers of the year 
over the lastfour years. There are 200 or 300 or 400 teachers 
in this network. They come to Washington, they sit with the Assistant 
Secretaries and other staff in the Department, talk about their 
experiences and talk about how kids can learn and what are the good 
ways to help them and so on.
    So we try to reach out. It's never enough. But we try to do 
that.

                    higher standards for every child

    Mrs. Northup. One thing we all know, and I agree with you, 
that children, depending on their background and their 
stimulation and all that have advantages towards learning. But 
there are also children who have all those advantages and, like 
I said, I hate for this committee to have to hear it. But I 
happen to have an adopted daughter. She is fabulous. She is 
fabulous. And the sadness that she endures for struggling so 
hard in school, and she does struggle. She can read Jane Eyre. 
It just takes her six weeks instead of two weeks. She can do a 
lot of stuff. She cannot get through an academically strenuous 
program, despite all the money, despite all the extra tutoring, 
despite all the reading. And there's a whole group of kids that 
are exactly like her.
    And I'm sorry, I just, if you want to talk about your 
anecdotal evidence, I'd like to talk to you about mine.
    Dr. Smith. I think we should talk. I have a son who didn't 
do well in school. One wonderful thing about----
    Mrs. Northup. I know lots of kids who didn't do well.
    Dr. Smith. One wonderful thing about the United States is 
that there are second chances. In high school, all he ever 
wanted to do was go to carpentry class and work with his hands, 
because he was so frustrated at other things. He graduated from 
high school, and went to basically a vocational school, which 
is like a community college, in Wisconsin, and took cabinet 
making.
    During the time while he was in this cabinet making course, 
he tutored an older man who was disabled, and who wanted to 
also learn how to use the machinery. It's big machinery, and 
it's very dangerous machinery, because the saws are whirling 
fast and all that sort of thing. So working with the disabled 
person entailed a lot of responsibility.
    He did that for a period of time, and one day he called and 
said to my wife and me, you know, I love this. This is 
wonderful, tutoring a person, working with a person. I think 
I'm ready to learn. He was 19 years old, and we said, that's 
terrific. He enrolled in one of the University of Wisconsin 
colleges. He took courses in teaching disabled children; he 
ended up with a high B average. He was on the academic council 
of the school. And he's now teaching, and he's got two 
wonderful children.
    We should never give up.
    Mrs. Northup. I'm sorry, the story you just told tells me 
that you don't get it. He could learn. He could learn. I have a 
daughter that's dying to learn. She really doesn't understand 
the material that's in this math book.
    You know, there's all the difference in the world between 
them.
    Dr. Smith. We can talk about it. He didn't have a wonderful 
time in algebra when he took algebra.
    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Northup.

                           concluding remarks

    Thank you, Dr. Smith and Mr. Forgione. We appreciate your 
good testimony and your answers to the questions, and the 
excellent job that you're doing. Thank you very much.
    The subcommittee will stand in recess briefly.
    [The following questions were submitted to be answered for 
the record:]

[Pages 430 - 441--The official Committee record contains additional material here.]


                                          Thursday, March 13, 1997.

               INSPECTOR GENERAL, DEPARTMENT OF EDUCATION

                               WITNESSES

THOMAS R. BLOOM, INSPECTOR GENERAL
DIANNE G. VAN RIPER, ASSISTANT INSPECTOR GENERAL FOR INVESTIGATION
STEVEN A. McNAMARA, ASSISTANT INSPECTOR GENERAL FOR AUDIT
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

    Mr. Porter. The subcommittee will come to order.
    We now welcome Mr. Thomas Bloom, the Inspector General for 
the U.S. Department of Education.

                           Opening Statement

    Mr. Bloom. Thank you, Mr. Chairman.
    I have submitted my written testimony for the record. But 
I'd like to make a brief statement, hitting on some of the 
highlights of that written testimony.
    I have with me today Dianne Van Riper, Assistant Inspector 
General for Investigations, and Steve McNamara, Assistant 
Inspector General for Audit.
    First of all, I'd like to thank you and the Congress for 
our 1997 budget of $30 million, which has been a good, workable 
budget. Thank you for believing that our work is important.

                       requested budget increase

    For 1998, we're asking for an increase of $2 million, which 
we don't take lightly, and we understand is a fair amount of 
money. I'd like to explain to you what we need the money for.
    First, over half the budget, $1.1 million, is for increases 
in employee costs, not additional FTE, but the cost that it 
takes to have the same number of employees in 1998, as it did 
in 1997. That pertains to pay increases as well as the 
increases in benefit costs. Benefit costs have gone up, have 
increased more than inflation, mostly because of the retirement 
benefit.
    The second reason for the increase is technology. At the 
Office of Inspector General as at the Department of Education, 
we need to be sure that the technology is not running away from 
us. For my staff, I need better equipment to audit with and to 
chase the criminals with. And I need to train my people on this 
equipment.
    On the Department side, as I do not have the technology 
folks on board yet, I need some contract money to hire some 
outside contractors to help keep up. Eventually, I want to do 
this work in-house and have in-house capability. And we're 
working hard to get there. But it's going to take a couple of 
years.
    Just so you understand, Mr. Chairman, in the D.C. 
Metropolitan area, there is a shortage of over 20,000 systems 
people. So it is difficult to hire these kinds of people. We 
believe we've got to grow our own. To use a football analogy, 
we need to take good athletes, quarterbacks, running backs, and 
turn them into defensive backs. If you don't increase the 
budget for this, I will still have to spend the money, and I 
will not replace terminated employees. But I do want you to 
remember that we have already cut our FTE level by 50 people 
since 1994.

                      audit and investigative work

    We are doing good work here at OIG. To give you a little 
bit of our philosophy on the audit side, I believe that we 
should concentrate our audit resources on the front-end work, 
identifying controls and efficiency issues before they become 
problems. There is no glory or satisfaction in coming in and 
bayonetting the wounded, which is what I believe compliance 
auditing does. We want to help the Department utilize its 
troops in the most efficient way and out of harm's way.
    On the investigative side, we've had a great couple of 
years putting bad guys behind bars, and almost as important, 
getting their ill-gotten gains from them. We have worked the 
criminal side very hard and the civil side hard. It is becoming 
clearer that the Department of Education OIG investigative unit 
is a force to be reckoned with.

                         management initiatives

    We're also doing some new things on the management front at 
OIG. First of all, we have a new executive look. What do I mean 
by that? Two thirds of our staff are in the field, and have 
been in the field. But in the past, we've never had senior 
executives in the field. This past year, we have moved two 
senior executives into the field, one for each coast, one for 
west coast operations and one for east coast operations, 
because we believe it's important that our executives be where 
the work is.
    We also have a new emphasis on product, and productivity, 
and spending hours on what I call direct time, specifically 
working on audits and investigations. We had too much of our 
time that was involved in administrative stuff, and we're 
changing that philosophy. We believe we can get our 
productivity up about 20 percent. We've made great strides over 
the last year in that.
    The third thing I want to talk about is that we have come 
up with a new group, I alluded to it earlier, the systems 
group. Before coming to the Government this time, I was in the 
banking industry. And it's often said that banks are no longer 
really financial institutions, they're really technology 
companies. At the Department of Education, as you well know, a 
large part of what we do really is banking to a certain extent. 
So the Department of Education should be becoming more like a 
technology company. We want to help them get there. And as I 
said, we need to move our staff around and get them trained to 
do that.
    Mr. Porter. Can you expand on that a little bit? Why is the 
Department of Education like a banking company?
    Mr. Bloom. Well in the student financial aid program in the 
Department of Education, we guarantee or have direct loans and 
grants to students of $120 billion in total. It's a big 
portfolio, and that's very much information driven. To manage 
that risk, to manage that portfolio, you need to have 
information, not unlike a large bank or American Express or 
another financial institution.
    We believe that we've listened to the Administration and 
the Congress appropriately in setting our 1998 priorities. I 
have included them in my written testimony. And we're happy to 
answer any questions, and look forward to working with the 
committee.
    [The prepared statement and biography of Thomas Bloom 
follows:]

[Pages 446 - 454--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Mr. Bloom.

                      roberto clemente high school

    I recently wrote to you concerning allegations in the 
Chicago Sun Times that the Roberto Clemente High School seemed 
to focus much of its curriculum on Puerto Rican liberation, and 
supported a vast array of activities in pursuit of this agenda. 
Activities included trips, speakers and high cost programmatic 
elements.
    Would you bring me up to date on your review of this school 
and what they're doing with Federal funds?
    Mr. Bloom. Certainly. Actually, I think the day that 
article came out, Mr. McCann called me on the phone. And the 
very next day I chatted with Dianne Van Riper, and the Chicago 
office actually saw the article and were really on it. We knew 
some of the players, and were looking into it already.
    But let me tell you what we do know. First of all, there 
are lots of State and local authorities in there investigating. 
And we've been in contact with them from the very start. We do 
believe that there are probably enough investigators and 
auditors in it at this point. And by staying in touch with 
them, we're getting all the information we need.
    To date, we're reasonably sure that the activities involved 
have not used Federal funds. I suppose that's the good, if 
there's any good side of this, that is the goodside, they're 
not using Federal funds, they've been using State and local funds. We 
will continue to stay on top of this situation, and we will be in 
contact. I think we're in weekly contact with the State folks, with 
whom we have a very good relationship and we've worked with many times 
in the past.
    Dianne, would you like to add something?
    Ms. Van Riper. I can add that the high school you're 
speaking of has been on financial probation since the fall of 
1995, and academic probation since the fall of 1996. We have 
assurances from the State and the local school board that they 
are monitoring activities involving Federal and State funds 
very closely.
    Mr. Porter. I have to say that to me, this is a very 
appalling situation. And if the allegations in the article in 
the Sun Times and subsequent articles are true, I would expect 
to see the people who are responsible for this end up in 
prison. They should end up in prison, it seems to me.
    I also would add that it's kind of amazing to me that if 
you look at and go to Puerto Rico and look at the political 
expression that has come out in election after election there, 
the people who are for Puerto Rican independence are considered 
crazies. They're at the fringe. People there are 95 percent 
either for commonwealth status or statehood.
    So it's kind of amazing that something like this could 
happen in the first place. But it's kind of amazing how far it 
is away from reality in the second.
    I'd like to have you keep us up to date on this. And while 
you're telling me, I think, that there is no Federal role here 
directly, you are going to keep monitoring it, and I'd like to 
know what you find.
    Mr. Bloom. We'll be happy to do that.
    Mr. Wicker. Would the Chairman yield?
    Mr. Porter. I would yield.
    Mr. Wicker. Mr. Chairman, this is not an alternative school 
in Chicago, is it?
    Mr. Porter. No, it's a public high school.
    Mr. Wicker. Public high school, where students from a 
particular district are assigned to that school. I would just 
observe that, in the absence of some form of school choice, the 
vast majority of these students and families are forced to 
attend this particular school, which is on financial probation, 
academic probation, and which is teaching an outrageous 
curriculum.
    It just strikes me as an outrage. I think you find it, 
although not in that specific form, throughout this country. It 
just indicates to me the need for an additional amount of 
investigation into empowering families, parents and students to 
escape that sort of trap that our system now places them in. I 
thank the Chairman for yielding.
    Mr. Porter. I appreciate the very good statement of the 
gentleman from Mississippi, with which I agree completely.

                   ig recommends performance measures

    Your testimony and some reports indicate many civil and 
criminal actions that have ended abuses and returned funds to 
the Treasury. As you look across these many individual cases, 
can you suggest changes that should be made in the management 
of programs or programmatic elements to reduce the 
opportunities for fraud?
    Mr. Bloom. Well, there are many, and we've testified to 
several committees. But let me give you a couple off the top of 
my head.
    First of all, I believe very strongly and the Office of 
Inspector General believes very strongly that what you measure 
you get. And I'm a real big believer in measurement. We have 
testified and written reports that the schools, the trade 
schools in particular, ought to be held to a standard, a 
graduation standard, a placement standard. There now is a loan 
default standard that they're held to. And we believe that's a 
step in the right direction.
    But we believe a lot of the ``bad'' schools would be kicked 
out of the programs to begin with if we started holding them to 
graduation standards, and to placement standards. We believe 
that some standard is necessary, whether it's 70/70--70 percent 
graduation rate, 70 percent placement--which by the way, if you 
do the math, really only gives you 49 percent of the students 
that walked in the door would actually get placed. So those 
aren't particularly high standards. We believe that would be a 
step in the right direction.

                       income data match with irs

    Mr. Porter. A recent article, Mr. Bloom, in the Wall Street 
Journal several days ago, that you undoubtedly saw, indicated 
that there was substantial fraud in information provided by 
potential recipients of Federal student aid. Evidently, some 
applicants feel free to understate income, provide other 
inaccuracies in their application forms.
    How does your office address this problem, and what have 
you done in response to that article, and was it an accurate 
article?
    Mr. Bloom. I think the article was reasonably accurate. 
There are folks out there that are lying. They're lying to the 
schools, and they're lying to the Department of Education and 
they're committing fraud. We believe they need to be 
prosecuted.
    We would like to have the legislation changed so that the 
Department of Education very easily would be able to take the 
information from the application and cross check it with the 
IRS.
    Even doing our audit work, the article actually was an 
outgrowth of an audit report where we, on a national basis, 
looked at over 3 million applications, the information on 3 
million applications, and compared it with the tax returns. We 
found that over 4 percent of the folks had understated the 
income on the applications when compared. They weren't lying to 
the IRS nearly as often, it appears, as they were lying to us.
    I think the best way to attack that would be to give the 
Department the authority to actually make those comparisons. 
Now, you have to be careful, I'm a CPA and I understand how 
important confidentiality is of income. But I believe that if 
you're going to take Federal money, you actually sign a little 
bit of a waiver, I believe, or you ought to give a little bit 
of a waiver so that we can test the accuracy with a method that 
we know is kind of tried and true.
    Mr. Porter. Have you turned any students or parents over to 
the U.S. Attorney for prosecution as a result of those audits?
    Mr. Bloom. Over the years, we've done many. This particular 
audit, it was done on a macro level. We do not know the 
individuals. The IRS believes that they do not have the 
authority to give us the names. They could give us the matches 
and tell us where the matches didn't match and where it was 
significantly different.
    So from that particular audit, no, we haven't. Some schools 
have been pretty good at turning those people in. Understand, 
though, I only have 80 investigators. And we have to pick and 
choose who we're going to investigate. Thenthe U.S. Attorneys 
tend to be overworked also. So they pick and choose.
    Unfortunately, we do not prosecute everyone who's stealing 
a Pell Grant or getting financial aid. We'd like to, but we're 
trying.
    Mr. Porter. Let me suggest, though, that prosecuting a few 
and promulgating to everyone the fact that they're being 
prosecuted would have a salutary effect on those who were 
thinking of committing fraud.
    Mr. Bloom. We absolutely agree with that. If there was one 
thing that I could take back in the article in the Wall Street 
Journal, it would be the part where it says that not many are 
being prosecuted. We'd like to change that, we'd certainly like 
to change that perception. There have been many that have gone 
to jail after being prosecuted.
    Mr. Porter. Getting the word out that you're likely to end 
up that way is a good way to stop the fraud.

             ratio of oig personnel to department personnel

    Mr. Wicker [assuming chair]. Let me ask you about full time 
equivalents (FTEs) in your office. My question is about FTEs, 
in comparison with other departments. For example, the 
Department of Agriculture has 108,000 employees, 831 IG FTEs, 
for a ratio of 131 to 1. In HHS, the ratio there is 101 
Department FTEs to each IG FTE.
    On the other hand, in the Department of Education, the 
ratio is only 14 FTEs to each IG FTE. And I wonder if you could 
comment on that fact.
    Mr. Bloom. Excellent question. In fact, one of the first 
questions I asked when I was asked to be Inspector General. 
Understand that most of our work is done outside the 
Department. I was chief financial officer at the Department of 
Commerce, which had many employees, 36,000 employees, and only 
200 Inspector General employees. But most of the work was 
focused on the employees and the $4 billion budget at the 
Department of Commerce.
    Our budget at the Department of Education is not FTE 
intensive for the Department. It's $30 billion and most of the 
money goes outside. Most of our look is not inside the 
Department but at the colleges, the guarantee agencies, the 
schools, outside, that are not under the control of our 
employees.
    Mr. Wicker. They are public employees, but not Federal 
employees?
    Mr. Bloom. Yes. Well, and in the case of some of the 
universities, some of them are private employees also. But 
there's a whole industry that we're looking at.

                           student aid volume

    Mr. Wicker. You mentioned student lending, $120 billion I 
believe you said, in guarantees and direct lending. How much of 
it is guarantees and how much is direct lending?
    Mr. Bloom. I believe about $94 billion would be guarantees, 
and about $18 billion would be direct lending. The other $8 
billion is grants.
    Mr. Wicker. And what direction is that going?
    Mr. Bloom. Recently it's been going more in direct lending. 
The direct lending program is relatively new, and is, I 
believe, popping along at about $10 billion or $11 billion.

                  effect of direct loan program on oig

    Mr. Wicker. How would your office be affected if we didn't 
have the direct lending component, in terms of FTE that you 
would require? Have you looked at that, can you comment on 
that?
    Mr. Bloom. I haven't looked at it directly. But I can give 
you a comparison. I think in 1994, when there was no direct 
lending, we had 365 FTE. We now are operating around 300. We're 
asking for 317. So we have not specifically asked for an 
increase to handle direct lending. The liability, the potential 
liability is still out there, though, whether there's direct 
lending or the FFEL program. It would still be the same number 
of students, the same number of schools involved. And that more 
drives how we use our time and our FTE.
    We do need to be more technology capable, though, to deal 
with the direct lending program.
    Mr. Wicker. Had I been here for the earlier hearing, I was 
going to ask this question. I'll ask it of you. There's an 
article in today's Washington Times, page A-10, concerning the 
plans for testing math proficiency. And basically, in testimony 
and information that we've received from the Department, it 
seems that the Administration is not going to request specific 
authorization for development of these tests, but rather to 
take the money, to create the tests from the Fund for the 
Improvement of Education, without authorization from the 
Congress. And the articles goes on to say, I believe correctly, 
that this is a sticking point with some members of the 
Congress.
    Do you have an opinion as to the propriety of using the 
Fund for the Improvement of Education for purposes of 
developing this major shift in testing without congressional 
authorization?
    Mr. Bloom. I really have no opinion.
    Mr. Wicker. Is that something within the purview of your 
office?
    Mr. Bloom. I hadn't thought about it, there was some 
discussion about it earlier. I hadn't thought about that 
before. But it's something I will chat with my counsel about.
    It seems to me that it is more a legal question. I'd have 
to give that some thought, sir.

                       drug-free schools program

    Mr. Wicker. Okay. The Administration has suggested that the 
subcommittee include language in the fiscal year 1998 bill 
indicating that funds for safe and drug-free schools and 
Eisenhower Professional Development can be spent only for 
programs that follow regulations to be published in the Federal 
Register. How has your office been involved in preparation of 
these guidelines?
    Mr. Bloom. We've done some work in drug-free schools. We've 
done some audit work for safe and drug-free schools, not 
extensive audit work. I guess I would ask, I don't specifically 
know the answer to that question, sir. I would defer to Steve.
    Mr. McNamara. We've not been involved in the development of 
that guidance, but at the request of the Congress, we did a 
review last year of the safe and drug-free schools in nine 
school districts across the country.
    To answer the specific question, how are the funds being 
used and are they being used to promote not using drugs, there 
was some concern that the money was being used to sod football 
fields, or to teach appropriate drug use or other things. We 
did not find that in the nine school districts that we looked 
at. And right now, we have an audit underway, just started, and 
we're going to four States where we'll be tracing the money 
from the Federal level all the way down to the school, to see 
how much of it actually reaches the schools and how it's used. 
And we'll also be looking at the performance measures of the 
program as well.
    Mr. Wicker. All right. At this point, I expect Chairman 
Porter to be back in just a few moments. We're going tobriefly 
stand in recess, subject to the call of the Chair.
    [Recess.]
    Mr. Porter [resuming chair]. The subcommittee will come to 
order.
    Mr. Bloom, it's not quite possible for a member, for the 
Chairman to leave instantly and get back before the other 
member has to leave. There's about a minute and a half overlap, 
and we apologize for that.

                 government performance and results act

    What role does your office play in assuring that the 
performance measurement data presented to the Congress and 
included in the Department's financial statement under GPRA and 
the CFO Act is valid?
    Mr. Bloom. At this point, nothing's been submitted yet. I 
think it's a 1999 requirement.
    But let me tell you how we see what our involvement and 
what our process will be. We've been actually giving this a 
fair amount of thought over the last six or eight months.
    The Department has now identified 35 major programs and 
have completed performance measures for 17 of those. And 
they're going to be completing the other 18 by I think April 
15th or April 30th. They've actually asked us, the Director of 
Planning and Evaluation, has asked us to take a look at what 
they're going to measure and give them an honest critique of 
whether they're measuring the right things, whether their 
measurements are too easy, whether they're too esoteric. So 
we're going to jump on that right away. In fact, we're going to 
start looking at the first 17 probably in the next month or so.
    Mr. Porter. Let me lobby you on that, if I may.
    Mr. Bloom. Sure.
    Mr. Porter. Tell them we're looking for results from 
programs, not how many kids are enrolled or not how many 
dollars are spent, but what happens to people.
    Mr. Bloom. And as I think I said earlier, I strongly 
believe what you measure you get. And I think you and I are 
right on the same track on that. So they'll probably be hearing 
that a lot from us, sir.
    So once we've looked at that, and hopefully they've made 
any corrections, then we're going to look at how they're going 
to get that data, whether they've got the systems in place to 
get that data. My guess is that there probably is a lot of work 
the Department needs to do to fix their systems, to accumulate 
accurate data, both in the Department and out in the school 
districts and out in the colleges and universities. So we'll 
help them determine that.
    Then by the time 1999 rolls around, and they've accumulated 
the data, they've got the systems to accumulate the data, we 
will do some testing of that data to make sure that it's 
reasonably accurate. Whether it will be the same level as an 
audit, we're still working on that. We're still working on that 
in the IG community as a whole, about what is our 
responsibility, where does our responsibility end and the 
Department's begin on that.
    It's definitely something on our scope.
    Mr. Porter. I infer from what you said that the IGs of the 
various departments kind of sit down and talk together, is 
there an association?
    Mr. Bloom. Yes, we have something called the President's 
Council on Integrity and Efficiency. We meet once a month, two 
hours, and then we have some subgroups that we meet together on 
every couple of months to work out specific issues. So we 
actually have a good working relationship with the other IGs.

             sustaining of oig audit findings by department

    Mr. Porter. According to management reports, management 
sustained a large percentage of the IG's findings with respect 
to questioned costs relating to the Office of Postsecondary 
Education. Of the $41.2 million questioned, management 
sustained $37.1 million. However, of $38.5 million questioned 
costs in other offices, findings of unsupported costs and the 
funds put to better use, management sustained only $987,000, or 
2.7 percent.
    In fact, of $21.3 million in recommended funds put to 
better use, management sustained nothing. Can you discuss the 
reasons for this high level of disagreement with management on 
these findings?
    Mr. Bloom. If I may, I'd like to hand this over to Steve.
    Mr. McNamara. I think what you'll find, Mr. Chairman, is 
that in the student aid area you have pretty clear criteria. 
And when you find the money is misspent, it's fairly definite 
as to what happened, and we get pretty good support from 
management in seeking sustainment of those funds.
    As you get over into elementary and secondary programs, 
what we find is that there is something in the Act, in GEPA, 
that's called the prima facie case. You have to build almost an 
incredible and unattainable standard to sustain questioned 
costs in those programs. There was a concern years ago that the 
auditors were out there nickel and diming the school districts. 
I guess they were successful in getting the law changed.
    Right now, we focus much more on systems. We have some 
major efforts ongoing where we're trying to fix the systems 
rather than go after the dollars. Because quite frankly, even 
in places where we would question the dollars, there's 
something called a grantback. And 75 percent of it goes back to 
the grantee. So it's really not a good use of our time to do 
that.
    And I think what you find is, the laws in some of these 
other programs are extremely complicated. You get into 
supplement/supplant and other things where the auditors may 
think there's a case. But then after you get a lot of legal 
talent involved, you find out through a lot of legal 
interpretation it just can't be sustained. And I think that's 
the stark difference between the two.

                    recommended legislative changes

    Mr. Porter. Is it the responsibility of your office, when 
you find situations like that, to suggest changes in 
legislation that would make it more, make the operations more 
accountable?
    Mr. McNamara. Absolutely. I think this is a situation that 
we have complained about a lot. But I think there's been a very 
strong preference that money not be taken back from school 
districts and that sort of thing. So our focus has been really 
trying to fix the system and not recover the costs.
    Mr. Bloom. Let me add just kind of an overall comment about 
reauthorization legislation. I probably should have mentioned 
it in my highlights. But we're spending a lot of time on 
reauthorization and working with the Department to make our 
views known, and working with the committees to let them know, 
there are some instances where the Department and OIG don't 
agree. And we're working with the committees on those.
    Mr. Porter. Good. I'm glad to hear that.

                  collections resulting from oig work

    In the report on the fiscal year 1997 bill, we asked you to 
begin reporting to the subcommittee on the actual amountof 
collections resulting from your findings or activities funded with 
funds put to better use. In reviewing the latest management report, I 
notice that there are over $500 million in disallowed costs that are 
over one year old. Many of these are listed as in bankruptcy or 
referred for writeoff.
    Can you give us an update on the totals collected by 
Government as a result of questioned costs and unsupported 
costs, and some idea of how actual collections relate to the 
costs listed in your semi-annual report? How much has 
management put to better use and for what purposes? Would you 
comment on the list of disallowed costs I mentioned earlier?
    Mr. Bloom. Let me make a general statement and then I'll 
ask Dianne to get into more of the specifics.
    Coming up with the numbers, the actual recoveries, we have 
to work with the Department of Justice on that. They keep track 
of those statistics. I'm not sure they have the systems up and 
running yet to track that data the way you would like it and 
the way we would like to report it to you. We're still working 
on that.
    So there is some question of just how accurate the numbers 
are. But we think that they are probably within the ball park.
    Now, to get into more specifics, Dianne.
    Ms. Van Riper. On the court-ordered restitutions and fines 
in the criminal arena or the civil fraud arena, responsibility 
and the authority for collecting that money rests with the 
Department of Justice. What we have done in the past, though, 
is to put the individuals at the Department of Justice in 
contact with our Office of Finance within the Department, so 
that the two are communicating on who is to pay, instead of 
having a receivable, so that we could expect the money and know 
what account it should go to.
    There have been problems in the past with that 
communication. We have had meetings with the Department of 
Justice to try to determine a way that they can better identify 
agencies that were responsible for criminal investigations and 
attribute the fines and the restitutions to the correct account 
and the correct department or agency.
    Part of your question also may have been on restitutions or 
repayments or liabilities in the audit sector. And that would 
probably go to Mr. McNamara.
    Mr. McNamara. You had mentioned bankruptcies. In a lot of 
cases where we have large questioned costs, say on a 
proprietary school, oftentimes they'll go out of business and 
disappear. The Department may sustain us, because for a fact, 
they owe us money back. But Dianne is busy trying to track them 
down in Argentina, they're long gone. They go bankrupt and you 
can't get the money.
    Mr. Bloom. Sometimes the numbers are pretty big, Mr. 
Chairman.

             direct loan and family education loan programs

    Mr. Porter. As you know, under law, the direct loan program 
and the guaranteed loan program are to be operated on an equal 
footing, so that neither program has a competitive advantage 
over the other. Advocates of the guaranteed loan program claim 
that they are at an unfair disadvantage in the way the program 
is administered by the Department. Have you reviewed the two 
programs, and can you give us your views on that claim?
    Mr. Bloom. We've reviewed the two programs, not 
specifically to look at that. There are folks on the other side 
who also claim that there's more flexibility on the FEL side. I 
really don't have an opinion on that. And we haven't done any 
specific work in that area. We can certainly consider doing 
some.
    Mr. Porter. I would ask you to do that, and be prepared, or 
write us and tell us what your findings are, because we're 
interested in knowing that question.
    I have other questions for the record, but those can be 
answered in due course.
    Mr. Porter. Mr. Bloom, we appreciate the fine job you and 
your staff do. We appreciate your good statement this morning, 
and your very candid answers to our questions.
    Thank you very much.
    The subcommittee will stand in recess until 1:30 p.m.
    [The following questions were submitted to be answered for 
the record:]

[Pages 464 - 469--The official Committee record contains additional material here.]


                                          Thursday, March 13, 1997.

           SPECIAL INSTITUTIONS FOR PERSONS WITH DISABILITIES

                               WITNESSES

JUDITH E. HEUMANN, ASSISTANT SECRETARY, SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
TUCK TINSLEY III, PRESIDENT, AMERICAN PRINTING HOUSE FOR THE BLIND
I. KING JORDAN, PRESIDENT, GALLAUDET UNIVERSITY
ROBERT R. DAVILA, VICE PRESIDENT, NATIONAL TECHNICAL INSTITUTE FOR THE 
    DEAF, ROCHESTER INSTITUTE OF TECHNOLOGY
WENDELL S. THOMPSON, ASSOCIATE DIRECTOR, NATIONAL TECHNICAL INSTITUTE 
    FOR THE DEAF, ROCHESTER INSTITUTE OF TECHNOLOGY
RAMON F. RODRIGUEZ, LIAISON OFFICER, OFFICE OF SPECIAL INSTITUTIONS, 
    OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE, OFFICE OF THE UNDER 
    SECRETARY
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND RESEARCH ANALYSIS, BUDGET SERVICE, OFFICE OF 
    THE UNDER SECRETARY

    Mr. Porter. The subcommittee will come to order.
    We are delighted to welcome the representatives of Special 
Institutions for Persons with Disabilities, and to welcome back 
Judith Heumann, the Assistant Secretary for Special Education 
and Rehabilitative Services.
    Ms. Heumann, I am going to call on you for two 
introductions in a moment. We expected Mrs. Northup to be here, 
and she is unable to be here; and Mr. LaHood was going to be 
here, and he is in the chair on the floor acting as Speaker 
right now; he's a new member of the Board of Directors at 
Gallaudet.
    But we are delighted to be joined on the dais by Louise 
Slaughter of New York, our good friend and colleague in the 
Congress, and she is going to present the first of our three 
panelists.

             Remarks From the Honorable Louise M. Slaughter

    Ms. Slaughter. Thank you very much, Mr. Chairman. It is 
always a pleasure to be here with you and my colleagues from 
the House. I'm always pleased to see the representatives of 
colleges; Dr. Jordan and I have been friends for many years.
    But I am really especially delighted to introduce to you 
today my constituents from the National Technical Institute for 
the Deaf in Rochester, and I wanted to thank you again, give 
you my profound thanks, because you've always been wonderful in 
the past in supporting NTID, and we're very happy to hear that.
    Dr. Robert Davila is the esteemed new Vice President of the 
National Technical Institute for the Deaf, and we have also 
with us, I think, in the audience, Mr. Gus Thompson. He is also 
visiting this committee--there he is. I guess that window threw 
me. [Laughter.]
    Okay. That's Wendell Thompson, not Gus; I made that up.
    But Dr. Davila, I know, has been before this committee and 
testified either as an Assistant Secretary of the Office of 
Special Education and Rehabilitative Services from 1989 to 
1993, or earlier, in the 1980s, as the Vice President of 
Gallaudet.
    We feel very fortunate to have Dr. Davila in Rochester. He 
has spent nearly 40 years in education as a high school math 
teacher, as an assistant principal, a K-12 superintendent, a 
college professor, a college administrator, a university vice 
president, and all of these have prepared him well for his new 
role, not to mention his four years as the Assistant Secretary.
    He also has a wonderful sense of humor. He is now in his 
ninth month at NTID, and I am sure that his vision for NTID is 
beginning to take shape.
    I think all of you on this committee know how proud I am of 
NTID because of its services and the wonderful success that it 
has had in preparing deaf people to enter society and the 
workplace, and to compete on a par with their hearing peers.
    NTID graduates earn 93 percent of what their hearing peers 
earn, which is significantly above the 70 percent national 
average for disabled Americans. NTID graduates pay back the 
Federal Government for their education at least three times in 
the taxes that they pay. Furthermore, the employment rates 
among NTID graduates are exceptionally high, with 95 percent 
becoming employed shortly after graduation, and these good jobs 
are commensurate with the education and training received.
    In addition, more than 70 percent of them are employed in 
business or industry. Clearly, that's an impressive record of 
success.
    In recent years, NTID has responded to the same needs and 
requirements that all Government institutions are facing, the 
need to improve efficiency and the need to do more with less. 
They have restructured; they have streamlined their 
administration; they have reallocated resources to direct more 
services to the students, and in addition, they have reduced 
their workforce by nearly 20 percent.
    Mr. Chairman, I know that you are as impressed with NTID as 
I am, and I hope you will look favorably upon them in this 
appropriations cycle. They have positioned themselves to live 
with the same level funding for three years in a row; that's no 
small feat, considering the inflationary increases that they 
have faced.
    These gentlemen will give you all the details, and I am 
pleased to turn this over to them.
    And I want to thank you again, Mr. Chairman, for allowing 
me to speak here today. Thank you all.
    Mr. Porter. Louise, thank you very much. We'd be delighted 
if you were a member of this subcommittee.
    Ms. Slaughter. So would I. I would like that a great deal. 
It would be a pleasure to work with you.

               Remarks From the Honorable Anne M. Northup

    Mr. Porter. Thank you for joining us.
    Mrs. Northup has been able to return. She had to go to one 
of her other subcommittee assignments, and we are delighted 
that she could return. She would like to make an introduction, 
as well.
    Mrs. Northup. Yes. This gives me great pleasure, Mr. 
Chairman, to introduce to you and the other members of the 
committee representatives who are here today from the American 
Printing House for the Blind.
    As a State Representative, I have had a very close working 
relationship with the Department of the Blind in Kentucky, and 
the School for the Blind and the Printing House for the Blind. 
Furthermore, through a number of coincidences, my husband 
happens to be Chairman of the Board of Kentucky Industries for 
the Blind, which is being privatized by the Commonwealth of 
Kentucky--very successfully, by the way.
    So I have had an opportunity, and my family has, in two 
different ways to work very closely with the blind community in 
Louisville, Kentucky. It's a very strong community and they do 
serve a very national purpose, and in particular, the American 
Printing House for the Blind.
    With us today is Mr. Tuck Tinsley. He is the President of 
the American Printing House for the Blind. He was educated at 
Florida State University, got his Bachelor of Science and his 
M.S. and a degree in education at the University of Florida.
    He came to Kentucky and the Printing House for the Blind 
after being the Principal at the Florida School for the Deaf 
and Blind in Augustine, Florida. He was the interim President 
of the Florida School for the Deaf and the Blind, and is 
somebody that is greatly admired in our State.
    I would also like to introduce Gary Mudd, who is here from 
the American Printing House for the Blind.
    I know that as we consider this appropriation it is 
important to recognize that this is the institution that 
produces and distributes educational materials that are adopted 
for students that are legally blind and enrolled informal 
educational programs below college level. These materials are produced 
and sent around this country, and they are provided to the entire blind 
community in this country. It is the main source of braille-related 
materials and large print materials that are used in these 
institutions. It is very important to your constituents, Mr. Chairman, 
and to the other constituents of all of us and to mine in Louisville, 
Kentucky.
    So it's a small world. It's very nice, Tuck, to welcome you 
before the committee today and to have you with us.
    Dr. Tinsley. Thank you.

                       Introduction of Witnesses

    Mr. Porter. And finally, I will call on Secretary Heumann 
to make the final introduction. As I said, Congressman LaHood 
wanted to be here, but is in the chair on the floor of the 
House.
    Ms. Heumann. I would like to introduce Dr. I. King Jordan 
who, as you know, is the President of Gallaudet University; and 
to my left is Mr. Ramon Rodriguez, who is the Liaison Officer 
in my office; and to my far right is Mr. Tom Skelly, who is the 
Director of the Budget Service, and Ms. Carol Cichowski, who is 
Director of the Division of Special Education.
    Is there anyone here who has not been introduced?
    Ms. Heumann. Everyone has been introduced.
    Mr. Porter. Thank you, Ms. Heumann. And we welcome Dr. 
Davila, Dr. Tinsley, and Dr. Jordan. We welcome Wendell 
Thompson, Ramon Rodriguez, and, of course, Tom Skelly and 
Carol, who are with us often these days.
    Why don't we proceed with opening statements. Ms. Heumann, 
do you have an opening statement?
    Ms. Heumann. Yes.
    Mr. Porter. All right. Why don't you start, and we'll call 
on each of them in order?

                  Opening Statement--Judith E. Heumann

    Ms. Heumann. Thank you, Mr. Chairman.
    Mr. Chairman and other members of the committee, it is my 
pleasure to appear before you on behalf of the Special 
Institutions for Persons with Disabilities, which includes the 
American Printing House for the Blind, the National Technical 
Institute for the Deaf, and Gallaudet University. These 
institutions provide specialized programs and services to 
students with disabilities. The Department helps ensure that 
each institution provides services and programs in compliance 
with the requirements of its respective authorizing 
legislation, and that these activities meet the needs of the 
students for whom they are intended.
    I am pleased to present the Department's testimony on 
behalf of the President's fiscal year 1998 budget for these 
three institutions. I would like to take a few minutes to 
summarize the budget request and comment on several key issues, 
then representatives of each of the institutions will provide 
specific testimony in support of their budget request.

                  budget request--special institutions

    The total budget request for the Special Institutions is 
$128.9 million. This includes a request of $6.7 million for the 
American Printing House for the Blind; $43 million for the 
National Technical Institute of the Deaf; and $79.2 million for 
Gallaudet University.
    The requests for the three institutions maintain overall 
funding at their fiscal year 1977 levels. Again, our requests 
consolidate the budget lines for Gallaudet University and the 
National Technical Institute for the Deaf, and provide the 
institutions flexibility to direct funding toward their highest 
priorities. The Department is pleased to be able to provide 
support for these important programs, and for the children and 
adults with disabilities who will benefit from their services.

                        endowment grant programs

    The Department has not included a separate request for the 
Endowment Grant Programs for either NTID or Gallaudet 
University. Instead, our requests would provide NTID and 
Gallaudet University the flexibility to use current-year 
program funds for their respective Endowment Grant Programs. 
The Department believes these funds help promote the financial 
independence of these institutions and provide a permanent and 
increasing source of funds for special projects. We understand 
that Gallaudet University plans to use an additional $500,000 
of its fiscal year 1997 appropriation for matching purposes 
under the Endowment Grant Program above the $1 million it has 
already claimed as match. We are pleased to see the University 
take the initiative to enhance its financial independence.

        government performance and results act (gpra) activities

    The Department is working with all three of the Special 
Institutions to meet the requirements of the Government 
Performance and Results Act of 1993. We have provided guidance 
to the institutions on the requirements of GPRA related to 
developing an appropriate system of strategic objectives and 
performance indicators that could be used to help measure the 
effectiveness of their programs.
    Both Gallaudet University and the National Technical 
Institute for the Deaf have recently undergone strategic 
planning processes, and the American Printing House for the 
Blind initiated its strategic planning process in 1996. Each of 
the institutions has submitted draft plans that identify their 
individual institution's primary objectives based on their 
respective strategic plans. The Department is planning a series 
of meetings and/or teleconferences with the institutions to 
ensure that their annual performance plans include appropriate 
objectives, indicators, and data sources for each of the three 
institutions.

 monitoring for gallaudet's elementary and secondary education programs

    To follow up on our report to you last year, the Department 
and Gallaudet University have worked closely over the past 
several years to ensure effective implementation of the 
requirements of the EDA, and incorporated provisions of the 
Individuals With Disabilities Education Act as they relate to 
students who have been placed in Gallaudet University's 
elementary and secondary education programs by theirparents. As 
a part of this process, the Department conducted an on-site monitoring 
visit to KDES and MSSD to review the schools' progress in implementing 
these requirements. OSERS submitted a report of findings from the on-
site visit to the University, and the University subsequently submitted 
its corrective action plan to us. The corrective action plan was 
reviewed and approved by OSERS on December 23rd, 1996. The Department 
plans to conduct a follow-up visit during school year 1997-1998.
    In fiscal year 1998, the Department plans to continue to 
work closely with all three Special Institutions for Persons 
with Disabilities to ensure that Federal funds are being used 
efficiently and effectively to expand educational opportunities 
for individuals who are deaf or hard of hearing, and 
individuals who are blind.
    I am sorry, to the interpreter, that my Brooklyn speed and 
the beepers made me read too fast. [Laughter.]
    We are available for questions.
    [The prepared statement and biography of Judith Heumann 
follows:]

[Pages 477 - 480--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Secretary Heumann.
    I understand that each of you has a short opening 
statement; am I correct?
    Ms. Heumann. Yes, they do.
    Mr. Porter. Dr. Jordan, why don't we start with you?

                   Opening Statement--I. King Jordan

    Dr. Jordan. Thank you, Mr. Chairman. In the interest of 
time, sir, I will submit my opening statement, the written one, 
for the record, but I would like to add a few comments at this 
time, if I may.
    I would like to begin by saying that exactly nine years ago 
today, March 13th, 1988, I was appointed President of Gallaudet 
University. That was a very significant time in my life and a 
very significant time in the lives of deaf people around the 
United States. Exactly one week later, I sat in this chair and 
testified before this committee; I am sure that you can imagine 
that one week after becoming President, I was more than a 
little bit nervous about appearing before the subcommittee. But 
thanks in large measure to two legends of this subcommittee, 
Chairman Natcher and Mr. Conte, I was very warmly received when 
I came here. They made that first experience a very positive 
one. Interestingly, it has continued to be a very positive 
experience and one that I look forward to every year in the 
spring.
    I mentioned my appointment as President because I think it 
was very important. It followed a significant revolution among 
deaf people that took place not only at Gallaudet University, 
but all around the United States. Following that revolution, a 
great many changes happened in the lives of deaf people, and 
probably among the most significant of those changes was the 
change in attitude that the American people have toward people 
with disabilities. I believe that attitudes have changed in a 
very positive way since that time.
    Thanks to Congress and President Bush, the Americans With 
Disabilities Act is now law. Congress has also passed many 
significant laws during that time that have enhanced access of 
deaf people to telecommunications, to television, and to other 
aspects of society. Deaf students at Gallaudet University, as 
well as deaf students in other places, postsecondary programs 
all over the country, see themselves differently now than deaf 
students did eight and ten years ago. Now deaf students 
correctly realize that they can become anything they aspire to 
become.
    If I can be so bold, I can point to the gentleman sitting 
next to me who, as Congresswoman Slaughter said, after he 
graduated from Gallaudet University went through many, many 
advancements in life until finally becoming Assistant Secretary 
in the Department of Education during the Bush Administration. 
He is currently the first deaf Vice President for the National 
Technical Institute for the Deaf at the Rochester Institute of 
Technology.
    I think the key here is that it is not only Dr. Davila who 
has achieved the American dream; it is happening all over the 
country. Thousands of deaf Americans are achieving theAmerican 
dream, thanks directly to the education that they received at Gallaudet 
University. Graduates of Gallaudet University are professionals, 
executives, and managers, and have high-technology jobs, and they can 
point directly to the education they received at Gallaudet University 
with thanks.
    For almost 133 years, Gallaudet University has been a 
national university, serving a national need. It has provided 
high quality education to deaf people during that time, and 
will continue to do so, with your support.
    I want to thank you for your support, and thank the 
Committee, the Congress, and the Department of Education for 
continuing to support high quality education for people who are 
deaf. But particularly I want to thank this committee for every 
year giving me a very good and very just hearing.
    One final comment, I would like to follow up on your 
comment about Congressman LaHood. We are delighted that he has 
become a member of our Board of Trustees. The Illinois School 
for the Deaf in Jacksonville, Illinois, is in his District, so 
he has a great interest in deafness and in Gallaudet 
University. He is a perfect fit. While I am disappointed that 
he is not here, I understand that presiding over the House is 
quite an honor, and I'm glad that he has the opportunity to do 
that.
    Mr. Chairman, thank you for giving me this opportunity to 
come before you again, and I look forward to your questions, 
sir.
    [The prepared statement and biography of I. King Jordan 
follows:]

[Pages 483 - 487--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Dr. Jordan.
    It will be necessary for the subcommittee to stand in 
recess until we can vote, so we will return briefly.
    [Recess.]
    Mr. Porter. There is likely to be another vote, so we will 
ask Dr. Davila for his statement, and then Dr. Tinsley, and 
after that we'll get to questions.
    Please.

                  Opening Statement--Robert R. Davila

    Dr. Davila. Thank you very much, Mr. Chairman. It is good 
to be back before this committee. As Ms. Slaughter said, I have 
been here in every form and shape over the years, but it is 
always good to be here.
    I want to begin by thanking Ms. Slaughter for her very 
nice, kind, and generous introduction. In the short time I have 
been in Rochester, I have come to appreciate the treatment and 
good will that she has built throughout the entire community 
and all the support that she gives to her constituents. She is 
also a member of our National Advisory Group, and has done a 
tremendous amount of good work for NTID. Consequently, I want 
to thank her on the record, and will thank her personally, as 
well.
    I am pleased to be back in the postsecondary ranks with 
responsibility for a college program, and it is indeed an honor 
to be at NTID. As you know, NTID has a national and 
international reputation for the work that it has done to 
prepare young people who are deaf for the world of work. I 
intend to continue that tradition to the best of my ability.

                          budget request--ntid

    Our request for fiscal year 1998 is $43,041,000 for 
operations. This is the same amount that we received in fiscal 
year 1997. As a matter of fact, it is the same amount that we 
received for operations in 1995.
    As the Chief Executive Officer for NTID, it would be 
difficult for me to support this level of funding if I had not 
inherited such a healthy--fiscally healthy--institution. As 
this committee knows, my predecessor, Dr. James DeCaro, went 
through some very painful but necessary steps to reduce 
spending and the workforce at NTID. In fact, he reduced our 
staff positions by 19 percent and eliminated almost $6 million 
from the base operating budget. These actions allowed NTID to 
operate with level funding for three years in a row, and has 
made possible implementation of our strategic plan at no extra 
cost to the taxpayers. That is a promise that NTID made, and we 
are keeping that promise.
    During this time, we have also implemented, or will 
implement, six new academic programs. We have renovated space 
within our main academic building at NTID to construct a 5,400-
square-foot learning center that also includes a modern state-
of-the-art smart classroom for distance learning and for 
multimedia applications. We have hard-wired the dormitories for 
computer access, funded annual salary and benefits increases 
for faculty and staff, replaced a roof on one of our 
dormitories, and made a host of other smaller maintenance 
repairs.

                            ntid admissions

    I am pleased to report that new admissions in all areas 
over this past year, starting last September, continue to be 
positive. They totaled 371. That is the same number that we had 
last year; however, it represents an 18.5 percent increase over 
1995. This also has resulted in an upward trend in enrollment of 
students who are deaf. In addition, NTID enrolled 72 students in its 
interpreter training program, and 16 students in its Masters in 
Secondary Education program. This past winter quarter, we had 53 more 
students than we had at this time last year. This is primarily due to 
improved retention of freshmen. Retention remains a very high priority 
for NTID.
    Total enrollment is up nearly 5 percent, and admissions for 
the fall of 1997 are ahead of last year. Our projection is that 
we will see an increase in our enrollment for school year 1997-
98.
    These are positive developments that have led us to the 
conclusion that it will not be necessary for us to increase 
tuition for 1998, assuming that these projections remain true 
and we expect they will. Since students and parents shared in 
the pain of tight budgets over the last few years, I want them 
also to benefit from good management.

                     benefits of an ntid education

    For the past 27 years, nearly 95 percent of NTID's 3,700 
graduates have been successfully placed in jobs commensurate 
with their training and preparation. Seventy percent are 
employed in business and industry, with 36 percent of that 70 
percent in science and engineering careers.
    Research conducted by NTID and the Internal Revenue 
Service, IRS, shows that our deaf graduates with BA degrees 
earn 93 percent of what their hearing peers earn. As Ms. 
Slaughter pointed out, that is a much higher success rate than 
is generally known for people with disabilities.
    In addition, deaf RIT graduates with a BS degree will pay 
back in their lifetime over three times the cost of their 
education to the Federal Treasury in taxes.
    Mr. Chairman, I am happy to respond to any questions you 
may have for me. Thank you.
    [The prepared statement and biography of Robert Davila 
follows:]

[Pages 490 - 495--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Dr. Davila.
    Dr. Tinsley.

                  Opening Statement--Tuck Tinsley III

    Dr. Tinsley. Mr. Chairman, I would like to open by thanking 
Congresswoman Northup for that most generous introduction, and 
I would like to express how fortunate we feel to have her 
representing the great Commonwealth of Kentucky in Congress.
    It is a pleasure for me to appear before you today to 
present the President's fiscal year 1998 budget request for the 
American Printing House for the Blind, APH. I have submitted a 
written statement for the record and will just make brief 
comments regarding the opening statement.

                    budget request for aph programs

    The total request for funding the Act to Promote the 
Education of the Blind, administered by APH, for fiscal year 
1998 is $6.68 million, maintaining funding at the same 
appropriation level as fiscal years 1995, 1996, and 1997. 
Funding is requested for three areas: educational materials, 
advisory services, and educational research.
    The request for fiscal year 1998 includes $5.91 million, 
the same as 1997, to supply special educational materials to an 
estimated 57,008 legally blind pre-college-level students. The 
number of students has increased by 2 percent, 1,118, since 
1997, so the resulting per capita or per student allotment for 
1998 will be $103.67 at this appropriation level, a decrease of 
$2.07 or 2 percent from the 1997 appropriation level.
    The 1998 request maintains funding for advisory services at 
the 1997 level of $175,000. The appropriation for advisory 
services supports a variety of activities necessary to 
administer the Act. These activities include an annual census 
of blind students; meetings of two standing advisory 
committees, and ad hoc committees as necessary; the production 
of catalogs of educational materials; and field services, such 
as consultation, in-service training, and workshops.
    The request includes $15,000 to continue a special 
copyright initiative, funded at $60,000 in 1997, to augment 
APH's efforts to obtain copyright permissions from publishers. 
The Copyright Act was amended in September of this past year, 
and now allows nonprofit organizations like the American 
Printing House for the Blind to produce, reproduce, and 
distribute braille, recorded, and digital books for use by the 
blind without going through the time-consuming process of 
obtaining permissions from the publishers.
    However, large-type materials are not covered by this 
amendment, and with approximately 26 percent of the school-age 
blind population using large-type materials, the request of 
$15,000 would cover the additional work necessary to get 
permissions for those materials.
    The request also includes $170,000 to support the 
completion of a special initiative to upgrade the American 
Printing House for the Blind's CARL ET ALL database. This 
system is an on-line database that lists educational materials 
in formats accessible to people who are visually impaired. It 
contains bibliographic and location information for over 
120,000 titles of books and materials available in braille, 
large type, recorded, computer disk, and tactile graphic 
format.
    With the Internet playing an increasing role in education, 
the upgrade of the system will enhance the APH Internet Web 
Site by putting CARL ET AL, audio clips, library abstracts, and 
other information within easy reach of computer users. Blind 
students using speech access software can then go directly to 
the Web site and explore available materials.
    The request for educational research is at the 1997 level 
of $410,000. These funds provide the base for APH to develop 
needed educational materials addressing areas such as braille 
reading and writing; low vision assessment and training; 
microcomputer applications; and products for special groups, 
such as visually-impaired infants and pre-schoolers and 
visually-impaired students with additional handicapping 
conditions.

                         management initiatives

    APH has placed great emphasis on assuring optimum 
efficiency and effectiveness in the 
organization'sadministrative and manufacturing processes. Three 
elements in this effort are a comprehensive strategic planning process; 
participation in the Center for Quality of Management; and selection as 
a project company by the Toyota Motor Corporation.
    APH's long-range planning process and resulting strategic 
plan for 1997 are deeply rooted in the voices of our customers. 
APH has been invited to become the seventh member of the 
Louisville chapter of the Center for Quality of Management, 
CQM, on April 1st of this year. Other members include Ford 
Motor Company's Kentucky Truck Plant, Hillerich & Bradsby 
Company, which produces the Louisville Slugger, and SerVend 
International. CQM is a nonprofit consortium of companies 
dedicated to integration, implementation, and diffusion of the 
best proven management practices available. Perhaps most 
significantly, APH was recently selected by Toyota as a project 
company. Toyota began working with APH this Tuesday, March 
11th, on a pro bono basis to improve plant productivity and 
reduce costs.
    The Act to Promote the Education of the Blind is a program 
that works. It was good in 1879; it is even better in 1997. The 
key is continuous advice from direct service providers at the 
State and local levels, with all the obvious benefits of grass 
roots involvement.
    The appropriation for the Act makes a strong statement that 
our Federal Government recognizes that the education of our 
country's blind pre-college-level student population is 
critical, and we thank you for that investment.
    Mr. Chairman and Congresswoman Northup, I'd be pleased to 
answer any questions you might have.
    [The prepared statement and biography of Tuck Tinsley 
follows:]

[Pages 498 - 503--The official Committee record contains additional material here.]


               performance measures--gallaudet university

    Mr. Porter. Let me thank all four of you for your very fine 
statements.
    Let me start with a general comment. On this subcommittee, 
our focus is making Government work for people, and that means 
that we have to change the focus from inputs, like how much we 
are spending or how many people we are serving, to outcomes and 
results, for example, how students are improving their academic 
achievement and obtaining meaningful employment.
    I believe that the Government Performance and Results Act 
(GPRA) is an important tool in shifting our focus to 
effectiveness and outcomes. I want to start by asking each one 
of you about how you are implementing GPRA.
    Dr. Jordan, the budget justification indicates that 
Gallaudet is working with the Department to meet the 
requirements of GPRA. The University's draft plan identifies 
three goals, the first of which is that Gallaudet students are 
achieving their academic goals and attaining productive 
employment.
    I commend you for focusing on the students, but these goals 
are rather fuzzy, considering that the fiscal year 1999 budget 
process begins in two months. Specific indicators have not been 
chosen, and no submission has been made to OMB for approval.
    On this first goal, can you tell us specifically what the 
indicators will be for academic achievement, whether they will 
be student retention rates or graduation rates, and how will 
you define productive employment? Please provide a 
comprehensive, specific, and detailed answer for the record.
    Dr. Jordan. May I also comment now? I will be happy to 
provide a comprehensive and detailed answer for the record, but 
currently we have already developed supporting objectives for 
all three primary objectives and also identified the indicators 
and data sources that we will use to measure those things.
    For the first, for example, obtaining productive employment 
and achieving academic goals, there are 10 supporting 
objectives. These supporting objectives were developed through 
a process that involved the entire Gallaudet University 
community. We set up a very representative task force that then 
invited contributions from throughout the campus.
    It was interesting to me that we began our strategic 
planning a few years ago, and the template--the blueprint--that 
we used turned out to be exactly the same as that which GPRA is 
using. I believe it will be very easy for us to be in 
compliance with the law. In fact, I think we would be ahead of 
the law. If we submited the detail that we have now, I believe 
that we would be in compliance for 1999.
    I will submit that information to you for the record.
    [The information follows:]

             Performnace Measures for Gallaudet University

    Following is the draft performance plan the University 
submitted to the Department of Education pursuant to the 
requirements of the Government Performance and Results Act of 
1993. The University submitted a very good plan that contains 
many appropriate and significant performance measures. However, 
some areas need to be refined or expanded and a number of 
changes are needed to make the plan conform with general GPRA 
requirements. As such, the plan has not yet been approved by 
the Department or the Office of Management and Budget. We 
anticipate that the final plan will differ somewhat from this 
draft. However, the draft provides a strong indication of the 
measures being considered by the University and the Department.

[Pages 506 - 518--The official Committee record contains additional material here.]


                       performance measures--NTID

    Mr. Porter. Thank you, Dr. Jordan.
    Dr. Davila, your predecessor, Dr. DeCaro, did an absolutely 
outstanding job at NTID, and we know that you are going to do 
just as outstanding a job as his successor.
    The last time you were here, you were sitting in Secretary 
Heumann's chair as the Assistant Secretary, and we're delighted 
to have you back once again.
    I want to ask you about GPRA also, but I think, in 
fairness, we ought to allow you to expand on your opening 
statement to tell us your vision for NTID and your highest 
priorities.
    Dr. Davila. Let me first speak to my vision. I believe that 
we have an outstanding track record of success; however, only 
52 percent of our freshmen get their degrees, and it's a 
national concern that many young people attending two- and 
four-year colleges do not finish a program and get a degree. 
That is not to say that they don't get any benefit from that 
experience, but we have documented evidence that a person with 
a degree in hand is better off financially and economically, 
and enjoys a better quality of life.
    For that reason, we need to stress the importance of 
improving our ability to retain students. We have given high 
priority to a number of activities, programs, and measures that 
we will take to try to see an increase from that 52 percent. We 
would like to see every student coming to NTID complete the 
program, because we know that completing the program and 
getting the training that they require is crucial to successful 
employment. That is part of my vision, to make our program--
which is outstanding--even better. If that is possible, I will 
try to find a way to do that.
    Mr. Porter. Now, as to GPRA, Dr. Davila, the budget 
justification indicates that your GPRA proposal does not 
include any outcome-based measures of student performance. To 
date, NTID has provided very convincing evidence of the value 
of its degrees. Why isn't NTID developing GPRA measures for 
retention, graduation, and employment? We believe these are the 
most important measures, and we encourage you to include them 
in your submission to OMB.
    Dr. Davila. Yes, sir, we are in the process of doing just 
that. We have more long-term documentation of success, but we 
also need to be more specific in terms of outcomes. We are 
working on that. We are working on developing and identifying 
outcomes for academic achievement, related to eventual 
employment after graduation. We are also looking at outcome 
measures in the area of research to satisfy ourselves that in 
fact, research evidence, documentation, and data that we 
receive are helping us to improve our programs. We are also 
doing the same thing in the area of public service to ensure 
that the technical assistance that we provide to external 
groups helps them benefit from programs we develop and 
experience.
    We also have outcome measures related to our efforts to 
improve our non-Federal revenue and fundraising efforts. We 
will eventually have outcomes for all four of these areas.
    Mr. Porter. Thank you very much, Dr. Davila.
    That was our second bell; unfortunately we are going to 
have to stand in recess once again, until we vote on final 
passage, so the subcommittee will stand in recess until I 
return.
    [Recess.]
    Mr. Porter. The subcommittee will come to order.
    There will be another vote, but it will probably be in 
about an hour.
    Dr. Tinsley, I have a question that I'm going to ask you, 
then I'm going to ask Mrs. Northup to take the Chair. I will 
put the remainder of my questions in the record and ask you to 
answer each of them, if you will.

                       performance measures--aph

    Mr. Porter. Dr. Tinsley, your budget justification 
indicates that APH has chosen the following GPRA goals: 
increasing efficiency of production; increasing market share; 
conducting research that is responsive to APH's customer base; 
and increasing APH's revenue base, which we presume means non-
Federal support.
    These are important goals. We are particularly interested 
that you increase the efficiency of production and broaden your 
non-Federal revenue base. But these goals do not relate to the 
real purpose for APH improving the academic achievement of 
visually-impaired students. Why isn't APH focusing its GPRA 
objectives on students and how they improve their academic 
achievement as a result of APH's Federal funding?
    Dr. Tinsley. Yes, sir. Subsequent to the provision of that 
information, we have conducted an extensive strategic planning 
process in which we visited customers, visited consumers; we 
had them identify their needs, and thus their requirements; and 
from their requirements we identified measurements of how we 
would meet their requirements. Once the measurements were 
identified, then we developed objectives based upon those 
measurements, so we knew that they were definitely measurable.
    Strategies, and then action plans for those strategies--the 
10 objectives that resulted from that process addressed all 85 
customer requirements, and those objectives deal with on-time 
delivery; increasing development funds; decreasing returns for 
repair; the provision of materials in a timely manner, and so 
forth.
    The piece that we're working with OMB on now is determining 
how best we can measure the outcomes. As far as students are 
concerned, it is graduation rates and transition to employment, 
and we're going to have to incorporate the involve of all 160 
ex officio trustees, which would represent all 50 States, all 
of our possessions, Guam, Puerto Rico, American Samoa, to 
determine a method of evaluating the outcomes as far as it 
relates to students. And that's where we are at this point.
    Mr. Porter. Well, let me thank each of you again for your 
fine opening statements and for answering my questions and Mrs. 
Northup's questions. You are each doing a fine job and we very 
much appreciate the work that you do, and thank you for your 
appearance here this afternoon.
    Mrs. Northup, would you take the Chair, please?

                            braille literacy

    Mrs. Northup [assuming Chair]. Thank you, Mr. Chairman.
    I appreciate you all being here today; after having an 
opportunity to work in Kentucky with the communities that you 
serve, I feel like you are the examples, the inspiration of a 
lot of those unsung, unrecognized heroes in our society and our 
communities today, and I would like to think that we can work 
together to ensure that their possibilities and their futures 
are expanded and their horizons are inspired. I know that 
that's what you are about every day, so I consider it a real 
privilege to be with you today and to have this opportunity.
    I am going to concentrate a couple of my questions on the 
American Printing House. First of all I would like to ask you, 
I have talked to many in the blind community that are very 
concerned about the decreasing number of blind children that 
are being taught braille. They feel like with the advent of 
computers and the adaptation of their opportunities to use 
computers, that there is so much more emphasis on that, and yet 
children that are totally blind, obviously, have to learn 
braille. And if there is a decreasing number of teachers, if 
there is a decreasing number of schools that are promoting that 
learning, their concern is that the braille language will be 
decreasingly important, and yet absolutely essential for a 
considerable number of people in this country.
    I don't know whether your research is involved in that, but 
I did notice you moved the microphone back to Dr. Heumann, so 
whoever wants to answer that question may do so.
    Dr. Tinsley. I'd be glad to.
    Of the 57,000 legally blind students we serve, only 
approximately 5,000 are braille readers. They are registered as 
that being their preferred means of reading. We don't evaluate 
if any of them can read efficiently. We do know, though, that 
the teacher training programs--we only have 26 now in the 
education of the visually impaired; therefore, many of them are 
one-person programs, and as they move out of the system, 
they're not being reinstated. They're moving to elementary 
education and so forth; the deans of the Colleges of Education 
are not replacing them. Therefore we do know that there is a 
real lack of trained teachers of the blind, and if a child is 
in a public school program, which 90 percent of them are, 
there's a good chance that he's not going to have the braille 
training he needs.
    So the funding of the discretionary programs, the teacher 
prep within IDEA, is very key to that effort.
    Mrs. Northup. Are you already seeing this change reflected 
in the publications that are being requested at the Printing 
House?
    Dr. Tinsley. For the last six or seven years, the number 
has been pretty level as far as the number of students who are 
registered as braille readers.
    Ms. Heumann. If I could, Madam Chair, this has been a 
concern for the Department, also. As we have been working on 
the reauthorization of the IDEA, we have addressed it in two 
ways. One is under the IEP, the Individualized Educational 
Plan, and our discussions are currently looking at language 
which would stipulate that braille would have to be considered 
as an appropriate method of teaching blind students.
    We also have under our Professional Development--we are 
very concerned about exactly what Tuck is talking about, the 
need to continue to produce instructors who are capable of 
working with the blind and low-vision students, and deaf and 
hard of hearing students also, and the need for those 
instructors to able to be proficient in braille. We have 
certainly heard from a lot of the blind organizations about 
their concern in that area, so we are hopeful that the 
provisions that will come out of the reauthorization will have 
stronger language in both those areas.

                          budget request--aph

    Mrs. Northup. Okay.
    I would also like to ask you about the American Printing 
House for the Blind. I notice that your funding has been on a 
flat basis over the last couple of years, and I wondered if 
that reflects also the number of requests you have for 
materials that are produced at American Printing House. In 
other words, you're going to spend the same amount of money; is 
that because the amount of materials being requested remains 
the same?
    Dr. Tinsley. Well, when the appropriation is made, the 
money is allotted to the school programs. So if a program has 
$10,000 allocated, that's all the materials they candraw.
    The flat funding has provided less funds for the population 
to use, so they are ordering only what the allocation provides.
    Mrs. Northup. Tell me something about your request to the 
Department of Education. What was your request for the budget?
    Dr. Tinsley. Our request was 22 percent above the $6.68 
million. It was $8,186,000, and it was based upon the 1983 per 
capita of $122, feeling that if we could reestablish what we 
had 15 years ago, $122 per student, that would be better than 
where we are, although we realize that $122 of 1983 money will 
buy about $50 worth of materials today.

                     management initiatives at aph

    Mrs. Northup. Okay.
    You also mentioned the partnership that you have with 
Toyota Motor Company. I wondered if you would tell me a little 
bit more about this partnership and what this means for 
services for the blind community.
    Dr. Tinsley. I appreciate your asking that, Congresswoman 
Northup. We are very excited about this. Toyota has a huge 
plant in Georgetown, Kentucky, and they are moving their North 
American headquarters to northern Kentucky. So last year the 
General Manager of Toyota--well, four years ago Toyota brought 
in a Toyota Supply and Support Center, which consisted of 
consultants from Japan who went into the Toyota suppliers--the 
companies that make cupholders for the Camry and the Avalon, 
and they taught them the Toyota production system and they 
taught them to become more efficient and effective, so that 
ultimately it reduced the cost to Toyota and the cost of the 
cars.
    The General Manager of the Toyota Supply and Support Center 
came to the Printing House last year, and subsequently Toyota 
selected APH as a project company. They have never worked with 
a nonprofit company before. They came in for the first time 
this past Tuesday, and they are working with us to reduce 
inventory, working with us on efficiencies, and working with us 
on production processes, so we're really excited about it. It 
actually began this Tuesday, with Toyota people working side-
by-side with APH employees, and maybe side-by-side with us for 
over a year or more, at no cost to APH or the Government. We're 
pleased with that.

                 assessing the needs of blind students

    Mrs. Northup. Let me ask you another question. The Chairman 
sort of touched on this. How do you determine what products the 
blind community most needs?
    Dr. Tinsley. The identification of those needs is 
determined at the local level. The Act provides for ex officio 
trustees to APH that represent all States. They are the chief 
state school officers, the vision consultants, the 48 
residential school superintendents, and the heads of the 
instructional materials centers--they identify the needs at the 
local level. They come to the Printing House; there is a 
Publication Committee and a Research and Development Committee 
that speak for the trustees, and annually the trustees vote on 
approving different things. The committees work on approving 
the way we're going to address the needs by the research done; 
they do that. Then they approve--the work with the field 
testing and the pilot testing, and they approve the prototypes 
for production. They are the ones that actually purchase the 
materials for the students, so the needs are identified at a 
local level.

                          budget request--ntid

    Mrs. Northup. Okay.
    Dr. Davila, I'd like to ask you the same question about 
your funding for this year. It is also flat, if I remember?
    Dr. Davila. Yes. Our funding has been that way for three 
years now.
    Mrs. Northup. Yes.
    The demand for what you do, I assume, has increased? I 
think you said there are more students----
    Dr. Davila. Yes, as I tried to explain in my brief 
statement, we have reduced our staffing by almost 20 percent, 
and the funds that were freed through that exercise have been 
reallocated to other important program activities. We have been 
able to sustain program quality, which is becoming more 
difficult to do, but we have been able to do that.
    Mrs. Northup. What was your request to the Department of 
Education?
    Dr. Davila. We asked for $1 million above level funding, 
but we received level funding. We did not get that extra $1 
million.
    Mrs. Northup. Can you tell me a little bit about the 
technology initiative that I guess is what was cut because of 
the $1 million cut?
    Dr. Davila. That is correct. RIT has begun a $14 million 
upgrade of its computer networking technology, on campus and 
access to the Internet. This will require hard-wiring of all of 
the learning and living spaces at NTID and RIT. That includes 
the dormitories, classrooms, and offices. Our share of that $14 
million is $2.6 million. We were able to provide $1.6 million 
of that amount through reallocation of our resources. There is 
a $1 million amount that we need to obtain in order to complete 
the project.
    We developed a partnership, proposed a partnership with the 
Department, where we would provide the $1.6 million, with an 
extra $1 million from them, through the budget process so that 
we could complete the project. That is not forthcoming, so we 
are looking at other things. We may have to revisit that 
tuition increase area. We had decided not to increase tuition, 
and we still want to avoid that. We will look at other possible 
efficiencies in the use of our resources so that we can come up 
with an additional $1 million, because--and if I may say also, 
that is not $1 million now, by any calculations; it may be 
about $800,000. We need about $800,000 more, not $1 million. So 
we will try to do that, because we feel it is very important 
that we complete that project. For example, it would be very 
much more expensive if it was postponed, and then we did it 
again, separately from RIT.
    Computer access and the applications of the computer are 
really very important for deaf students. I am biased, but I 
suspect they are more important for deaf students than they are 
for hearing students, because it levels the playing field. So 
we are dead set on trying to accomplish this project.

                  budget request--gallaudet university

    Mrs. Northup. Thank you very much.
    Dr. Jordan, I believe that your funding has remained flat, 
also. Can you tell us what your request was to the Department 
of Education?
    Dr. Jordan. Thank you very much for your question. The 
request was for 3 percent more than we received in 1995. In 
1995, we received $80 million. The current budget is for 
$79,182,000. We requested an inflationary increase of 3 percent 
when the budget papers were developed.
    I'd like to talk a little bit about what we would do 
withthe----
    Mrs. Northup. Please. That was my next question.
    Dr. Jordan. Probably the three most important areas that we 
would focus on are compensation, the upgrading of the computer 
technology at Gallaudet University, and maintaining the campus. 
That means renovation or maintenance of the facilities. We have 
a very large campus, 100 acres, with more than $100 million 
worth of buildings, including seven dormitories, and you are 
probably aware that dormitories take a lot of abuse from the 
students.
    Mrs. Northup. Yes.
    Dr. Jordan. They need regular maintenance.
    The computer equipment that we have now, the mainframe 
computing equipment, was bought with a great deal of support 
from this subcommittee, but now is dated. We are right now 
studying replacement and upgrading of that equipment, and 
estimate that it will cost up to $3 million just for the 
hardware and software to support a new integrated information 
system for financial management, human resource management, and 
the student database.
    Every year we spend about $1 million on computing 
equipment, especially desktop computers. That won't become 
less; it will become more, if anything, as we upgrade our 
technology. And these numbers don't include anything related to 
academic technology and ``smart classrooms'' and the need for 
enhancing what we do for visual communications for deaf people.
    The final area is compensation. I listened with interest to 
the Howard University discussion about faculty compensation. We 
face exactly the same issue. We must be aggressive in 
compensating, correctly, the faculty and the staff people who 
work at Gallaudet. We have downsized significantly over the 
last several years, and as we downsize, we are asking the fewer 
people who remain to do even more. We need to make sure that we 
fairly compensate them.
    Thank you.
    Mrs. Northup. Thank you.
    Since there are no other people here to ask questions, I 
want to thank you again, Judith Heumann and the panel that was 
here. You have provided us with a lot of information. 
Personally, since I am here, I will make a personal remark. We 
can't do everything in Government, but we have to look at 
essential services. I think you represent a lot of the 
essential services that we have to provide, and I thank you for 
making that case so well.
    This subcommittee is adjourned until Tuesday at 10:00 
o'clock.
    [The following questions were submitted to be answered for 
the record:]

[Pages 526 - 592--The official Committee record contains additional material here.]


                                          Thursday, March 13, 1997.

                           HOWARD UNIVERSITY

                               WITNESSES

H. PATRICK SWYGERT, ESQUIRE, PRESIDENT, HOWARD UNIVERSITY
THADDEUS GARRETT, JR., CHAIRMAN, HOWARD UNIVERSITY BOARD OF TRUSTEES
CLAUDIO PRIETO, DEPUTY ASSISTANT SECRETARY FOR HIGHER EDUCATION 
    PROGRAMS, DEPARTMENT OF EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE, DEPARTMENT OF EDUCATION

    Mr. Porter. The subcommittee will come to order.
    We're pleased to welcome this afternoon H. Patrick Swygert, 
the President of Howard University. And Mr. Swygert, if you 
will introduce the people at the table with you and then 
proceed with your statement.

                       Introduction of Witnesses

    Mr. Swygert. Mr. Chairman, good afternoon and thank you so 
much for this opportunity to appear before the committee.
    On my left, Mr. Chairman, is Reverend Thaddeus Garrett, 
Chairman of the Howard University Board of Trustees. And on my 
right is Dr. Claudio Prieto of the Department of Education, 
accompanied by Mr. Thomas Skelly of his staff.
    Mr. Chairman, if I may, Chairman Garrett has a statement.

                     Statement By Chairman Garrett

    Mr. Garrett. Thank you, Mr. Chairman. It's always good to 
be with you.
    To that extent, I want to extend to the subcommittee and 
the full committee the best wishes of the Board of Trustees. We 
have tried to comply with the spirit of our good working 
relationship over these years, and particularly in this period 
of change at Howard University.
    Let me just say a couple of things. As you know, at our 
last hearing, we came before the subcommittee and indicated 
that we were going to move into an era of great change at 
Howard University, structurally and otherwise, realizing that 
it would take a number of years at any academic institution to 
do such. We have embarked upon that program.
    We have embarked upon that restructuring at the behest of 
the Board of Trustees. We are very fortunate at Howard to have 
a board that you know is rather unique in the annals of 
academic history in this Nation. We range from the Jack Kemps 
and the Colin Powells to the Vernon Jordans and the Doug 
Wilders. We work together. I don't know of any other board 
anywhere or any other institution where partisanship simply 
never enters the fray when, indeed, Howard University is 
uniquely tied to the Federal Government.
    And we've done so with great vigor. I'm very proud of our 
board at Howard.
    Then of course we brought to Howard a man of vision, a man 
of great respect, and a man who tolerates, quite frankly, no 
nonsense. And in that respect, I'm very happy to appear with 
him this morning, and to urge that we continue this working 
relationship that we have with the subcommittee and with the 
Congress. Once again, we on the board realize the fiscal 
realities of our Nation, and we realize the task that you and 
Congressman Stokes and others of this committee have before 
you. We don't want to be in any way other than supportive of, 
and working hand-in-hand, with you.
    So we're very pleased to be here, and I would now at this 
point, simply say, Mr. Chairman, I don't know of any better 
investment for the taxpayers of our Nation than Howard 
University. Thank you.
    Mr. Porter. Reverend Garrett, thank you very much. I find 
everything in your statement to be things I agree with. We very 
much appreciate your leadership there and your good statement 
about what is happening at Howard. We're asexcited as you are 
about the good changes that are being made.
    Mr. President.

                           Opening Statement

    Mr. Swygert. Mr. Chairman, thank you very much. Congressman 
Stokes, it's good to see you again, sir.
    I'm also accompanied today by Mr. Sherman McCoy, who is the 
Executive Director of the Howard University Hospital; Dr. 
Antoine Garibaldi, University Provost; Mr. Thomas Elzey, Vice 
President for Business and Fiscal Affairs; Dr. Floyd Malveaux, 
who is Interim Vice President for Health Affairs and Dean of 
our College of Medicine, as well.
    Mr. Chairman, if I may, I'd like to take just a few minutes 
to share with the committee an overview of the University. I 
believe this analytical abstract illustrates the progress and 
success we've enjoyed at the University, and the challenges 
that lie before us.
    Our first exhibit is The Strategic Framework for Action, 
the strategic plan for the University, which was approved by 
the Board of Trustees in September of 1996. It is the result of 
an exhaustive and occasionally exhausting consultative process, 
including the trustees, faculty, students, staff and alumni of 
the University. It sets out the direction in which Howard 
University must progress in the next five years in four 
strategic areas. One, strengthening academic programs. Two, 
promoting excellence in teaching and research. Three, 
increasing private financial support. And finally, enhancing 
national and community service.
    The Strategic Framework for Action, which we've shared, is 
illustrated behind me. Exhibit 2 is Facts 1997, a small but 
terribly important booklet that gives a snapshot of University 
life in a number of key and critical areas. Copies of the 
Strategic Framework for Action and Facts 1997 have been 
provided to the committee, along with the Analytical Abstract.
    As former Congressman and University Trustee Jack Kemp 
testified before this committee two years ago, Howard 
University was created by the Congress to be a national 
university, serving a national need. One hundred and thirty 
years later, we retain fidelity to that mission. Exhibit 3 
demonstrates that Howard students come from every corner of the 
Nation, and from all 50 States.
    Exhibit 4 shows that Howard increased its enrollment of 
National Achievement Scholars by 84 percent. And according to 
the National Merit Scholarship Corporation, Howard University 
enrolled more National Achievement Scholars in September of 
1996 than any of the other 3,200 accredited universities and 
colleges in the Nation.
    Exhibit 5 illustrates the performance of entering freshmen 
in comparison with all African-American students and with all 
test takers. It shows that test scores for Howard students are 
164 points higher than the national average for African-
Americans, and are now 7 points above, Mr. Chairman, the 
national average for all test takers.
    Exhibit 6 provides a profile of the faculty. In addition to 
its salaried faculty, Howard University has 321 faculty members 
who serve without compensation, 1,201 full time faculty, 536 
part time faculty, and 321 faculty who serve without 
compensation.
    Howard University is fully accredited by the Middle States 
Association of Colleges and Schools. Exhibit 7 shows 26 
different agencies that have also accredited schools and 
colleges of the University. As you can see, Mr. Chairman, 
accreditation is a continuing process at Howard University.
    Although the University undertook several substantive 
actions last year to make salaries of faculty more competitive, 
faculty salaries at Howard, except at the instructor level, 
continue to be lower than other research universities in the 
metropolitan area for all academic ranks. Exhibit 8 indicates 
that this disparity is particularly acute at the associate 
professor and professor levels. If I could just ask the 
Chairman to focus on the full professor level, one can see a 
$94,449 salary at a sister institution, Georgetown, compared to 
$70,596 at Howard University.
    The University continues its vigorous effort to increase 
efficiency. Exhibit 9 reflects a reduction in the University 
work force by almost 26 percent over the last seven years, from 
6,799 employees to 5,067. Exhibit 10 shows that the number of 
advanced degrees awarded by the University increased last year 
by 10 percent.
    As the committee knows, Howard University is the only 
Carnegie Level 1 research university serving a predominantly 
African-American population. Therefore, we place great emphasis 
on increasing our research capacity. Exhibit 11 demonstrates 
that the University's research productivity is up 19.2 percent 
over last year. Exhibit 12 is a portrayal of the changes in the 
endowment of the University since 1982. During that period, the 
endowment has grown from $17.8 million to $154.4 million. The 
curve reflects an increase of almost 12 percent within the past 
year alone.
    Finally, Mr. Chairman, Exhibit 13 demonstrates conclusively 
that the University serves a national constituency whose alumni 
and alumnae reside in all of the 50 States. Eighteen States 
have more than 500 Howard alumni, 13 States have more than 
1,000, and 5 have more than 2,000. Mr. Chairman, for 130 years, 
Howard University has been a major avenue of postsecondary 
access and opportunity for African-Americans. It has taken many 
of the under-prepared and under-funded but high potential 
students, and has produced more successful, prominent, 
professional taxpaying citizens than any other university of 
similar size and complexity.
    The University has awarded nearly 84,000 degrees to its 
alumni and alumnae. The budget submitted by President Clinton 
reflects continuing support for the University's strategic 
mission. The $196 million request for fiscal year 1998 will 
assist us in providing educational and research opportunities 
to more than 10,000 current students in academic fields that 
are critical to the future economic viability of America, but 
in which minorities are still significantly under-represented.
    This funding will also help the University to meet its 
operational expenses and to provide more student financial aid. 
Funds requested for Howard University Hospital will be used to 
advance and promote clinical education of students in the 
medicine and health sciences. These funds will also assist the 
hospital in providing high quality health care to residents of 
the Nation's capital, many of whom are indigent.
    Finally, I want to thank the members of this committee 
publicly for their investment in Howard University. Your 
support enables the University to provide a comprehensive, high 
quality curriculum that makes it possible for students of 
ability, who come from families of limited means, to become 
contributing, productive participants in the mainstream 
ofAmerican society and life. Howard awards more bachelors and Ph.D. 
degrees to outstanding African-American scholars than any other 
university in the Nation, and graduates the highest number of African-
American students who go on to earn Ph.D.s elsewhere. Clearly, Howard 
University provides leadership for America.
    Mr. Chairman, this concludes my formal testimony. At this 
point, I intended to end my opening remarks. I feel obligated, 
however, to provide the committee with an account of the facts 
surrounding certain activities on the Howard campus during the 
past several days.
    Two issues appear to be the basis for student protests and 
demonstrations. The first issue stems from the provisions of 
the Strategic Framework for Action pertaining to consolidation 
of schools and colleges at Howard. As you know, the Strategic 
Framework for Action calls for consolidations to reduce the 
number of schools and colleges from 16 to 11.
    The specific consolidation of apparent concern to the 
students is the merger of the College of Fine Arts with the 
College of Arts and Sciences. Students have expressed a number 
of concerns, including a fear that the fine arts programs may 
be placed in accreditation jeopardy by the merger, and that 
their classes may be overcrowded as a result of the merger. I 
have assured the students as best I can that the integrity of 
program accreditation will be maintained and that appropriate 
measures will be taken to avoid overcrowding.
    The second issue is one about which I have very strong 
feelings indeed. One of our professors, one of the full time 
members of our faculty, in cooperation with American 
University, offers a course in Black-Jewish relations. Some 
individuals are apparently opposed to the ecumenical mission 
embodied in that course of study.
    Proponents of that view disrupted the class last week, and 
are now subject to the disciplinary proceedings as outlined in 
our judicial code at the University. Some students are 
apparently seeking amnesty for the students who were 
disruptive. I believe it is important to educate our students 
that there are indeed consequences for their actions. To exempt 
them is to fail to educate them properly. It is my fixed 
opinion that academic freedom must be maintained and protected 
under all circumstances in the academy.
    And Mr. Chairman, if academic freedom means anything, it 
means that once a class is convened and the professor begins 
his lesson, that ground should not be trampled upon or 
disturbed or distressed by persons who are not members of that 
class, are not invited to attend that class, and indeed are not 
visitors to that class, but are there solely for the purposes 
of disruption. I have assured the students as recently as 
yesterday, following three hours of meetings with a group of 
students, that the students who are engaged, as it is alleged, 
in this activity will be accorded all the process that our 
judicial code allows. And we will see to it that the sanction, 
if any, that is visited upon them for this action, is 
consistent with the action itself.
    Now, Mr. Chairman, I am very pleased and happy to answer 
any questions you may have. And again, I thank the members of 
your committee for their support, and I welcome your questions 
and observations.
    Thank you, Mr. Chairman.
    [The prepared statement and biography of President Swygert 
follows:]

[Pages 598 - 616--The official Committee record contains additional material here.]


    Mr. Porter. Mr. President, thank you for that excellent 
statement. We believe that you are doing an excellent job at 
Howard University and making the kinds of tough decisions to 
make this the premier institution that we always have believed 
that it is. And you and I discussed the strategic plan, I think 
it was over a year ago, shortly after you first arrived, and we 
felt at the time you were making the kinds of decisions that 
make sense for the University and for its future. Those are 
often hard decisions. But you are in the position of leadership 
where they need to be addressed, and you've done so. And we 
commend you for your leadership there.
    Mr. Swygert. Thank you so much.

                         IMPLEMENTATION OF GPRA

    Mr. Porter. I might also add to that that we appreciate the 
fine representation that Dr. Minor of your staff provides to 
the University as well, and we value our working relationship 
with him and with all of your staff.
    Mr. President, on this subcommittee, we believe that the 
Government Performance and Results Act (GPRA) is an important 
tool for focusing attention on outcomes--that is results and 
effectiveness. We are eager to see it implemented in accordance 
with the 1993 law and fully integrated into the fiscal year 
1999 budget process, which begins in about two months for 
Howard.
    Mr. President, this subcommittee appropriates about $18,000 
per year per Howard student. And that figure is actually much 
higher for the Federal Government if we consider student aid 
and other sources of Federal revenue besides the direct 
appropriation. Every time a student leaves Howard without a 
degree, we have lost a major investment, both human and 
financial.
    How are you complying with GPRA, and what goals and 
measures have you chosen? When will you make a formal 
submission to OMB, and will GPRA be fully implemented in the 
fiscal 1999 budget cycle? I hope that you took my hint that 
graduation rate might be a good thing to measure. Please 
provide a comprehensive answer for the record at this point in 
the transcript. And you may comment on it if you wish.
    Mr. Swygert. Thank you, Mr. Chairman. And we will provide a 
comprehensive response, both to GPRA, Mr. Chairman, and to 
retention rates at the University.
    [The information follows:]

                                  gpra

    Howard University has begun to identify a set of measurable 
goals to be used in fulfilling its compliance with GPRA. In the 
Fall of 1996, the University provided the U.S. Department of 
Education with preliminary performance indicators which were 
subsequently forwarded to the Office of Management and Budget 
for review. Three specific areas, which emanate from the 
strategic plan, The Strategic Framework for Action (SFA), have 
been agreed upon in principle. These are: Strengthening 
Academic Programs and Services; Promoting Excellence in 
Teaching and Research; and Increasing Private Support.
    The first goal focuses on continued recruitment and 
enrollment of high quality students; steadily increasing 
student retention, especially in the first and second years of 
college because these are years when students, nationally, 
discontinue their college education for variety of reasons; and 
improving four-year and six-year graduation rates. The second 
preliminary goal includes indicators which will assess 
participation of faculty in improving academic programs 
throughout the University and their involvement in scholarly 
activities related to enhancement of teaching and research 
productivity. The third goal contains financial objectives 
directly related to success in obtaining external grant and 
contract support for research and academic programs, as well as 
increasing alumni and corporate contributions and growth of the 
endowment.
    The Provost will coordinate the GPRA, process, and will 
consult with relevant Federal officials on formulating a final 
set of indicators for Fiscal Year 1999.
    Having completed its strategic plan before the September 
30th deadline, the University will not proceed to develop an 
annual performance plan for full implementation in Fiscal Year 
1999, as required by GPRA.

    Mr. Swygert. Mr. Chairman, as I understand, GPRA requires 
all Federal agencies to produce a five year strategic plan by 
30 September of this year and an annual performance plan for 
fiscal year 1999, and a performance report by 31 March of the 
year 2000.
    Presumably, Federal agencies will be required to continue 
annual performance reports for subsequent years. As we have 
previously testified, Howard has already produced and 
distributed the Strategic Framework for Action which is our 
five year strategic plan. Our performance plan for fiscal year 
1999 will be a logical outgrowth of our strategic plan in the 
form of specific iterations of programmatic actions to achieve 
measurable objectives for that fiscal year.
    In the fall of last year, we provided the Department of 
Education with provisional performance indicators that were 
subsequently forwarded to the Office of Management and Budget 
for their review. We have reached agreement with the Department 
and OMB in three relevant areas: strengthening academic 
programs and services, promoting excellence in teaching and 
research, and increasing financial support.
    Mr. Chairman, if I may suggest, Howard University may be 
one of the few Federal organizations that we believe is 
completely in compliance with GPRA. We hope to continue the 
collaboration, and we know, Mr. Chairman, how important GPRA is 
to you and indeed, how important it is to the Nation--that the 
Nation have some way of discerning and measuring its investment 
in Howard and other Federal activities.
    Thank you, Mr. Chairman.

  COORDINATION OF GPRA WITH SPECIAL INSTITUTIONS AND SERVICE ACADEMIES

    Mr. Porter. I have a question for Tom Skelly, although 
Claudio Prieto may want to comment on it as well. Is the GPRA 
process for Federal schools being coordinated across the 
Department with Gallaudet and NTID, and is GPRA being 
coordinated across the Government to include, for instance, the 
service academies?
    Mr. Skelly. Mr. Chairman, we are working on our performance 
measures, and we've been meeting with your staff over the past 
couple of weeks. We will look at the strategic plan for the 
organizations and look at how their performance measures are 
linked to those strategic plans. In many cases, I think the 
measures of performance and the results of those institutions 
will be very similar. In others, they might differ because they 
are serving different populations, and they have different 
strategies for achieving those.
    We haven't looked at the service academies to see how they 
might have similar kinds of performance measures, but that's 
something we could do within the next year.
    Mr. Porter. It seems to me that where you have federally-
chartered and federally-funded schools that there ought to be 
some substantial degree of commonality in the GPRA standards, 
and also, there ought to be some with the service academies. 
Again, our interest is focusing on outcomes. And we hope that 
when you are in the process of forming the standards, you will 
also look at outcomes as the benchmark for performance.
    Mr. Skelly. We'll do that, Mr. Chairman.

         ENDOWMENT AND DECREASING DEPENDENCY ON FEDERAL FUNDING

    Mr. Porter. Mr. President, in the past several years, I've 
discussed with you and your predecessors the rationale for 
having a Federal endowment program. I believe the rationale is 
clearly to establish a sustainable resource base and reduce the 
University's dependence on Federal appropriation and on all 
Federal funding. Unfortunately, the data we have indicates that 
Howard is becoming more, not less, dependent on Federal 
funding. The budget justification indicates on page Q12 that 
Federal funding as a percentage of total revenue will continue 
to increase to 60.5 percent in fiscal year 1998. The budget 
justification does not report on the Federal appropriation as a 
percentage of total revenue.
    I asked both you and your predecessor whether Howard had a 
strategic plan to reduce Howard's dependence on the Federal 
Government. The Board approved a University-wide strategic plan 
in September. Does the plan include a component with specific 
goals to reduce dependence on Federal funding and if so, what 
are those goals?
    Mr. Swygert. Thank you, Mr. Chairman. We included quite 
specific goals, Mr. Chairman, including a 10 percent goal for 
this current year. Currently, we are running a 10 percent goal 
for alumni support. I think a fair measure, Mr. Chairman, of 
support for the University is at what rate can one calculate 
giving by one's own graduates. I think that's a fair measure. 
Last year, our best number was approximately 4.1 percent of our 
alumni. This year, we're running, I'm told by our alumni 
office, at a little bit more than 6.1, 6.2 percent, I believe, 
Mr. Chairman. We're encouraged that the trajectory is going in 
the right direction.
    Our goal for this year, however, is 10 percent. I have been 
criss-crossing the country, sending cards and letters and 
making phone calls, trying to move that number to that first 
benchmark goal of 10 percent. I believe once we break through 
double digits, Mr. Chairman, it will continue to have its own 
momentum. We are very concerned. One of the overarching 
purposes of the Strategic Framework, as we shared with the 
committee last year, was to try to place Howard in the position 
of less, not increasing or same dependence upon Federal 
support.
    I think after 130 years, Congress and the Nation have a 
right to expect that Howard University and its alumni will do 
more for self. We are trying to do just that. We are working 
very, very hard indeed to make that happen.
    I am pleased to report that our endowment, in fact, has 
increased by 41 percent over the last year. We're very 
encouraged by that. Clearly, the stock market has had a great, 
great deal to do with that, and the work of Vice President 
Elzey and his associates has also had a great deal to do with 
that. We are trying, Mr. Chairman, to identify alumni and 
friends of the University to support more name scholarships, 
more endowed chairs--the kinds of funding that, over time, will 
bring relief to our dependence upon Federal support.
    Mr. Porter. Mr. President, last year the Congress provided 
Howard flexibility to use a portion of its appropriation for 
endowment. This year, the President continues to request that 
Congress earmark a minimum of $3.5 million for the endowment. 
Please tell us what portion of the 1997 appropriation the 
University dedicated to endowment, if any, and shouldn't the 
Congress wait for some evidence that the strategic plan is 
working to reduce dependence before we begin providing 
earmarked funding for the endowment?
    Mr. Swygert. Mr. Chairman, we did not use any of the 1997 
money for endowment. The exigencies of the operating budget of 
the University precluded us from doing so. We believe, Mr. 
Chairman, that we have demonstrated some hard decisionmaking. 
We've demonstrated some increased efficiencies. And we've demonstrated, 
I believe, purposefulness and seriousness of purpose that warrants the 
confidence of the Congress in terms of this endowment's support.
    I can assure you, Mr. Chairman, that this is a very, very 
serious issue with me. I think the success of my presidency 
will be in the final analysis determined by whether or not I 
have made any substantial progress in decreasing dependency 
upon the Federal sector. And we are working very hard to do so.

       employees per student compared to comparable institutions

    Mr. Porter. Mr. President, could you provide for the record 
the employees per student, and how that compares with other 
comparable institutions?
    Mr. Swygert. Yes, sir, we will.
    [The information follows:]

                               Employment

    Howard University has a total of 3,913 staff and 11,249 
students (excluding the Hospital), resulting in a staff to 
student ratio of 1:3, which is consistent with other referenced 
universities.

                                                                        
------------------------------------------------------------------------
            University                Staff       Students      Ratio   
------------------------------------------------------------------------
Howard University................        3,913       11,249          1:3
Vanderbilt University............        3,306       10,074          1:3
University of Virginia...........        5,313       18,279          1.3
University of Md/College Park....        2,602       24,479          1:9
------------------------------------------------------------------------

                           employment trends

    Mr. Porter. And your chart indicates that Howard's 
employment is declining, but the budget request indicates that 
faculty employment increases by over 100 FTEs in 1997, while 
non-faculty employment remains level. Why is the budget 
justification seemingly at odds with the chart, and where are 
the employment reductions depicted in your chart coming from?
    Mr. Swygert. We backed out of employment, Mr. Chairman. We 
reduced our employment substantially as the chart indicates. A 
number of those reductions were felt at the Howard University 
Hospital. They were felt at the hospital and also in a number 
of substantial administrative areas at the University itself.
    We have in fact, Mr. Chairman, suffered a decline in the 
number of teaching slots at the University. We have not 
retrenched. We have not dismissed. We have not fired any 
faculty. But many core departments of the University, indeed, 
have effectively reduced the number of faculty over time by 
simply not replacing faculty as positions have become vacant.
    If indeed we are to gain and gather more strength in a 
number of critical areas, we are going to need to replace 
faculty as those retirements occur, and we are going to need to 
bring on additional faculty--faculty who can bring research 
resources with them; faculty, who through their reputation and 
through their accomplishments, help us to recruit the kinds of 
students who can perform and continue to perform at a 
university level.
    It is an investment, Mr. Chairman. But we've tried to show 
through this chart that both I and my predecessors have made a 
number of serious decisions over the past several years in 
reducing, in actual terms, the number of employees at the 
University.
    Mr. Porter. Thank you, Mr. President.
    Mr. Stokes, I yield to you.
    Mr. Stokes. Mr. Chairman, Mr. Hoyer is ranking on the 
Treasury Postal Service and General Government Subcommittee and 
has a 2:00 o'clock hearing over there. As such, I will yield to 
him if he likes.
    Mr. Porter. Mr. Hoyer.
    Mr. Hoyer. I'm just going to take 30 seconds, President 
Swygert. I just wanted to indicate to you that I have to leave 
because, as Congressman Stokes, I'm ranking on a committee 
right next door, and I have to start that hearing.
    But I wanted to say to you, join the Chairman in his 
remarks that the leadership that you are showing and 
demonstrating, and the leadership of the board, I think it is 
heightening the confidence that this committee and the Congress 
have in the mission of Howard, which is one of our country's 
outstanding institutions.
    I am not unmindful of the fact that on your chart, it 
appears to me that Maryland, at about 12,000, has probably got 
the largest number of, or certainly, there aren't too many 
States that have a larger number of graduates. But it's an 
institution of which I know we in Maryland are very proud.
    Mr. Swygert. Thank you, sir.
    Mr. Hoyer. And I look forward to working with you, both in 
terms of the capital and operating budgets, to ensure the fact 
that we can continue the mission there. And I thank my 
colleague, Mr. Stokes, who is, as you both very well know, has 
been such an outstanding spokesperson on behalf of Howard and 
other historically Black institutions in this country to assure 
our continuing attention and investment in what they're doing.
    Mr. Swygert. Thank you, sir.
    Mr. Hoyer. So I congratulate you on what you're doing and 
wish you well.
    Mr. Swygert. Thank you.
    Mr. Hoyer. Thank you, Mr. Stokes.
    Mr. Stokes. Sure.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Hoyer.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman, and thank you, Mr. 
Hoyer, for your very kind and warm remarks.
    Mr. Chairman, at the outset, I'd like to associate myself 
with the remarks made relative to the testimony of Chairman 
Garrett and also President Swygert. Not only was it excellent 
testimony on behalf of both of you, but it certainly is in 
keeping with the other commendations made by both Mr. Hoyer and 
our Chairman, relative to the outstanding leadership that's 
being given now by Howard University, in your capacity as 
President, and in your capacity, Mr. Garrett, as chairman of 
the board.
    Howard University is sort of the flagship, we think, of all 
the historic Black colleges and universities in our Nation. And 
I think we all look to this university for the kind of 
leadership we see there, we're very proud.
    I was also pleased that the Chairman mentioned Dr. Hassan 
Minor, who along with Joyce Smith, works with us on the Hill 
and our staffs, and are always highly professional. You can be 
proud of the representation they give you here.
    Mr. Swygert. Thank you.

       fiscal year 1998 budget request and impact of flat budget

    Mr. Stokes. Mr. President, Historically Black Colleges and 
Universities and Hispanic-Serving Institutions have proven to 
be critical national resources. They have been very successful 
in educating African-Americans, Hispanics and other 
disadvantaged populations. The fiscal year 1998 budget request 
for Howard University is $196 million, which is the same amount 
as the current funding level. The fiscal year 1998 budget does 
not even include an inflation factor.
    How long has the University's budget remained flat, and 
what has been the impact of that?
    Mr. Swygert. Mr. Stokes, thank you so much for your 
remarks, and thank you for that question. The impact, I think, 
can be seen throughout the University. I've already referred in 
my remarks, in response to the Chairman's question regarding 
faculty, to a circumstance we have now of serious faculty 
salary compression, Mr. Stokes; that is to say we have faculty 
in ranks where salaries have been effectively frozen for quite 
some time. Our salaries are increasingly not competitive with 
sister institutions.
    That is one place you can see in a very real and clear way. 
But it's not just faculty salaries, although that's serious 
enough in any institution of higher education. If you look at 
our physical plant, Mr. Stokes, as well, one of the great needs 
that we have for next year, indeed this year, is the 
rehabilitation of residences on our campus in our women's 
quadrangle. We have two marvelous facilities that were taken 
off-line nearly four years ago now, because we simply did not 
have the resources to rehabilitate those facilities. They can 
accommodate 300 students. We have a serious housing 
circumstance that we're wrestling with.
    We're also of course determined to continue--the committee 
encouraged us to go forward last year, Mr. Stokes--with 
planning for the new health sciences center library, which is a 
critical facility both to the medical school and the health 
sciences colleges. We have to go forward with that project. We 
have an interdisciplinary science center that we're very 
excited about, and it has great, great potential for the 
University.
    Those are just some of the aspects of a flat budget 
relative to inflation and cost over time, Mr. Stokes.
    Mr. Stokes. Mr. Swygert, I would appreciate it if you would 
provide for us in the record a 10-year chart which displays the 
University's funding in constant dollars. I think that would be 
helpful.
    Mr. Swygert. We will do so.
    [The information follows:]

                           UNIVERSITY FUNDING                           
------------------------------------------------------------------------
                                                             Federal    
                                            Federal       appropriation 
            Year                Index    appropriation       constant   
                                        nominal dollars      dollars    
------------------------------------------------------------------------
1984........................     100    ...............  ...............
1988........................     121           $172,203         $142,317
1989........................     128            178,479          139,437
1990........................     135.6          182,446          134,547
1991........................     141.2          195,213          138,253
1992........................     144.7          212,360          146,759
1993........................     149.3          194,005          129,943
1994........................     152.2          192,686          126,601
1995........................     155.3          204,663          131,786
1996........................     159.6          182,348          114,253
1997........................     161.6          196,000          121,287
------------------------------------------------------------------------
The index utilized is the Consumer Price Index (CPI) as provided by the 
  U.S. Bureau of Labor Statistics.                                      
The ``year'' for the index is the calendar year and the ``year'' for the
  budget is the Federal fiscal year ending September 30.                

                     shortage of minority teachers

    Mr. Stokes. According to the Department of Education, there 
is a tremendous shortage of teachers, especially minority 
teachers. I understand that the proportion of minority teachers 
is projected to be only 5 percent by the year 2000. The 
Department of Education gave testimony in this room just a 
couple of days ago relative to this.
    I think it is absolutely essential that we strengthen and 
expand the teaching pipeline. We must do whatever is necessary 
to help college students to understand and appreciate the 
rewards of teaching. That includes not just becoming a teacher, 
but equally important, remaining in the teaching field.
    What is the state of the teaching pipeline as it relates to 
minorities, and what do you see is the University's role in 
addressing this national problem?
    Mr. Swygert. Mr. Stokes, I'd like to submit a more detailed 
response to that very important question.
    [The information follows:]

                       Minority Teacher Shortage

    Although American public schools reflect diversity in their 
student body, this is not the case with their teaching force. A 
report of the National Education Association (NEA) indicates 
that slightly more than 13 percent of the Nation's teaching 
force is minority, while at the same time almost 30 percent of 
the student body is minority.
    Furthermore, as the numbers of minority children in schools 
are increasing, the number of minority teachers who could serve 
as role models to these children are decreasing. If current 
trends continue, by the year 2020, nearly one out of two school 
children will be a student of color while only one out of 20 
teachers will be a minority. Thus, there is an urgent need to 
increase the pipeline of teachers of color and to devise 
realistic and concrete strategies for pursuing this goal. Data 
reported in the 1994 mini Digest of Education Statistics, 
published by the National Center for Education Statistics, 
indicated that only 8.3 percent of teachers in the public 
elementary and secondary schools are black. Howard University 
has taken a leadership role in training black teachers.
    Howard University is uniquely positioned to develop and 
implement strategies for identification, recruitment, and 
retention of minority teachers, particularly those African 
descent. Recognizing the current slow pace at which teacher 
training institutions recruit, train, and graduate African 
American teachers, the University's School of Education has 
built a shared vision regarding the need for increasing the 
number of ethnic minority teachers, particularly males, and has 
developed some initiatives to address this issue. One important 
initiative in response to the shortage of ethnic minority 
teachers is the African American males into Teaching Project. 
This project, funded by the U.S. Department of Education, is 
designed to increase the number of African American males 
entering the teaching profession by providing improved 
recruitment and training opportunities that will address 
personnel ethnic imbalances, improve the quality of teaching 
and encourage minority secondary students in grades 7-12 to 
prepare for careers in teaching.
    Howard University, with additional support, can play an 
even greater role in increasing the pipeline of minority 
teachers.

    Mr. Swygert. But if I may, I'd like to share the following 
observations with you. One of the unfolding tragedies in 
American education is the teacher shortage, which we described 
and characterized a decade ago as a shortage of science and 
math teachers, and a decade ago, we were talking about how are 
we going to get more science and math teachers in primary and 
secondary schools.
    Well, that shortage indeed has now gone into other 
disciplines as well. So with science and math, it has remained, 
and is seen in other disciplines as well.
    Much like medicine, we have a shortage coupled with an 
allocation problem. One of the other issues we're wrestling 
with is how are we going to continue to entice talented young 
people to invest their careers in those schools and in those 
communities that need them the most, that too often have fewer 
resources, and that don't have the fancy computer rooms and all 
the other resources that one finds in more prosperous 
environments.
    So we have both a shortage and an allocation issue. Though 
she's not with me today, Dean Veronica Thomas of our School of 
Education is deeply, deeply committed to this. We ourselves 
have begun discussions locally with General Becton, who is, as 
you know, Superintendent of the D.C. public schools. We've met 
with representatives of the Control Board. I recently had a 
discussion with Mr. Raines, Director of OMB, to talk more 
specifically about how Howard University, as a university, can 
deal with some local issues and also what models might be 
available nationally.
    But I would very much appreciate the opportunity to respond 
more fully in writing to the question.
    Mr. Stokes. Good.

                           employment trends

    Mr. President, your chart shows a consistent reduction in 
work force strength for the past several fiscal years. Do you 
expect this downward trend to continue, and if so, at what 
level do you expect it to reach a steady state?
    Mr. Swygert. Mr. Stokes, I would like to suggest that we 
have reached that steady state today. We are still both 
enrollment and tuition sensitive, so much so that I cannot make 
any hard and fast assurances. We have no present plans, 
however, for any substantial reduction in staff at the 
University. The one area of the University where one might see 
some movement is in the area of the Hospital. As I indicated to 
Chairman Porter, the Hospital has taken a substantial part of 
the downsizing of the University over time, and has responded 
admirably.
    I am working as hard as I can to avoid any further 
downsizing at the Hospital. Indeed, Mr. Stokes, I want to 
invest more in academic reinforcement so as to get at the 
retention and graduation issues that Chairman Porter mentioned. 
I want to invest more in recruitment, and I want to invest more 
in student counseling and service.
    But the short answer to your question, and I will respond 
in writing as well, is that we believe we've reached an 
approximate steady state at this point.
    [The information follows:]

                               Employment

    We do not expect this downward trend to continue. We expect 
to stabilize the total workforce at approximately 5,000 
employees. However, we do anticipate strategic redeployment of 
staff and substantial staff development and retooling 
initiatives. The average tenure of Howard University employees 
is approximately seventeen years of service. Therefore, changes 
in the composition of the workforce as employees meet 
retirement criteria may be anticipated.

          national human genome research institute initiative

    Mr. Stokes. Mr. President, during testimony before the 
committee this year, the National Human Genome Research 
Institute highlighted their initiative that has now been 
launched with your University. What specifically is this 
initiative designed to achieve?
    Mr. Swygert. We're very, very excited about this 
initiative. On the Howard part of this partnership with Dr. 
Francis Collins, who's the new Director of the Center funded by 
NIH, we have Dr. Georgia Dunston, one of the leading 
biogeneticists in the Nation. Dr. Dunston is a member of our 
medical school faculty. She's Chairman of Molecular Biology.
    Just recently, the National Institutes of Health, with Dr. 
Dunston as the principal investigator, funded a very, very 
exciting and what could be a terribly important program. Dr. 
Dunston and her colleagues--consisting of both her Howard 
University colleagues, her NIH colleagues, and scientists and 
physicians in five West African nations--met at Howard 
University to announce a program which is seeking to look at a 
whole host of issues that have a disproportionate impact in 
terms of the African-American community, including 
hypertension, diabetes, and a number of issues. We're working 
with West African based collaborators.
    And it's very, very exciting. I'm very pleased you raised 
that question. Because it demonstrates not just the potential 
of Howard University, but it demonstrates that at Howard 
University, some of the most exciting cutting edge, critical 
edge research in this Nation is taking place today. And we're 
awfully proud of Dr. Dunston, Dean Malveaux and his colleagues, 
and the other members of her team.
    Mr. Stokes. Thank you, Mr. President.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Stokes.
    Mr. Miller.
    Mr. Miller. Good afternoon, Mr. Swygert. I read your name 
in the newspaper this morning. I'm sure that's not what you 
like to see in the newspaper. It wasn't the Style section, 
either.
    Mr. Swygert. Oh, I see. [Laughter.]
    Mr. Miller. Clark Kerr made a statement that the three jobs 
of a university president was to provide parking for faculty, a 
love life for students, and football for the alumni, and you do 
a great job. [Laughter.]
    However, you have a fourth one because you have to come up 
to the Republicans and Democrats on Capitol Hill and ask for 
funding, too. So you have indeed a difficult job, and you have 
developed a good reputation, so I commend you on that.
    Mr. Swygert. Thank you, sir.

         justification of federal funding for howard university

    Mr. Miller. I'm trying to get an understanding of 
everything going on in this whole budget process. One of the 
questions that comes up is, with the Historically Black 
colleges, and we have one in Florida, it's not in my district, 
my district is the Sarasota area, and they don't say this, but 
you all get more money than they do.
    Mr. Swygert. Sure.
    Mr. Miller. And I know you are supposed to be the 
preeminent Black institution in the country. How do you, 
ideally, we would give everybody lots of money. But there's a 
limited size of the pot we have to divide up.
    How do you make the argument between yours and one of the 
other schools?
    Mr. Swygert. I appreciate the question, Congressman Miller. 
I'd like to respond thusly.
    Howard University is the only federally chartered 
comprehensive university in the Nation. It's unique in that it 
is not chartered by a State; it's not chartered by the District 
of Columbia; but it has a Federal charter. Gallaudet is the 
second. Howard University is the first. This is our 130th year.
    At the time Howard was chartered, the National Government 
made a decision, and reached a conclusion that there was a need 
for this national institution. We think the need continues. 
When one looks at Bethune-Cookman, or when one looks at one of 
the other 116 institutions that are historically black, I think 
there is a need for them as well.
    Howard is also unique, not simply because of its charter, 
but it's unique because it is the only comprehensive 
institution of its type. We are what is known as a Carnegie 
Level 1 research university. And what that means is we are not 
only an institution that produces more African-American 
undergraduates at the Bachelor Degree Level than any other 
university or any other school in the country, but we're also 
the highest producer of Ph.D.s as well. There's no other 
institution like it. We receive Bethune-Cookman graduates. We 
receive graduates from North Carolina A&T. We receive graduates 
from Spelman and Morehouse. And we receive them with open arms 
and with enthusiasm.
    That's also part of our mission.
    And there's a third dimension of our mission as well. In my 
response to Congressman Stokes, I talked a bit about the Human 
Genome Study Project that's taking place at Howard University 
under the leadership of Dr. Georgia Dunston. We think that the 
kind of research that is being mounted at Howard in pathologies 
that especially affect the African-American community is 
terribly, terribly important.
    One of the programs we're going to seek to return to Howard 
is the National Sickle Cell Research Center, which was at 
Howard for eight years. We're going to try to bring that back 
to Howard.
    But that's indicative of the kinds of research and the 
criticality of the Howard purpose.
    And then finally, if you will, and I do appreciate your 
patience, Congressman Miller, finally, Howard University, for 
130 years, I think, has returned more than simply a fair return 
on the Federal investment. If one looks at the full span and 
the full scope of our graduates over time, even if one were to 
begin the analysis by saying, Howard graduated this notable 
personality, graduated that notable personality, because at the 
time that he or she attended Howard, they had very few if any 
options, even if one takes that into account over 130 years, 
one would have to conclude that something special has happened 
and is continuing to happen at Howard University in that it 
continues to produce such personalities who have had such a 
dramatic and sustained impact on this Nation's life over time.
    When I go around the country before alumni groups and other 
groups as well, I usually begin by saying that the history of 
Howard University is not the history of a university. In large 
measure, it really is the history of this country. Because at 
Howard, you see for 130 years the full panorama of issues. 
Whether it's in science, Dr. Georgia Dunston and other 
researchers; whether it's in the social sciences; whether it's 
in another era and another time--it was civil rights, as I knew 
civil rights as a youngster at Howard, or other rights today--
all of those issues are unique Howard issues and Howard had 
made them its issues.
    Mr. Miller. How do you compare in size, taking the entire 
university complex, are you larger than----
    Mr. Swygert. We're about twice the size.

                      federal support per student

    Mr. Miller. And I need clarification on this $18,000 number 
that Mr. Porter referred to, versus the per student support we 
provide to the other historically black colleges. I don't know 
if someone else can, you may not have that, but staff here 
maybe will provide that. We don't give on a per student basis a 
very large amount to the historically black colleges. I know 
there's a line item. But with as many schools as there are.
    Where do we get the $18,000 number? Is that simply the 
total appropriation provided by student?
    Mr. Swygert. I'd have to look at the algorithm again. I can 
give you a written response to it.
    Mr. Miller. Okay, would you please.
    Mr. Swygert. I'll consult with staff as to whether that 
includes medical education, undergraduate education, or 
graduate education.
    Mr. Miller. Is it total appropriation by the student body? 
Does anybody know how that number was derived?
    Mr. Skelly. It looks like that's the math.
    Mr. Miller. Does that, by the way, I was just looking at 
your questions about the financial aid, and for example, 
Federal funds is another $57 million listed here. That would be 
in addition, because that would be going directly to the 
students. So actually the amount of money flowing in is 
significantly greater than the----
    Mr. Swygert. To the extent the students qualify for other 
Federal loan and grant programs, yes.
    Mr. Miller. Right. These are the ones that meet those 
criteria.
    Mr. Swygert. Exactly right. And those are need-based 
criteria. That's not school specific criteria. So that seems--
--
    Mr. Miller. Let's go back to justifying the $18,000.
    Mr. Swygert. Sure.
    Mr. Miller. It's a lot of money.
    Mr. Swygert. It's a lot of money. It depends, I think, 
Congressman Miller, on one's point of reference. For five 
years, I served as President of the State University of New 
York at Albany. And one of the continuing questions that came 
up in that context is, why should we pay, as New York State 
taxpayers, any tuition, since we pay one of the highest income 
tax rates in the Nation? Why should we pay any tuition at a 
State-funded institution?
    And when we increased the tuition at the State University 
of New York at Albany--all the way to $4,000 a year--there was 
a tremendous hue and cry that that was an extravagant amount, 
because someone did some math and came up with a number which 
indicated that that $4,000 a year coupled with the ostensible 
per capita, which is what we're discussing here, amount of 
taxpayer support and loans and grant support for our students, 
made our students some of the most heavily endowed students in 
all of American higher education.
    The reason why I'd like to have the opportunity to respond 
in writing to the $18,000 question is because I think there are 
some subtleties there that I think need further explanation. 
And I'd like to share that with you if I may.

                    rising costs of higher education

    Mr. Miller. I have a daughter that is in graduate school at 
Catholic University. So I know the cost of college is very 
high. I've seen Time Magazine, the cover story this week, are 
we gouging students?
    Mr. Swygert. Congressman, if I may, you mentioned Time and 
the cost of college. I don't usually cite guides, whether it's 
Peterson's guide or any other guides, because I don't believe 
in keeping score and box scores for higher education. I think 
it's far too important and too subtle an enterprise to simply 
assign it a score or number.
    But if they're going to keep score, you want to be on the 
right side of the score. Last year, Money Magazine rated Howard 
University one of the top 20 ``best buys'' in American higher 
education, of all schools and colleges. I just share that with 
you in a sense of assessment of 3,200 peers, an assessment that 
was computer-driven.
    But we will respond more fully to your question, which I 
think is an excellent question.
    [The information follows:]

                      Federal Support Per Student

    The $18,000 cost per student was probably derived from 
annual Impact Data that the University submits to the 
Department of Education. Dividing the FY 1997 unrestricted 
Federal Appropriation ($152,859,000) by full-time equivalent 
students (8,573 reported) results in a figure of $17,830 per 
student.
    In analyzing the Howard University federal appropriation on 
a cost-per-student basis, funds that are earmarked for 
construction or other one-time appropriations for non-academic 
purposes, should be excluded in order to assess more 
appropriately the educational funding provided on a per student 
basis. For FY '97, this would mean that an academic 
appropriation (excluding $13,652,000 earmarked for 
construction) of $152,859,000 and an estimated F.T.E. of 8,817 
would result in a figure of $17,337 per student.
    The University does not have access to authoritative 
informtion pertaining to per student support provided by the 
Federal government at other Historically Black Colleges and 
Universities. It should be noted that such comparisons would be 
misleading, given that Howard University is the only 
comprehensive research universtiy with a predominantly African-
American population.

    Mr. Miller. What is your tuition?
    Mr. Swygert. Undergraduate tuition is approximately $8,800 
per year.
    Mr. Miller. I think one of the other schools on that list 
is from my district, New College.
    Mr. Swygert. New College. It's a fine school.
    Mr. Miller. So I will appreciate seeing that. Again, I'm 
going through an educational process of my own, and I 
appreciate anything you can send us.
    Mr. Swygert. Well, thank you so much for your interest, 
Congressman. I very much appreciate it.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Miller.
    Mrs. Northup?
    Mrs. Northup. Mr. Chairman, I think the questions I have 
are mostly answered.
    Mr. Swygert. Congresswoman Northup, so good to see you.
    Mrs. Northup. Thank you.

               howard's comparison group of universities

    Mr. Porter. All right.
    Mr. President, you and I have discussed a comparison group 
of schools against which we can measure Howard's effectiveness. 
In the past we have used Boston University, Emory, Georgetown, 
Temple, and Tulane as the comparison group. I understand that 
we now believe that Georgetown, University of Maryland, 
University of Virginia, and Vanderbilt may be a more 
appropriate comparison group.
    I am less concerned with the actual schools chosen as a 
reference point than I am in establishing a baseline comparison 
group against which we can measure Howard's long-term progress. 
And I am willing to continue our discussion on this matter 
until the hearing record closes, when we would finally decide a 
good group for comparison purposes.
    Can you please tell us, for Howard and the peer group 
schools, for the record, the four-year and six-year graduation 
rates, the average SAT scores of incoming freshmen, percent of 
alumni contributing annually, percentage of applications 
accepted, and percentage of accepted students enrolled?
    Mr. Swygert. Yes, sir. We will make that a part of the 
record.
    [The information follows:]

[Page 631--The official Committee record contains additional material here.]


                           enrollment trends

    Mr. Porter. Now, President Swygert, according to the budget 
justification, overall enrollment decreased fairly dramatically 
in recent years, and is projected to increase slightly in 1997. 
I would note that the budget requests have consistently 
overestimated enrollments by about 6 percent overall.
    Please provide a 10-year table of enrollments for the 
record, and tell us whether enrollments are really going to 
begin increasing and where you feel enrollment should be, 
ideally.

    [The information follows:]

                               Enrollment

Academic Year:                                                 Headcount
    1987-88...................................................    11,865
    1988-89...................................................    12,773
    1989-90...................................................    12,506
    1990-91...................................................    12,299
    1991-92...................................................    11,941
    1992-93...................................................    11,919
    1993-94...................................................    11,839
    1994-95...................................................    11,765
    1995-96...................................................    11,182
    1996-97...................................................    11,249

    Enrollment for the current (1996-97) academic year shows a moderate 
increase over 1995-96. There was a 23 percent increase in the First-
Time in College (FTIC) student population. We expect to equal or exceed 
this increase in Fall 1997.
    The University can accommodate an optimal headcount enrollment of 
12,000, or FTE of approximately 9,150, which is where enrollment should 
be, ideally.

    Mr. Porter. In addition, the budget justification indicates 
that undergraduate enrollments continue to decline, and even 
your estimates for 1997 and 1998 indicate declines. By 
contrast, graduate enrollment is increasing. Is this a matter 
of concern? And how do you intend to deal with this issue?

        two dimensions of enrollment: recruitment and retention

    Mr. Swygert. We will certainly respond for the record with 
a detailed response.
    I believe, Mr. Chairman, that there are two dimensions to 
enrollment. The first, of course, is recruitment, and we are 
awfully concerned about how many applications and how many 
students enroll at the university.
    The second half of the dimension, however, Mr. Chairman, is 
what you began with, and I think correctly so, your graduation 
rates. I think one of the issues that we need to address far 
more forcefully at Howard University is the support that we 
give to students in terms of retention; namely, if we have 
10,000 students, if we take that as a baseline, if we have 
10,000 students, it's not simply do we have 10,000 students, 
but what proportion of those students are graduating within 
generally-accepted parameters in terms of whether it's four 
years, five years, or six years. And I want to enhance that 
graduation rate.
    The other dimension, of course, is return rate. How many 
students return as sophomores who began as first-year students? 
How many return as juniors? And how many return as seniors? 
Right now, our return rate is not where I would like it to be, 
although it is higher than at most schools and colleges. We 
have a return rate of about 77 percent from first year to 
second year. When we looked this past year at that 77 percent--
or to put it another way, when we looked at the 23 percent, as 
in ``what happened to the 23 percent,'' we found, Mr. Chairman, 
that more than half of those students did not return for what 
were clearly financial reasons. When I say ``clearly,'' they 
had fine academic averages; they were sound students; there 
were no disciplinary issues, no academic issues; but it was 
financial issues.
    We have to get at that somehow. We have to provide more 
resources for those students, so that 77 percent becomes 80, 
becomes 82, becomes 85; and over time, as you increase your 
college going rate, your continuation rate, your enrollment 
climbs up in terms of full-time FTE. It climbs up over time, as 
well. So we have to get at that end of the proposition as well. 
But we'll have a written response for the record as well, Mr. 
Chairman. Thank you.
    [The information follows:]

                               Enrollment

    This is not a matter of concern. Consistent with the Howard 
University mission and status as a comprehensive, research-
oriented center of learning, our objective is to increase 
enrollment in graduate, post-graduate, and professional degree 
programs. In academic year 1989-90, the ratio of graduate/
professional to undergraduate enrollment was 23.5 percent to 
76.5 percent. For the current (1996-97) academic year the 
comparable ratio is 35.2 percent to 64.8 percent.

       costs associated with federal direct student loan program

    Mr. Porter. Thank you, Mr. President.
    Last year you indicated that the University's costs would 
rise as a result of the decision to join the Federal Direct 
Student Loan Program. Can you indicate for the record the 
magnitude of the increased costs, and whether these increased 
costs will persist over time?
    Mr. Swygert. Well, we will have for the record a written 
analysis of the increased costs, although I must tell you, Mr. 
Chairman--you would expect me to be honest and direct, and I 
will be honest and direct--the program has actually worked well 
at Howard. It has been expensive, but it has worked well. We 
hope that over time we will see that the increased efficiency 
and the increased service to our students will result in 
reduced costs. But at Howard University, it is working well.
    Mr. Porter. I am glad to hear that.
    [The information follows:]

                  Federal Direct Student Loan Program

    The cost of implementing the Direct Loan Program was 
$414,000. Of the total, $64,600 was a non-recurring cost for 
hardware purchases, and the remaining $350,000 was for 
recurring expenses, including the costs for personnel and 
supplies.

 Additional Funding Request for Residence Halls and Salary Compression

    Mr. Porter. Mr. President, you talked earlier about the 
rehabilitation of two dorms for female students, and 
remediation of the faculty salary compression problem.
    Does the President's budget include funds for these two 
projects? And how much would you need, above the President's 
request, to fund them if it does not?
    Mr. Swygert. Mr. Chairman, it does not, and we estimate 
that the women's residence halls--we estimate the projects to 
run on the order of magnitude of $8 million to $10 million.
    The salary compression issue we believe we can reach on the 
order of magnitude of $4 million Mr. Chairman, but we'll have a 
written response to that as--I'm sorry, Mr. Chairman, we have 
estimated it to be $5 million.
    [The information follows:]

                           Critical Projects

    President Clinton's budget request does not include funding 
to rehabilitate the two dorms for female students, or to 
address the faculty compression problem. The University 
estimates that it would cost $8.5 million to rehabilitate the 
dorms, and that the problem of faculty compression, at the 
critical associate professor level, could be addressed for an 
additional $5 million.

                           University Housing

    Mr. Porter. Mr. President, regarding the dorms, I 
understand that you currently house students in the Adams-
Morgan neighborhood, and are proposing to transfer them to the 
upgraded dorms on the campus. If the transition takes place, 
what do you propose to do with the existing housing, and what 
is its value to the University?
    Mr. Swygert. Well, the current facility is called Meridian 
Hill. It is a facility that was built during World War II to 
house workers during the war. It is a facility that is very 
popular with many of our students. It is part of the 
University. There is a shuttle bus service, but it gives 
students access to the Adams-Morgan area.
    We would like our students to be closer to the campus. We 
have our own concerns in that regard.
    The discussion that has been taking place over the last 
year or two is how we could bring that about. With these dorms 
``down,'' if you will, and not on line on campus, it is just 
that; it is just discussion. We have continued--each summer we 
work very, very hard to bring Meridian Hill Hall back up to 
speed so that we can pass various building and health codes for 
occupancy for the coming fall, and it's a real challenge each 
summer to do that. Many students, when they first find that 
they've been assigned to this particular facility, are not very 
happy, but our students seem to like the facility over time. So 
it's not a question of students demanding to be moved from this 
particular facility. It is really our concern in terms of their 
health and safety and welfare, and we think generating more of 
a college environment on the campus, and to meet the need, we 
simply need more space.
    Mr. Porter. Does it have value?
    Mr. Swygert. Oh, it has value. We believe that it may have 
a substantial value in the private real estate market, if the 
Board so chooses to dispose of the property.
    Mr. Porter. Well, Mr. President, you and Reverend Garrett 
have given us excellent statements. You have answered all of 
our questions very forthrightly. I believe you are doing an 
outstanding job at Howard University and making real progress. 
We commend you on that and thank you for your testimony today.
    Mr. Swygert. Mr. Chairman, thank you so much, and 
Congressman Stokes and Congressman Miller, thank you as well.
    Mr. Porter. Thank you, sir.
    Mr. Swygert. And thank you so much for your very kind and 
generous comments regarding Dr. Minor, Ms. Smith, Ms. Kenney, 
and the other members of Dr. Minor's staff, and all the members 
of our family.
    Mr. Garrett. Mr. Chairman, while Congressman Hoyer had 
referred to the great work of Congressman Stokes relative to 
Howard, as an ordained minister in the same denomination of 
your colleague, I can take license and refer to him as an 
angel. [Laughter.]
    Mr. Porter. Thank you, sir.
    The subcommittee will briefly stand in recess.
    [The following questions were submitted to be answered for 
the record.]

[Pages 636 - 664--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

    VOCATIONAL AND ADULT EDUCATION AND SCHOOL-TO-WORK OPPORTUNITIES

                               WITNESSES

PATRICIA W. McNEIL, ASSISTANT SECRETARY FOR VOCATIONAL AND ADULT 
    EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
THOMAS M. CORWIN, DIRECTOR, ELEMENTARY, SECONDARY AND VOCATIONAL 
    ANALYSIS DIVISION, BUDGET SERVICE

    Mr. Porter. The subcommittee will come to order.
    We're pleased to welcome this morning Patricia W. McNeil, 
the Assistant Secretary for Vocational and Adult Education at 
the Department. You're alone there at the desk, except for Tom, 
both Toms. Why don't you just proceed with your statement, 
then, Ms. McNeil.

                           Opening Statement

    Ms. McNeil. Thank you, Mr. Chairman.
    Good morning, and thank you for the opportunity to appear 
before you today to discuss the fiscal year 1998 budget request 
for Vocational and Adult Education and School-to-Work 
Opportunities.
    These investments help high schools, community colleges and 
adult education programs provide students with the academic and 
technical skills they need to succeed as workers, family 
members, citizens and lifelong learners. They are important 
components of the Nation's investment in education for the 21st 
century.
    Today's societal and economic challenges are forcing us to 
rethink our education system: whom it teaches, what it teaches, 
how it teaches. No longer can an individual who has not 
completed high school or a student who has completed high 
school without meeting challenging standards, begin a career 
path that will lead to a comfortable middle class lifestyle. 
Postsecondary education is really becoming a basic requirement 
in the job market. And for these reasons, President Clinton has 
called for all students to be prepared for and have access to 
college by age 18. And he's called on every adult to be 
prepared for lifelong learning.
    Now, although our educational institutions have been 
responding to the challenge of the information age, our schools 
and literacy programs need to change much more rapidly and 
dramatically in order to close the gap between what they teach 
and the knowledge and skills youth and adults need to be 
successful in the 21st century. The Administration's request 
for $400 million for School-to-Work and $1.6 billion for 
Vocational and Adult Education will support the Nation's 
progress towards this goal.
    Mr. Chairman, you have my prepared statement. In my remarks 
this morning, I'd like to focus on three areas. First, how 
School-to-Work, venture capital funds, Vocational Education 
Basic Grants, and Tech-Prep investments are contributing to 
State school improvement, especially at the high school level. 
Second, I will address how we're progressing on performance 
indicators required under the Government Performance and 
Results Act. And third, I will explain how we're strengthening 
and maximizing Federal investments in research, technical 
assistance, and evaluation in the areas of Adult Education, 
School-to-Work and Vocational Education.

                  Improving Education For All Students

    As you know, the School-to-Work Opportunities Act is 
providing seed money for a limited time to States and 
communities to build partnerships among business, labor 
organizations, community leaders, parents, and educators, to 
improve the education of all students and ensure that youth can 
make smooth transitions from school to college and work. One 
key feature of School-to-Work is the opportunity for young 
people to spend time at a work site, learning about a variety 
of career options and the academic and technical skills needed 
to pursue those options. These experiences reinforce the 
connections and the relevance between what goes on in school 
and what we require of students later in life.
    Vocational Education State Grants and Tech-Prep help 
educational agencies and postsecondary institutions improve the 
quality of vocational and technical education for students. 
These funds support curriculum development, teacher training, 
the introduction of new technology, and student support 
services. Tech-Prep investments have been especially effective 
in strengthening academic content in vocational education and 
forging strong links between high school and postsecondary 
institutions.
    Tech-Prep ensures that students have the opportunity to 
take college classes while they're still in high school and, 
probably more importantly, that they don't have to make up 
course work when they go to college, or take remedial work.
    Because a significant percentage of these resources, 
School-to-Work, Tech-Prep, Vocational Education--are spent at 
the secondary level, we've been looking at how communities are 
using these Federal investments to improve student achievement 
in high school. With the help of the National Center for 
Research in Vocational Education, we've identified about 50 
schools that are pursuing educational reforms in the 
development of School-to-Work systems. We've called these 
schools New American High Schools, because they're committed to 
ensuring that all students achieve challenging academic skills 
and are prepared for postsecondary education. They also provide 
opportunities for students to explore careers and gain computer 
and technical skills and participate in community service or 
work-based learning, and they form strong partnerships with 
parents and businesses and postsecondary institutions.
    I think the proof is always in the pudding about how these 
schools perform. And what's remarkable about these schools is 
that they've seen test scores go up, they've seen dropout rates 
come down, and postsecondary enrollment rates rise 
significantly. These schools really serve as examples of how 
Federal investments can be used as a whole to make a difference 
and enhance student achievement.
    By the way, we've got two now in Chicago.
    Mr. Porter. Which ones are they?
    Ms. McNeil. The Chicago High School of Agricultural Science 
and the Chicago Vocational Essential High School.

                          Performance Measures

    Now I'd like to turn to performance management. The 
Department is asking the same tough questions as Congress about 
the effectiveness of Federal investments in School-to-Work, 
Vocational Education, Tech-Prep, and Adult Education. Do these 
investments improve student achievement? Do morestudents 
graduate from high school or get a high school equivalency diploma? Do 
students complete postsecondary certificates and degrees? Do students 
find jobs related to their career interests?
    In keeping with the Government Performance and Results Act 
of 1993, we've identified a preliminary set of closely aligned 
objectives and indicators for these Federal investments. We've 
been working with the States to get their input into the 
objectives and indicators. And we've really received very 
positive feedback and good suggestions for improvement.
    We'll continue this process throughout the next six months, 
so the objectives and indicators we submit with our 1999 budget 
request will reflect broad State and local input. The 
indicators for School-to-Work, Vocational Education and Tech-
Prep include academic achievement, especially in math and 
science, completion of high school and postsecondary degrees, 
and attainment of industry-recognized skill certificates. We're 
also tracking the number of students, schools, businesses, and 
colleges participating in School-to-Work, because we're in the 
process of trying to create those systems, so we want to know 
how many people are really being involved in them.
    All States now have performance measurement systems for 
vocational education. State School-to-Work grantees have 
developed systems for tracking participation. And over the next 
year, we're going to be working with a number of States to help 
them align their School-to-Work and vocational education 
performance measurement systems.

                            adult education

    The adult education system is the point of access for 
lifelong learning for educationally disadvantaged adults. It 
helps adults make the transition from welfare to work. It 
assists immigrants to learn English. It equips adults with high 
school credentials in the basic skills they need to get better 
jobs and pursue postsecondary education.
    In order to improve performance in adult education 
programs, our Government Performance and Results Act objectives 
and indicators will track the number of learners served, the 
completion of secondary credentials, and the transition of 
learners to higher education and work.
    In adult education, all States have adopted indicators of 
program quality. These were developed in connection with our 
national office. And we're now working with the States 
collaboratively on a framework for State performance management 
systems.
    One important aspect of adult education is the improvement 
of basic literacy and numeracy skills. We know from the 
National Adult Literacy Survey that millions of adults don't 
have the adequate basic literacy skills for the 21st century. 
Yet we don't have good measures for adult basic skills 
achievement that are widely used in local adult education 
programs.
    Several States are doing some important work in this area, 
as is the National Institute for Literacy, through their 
Equipped for the Future project. And we're working 
collaboratively on these efforts, and see it as a really 
important area for investment if we're going to be able to 
truly measure the impact of Federal resources on basic skills 
achievement for adults.

             research, technical assistance, and evaluation

    The final area I'd like to discuss briefly is research, 
technical assistance, and evaluation. Over the past year, we've 
designed strategic frameworks for our investments in School-to-
Work, Vocational Education, and Adult Education. We've been 
working collaboratively with other public and private entities 
and with States and localities to design national activity 
strategies that will add value and insight to education and 
literacy practice.
    Our work primarily focuses on technical assistance and 
applied research and development, that is, taking ideas from 
research studies and putting them into practice and analyzing 
the results. To make sure our investments in School-to-Work and 
Vocational Education add value and are responsive to State and 
local needs, we've been developing an inventory of all the 
ongoing research and development conducted by other offices 
within the Department and its laboratories and centers, as well 
as Federal departments and agencies and private foundations.
    We also have a research development and coordination plan 
with the National Institute for Literacy and the National 
Center for the Study of Adult Learning and Literacy at Harvard 
that's been developed in consultation with a wide variety of 
folks in the literacy field. We believe this plan will enable 
us to maximize national activities resources and avoid any 
duplication of effort.
    Mr. Chairman, this concludes my prepared remarks. And Tom 
and Tom and I will be glad to answer any questions that you 
have.
    [The prepared statement and biography of Patricia McNeil 
follows:]

[Pages 669 - 675--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Ms. McNeil.
    Let me say, you may have a very easy time this morning. We 
have a Republican conference at 10:00 o'clock that probably 
will last for at least an hour, and I suspect there's also a 
Democratic conference as well. So you may have to put up with 
just me.
    Ms. McNeil. I don't mind that at all.
    Mr. Porter. And let me say, I appreciate very much your 
emphasis on GPRA and end results. Because we consider that our, 
one of our principal roles in Congress is to have oversight of 
programs and to ensure that the dollars we spend really work 
for people. And I can tell from just the way you say this that 
this is also a goal that you share very strongly, and you're 
looking at everything you do with a critical eye to getting 
results for people, which is obviously what your job is and 
what our job is.

                       federal literacy programs

    I want to begin by asking if you know how many different, 
and maybe Tom Corwin or Tom Skelly may add some information, 
how many different literacy programs we have in the Federal 
Government?
    Ms. McNeil. Well, it's interesting. I've seen the list that 
was developed, I think, by the House Education and Work Force 
Committee. And in analyzing that list, there are some programs, 
that are on the list, like Title 1--elementary and secondary 
education--that are really focused onyoung students. There is 
Even Start, which serves both young students and adults, but we work 
very closely with Even Start. We have a joint project with them right 
now.
    So when I look down the list, I see a number of programs 
that deal with literacy for different age groups. I really 
think the basic and the main program for adults is the Adult 
Education Act. That's where the big investment is. And I don't 
really see a lot of duplication when I look down that list.
    In areas where there are, for example, the National 
Institute for Literacy and our office and the Office of 
Education, Research and Improvement Center on Literacy, each of 
us has sort of a different niche in the research area. But 
still, we collaborate very closely and we're very customer 
oriented when we develop our research plans.
    So I think that the list is somewhat misleading.

                               libraries

    Mr. Porter. I would agree with that. I was simply wondering 
whether we have any duplication. We used to have a literacy 
program in libraries, for example. I think we did not fund 
that.
    Ms. McNeil. Right.
    Mr. Porter. Because essentially, they were doing the same 
thing adult education was doing.
    To what extent will you be or do you use library facilities 
and coordinate with libraries in these programs in the States?
    Ms. McNeil. The coordination really takes place at the 
local area. But the libraries have wonderful facilities. In 
fact, the libraries have a lot of technology today that is 
extremely valuable for adult education. Libraries primarily 
have been focused on young people. They have a lot of summer 
reading programs and year-round reading programs for young 
people. But they're getting more and more involved with adults.
    And as I say, at the libraries that I visited recently, the 
technology that they have to help adults with reading and 
literacy problems is quite fantastic. So it's one thing that we 
want to forge stronger links between libraries and the Adult 
Education program.

                     meeting the needs of employers

    Mr. Porter. For decades, we've tried to close the gap 
between what schools perceive employers need and what employers 
actually need. My perception is that the gap continues to exist 
in many communities. In a recent survey of managers funded by 
the Department, it showed that we have done little to reduce 
this problem.
    Could you discuss the history of our attempts to address 
the problem, and how your current statutory framework or the 
one to be proposed by the Administration provide any new ideas 
on how to cope with this?
    Ms. McNeil. Well, I think that, from my reading on what's 
been happening in the labor market over the past 15 or 20 
years, the jobs have been changing very rapidly; global 
competition, new technologies, and changes in the way work is 
done and how work is organized really have just dramatically 
changed what workers need to know and be able to do on the job.
    And it's interesting that the schools have actually been 
trying to keep up. When you look at the changes that have been 
made since Nation at Risk was published in 1983, you see that 
schools have added more advanced placement courses; they've 
gotten more rigor; there are more students taking math and 
science courses than ever before; we're graduating more 
students; and more students are going on to postsecondary 
education. So the schools have been trying to keep up.
    The problem is that the changes are coming so rapidly that 
the schools have not been able to change fast enough. 
Similarly, with the whole adult work force, we had a labor 
market where you could drop out of high school or graduate, 
without strong academic skills, and still get a job. And today, 
those workers just simply don't have the skills to keep up.
    So, I think that our institutions are making improvements. 
I think they have to improve more rapidly. But, I think there's 
still a big skills gap.
    So our School-to-Work initiative really is designed to make 
the strong links between employers and schools. Employers have 
often adopted a school or provided some equipment, or they'll 
be on advisory committees. But School-to-Work is different, 
because it really tries to make employers a key partner in the 
planning of school activities and curriculum. And actually, in 
just reviewing what schools are teaching and signalling schools 
about the kinds of skills that young people have to have.
    And a really critical feature of that is to have young 
people come into the work place and see what it is, and see how 
what they are learning in school relates to it. I went out to 
an automobile dealership recently, and I asked a young student 
who was a senior in high school, what level of math do you have 
to have to do this job? He said, I have to have Algebra II.
    Now, he would never have realized that going through a 
totally classroom-based system. The technology in the auto 
industry is changing so rapidly, that now he sees why he needs 
Algebra II, and how it's really used every day.
    We've actually had good success. We've got about 500,000 
students involved, based on a survey done at the end of 1995, 
beginning of 1996. And we figure we've got about 150,000 
employers now involved in School-to-Work, and about 39 percent 
of those employers are actually providing work-based learning 
slots for young people.
    So I think we've made a good start. We have a National 
Employer Leadership Council that's chaired by Alex Trotman of 
Ford. And there are a number of CEOs from large companies that 
are involved in that. They may not have a lot of slots in their 
own companies that they have for high schoolers, but they have 
suppliers, and they have distributors that they work with. So 
they have been, GM and Chrysler, for example, really working 
with their dealers throughout the country to try to get them 
involved systematically in School-to-Work.
    So I believe the level of employer interest is high. Part 
of it is that employers wonder, well, can I have young people 
in my work site? What's my liability there? So getting 
information to employers about how they can participate is 
another very important part of our strategy: how they can get 
over the liability issues and how they can construct positive 
work-based learning opportunities. So I would say that we're 
making progress.
    I think there's a lot of interest in the employer community 
right now. Employers, maybe more than any group in the country 
today, really realize that our school systems are key to the 
economic future, and they want to be involved. It's just making 
sure that we have good strategies in place to help them.
    Mr. Porter. Thank you.

      reauthorizations of adult education and vocational education

    Your budget justification indicates that you will be 
proposing reforms to both adult education and vocational 
education. Will you describe the changes you will propose and 
any unique problems that you may encounter if the revision 
comes late in the year, after the passage of the Appropriations 
Act, or if in passing the Act we are unable to reflect the 
changes already enacted?
    Ms. McNeil. We're going to be sending two bills to 
Congress--the adult education bill I anticipate we'll be 
sending to Congress in about two weeks, and the vocational 
education bill probably in about a month. The basic thrust 
we're pursuing in those bills is, number one: streamlining. The 
current laws have quite a few set-asides and special programs 
within them. We're going to really try to streamline that and 
make them more user friendly for States and local education 
agencies and community colleges.
    The second thing we're doing is we're really putting a 
strong emphasis on accountability for results. We are going to 
suggest a common core of outcomes for these programs that is 
going to be linked, intricately linked, with our GPRA 
standards. And we're going to be pushing for uniform data, data 
with uniform definitions. We've been very successful in School-
to-Work in working collaboratively with the States to get them 
to come up with uniform data, definitions of data.
    And so we're going to be pursuing this in a collaborative 
way. We're going to ask each State to set goals for what they 
want to achieve. And that will be part of their plans.
    The third thing we're going to do is really try to focus 
resources in both vocational and adult education on the core 
best practices that we know through research have achieved 
results. So we're going to try to direct resources and 
encourage programs, for example in adult education, that use 
technology, that use contextual learning, because we know these 
practices enhance retention.
    In terms of the impact on appropriations, right now, 
although we still appropriate money using the laws that we 
have, we've been working continually with the States on these 
areas of more accountability, focusing the resources on higher 
quality programming. And I think that we've eliminated, you've 
not funded, a number of the set-asides that we've had in these 
programs. We would like, of course, the legislation to move as 
quickly as possible. We're hopeful that we can get a bipartisan 
bill on both Adult Education and Vocational Education through 
Congress by the end of this year. That would be our hope.
    If we don't, we hope that you'll continue appropriations 
for these programs. And we will continue working as best we can 
under existing legislation to promote the concepts that we're 
going to pursue in both bills.

                          performance measures

    Mr. Porter. I've expressed my general disappointment with 
the involvement of the Congress in the determination of 
performance measures. Your justification of the School-to-Work 
program provides yet another difficulty in the process of 
developing effectiveness measures. While the Department lists 
some possible outcome measures, the Department of Labor, in its 
justification, lists no measures at all. More importantly, 
there is no indication that the final measures will be the 
same.
    Can you discuss the outcome measures you're considering and 
how you will measure these outcomes, and how are the two 
departments coordinating developing the measures of 
effectiveness, and will they be the same in both departments?
    Ms. McNeil. We have been working very closely with the 
Labor Department in the development of the performance 
measures. So I don't know where they are in the actual 
finalizing of the process and submitting them to you. I know we 
submitted to you School-to-Work, but we've yet to get 
Vocational Education and Adult Education up to you, because 
we're still making some changes in them.
    In every step of the way here, we've been working with the 
Department of Labor. And from everything that I know with my 
conversations with them--and this is J.D. Hoye, our Director of 
School-to-Work--they are in complete agreement with the ones 
that we've adopted. They may have a couple of extra ones, but I 
don't believe they'll be different at all.
    We've set five or six here, one is student participation--
how many students are participating. One is student 
achievement, and we've got a number of indicators around 
student achievement. One is around systems building. One is 
around the number of schools participating. One is around the 
number of employers participating. And the last two are 
professional development and alignment across education 
initiatives, because again, it's really important to us that 
education reform, School-to-Work, vocational education, and 
elementary and secondary education all work together to promote 
school improvement and student achievement.
    So those are our key areas.
    Now, in terms of the Congress, this year is really the year 
before the GPRA actually takes effect. So I believe we talked 
with OMB in the summer, and they said, well, we want to use the 
Education Department, for one, as a pilot for getting these 
performance standards done. So we've been working on them, but 
we had to hurry up to get them done and get them ready for the 
1998 budget submission.
    We told the States, and this is the same thing that we 
passed on to your staff, that over the next six months, we want 
to talk with you and with the States to make sure that these 
things make sense. If we have the wrong measures or they aren't 
what you're interested in, that's not going to work for us. So 
we have to have collaboration around this. The final standards 
will be submitted for the 1999 budget, and I hope that's going 
to give us enough time to work with you, work with the States, 
work with local providers, so that we have a good consensus 
around what these performance measures are.

                          performance measures

    Mr. Porter. Let me say preliminarily that while it's nice 
to know how many schools are participating and how many 
employers and how much for spending per student, and all that, 
what we're really interested in is how many students actually 
get jobs and keep them.
    Ms. McNeil. Absolutely.
    Mr. Porter. And so the other ones are fine, but we need 
bottom line, results-oriented standards that really tell us 
whether the programs are effective, and not how many we have 
involved in them and the like, which are important but not 
finally important.
    Ms. McNeil. Right. Since we're trying to build and develop 
a School-to-Work system throughout the country, we are 
interested, I think, in knowing how many students are affected 
and how many schools actually are participating. But I 
absolutely agree with you that the bottom line is student 
achievement.
    So we do have performance measures for student achievement 
in our plan. Let me just share these with you--high school 
graduation, math and science achievement, because again,getting 
back to the key things that employers want right now, they're looking 
for strong math and science skills. Then there is postsecondary 
enrollment and completion, the attainment of skill certificates, and 
high school equivalency for out-of-school youth.
    Then the measure of employment really comes as to when 
students finish their educational program. Some students will 
go into jobs right out of high school. Other students will go 
on to postsecondary. They'll either go on to two-year programs, 
or some will go on to four-year programs. So we want to track 
that as well. We don't want to send a signal that, you don't 
have to go to college, or that you should be seeking employment 
after two years. We want students to have a wide variety of 
opportunities and to pursue the careers that they're interested 
in.
    Therefore, I think what you want to see is what are the 
trends in high school, for young people who come out of high 
school and don't go to postsecondary. What happens to them? And 
then for young people who come out of two-year programs, what 
happens to them, and similarly with four-year programs.
    Mr. Porter. Yes, absolutely.

                    services for special populations

    Last year we discussed the fact that the Perkins Act 
requires that States, in order to receive vocational education 
grants, must provide all members of special populations equal 
access to, and be allowed full participation in, vocational 
education. How do States integrate this authority with similar 
services that can be funded under the Rehabilitation Act and 
IDEA?
    Ms. McNeil. Well, first of all, we have very strong 
participation in vocational education of special populations. 
Certainly schools have taken that to heart. And one of our 
concerns is always whether members of special populations are 
being sort of pushed into vocational education when they might 
need to have other options.
    What we see at the local level, and Judy Heumann, who's our 
Assistant Secretary for the Office of Special Education and 
Rehabilitative Services, can add to this, is that special 
education often provides a variety of resources to disabled 
students, in particular. And then those are supplemented by 
vocational education funds. And so I think that in most 
schools, and Judy and I visited a couple of them together, in 
most of them we see a collaboration between those two programs, 
and the joint use of resources.
    Mr. Porter. I'm not sure Mrs. Northup is ready, but I'm 
ready to yield to you.
    Mrs. Northup. I hope you'll indulge me if I ask questions 
that have already been covered here. I'm sorry, I did have 
another committee meeting next door.
    Ms. McNeil. No problem.
    Mrs. Northup. It's hard to be two places at once, although 
I've noticed other people manage it pretty well.
    I do have a number of concerns about vocational 
rehabilitation, special education I believe also falls under 
your jurisdiction--
    Ms. McNeil. Judy Heumann, who's our Assistant Secretary for 
the Office of Special Education and Rehabilitative Services, is 
going to be testifying after me. So I have vocational 
education, adult education and School-to-Work.

                             school-to-work

    Mrs. Northup. School-to-Work is very interesting, I've been 
very involved in that and on a national School-to-Work program 
for a couple of years. One of the things that I think emerged 
in people that were involved in that is sort of the idea that 
we have all these kids that we have pushed through high school 
in these sort of set academic subjects, whether they're too 
high or too low.
    But they come out of high school and the only thing they're 
equipped to do is go down to the local mall and ring up sales. 
Rather than a skill, it really is something that gives them the 
opportunity to support a family, grow, develop. And the fact 
is, everybody has, a niche or a place in this universe. And 
they're not all rocket scientists. And we haven't conveyed that 
well to kids as they go on. It's all this, you'll never go to 
college if you don't take these subjects, rather than saying, 
maybe not every child is bound for college, maybe they're bound 
for good jobs, skilled jobs, that will give them a real 
opportunity in life.
    I wonder if you agree with that, and how you think the 
President saying every child should go to college for two 
years, that should be the national norm, how that impacts the 
School-to-Work transition program?
    Ms. McNeil. Well, fortunately or unfortunately, in order to 
get a good job today, usually some kind of postsecondary 
education is needed. One of my own sons, who actually dropped 
out of high school, got his GED and is now back in community 
college taking courses.
    I think we're going to see different patterns. We're going 
to see some young people coming out of high school, spending 
some time in the job market then going back into community 
college, or going perhaps to a four-year school. I think what 
the labor market is demanding today in terms of both academic 
and technical skills requires us to think differently about how 
we educate kids.
    Now, I totally agree with you that an awful lot of 
education today doesn't make academic skills easy to learn for 
a lot of kids. We know that a lot of kids learn by doing. They 
learn in the context of something that's interesting to them. 
And when you sit in a 50-minute class and are lectured to and 
are supposed to take notes, and then regurgitate that back on a 
test, some kids do well in that kind of a setting, but a lot of 
kids don't.
    What's really impressed me about School-to-Work is that I 
go to classes and I see kids who thought they were stupid, and 
whose teachers have sort of implied that they were stupid, be 
turned on and realize that they can do much higher levels of 
math, that they can get physics concepts, they can get 
chemistry, they can get biology, they can improve their 
communications skills.
    Why? Because they see the relevance in what they're doing. 
They're learning these skills in the context of something that 
they're interested in. They're doing project-based learning 
that emphasizes both academic and technical skills.
    I know, I totally agree with you, we're all going to do 
different things. Not everybody is going to be interested in 
politics and government. Not everybody is going to be an 
engineer. The thing is that I think perhaps in our schools we 
have tended to sell a lot of kids short. And we haven't really 
focused on the teaching and learning practices that can ignite 
kids' learning and their interest in learning more.

             meeting the educational needs of all children

    Mrs. Northup. There are certainly those children that 
haven't learned to their level of potential. And I'm very aware 
of the engaging method of teaching that we're goingthrough with 
today's kids, especially because they're coming from television and 
things very fast moving, not sit in a line and do rote learning.
    But it very much concerns me, it seems we have gone to the 
theoretical to the point that people are not engaged in real 
life. I would bet that in the Department of Education you would 
find very few people over there that on any standardized test 
didn't fall into the 90 percent or above category. And that's 
great. Let's talk about the kids who are in the 70 or 80 or 90 
percent category, why they don't learn at a higher level.
    But we are also doing terrible damage to kids who don't 
have that talent. Imagine that if we had, I used to be a 
calculus teacher, and used to say, every child could learn math 
at a higher level if they were taught in the first grade and 
second grade and third grade. Well, I've come to believe that 
that was a terrible arrogance on my part. I have six children, 
they're varied in talents, some are adopted, and they come from 
different backgrounds.
    And when I look at how different the reality is, and the 
conceit of people who did well in those areas, or could do 
well, it's very discouraging to them. They have trouble even 
getting out of high school, great trouble getting out of high 
school. We have all these people now saying, every child can 
learn at a higher level, and putting more and more high level 
requirements. And we're getting away from what we really knew.
    We looked at the German model and so forth of skill and 
transitions of skills, things that would give these children 
great confidence. And those aren't being valued when we say 
every child has to go to school for two years of college. The 
strong message is that you have to learn at a higher level, and 
if you don't, there must be something really innately limiting 
about you.
    Ms. McNeil. I have five kids. And two of my kids are 
adopted. I've had kids that breezed through school and are now 
in graduate school, and kids that dropped out. One of my 
daughters has learning disabilities and dropped out in the 11th 
grade and still has not gone back to school.
    Actually, the reason I got into this--and I'm very 
interested in this new way of learning--is just because of my 
own children, and trying to figure out how school could be 
different for them than what they were experiencing. They were 
forced into fairly rigid classrooms, sitting there. And that is 
just not a setting in which they learn well.
    I just came from a school in New York City on Monday. They 
have no entrance requirements, 25 percent of their kids are in 
special education. They take kids right out of the neighborhood 
schools, a school in East Harlem. They have kids that are in 
very, very high poverty situations.
    They send 90 percent of their kids to college now. They 
start in the 7th grade, they have a 3-percent dropout rate. 
They've got parents involved, they've got business involved, 
the kids do internships. They do community service. The kids do 
project-based learning. We sat with a group of students.
    I understand what you're saying. However, I do think that 
our schools could do more to help kids.

             MEETING THE EDUCATIONAL NEEDS OF ALL CHILDREN

    Mrs. Northup. And I'm not saying that that's not a 
wonderful school. There are two things here that are very 
different. One is, my experience is with a child that's going 
through five years, at $24,000 a year, maybe I can afford to 
help her make every connection. But still, I have her home for 
spring break sobbing at 1:30 in the morning because she doesn't 
know whether she can pass Algebra II. And this is the State 
requirement. And she's got every bit of support.
    And the second thing is that we don't have $25,000 for 
every child. We have children in our neighborhoods that the 
best gift we can give them is to make sure that there are 
construction trade jobs that are there. They are great jobs, 
people in those jobs love them, it gives them a sense of 
accomplishment. This is what she's really looking for in her 
life.
    Ms. McNeil. I think that is right.
    Mrs. Northup. What we're driving against when we say every 
child should have two years of college by defining the minimum 
requirements, and how high are they going to be, but then we 
create this feeling that deciding you want to be a nanny or 
deciding you want to work at the zoo with animals, isn't going 
to be good enough, because we have some new national program 
that says every child should go to college for two years.
    Ms. McNeil. I think what the President is saying is that 
every child should have the skills to succeed in some kind of 
postsecondary training. And every child should have the 
resources to go to college if they want to. There are a variety 
of choices that young people have. What we want to do is make 
sure that young people have the skills, that schools don't sort 
of categorize them as, well, you're kind of dumb, you can't, 
we're not going to try to help you.
    I don't think every young person has to have Algebra II. 
But then not everybody that goes to college in a field or 
decides to be an apprentice, for example, after high school, 
needs to have that either. I think what the President is saying 
is that we want the schools to do better for our kids, we want 
the schools to help them achieve a level of academic skills 
that is going to enable them to pursue the careers that they're 
interested in, and that there are new ways of doing that that 
we haven't explored in a lot of our schools, and that by 
introducing young people to internships and work-based 
learning, by taking academic concepts and embedding them in 
vocational education, for a number of kids, it will help them 
gain much more, gain many more skills than they would have had, 
in regular schools.
    I think that's sort of what we're trying to get at.
    Mrs. Northup. Okay.
    Mr. Porter. Thank you, Mrs. Northup.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Ms. McNeil, let me follow up just a little bit on that line 
of questioning. Correct me if I'm wrong, but I believe only 
about 50 percent of the children who graduate from high school 
in America today go to college.
    Ms. McNeil. It's 63 percent.

           CAREER PREPARATION FOR NON-COLLEGE BOUND STUDENTS

    Mr. Stokes. Oh, so it's a little more than 50 percent. 
According to your formal statement, no longer can an individual 
who has not completed high school or a student who has 
completed high school without meeting challenging standards 
begin on a career path that will lead to a comfortable, middle 
class lifestyle. What is going to happen to those who fall in 
the category of not going on to college?
    Ms. McNeil. I think it's not, again, it's not so 
muchwhether you go on to college. It's whether you have the skills, the 
academic and the technical skills, that employers are looking for. Now, 
oftentimes, those extra skills come from going on to college. Mrs. 
Northup mentioned the German system. And one thing the Germans have 
been very good at is getting students to have a much higher level of 
academic achievement without going on to university. They have done it 
in a contextualized way.
    It's really the skills. And it's really a basket of skills 
that you want students to have. The President's been 
emphasizing reading well by the end of third grade. Forty 
percent of our kids don't do that now. And he has been 
stressing algebra by the end of eighth grade. Only about 24 
percent of our kids get algebra now by the end of eighth grade.
    The sad thing is, that only about maybe nearly 50 percent 
of our kids, 17-year-olds, don't have the level of skills 
today, academic and technical, to get a job in a modern 
automobile factory. And these are actually pre-algebra skills, 
they're like 9th grade math skills and a level of presentation 
skills, to get a job in an insurance company or an automobile 
manufacturing plant today, you really need to have in order to 
be successful.
    So there's a challenge there of just raising the overall 
skill level. And I think saying that being prepared for college 
is sort of a proxy for just saying that you need to have a 
higher level of skills. That's what we're really getting at 
here, what skills do young people have, and how can we help 
them to get the kinds of skills they need to be successful.

                  IMPACT OF WELFARE REFORM LEGISLATION

    Mr. Stokes. As the States begin to implement the recently 
enacted welfare reform legislation, what type of demands this 
will put upon your Department?
    Ms. McNeil. Well, we're seeing it right now very 
dramatically in adult education. First of all, there's been an 
increased demand for adult education services by people whose 
first language is not English and who are not proficient in 
English. These are legal immigrants who have not pursued 
citizenship.
    At the same time, the emphasis on work first in welfare 
reform, particularly in States like California, has now cut 
down on the extra resources for people who are on welfare to 
get some basic skills training before they go into the job 
market.
    One thing that we're looking at is trying to help adult 
education providers and employers do more work-based literacy 
training. If you can get someone an entry-level job, and then 
while they're on that job, they can either have time off or 
after work at these work sites, get some literacy training that 
will help them build up their skills and move on to higher 
level jobs. We think that's a possible technique.
    So those are a couple of the implications we're seeing 
right now. Of course, not all States have had their plans 
approved, and we're just really in the early stages.

                    ADEQUATE RESOURCES FOR PROGRAMS

    Mr. Stokes. To the extent that you have described this 
national need that we now have relative to vocational and adult 
education, do you have the necessary resources to effectively 
respond to that need?
    Ms. McNeil. Well, of course we always would like more 
money. We'd never turn down more money. I think that what we're 
operating in here is the President's commitment to a balanced 
budget, to weighing a lot of different needs. We believe that 
the requests that we've made both signal an increase for 
Vocational Education and for Adult Education. Does it meet the 
entire need particularly in adult education? No. There's a huge 
need out there.
    But I think that again, there are a variety of priorities 
that come before your committee, come before the Department. 
And we think that this is a good start.

                    IMPACT OF AMERICA READS PROGRAM

    Mr. Stokes. Two of the subcommittees on which I serve are 
now reviewing the Administration's budget requests for the 
America Reads program. How will this particular program affect 
other programs under your jurisdiction?
    Ms. McNeil. Well, America Reads of course is primarily 
focused on young people, in achieving the President's goal of 
having all young people read by the end of third grade. The 
interaction with my area, Adult Education, though, is very 
direct. Because basically, we know that the educational level 
of parents is one of the great predictors of how well young 
people will do in school. So we're working very, very closely 
with America Reads.
    One of the kinds of programs that we fund is family 
literacy, which involves both parents and their children in 
programs that are designed both to increase young peoples' 
proficiency in reading and also to increase their parents' 
proficiency. And this is a great motivator. We've got wonderful 
data about how parents learn better when they know they're 
helping their children. And how it improves children's reading.
    So that's the link that we see between our program and 
America Reads.

                     PERFORMANCE MEASUREMENT PLANS

    Mr. Stokes. Last year, the Department indicated that it was 
working with the States on the development of a performance 
management system.
    Ms. McNeil. Yes.
    Mr. Stokes. Can you bring us up-to-date on that effort?
    Ms. McNeil. Yes. We've submitted to Congress one of the 
three performance measurement plans that are required under the 
Government Performance and Results Act. And we are also working 
with both State directors of Vocational Education and the State 
directors of Adult Education on strengthening performance 
measurement systems in the States. And we are also working 
through the School-to-Work system to make sure that School-to-
Work and vocational education performance measurement systems 
are closely aligned.

           JUSTIFICATION OF INCREASE IN ADULT EDUCATION FUNDS

    Mr. Stokes. Ms. McNeil, under the budget proposal, funding 
for the adult education programs would increase about 11 
percent from a current investment of $355 million to $394 
million. Tell us how this increase would help to meet the 
demand for literacy training spawned by the new Federal and 
State welfare laws.
    Ms. McNeil. Of course, it will make more money available. 
And therefore, programs will have more money to provide 
services. I think one of the things we're emphasizing right now 
is using technology to expand services. We'll be emphasizing it 
in our new legislation and we've actually done some work on 
technology with our national activities money. We worked 
collaboratively with four States that have high percentages of 
limited English proficient adults. And we developed a TV 
program, sort of a Sesame Street for adults, called Crossroads 
Cafe, which is now running on PBS.
    From our preliminary research on this, we know that parents 
watch these programs with their children. They do make literacy 
gains. And we think that some of the innovations of using 
technology--and I believe these increased resources are goingto 
help programs do that--are going to increase the number of adults that 
receive services.
    Mr. Stokes. Do I have time for another question, Mr. 
Chairman?
    Mr. Porter. Yes.
    Mr. Stokes. Okay, thank you.

               status of vocational education legislation

    According to your budget submission, you are planning to 
submit legislation that would improve the Perkins Act?
    Ms. McNeil. Yes.
    Mr. Stokes. Can you give us some idea of when you 
anticipate sending that legislation to the Congress? And, do 
you have any indication of what it is designed to do?
    Ms. McNeil. Yes. We're planning to send the legislation up, 
hopefully in about a month. It will do several things. First of 
all, in Perkins right now, there are about 23 different 
programs and set-asides. And we're planning to streamline the 
legislation. We probably will have about 20 programs eliminated 
in that legislation. So we're very streamlined; there is much 
more flexibility.
    We intend to put much more emphasis on accountability for 
results. We will propose a core set of performance measures and 
we will suggest the Department work with the States to develop 
some uniform definitions of performance, so that you can have a 
greater idea of what's going on in every State. We're going to 
direct resources to programs that really incorporate best 
practice in vocational education. And we're going to emphasize 
very strongly the link between vocational education, School-to-
Work, One Stops, and education reform. Those are four key 
things we're going to do.
    Mr. Stokes. When will that be coming up?
    Ms. McNeil. In about a month.
    Mr. Stokes. Thank you.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Stokes.
    Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And I do apologize, we're pulled in several directions this 
morning.
    Ms. McNeil. That's all right.

                            welfare-to-work

    Mrs. Lowey. I understand that you haven't discussed any of 
the welfare-to-work issues. So I'd like to focus a bit on that. 
School-to-Work is an example of an innovative public policy to 
deal with the problems faced by young people as they prepare to 
enter the work force. And as a result of the new welfare law, 
more adults, particularly adult women, will be expected to 
transition into the work world.
    Your office provides funding to literacy programs, 
community colleges that have a key role to play in preparing 
welfare recipients for work. And I have a number of questions 
with regard to your Office's role in welfare reform.
    What specific initiatives has your office already 
undertaken with regard to the welfare law? What portion of the 
$41 million increase that you are seeking for adult education 
will be used for welfare reform? How are you coordinating these 
efforts with the Labor Department? And lastly, a weakness of 
the welfare law, which I am working to correct, is that very 
little literacy training and vocational education counts toward 
the State's work participation requirement.
    That last part is particularly important to me. We have a 
college, a community college in my district, Westchester 
Community College, that has an 88 percent success rate in 
placing welfare recipients into jobs after they have provided 
training as dental hygienists or a whole range of programs. And 
what's very exciting about it is that the woman continues the 
contact with the college. And if they should lose a job, they 
feel they have a home, they have a place to go where they can 
get assistance for additional placement.
    I'm very concerned about that portion of the welfare law, 
that really will have a negative effect on these kinds of 
successful programs. So I've given you several questions with 
regard to that.
    Ms. McNeil. And I hope you'll bear with me. I'm getting 
older, I do well to remember one question. So I may have to go 
back and ask you the others.
    Mrs. Lowey. I can't remember them, either. [Laughter.]
    Ms. McNeil. First of all, the States, of course, have a lot 
of flexibility now to both set up their programs and interpret 
how they're going to operate them. There is a 12-month limit in 
the current law for how long people can be in vocational 
education. States have quite a bit of flexibility on how that's 
interpreted, and when the clock starts running, and how much of 
their case load they count as being in vocational education. Is 
it going to be a factor of the number of people that they 
require to work, are they going to include the whole case load, 
or just the part of the case load that is required to go into 
work?
    So there's a lot of flexibility there. Some States are 
taking maximum flexibility, some States are deciding that it's 
going to be work first, and that's going to be it, and if you 
get extra training, it will be after you've gotten a job or 
after you've exhausted all of your opportunities to look for 
work. So there is a lot of flexibility there.
    We've been doing a number of things. First of all, in Adult 
Education, we've been urging our Adult Education providers--and 
I've met with all the Adult Education State directors to talk 
to them about this--to start thinking about literacy in the 
context of work. Now, it's actually work as a powerful 
motivator. A lot of people come into adult education because 
they want to get a job. And they need to improve their basic 
skills or they need to get a high school diploma, or they need 
to improve their English skills. So that's why they come.
    If you team up, if you really try to imbed literacy in 
vocational education, you can speed up the learning process. 
You can make learning more relevant. And I believe it's 
perfectly legitimate to count that literacy education as part 
of vocational education. So that's one thing that we've been 
doing.
    A second thing we've been doing is, we ran for a number of 
years a series of demonstrations on workplace literacy. That 
is, people have a job, and it's usually a low level, minimum 
wage job. And yet employers are willing to either give them 
release time or have classes in the cafeteria and encourage 
them to improve their literacy skills. There again, the 
literacy training is offered in the context of the job, so it 
means more. It improves learning. It's offered right there at 
the work site.
    So those are a couple of things that we are working on, 
getting best practice out to folks.
    Remind me of the other ones.

              state flexibility under the new welfare law

    Mrs. Lowey. Well, just to follow up on that last one, I'm 
still not sure that the States have the flexibility to covertwo 
years of education when the law says one year. And I thought that we 
were going to actually have to take legislative action. I'm not sure if 
we can take regulatory action to really correct that.
    Ms. McNeil. I think that one of the things is whether 
States can interpret that, during your first two years of being 
eligible for welfare, you could start taking education at that 
time, and then have an additional year to do education.
    Mrs. Lowey. They have that flexibility? I don't think they 
do.
    [Clerk's note.--Subsequent to the hearing, Ms. McNeil 
agreed that under the current law, States have only one year to 
cover education.]
    Ms. McNeil. I believe that, in other areas they have 
flexibility if they want to take it, but some States aren't 
taking it.
    Mrs. Lowey. In other words, the Westchester County program 
is a program that has been approved whereby they placed their 
women on welfare at Westchester Community College, and the 
welfare grant goes toward education. And these women, after two 
years, are placed in jobs paying $25,000 or more. They're 
really very successful.
    And as I said, they have a small sample, because that's 
what they were allotted. But we're hoping that we can expand 
it. We've been working pretty hard on this, but if I'm 
incorrect, I stand to be corrected, and perhaps we can discuss 
this further. I just want to be sure that for this program, the 
dollars and cents seem to add up. And I want to be sure that 
the States still can cover with their welfare dollars those 
programs which may be appropriate for a certain group of 
people, not everyone.
    Ms. McNeil. It would be very good for your staff and ours 
to sit down and talk about this because I think there is some 
confusion about when the clock starts running and what 
flexibility States have in order to have people in education 
before they set up the clock. And that is, I think, worth 
talking some more about. I know we've been in a lot of 
discussions with New York State about this issue. And Jon 
Weintraub on my staff has been most intimately involved in 
this. So I think we could meet with your staff, talk about this 
and see what flexibility we do have.
    We know for teenage parents, of course, they have to be in 
school. So education is going to start running immediately for 
them. Do they have a third year in which to finish school? That 
is the question. Some States are going to interpret it one way, 
some States are going to interpret it another way.
    Mrs. Lowey. Well, I think I've used my time. This is an 
issue that I think we really have to focus on. And I'm one that 
feels people should go to work. And I don't mind extending the 
two-year education to the three-year education, but just so 
that they can work part time, but I think it is absolutely 
essential that we not go backwards, and we make sure that we 
help these women get that education so they can get a real job.
    Ms. McNeil. Exactly.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mrs. Lowey.
    Ms. McNeil, thank you for your good opening statement, your 
very forthright answers to all of our questions, and for the 
fine job that you're doing as Assistant Secretary. Thank you 
very much.
    Ms. McNeil. Thank you, Mr. Chairman.
    Mr. Porter. The subcommittee will stand in recess until the 
end of this vote.
    [The following questions were submitted to be answered for 
the record.]

[Pages 691 - 701--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

 SPECIAL EDUCATION AND REHABILITATION SERVICES AND DISABILITY RESEARCH

                               WITNESSES

JUDITH E. HEUMANN, ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
THOMAS F. HEHIR, DIRECTOR, OFFICE OF SPECIAL EDUCATION PROGRAMS
KATHERINE D. SEELMAN, DIRECTOR, NATIONAL INSTITUTE ON DISABILITY AND 
    REHABILITATION RESEARCH
FREDRIC K. SCHROEDER, COMMISSIONER, REHABILITATION SERVICES 
    ADMINISTRATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS

                       Introduction of Witnesses

    Mrs. Northup [assuming chair]. The subcommittee will come 
to order, please.
    We welcome today Ms. Judith Heumann, who is the Assistant 
Secretary for Special Education and Rehabilitative Services. 
Good morning, and please proceed.
    Ms. Heumann. Thank you very much.
    Good morning, Madam Chairperson. Thank you for giving me 
this opportunity to present the President's fiscal year 1998 
budget request for the Special Education and Rehabilitation 
Services and Disability Research Accounts, which are 
administered by the Office of Special Education and 
Rehabilitative Services (OSERS).
    Let me just very briefly take the time to introduce the 
people who are at the table. To my far left is Fredric 
Schroeder, who is the Commissioner for the Rehabilitation 
Services Administration; Katherine Seelman, who is the Director 
of the National Institute on Disability and Rehabilitation 
Research; Thomas Hehir, who is the Director of the Office of 
Special Education Programs; Tom Skelly, who is the Director of 
Budget Service; and Carol Cichowski, who is also with the 
Budget Service.

                           Opening Statement

    I'm proud to report that in the past four years, OSERS has 
made significant progress towards the goals the President has 
identified for all disability programs and policies: inclusion, 
not exclusion; independence, not dependence; and empowerment, 
not paternalism. Today we are closer to realizing these goals, 
in large part due to strong bipartisan support for our efforts 
to promote the integration, independence, and empowerment of 
individuals with disabilities through the programs we 
administer.
    We recognize that the Federal Government alone cannot 
ensure that disabled individuals have the assistance they need 
to achieve their educational, vocational and independent living 
goals. We must continue to build partnerships with disabled 
people, State and local educators, parents of children with 
disabilities, vocational rehabilitation providers, businesses 
and communities, and researchers, in order to form a seamless 
network of experience, expertise, and program capacity to meet 
the needs of disabled individuals in the United States.
    We plan to continue to work closely with these customers 
and partners, in addition to Congress, to reauthorize both the 
Rehabilitation Act and the Individuals with Disabilities 
Education Act (IDEA).
    The President's fiscal year 1998 budget request for OSERS 
was designed to assure that America continues down the path 
toward building a truly inclusive society. The request would 
provide a total increase of $248 million over the fiscal year 
1997 level, including $174 million, or a 4.3 percent increase, 
for Special Education, and a $74 million, or 2.9 percent 
increase, for Rehabilitation Services and Disability Research. 
These increases would enable OSERS to continue its work to make 
sure that millions of children and adults with disabilities 
have access to the educational, employment and independent 
living services they need to become fully participating members 
of society.
    The President's fiscal year 1998 budget proposal for 
Special Education reflects the new directions envisioned in the 
Administration's proposal for the reauthorization of the IDEA, 
which is designed to strengthen the focus on improving 
educational results for children with disabilities, and to 
eliminate unnecessary administrative burdens and disincentives 
to best practices.
    We are requesting $3.2 billion for Grants to States to 
assist them in covering the excess costs associated with 
providing special education and related services to children 
with disabilities. This represents a 4.5 percent increase over 
the fiscal year 1997 appropriation level. This increase would 
maintain the Federal contribution toward meeting the excess 
cost at the fiscal year 1997 level of 8 percent, while 
providing assistance for an additional 101,000 children 
expected to require services.
    Our request for the Preschool Grants program is $375 
million, $14 million more than the appropriation for fiscal 
year 1997, which was the same as the 1996 appropriation level. 
This increase would help States to serve approximately 23,000 
additional children with disabilities ages three through five, 
while maintaining the per-child share at the 1997 level of 
$625.
    Between fiscal year 1991 and 1996, the number of children 
served under this program increased from 367,428 to 549,154, a 
49.5 percent increase. This represents approximately 4.5 
percent of all preschool children in the United States.
    Furthermore, the $324 million request for the Grants for 
Infants and Families program would support formula grants to 
States to assist them in implementing statewide systems of 
coordinated, comprehensive multidisciplinary interagency 
programs to provide early intervention services to all children 
with disabilities, from birth through age two, and to their 
families.
    Under part H of the IDEA, the States served 143,392 
children in 1993, and 174,288 infants and toddlers with 
disabilities in 1996, an increase of over 21.5 percent since 
1993.
     Under our proposal, a new Program Support and Improvement 
activity would replace discretionary programs currently funded 
under the Special Purpose Funds activity. The currently funded 
programs evolved separately over the last 30 years to address 
special needs in particular areas, and include a wide range of 
research, demonstration, outreach, technical assistance, 
dissemination, training, and other activities.
    The new Program Support and Improvement programs would 
consolidate these 14 discretionary programs into 5 coordinated 
programs that would provide a streamlined and coherent 
structure to carry out these activities and focus on 
systematically helping States improve educational results for 
children with disabilities. The total request for these new 
programs is $262 million, $10 million more than the amount 
appropriated in 1997 for Special Purpose Funds programs.
    Our request also includes funding for the Rehabilitation 
Services and Disability Research account, which supports 
comprehensive and coordinated programs of vocational 
rehabilitation and independent living for individuals with 
disabilities through formula grants to States for vocational 
rehabilitation services, and a variety of research, 
demonstration, training, and service programs. The 
Administration is currently working on a legislative proposal 
to reauthorize the expiring Rehabilitation Act and the Helen 
Keller National Center Act. The $2.6 billion request for this 
account targets increases to programs that provide direct 
services to assist individuals with disabilities in obtaining 
employment and pursuing independent living goals. The resources 
in this request are distributed under current law for 
illustrative purposes. The distribution of resources is subject 
to change pending the enactment of new authorizing legislation.
    For the Vocational Rehabilitation State Grants program, the 
Administration requests a $70.8 million, or 3.3 percent 
increase over the 1997 appropriation level. The request is $5.6 
million more than is needed to satisfy the statutory 
requirement to provide an increase in funding at least equal to 
the percentage change in the Consumer Price Index for Urban 
Consumers. The $2.2 billion request would assist State VR 
agencies in meeting the current demand for VR services and 
offset the increased costs of providing VR services to a more 
significantly disabled population.
    In 1996, there were more than 1.2 million eligible 
individuals in the system of State VR agencies, 76 percent of 
whom have significant disabilities. As a result of the 1992 
amendments to the Rehabilitation Act, the eligibility rate--
applicants determined eligible for the VR program as a 
percentage of all eligibility determinations--has risen from 
56.5 percent in 1992 to 72.4 percent in 1996, thus increasing 
the demand for services. In addition, the presumption of 
benefit provision has resulted in an increase in the percentage 
of eligible persons with significant disabilities in the VR 
system.
    Despite these challenges, State VR agencies have been 
successful in increasing the numbers of individuals achieving 
an employment outcome. In 1996, 213,334 individuals achieved an 
employment outcome, an increase of 11 percent from 1992. In the 
same period of time, the percentage of individuals with severe 
disabilities as a proportion of all individuals achieving an 
employment outcome has risen from 70 percent to 78 percent.
    The economic benefits of this program can be demonstrated 
by the following fiscal year 1995 data on individuals who 
achieved an employment income: 88 percent of the individuals 
were employed in the competitive labor market or were self-
employed; 80.3 percent of these individuals earned at or above 
the minimum wage; and 82.2 percent of these individuals 
reported that their own income was their primary source of 
support, as opposed to their family or public and private 
assistance and public entitlement programs.
    The Administration is committed to monitoring program 
outcomes to improve program performance, and is in the process 
of developing evaluation standards and performance indicators 
for the VR program. In addition, we are conducting a major 
longitudinal study to examine the success of the VR program in 
assisting individuals with disabilities to achieve sustainable 
improvement in employment, earnings and independence. Where 
available, we are utilizing preliminary data and study findings 
in our examination of reauthorization issues.
    The request for the rehabilitation services funding 
includes $71 million for NIDRR, which provides an important 
link between research and practice in the delivery of services 
to individuals with disabilities. The requested level would 
allow NIDRR to implement recommendations from its long range 
planning process, such as increasing the number of field-
initiated research projects and increasing the funding level of 
its research Centers to ensure that they have the resources to 
become Centers of Excellence.
    Increases are proposed for Client Assistance, Protection 
and Advocacy of Individual Rights, Migratory Workers, Centers 
for Independent Living, and the Helen Keller National Center to 
expand services or to meet rising costs associated with the 
provision of services to individuals with disabilities. On the 
other hand, the Department is proposing a reduction of $2 
million for the Special Demonstration Programs in order to 
redirect funds to higher priority direct-service programs, such 
as the Vocational Rehabilitation State Grants program and to 
provide support for the model demonstrations to be funded under 
the Program Improvement activity. The Department proposes to 
fund the remaining programs in this account at the 1997 
appropriations level, a level sufficient to support activities 
in these programs.
    Mr. Chairman and members of the committee, we believe that 
the President's 1998 budget request for the Office of Special 
Education and Rehabilitative Services is a positive step in 
forging strong bipartisan support for fulfilling the mission of 
OSERS, which is to provide leadership to achieve full 
integration and participation in society of people with 
disabilities, by ensuring equal opportunity and access to and 
excellence in education, employment and community living.
    My colleagues and I welcome your questions
    [The prepared statement and biography of Judith E. Heumann 
follows:]


[Pages 708 - 713--The official Committee record contains additional material here.]


                            hearing schedule

    Mr. Porter [assuming chair]. Ms. Heumann, thank you for 
your good statement. I apologize for not being able to hear all 
of it, and I want to add my welcome to that that I know Mrs. 
Northup and Mr. Istook have already given you. It's good to see 
you again.
    I want to add one other thing. I'm very upset with the 
compactness of our hearing schedule this year. I think we're 
not allowing ourselves sufficient time. And while it perhaps is 
too late to make revisions in certain parts of it for this 
year, I think it will be more instructive for next year that we 
spread our hearings out a little more and give a little more 
time for myself and members to hear the testimony and ask 
questions of our witnesses.
    So we apologize for the vote that occurred here and the 
limit on time. We understand that you can stay until about 
12:10.
    Ms. Heumann. I'll stay until you're finished. Don't worry.
    Mr. Porter. I have to go to a luncheon at 12:10 myself.
    Mr. Istook.

                           weapons in schools

    Mr. Istook. Thank you very much, Mr. Chairman.
    Ms. Heumann, I appreciate the efforts of you and so many 
other people to assure that disabilities do not prevent 
children from being able to receive a good education. But I did 
want to address with you, another concern,that is so 
significant to every parent that has a child in public schools, and 
that is the safety of their child.
    Certainly all of my children have always been public school 
students, three have already graduated, two remain in high 
school. I'd like to recount with you a situation. There's too 
many that are like it, but a situation that happened at the 
school that they attend.
    Unfortunately, it has become a problem, when the IDEA 
system is interfering with the ability to keep our children 
safe in public schools. There are many weapons which can be 
quite deadly other than a gun, which is basically the only 
prohibited weapon. I bring up this account, which is two years 
old, but I bring it up because I have the knife that was 
involved in this situation. In the school that my children 
attended, and I'll give you a copy of the letter from the 
Putnam City Schools.
    Two years ago in the morning, they found that a student was 
in possession of this knife. That student had a mild 
disability, dyslexia. And it was agreed that there was nothing 
about his disability that was the reason or justified or caused 
his behavior, why he was bringing a weapon such as this to 
school. And of course, this is a lock blade, so it's stiff, a 
lot more deadly than just a pocket knife with a blade that 
easily folds.
    However, they found that they were unable, even though he 
was a real, clear and present danger to the safety of the other 
students, they were unable to keep him out of the classroom 
setting, whether he was carrying this or another knife or not. 
I don't like that. Parents don't like that. And unfortunately, 
with the law and the regulations as they are, I have not 
witnessed willingness of the U.S. Department of Education to 
correct the way that the IDEA is used to keep danger in our 
public schools.
    So I wanted to ask, what has your office actually done to 
correct this problem, so that our students will be safer in our 
public schools?
    Ms. Heumann. Thank you for the question. I'll answer it, 
and I'd also like to introduce Tom Hehir, and I'll have him 
answer it, too, because he has worked in two large urban school 
districts.
    Let me first say that you're probably aware of the fact 
that we're currently going through a reauthorization process of 
the IDEA.
    Mr. Istook. I'm aware of that, and of how long that takes, 
yes, ma'am.
    Ms. Heumann. Well, we're making progress. We're meeting on 
a daily basis with a work group that's being led by Senator 
Lott's office. We're pretty hopeful that something positive is 
going to happen.
    The answer is long. As far as what we've done specifically, 
we believe that current law and the proposals that the 
Administration introduced in our bill two years ago actually 
would handle the situation that you're addressing. And I'm not 
exactly sure why this child was allowed to remain in the 
setting that he was in. Because under current law, the child 
can be removed for up to 10 days.
    Mr. Istook. But after that, they're then able to go back.
    Ms. Heumann. Under current law, they also are allowed to 
remove the child to another setting. There's a number of 
procedures they have to go through for that. Let me also say 
that under our proposal, we state that if a child brings any 
dangerous weapon such as this one to school, that child could 
automatically be removed to another setting for up to 45 days.

                regulations regarding weapons in schools

    Mr. Istook. Let me ask this. Because my concern, you see, 
is not when someone says they presented the plan two years ago 
and they still haven't acted on it and so forth, current law, 
is it not correct, that you still have in place 34 Code of 
Federal Regulations, Part 300.513(a), which reads, ``during the 
pendency of any administrative or judicial proceeding regarding 
a complaint, unless the public agency and the parents of the 
child agree otherwise, the child involved in the complaint must 
remain in his or her present education placement.'' In this 
case, the parents were not willing to agree otherwise for the 
safety of all the other children.
    Ms. Heumann. Do you happen to know whether the school 
district went to court? Because under current law, the school 
district can go to court to get a temporary restraining order 
to have the child removed.
    Mr. Istook. First, I think the U.S. Supreme Court has made 
a decision that this position nevertheless governs. But whether 
it is or not, why would the Department of Education keep this 
regulation on the books and tell a school system that if you 
want to try to get around it, you're going to have to spend 
tens of thousands of dollars in legal fees and go to court. Why 
should they have to go to court to protect my children and my 
neighbors' children from a child who chooses to bring a weapon 
such as this to school?
    Ms. Heumann. Let me first say that obviously, the 
Department of Education has the same concern that you do, that 
we want schools to be safe for all children, including disabled 
children. Putting children at undue risk is something that we 
are obviously equally concerned about.
    Mr. Istook. I'd like to know why you haven't changed the 
regulation.
    Dr. Hehir. Mr. Istook, I think there's a couple of things 
that I would like to point out in this instance. The school 
district does have the ability to go to court, as you know. I 
have previously been director of special education in both 
Boston and Chicago, and I have exercised that option in two 
instances where I've had a difference of opinion between the 
parent and the school district, in terms of removing a child 
who should be removed.
    In both cases, I went to court with the school district 
attorney. In an afternoon, in a very short amount of time, we 
got a temporary restraining order to remove, in both cases, the 
kids we needed to remove.
    Mr. Istook. And before the case was over, how much did it 
cost in legal fees?
    Dr. Hehir. Very little.
    Mr. Istook. It wasn't over that afternoon.
    Dr. Hehir. It was over that afternoon. The judge ordered 
that----
    Mr. Istook. You said it was a TRO.
    Dr. Hehir. In both instances, the parents stopped 
challenging the action.
    Mr. Istook. Okay. So it was over because the parents chose 
to stop challenging, not because you went through the legal 
system. It was the parents' change that caused it.
    See, I'm concerned, when people say that well, they can 
take you to court, there are stories of court cases costing 
hundreds of thousands of dollars trying to get a dangerous 
child out of the schools. And I would much rather that hundreds 
of thousands of dollars go to buy textbooks, andperhaps go to 
help a program with a disabled child, or something other than to keep 
my children and other peoples' children under the threat of weapons in 
the classroom.
    Dr. Hehir. Again, in terms of your question about why the 
Department has not changed the regulation, it has been our 
interpretation that the statute is clear regarding the ability 
to exclude student with disabilities. We have proposed a change 
to the statute that would enable school districts to remove 
unilaterally a child who brought a knife to school. We have 
made that proposal to Congress. And that proposal is still an 
active proposal to the Congress.
    Ms. Heumann. You also need to know that----

                   addressing safety needs in schools

    Mr. Istook. But you've not proposed a quicker action, such 
as rewriting your regulation.
    Ms. Heumann. Well, we can't legally do that. But let's put 
this in a different context. I think we all agree that we want 
safe schools. I think we also believe that it's very important 
to look at the history of this law, why the law came about. The 
exclusion of children has been historically pervasive, whereby 
administrators try to remove children quickly from school and 
place them in non-educationally appropriate environments.
    The changes that we have been proposing in our legislation 
and the changes that have been proposed both on the House and 
Senate side take a perspective which says that we want to be 
sure that we identify children who are dangerous in school 
early. I'd be interested to know whether this was the first 
time that this child exhibited inappropriate behavior in 
school, or whether the child had a history of doing this. I'd 
also like to know whether or not appropriate interventions had 
been provided for this child, and whether or not the teacher 
had been given appropriate instructions.
    I think what we're trying to say to you here is that Tom 
has been an administrator of two large urban school districts, 
was able to handle situations like this, and was able to remove 
the child. I'm a former school teacher, and I certainly would 
not feel safe in a classroom if a child brought a knife like 
this to school. Obviously, our interest is to make sure, as 
educators and as people who are working in the Department of 
Education, that we are developing policy and implementing the 
law in a way which is appropriate and fair for all children.

                        safety in the classroom

    Mr. Istook. Let me just in conclusion say I wish you had 
spent near as much time expressing concern for the safety of 
children in the classroom as you did wondering whether someone 
had sat down and counseled with or talking about inappropriate 
behavior, this is not ``inappropriate behavior,'' this is 
carrying a deadly weapon----
    Ms. Heumann. But it is important----
    Mr. Istook. Let me finish here. This is carrying a deadly 
weapon. And I hate to hear it labeled with a euphemism of 
inappropriate behavior. The public schools that my children 
attend have a ``no tolerance'' policy on weapons. There have 
been other kids suspended for carrying little bitty toy blades 
or things. I don't want a child, because you have the ability 
to act more quickly on Federal regulations, and I agree 
Congress should act as well, but because people delay, I don't 
want any children any place in the country, hundreds and 
thousands and millions of them each day, to be at risk in this 
fashion. And I really believe that the safety of that huge 
number of children ought to be a higher priority in the 
Department of Education than reeling off a list of bureaucratic 
concerns about, well, had they met with someone and so and so.
    First, let's secure the safety of our children----
    Ms. Heumann. I think----
    Mr. Istook [continuing]. And I would urge you to act on the 
regulations.
    Ms. Heumann. I think that the proposal that we've made in 
our legislation clearly shows that we have the same commitment 
that you have.
    Mr. Istook. I'd like to see it reflected in a proposed 
regulation.
    Ms. Heumann. We can't put it into a regulation until the 
law has changed. Once the law has changed, we'll be able to 
regulate on it.
    Mr. Istook. You see, when you say that's a matter of 
interpretation, I think any legal challenge on that would 
probably be only a fraction of the costs of all the legal 
challenges of trying to get the kids out of the classroom when 
they're a danger.
    Ms. Heumann. I'd like to send you a copy of a set of 
questions and answers that we sent out about two years ago to 
States and local communities on this issue.
    Mr. Istook. But if you have anything, I would like to see 
your analysis of why you have not drafted a regulation, which 
is within your power. I would appreciate getting that.
    [The information follows:]

         Regulations Regaridng Discipline and Special Education

    Section 615(e)(3)(A) of the Individuals with Disabilities 
Education Act (IDEA) provides that, ``during the pendency of 
any proceedings conducted pursuant to this (procedural 
safeguards) section, unless the State or local educational 
agency and the parents or guardian otherwise agree, the child 
shall remain in the then current educational placement . . . 
until such proceedings have been completed.'' There is only one 
exception to this provision. The Improving America's Schools 
Act of 1994 (IASA) amended IDEA to add a provision that 
students who bring a firearm to school may be placed in an 
interim alternative educational setting for up to 45 days or 
until due process proceedings are completed (section 
615(e)(3)(B)).
    The language of the statue precisely and unambiguously 
specifies a child's placement during the pendency of an 
administrative or judicial proceeding. Since the intent of 
Congress on the issue is clearly addressed in the statute, the 
Department does not have authority to create further exceptions 
through regulation. Therefore, the Department's regulations 
track the statute. Section 300.513(a) of Part 34 of the Code of 
Federal Regulations provides that, ``During the pendency of any 
administrative or judicial proceeding regarding a complaint, 
unless the public agency and the parents of the child agree 
otherwise, the child involved in the complaint must remain in 
his or her present educational placement.'' While the 
Department does not have authority to change the statutory 
provisions through regulation, we agree that a change to the 
law is needed. In the 104th Congress, the Administrative 
transmitted a bill that would have amended IDEA to expand the 
IASA exception related to firearms to cover all dangerous 
weapons. We continue to support this change.

    Ms. Heumann. Great. Thank you.
    Mr. Istook. And I'll provide you with a copy of the letter.
    Ms. Heumann. I appreciate that.
    Mr. Porter. Thank you, Mr. Istook.
    Ms. Pelosi, I yielded initially to Mr. Istook. Do you have 
a time problem?
    Ms. Pelosi. No, I would be happy to hear your questions.

                 impact of increase in federal funding

    Mr. Porter. I'll ask a few questions, then I'll yield to 
you. I have to leave at 12:10, so we'll go to 12:10 and I'm 
sure we'll have enough time for questions.
    Ms. Heumann, as you know, in the fiscal year 1997 bill, we 
increased funding for special education State grants by almost 
$800 million, an increase of over 25 percent. A recent study by 
GAO of Federal grants in general indicated that as much as 74 
cents of each Federal dollar substitutes for State or local 
dollars.
    If this estimate is correct and is true of special 
education programs, then of the $800 million increase, perhaps 
as little as $300 million actually went to increase funding for 
special education. The rest freed up other State or local 
dollars to reduce taxes or fund other priorities.
    I'm sure we both suspect that GAO has quantified something 
that we all know occurs, States cut back on proposed increases 
in State funding in the face of unexpectedly large increases in 
Federal funding. Can you assure the subcommittee that the $800 
million increase in special education funding is not being 
offset by reduced increases in non-Federal funding as States 
and localities finalize their school year 1997 to 1998 budgets?
    Ms. Heumann. First of all, there is a provision in the law 
which prohibits supplanting, which should be addressing this 
issue. However I know that at the State level, there are some 
States that are reducing their State share.
    Tom and I both sent out letters, I to the Chief State 
School Officers and Tom to all the special education directors 
in all the States, telling them that we really encourage them 
to one, not do as you were indicating, and two, to also spend 
this money as much as possible on ensuring that dollars go to 
direct services for disabled children. It is also an issue that 
we're discussing under the reauthorization proposals.

                     medicaid support for services

    Mr. Porter. Medicaid is providing substantial sums of money 
to schools to reimburse for services. And I understand this is 
a relatively new phenomenon. Can you tell me what triggered 
this reimbursement policy and what amounts of Medicaid monies 
are flowing to schools?
    Ms. Heumann. We can't give you the numbers, but we can see 
if we can get figures on that.

                            Medicaid Funding

    The Federal Medicaid statute does not explicitly authorize 
the use of funds for special education and does not require 
that Medicaid programs reimburse schools for health-related 
services delivered to Medicaid-eligible children. However, the 
Medicare Catastrophic Coverage Act of 1988 (MCAA) amended the 
Medicaid law to make clear that Medicaid funds are available to 
pay for health-related services and that nothing under the 
Medicaid statute is to be construed as prohibiting or 
restricting the payment for services covered under a Medicaid 
state plan simply because they are on a disabled child's 
individualized education program.
    Under Federal law, the Medicaid program can only be billed 
for medically necessary services that are included in the 
state's Medicaid plan or covered under the Early and Periodic 
Screening, Diagnosis, and Treatment program (EPSDT). In order 
for schools to bill Medicaid: (1) the services must be 
medically necessary and be included in the state Medicaid plan 
or under EPSDT, and (2) Medicaid provider qualifications must 
be met by those providing the health-related services delivered 
to disabled students while they are in school.
    We do not have information on the amount of Medicaid 
funding that is flowing to schools to pay for the costs of 
related services required to be provided under the IDEA. 
Medicaid is primarily a state-operated program, so states 
handle the implementation of the program differently, and the 
Department of Health and Human Services does not collect 
information that would permit us to make an estimate. However, 
we believe that effective interagency coordination between 
school districts and noneducational agencies is critical in 
ensuring that children with disabilities receive the education 
and health supports they need in order to learn and benefit 
from education.

    Mr. Porter. Am I correct, this is a fairly recent 
phenomenon?
    Ms. Heumann. I think it is recent inasmuch as we have been 
providing technical assistance to States and States have become 
more knowledgeable about how to bill Medicaid, as appropriate. 
The law has required for many years now that the State 
departments of education and the local education agencies 
obtain appropriate funding from other agencies. As you know, 
the requirement is that students have an individualized 
education program, and where certain types of services are 
indicated as necessary for the child, those services need to be 
provided. We've been doing everything we can to ensure that 
it's not the responsibility totally of the local school 
district to provide for those funds. The ability to bill for 
Medicaid, where appropriate, has been effective in helping 
schools not have to use local school dollars for that service.

                medicaid and other sources for services

    Mr. Porter. What services are we talking about?
    Ms. Heumann. We're talking about services like occupational 
therapy, physical therapy, speech therapy, wheelchairs, other 
types of durable medical equipment, and types of services like 
technology. Also, we're not just talking about Medicaid. We 
could also be talking about Departments of Mental Health and 
other State and local agencies.
    Mr. Porter. And who provided funding for these services 
before Medicaid started to be billed?
    Ms. Heumann. In many school districts, services that are 
required to be provided are still being paid for by the local 
school district.
    Dr. Hehir. Mr. Porter, as a local administrator through 
most of the history of this law, I have always used Medicaid 
funding to augment the resources of the district. I worked in 
districts that had difficulty, both Boston and Chicago, in 
making ends meet to support this program. Medicaid was an 
available resource. I think, increasingly, school districts are 
using Medicaid. When I first went to work in Chicago in 1990, 
Chicago was not accessing Medicaid resources. They now receive 
about $40 million a year from Medicaid to support their special 
education program.
    Ms. Heumann. This has been a big issue of discussion, Mr. 
Porter, during the reauthorization. We've been working hard on 
the development of language which would hold State and local 
communities more responsible for paying their fair share of 
legitimate services.

    federal contribution to meeting excess cost of special education

    Mr. Porter. Well, we're a long way from this in measuring 
the degree to which the Federal Government is reaching its 40 
percent commitment, should we not include all funds spent in 
the education of disabled children and not just IDEA funds? In 
other words, shouldn't the Medicaid funds be included as well?
    Ms. Heumann. I don't think so. I think basically the 40 
percent was to look at the excess cost of education dollars for 
disabled children. The way we've been trying to deal with this 
particular issue is to hold other State and local agencies 
responsible for paying their fair share.
    That's certainly something we could look at.
    Mr. Porter. Why don't I give you a little time to think 
about that one, and you can answer it for the record in 
addition to what you've said here today, if you'd like.

                               legal fees

    Recent articles in the Washington Post indicated that the 
District of Columbia spent millions of special education funds 
on legal fees. Can you give the subcommittee your views on this 
expenditure and the total amount of special education and 
rehabilitation service funds spent on legal fees for the cost 
of representing parents and children and the amount spent, if 
any, defending local schools?
    Ms. Heumann. Specific to the District of Columbia, we've 
been equally concerned about the report in the Washington Post, 
which obviously we were well aware of before the article came 
out. We have been working with the District for the last few 
years trying to move them more into compliance, because we 
believe that if they were providing more effective services, 
that many of these children would not be in the situation where 
they would be leaving the school district and going to other 
placements.
    We've had a number of meetings with D.C., and Tom's been 
meeting with the school district and with General Becton, who's 
the new Superintendent, to help D.C. move more into compliance. 
We are hopeful that with the new leadership, many of these 
issues are going to be more effectively addressed.
    Mr. Porter. I'd like to talk a little bit more about this. 
Isn't it true that under the current law, the meter starts 
running immediately? In other words, a parent is entitled to 
seek legal help at the very beginning of the process?
    Ms. Heumann. A parent can seek legal help in the very 
beginning, but a parent is not guaranteed that they will be 
able to recoup legal costs. If a parent utilizes a lawyer, but 
the process is completed at the end of an IEP, the parent would 
not be able to recoup legal fees.
    If the process goes on beyond an IEP, and there is a due 
process hearing and it goes into court, ultimately it's the 
court that makes the decision about the amount of attorneys 
fees which may be provided to the parent.
    Mr. Porter. But the law provides that they will be 
provided.
    Ms. Heumann. The law allows for attorneys fees to be 
provided.
    Mr. Porter. Can you give us, if you have this, and I'm not 
sure that you would, but do you have figures nationally on how 
much money is spent on legal fees?
    Ms. Heumann. I can tell you now that there are about two 
court cases in each State that are currently active. So the 
number of actual court cases that are going on are much fewer, 
actually, than I think we're led to believe through anecdotes. 
I can try to get you information.
    [The information follows:]

                      Idea Appeals and Court Cases

    The Department commissioned a survey of State agencies in 
fiscal year 1994 to determine the number of due process 
hearings requested, hearings held, and appeals to courts in the 
States. While all 50 States, the District of Columbia, and 
Puerto Rico participated, not all State agencies provided 
information for all three categories. We received information 
from 49 agencies on hearings requested, 49 on hearings held, 
and 40 on appeals to court. The data was for school year 1992-
93, during which approximately 5.1 million children with 
disabilities were served under IDEA. The 49 agencies submitting 
data reported 5,616 requests for due process hearings for just 
over \1/10\th of 1 percent of the children served in these 
States. Of the requests for hearings, 3,606, or 64 percent, 
were resolved prior to the hearing. Of those going to a 
hearing, only 90 resulted in appeals to State or Federal 
courts.
    We do not have information on the costs associated with the 
court cases or due process hearings. However, attorney's fees 
may only be awarded by a court if the parent is the prevailing 
party. The statute further provides numerous limitations on the 
amount of fees that can be provided. These include that the 
fees must be based on the prevailing rates in the community 
where the action arose, no bonus or multiplier may be applied, 
and fees may not be provided subsequent to the offer of a valid 
settlement offer if the relief finally obtained is not more 
favorable to the parents than what was offered in the 
settlement.
    We note that a small number of States seem to account for a 
large proportion of the appeals activity. For example, 
California, New Jersey, New York, and the District of Columbia 
accounted for 50 percent of all hearings requested, but only 20 
percent of children served. In addition, New Jersey, New York, 
and the District of Columbia accounted for over 48 percent of 
all hearings held. Similarly, California, Connecticut, 
Maryland, and the District of Columbia accounted for 70 percent 
of the court cases. The survey indicated that the availability 
of mediation may affect the number of due process hearings. For 
example, California instituted a mediation system several years 
ago. In 1993, California recorded the largest number of 
requests for hearings in the Nation at 849 requests. However, 
California only held 58 hearings in 1993, making it 9th in the 
country in terms of number of hearings held. THe Department 
supports the use of mediation as an effective way to resolve 
disputes and decrease the amount of legal fees associated with 
due process. In the 104th Congress, the Administration 
transmitted a bill that would have amended IDEA to require 
States to offer parents an opportunity for mediation to resolve 
the dispute whenever a due process complaint is filed. We 
continue to support this change.

                      disincentives to litigation

    Mr. Porter. On the other hand, when you get a chance to be 
reimbursed, and very often these are reimbursed, that leaves 
the school to do what the parents might want them to do and not 
bother going to court.
    Ms. Heumann. I know that's one of the arguments which is 
given. I think first of all, in the reauthorization, there are 
a number of steps that we've been taking to try to reduce 
conflicts that exist between the parents and the school 
districts. One of the provisions that we have in our proposal, 
and that is included both in the House and Senate proposals, is 
in the area of mediation. We've seen that where mediation has 
been implemented--about 32 States on their own have mediation 
processes--that the number of due process hearings which have 
moved forward has been substantially reduced, and obviously 
then the number of court cases has been reduced.
    I think it's fair to say that most parents do not really 
look forward to the prospect of having to fight with the school 
district for due process or going on to court. In addition, 
there's always the risk that if you go to court, you're going 
to lose, and then you're not going to be able to reclaim 
attorneys fees. I think the process that we've really been 
looking at, and what States really have been showing is, where 
reason has been applied, we are not seeing significant numbers 
of court cases. As I said, I believe that there are built-in 
protections within both the law and within the court cases that 
have been advanced over the last 10 years to ensure that 
attorneys fees are not unduly awarded.
    Mr. Porter. I'm a lawyer, so our profession appreciates all 
the provisions of Federal law that take care of us. But I think 
in certain instances, certainly the Superfund is a good 
example, it's practically a perfect lawyer's law. And I'm 
afraid that in certain respects, special ed had that kind of 
aura about it as well. And what I'd like you to do is give me a 
longer answer for the record that details the amounts of money 
involved, the number of cases and the like, so we can see the 
extent to which our resources are going, and particularly the 
local school resources, are going for attorneys fees. Not that 
people shouldn't have attorneys, but we shouldn't encourage 
litigation, we should try to encourage just the opposite.
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman.

                           welcoming remarks

    Mr. Chairman, it's with special pride that I join you in 
welcoming Secretary Heumann here today. We're very proud of her 
work here in Washington, D.C., and for all the leadership she 
provides on all these important issues. She was a leader in our 
community in the San Francisco Bay Area before she came here. 
And I know that her commitment fits comfortably with the 
President's goals that he has identified for all disability 
programs and policies. In her statement, she says inclusion, 
not exclusion, independence, not dependence, empowerment, not 
paternalism.
    I would say that in the years that I have observed 
Secretary Heumann's work, she has taught us all that we must 
respect people for what they can do, rather than judge them for 
what they cannot do. And in that spirit, I'm so pleased that 
one of my daughters is finishing her education to be a special 
ed teacher in Texas, and my son-in-law in Arizona is a special 
education teacher. So I have some appreciation for the 
challenges that you all face, and I thank you for your 
leadership on these important issues. I wish you success with 
your challenges.
    As far as my questions are concerned, these are not a 
mother and a mother-in-law's questions----[Laughter.]

               assessments of children with disabilities

    Ms. Pelosi [continuing].--they're questions I would ask 
anyway. It's my understanding that 50 percent of children with 
disabilities are excluded from State and district wide 
assessment tests--I asked this question yesterday about the 
English as a second language folks, too--causing these children 
to miss out on critical benchmarks in learning. The California 
Department of Education is currently developing performance 
standards and assessments specific to children with 
disabilities. What efforts are being made to include children 
with disabilities in the President's national assessment, which 
would develop alternative and comparable means of testing, in 
the hopes that some of these children can work out to 
participate equally in a general education curriculum?
    Ms. Heumann. Thank you for the comments, and thank you for 
the question.
    We're doing a lot of work in this area. Even prior to the 
President's initiatives in this area, it's something that we've 
been very concerned about. When the data first came out showing 
that 50 percent of children with disabilities were not 
participating in assessments, it was very clear that this was 
resulting in children not being able to pass muster, and stay 
in school, and that the likelihood of them being able to 
successfully graduate and move into employment obviously was 
going to be impaired.
    We have done a number of specific things. The National 
Assessment of Education Progress (NAEP), which as you know is 
administered by the Federal Government, when we came into 
office was not including disabled students. We've done a lot of 
work within the Department, and that's been turned around. The 
NAEP now is providing appropriate accommodations so that 
disabled students are a part of the NAEP.
    We also have awarded a Federal grant to a project which is 
working with States to help them look specifically at the issue 
of assessment and provide technical assistance to the States so 
that children with disabilities can be included in State 
assessments. In the reauthorization, we have spent a lot of 
time focusing on the individualized education plan, and looking 
specifically at issues around accountability, ensuring that 
students will be participating in a general curricula, getting 
the kinds of accommodations that they need to be able to 
participate in the general curricula, and also ensuring that 
students participate in State and local assessments.
    Under Section 504 of the Rehabilitation Act, States are 
currently obligated to ensure that students are participating 
in assessments. We know, and the data show that this has not 
been happening. We've also been concerned about students who 
could not participate in the State assessments. They are a very 
small percentage of kids with disabilities, less than 2 
percent. In our legislative proposals, we've been focusing on 
alternative assessments, ways to assure that we can measure the 
progress of those children who cannot participate in regular 
assessments.
    As far as the 1999 test is concerned, our staff is very 
involved in discussions within the Department in the design of 
the test to ensure that appropriate accommodations are going to 
be able to be provided for students, and that no student, 
because of their disability, will be excluded from either the 
test for reading or the test for math.

                        america reads challenge

    We've also been doing a lot of work with Carol Rasco who, 
as you know, is in charge of the America Reads Challenge, 
because this reading initiative, as far as we're concerned, is 
critically important for students with disabilities. We also 
believe that if the initiative is successful, it could help 
prevent a significant number of children from moving into 
special education because their reading difficulties haven't 
been identified early enough.
    We are placing an emphasis on ensuring that teachers are 
appropriately trained to identify kids who have reading needs, 
and be able to provide appropriate interventions. We believe 
that the America Reads Challenge would be a good complement and 
supplement to the work we're doing in special education to 
ensure that kids who have legitimate reading needs are able to 
get additional support.
    We've also developed lots of materials, including a packet 
that I mistakenly left at the office, which I'll send up to all 
of you, called Learning to Read/Reading to Learn. This is a 
great set of materials designed by us--in conjunction with 
about 20 national organizations--which help parents and schools 
focus on being able to identify kids who are having reading 
difficulties and tell them what to do.
    Ms. Pelosi. Do I have any more time, Mr. Chairman?
    Mr. Porter. Tell you what, because Republicans get nervous 
about time limits more than Democrats, I'll allow you to finish 
your questions, then recess the hearing until 1:30.
    Ms. Pelosi. Thank you, Mr. Chairman. I'm in charge now. 
[Laughter.]
    Mr. Porter. You're in charge. Thank you for the fine job 
you're doing there.
    Ms. Heumann. Thank you very much. I appreciate it.

                        professional development

    Ms. Pelosi [assuming chair]. Thank you, Mr. Chairman.
    Secretary Heumann, most children with disabilities spend at 
least part of the day in a general education classroom 
environment. What sort of professional development is required 
of general education teachers to provide for their needs? Is 
there a formal collaboration between special ed and general 
education personnel?
    Dr. Hehir. Hello, Ms. Pelosi. One of the things that we are 
concerned about is the lack of training that generaleducation 
teachers have in educating kids with disabilities. That's improving, 
more and more programs are providing that type of training.
    One of the things that we have proposed to Congress under 
the reauthorization of IDEA is that we be allowed to use some 
of our personnel preparation money to work with universities to 
develop training programs where special education teachers and 
general education teachers are trained together, and where 
general education teachers get opportunities within their 
training to be trained better in how to educate children with 
disabilities.

                    president's technology challenge

    Ms. Pelosi. Thank you. I have more questions, but I don't 
have much more time. I just quickly wanted to know how you 
thought the President's technology challenge is tailored to 
meet the needs of students with disabilities.
    Ms. Heumann. Technology is an area that we're doing a lot 
of work in. So I want to make a couple comments, and then I 
want to turn it over to Kate Seelman.
    We have a technology work group within OSERS, because we're 
really kind of a unique blend. We have the Office of Special 
Education, which provides funding in the area of technology, 
both in the area of research and in implementation. We also 
have the National Institute on Disability and Rehabilitation 
Research, and they can give you a little more information about 
their research in this area. The Rehabilitation Services 
Administration, headed by Fred Schroeder has also been 
involved. The Department of Rehabilitation in California is an 
example of a State that has a technology specialist on staff 
who in fact is working with State rehabilitation counselors to 
help assure that they're aware of the new technology for adults 
with disabilities. So we're really trying to span both research 
and practical implementation from children to adults.
    Ms. Seelman. The Technology Related Assistance for 
Individuals with Disabilities Act, which NIDDR administers, is 
increasing the availability of assistive technology devices and 
assistive technology services. It's an integral part of the 
initiatives and priorities intended to help ensure that all 
students are technologically literate by the 21st century.
    Fifty-six Assistive Technology programs have or are in the 
process of developing systems that will eliminate barriers to 
acquiring assistive technology devices or services. They have 
already developed partnerships with State education agencies, 
and are in a position to educate them about the requirements, 
needs, laws, and resources for making technology accessible to 
children with disabilities.
    The Assistive Technology program also provides extensive 
information that can be used by school personnel as they plan 
for implementing the President's goals of training teachers and 
having, all schools connected to the Internet including the 
appropriate software and hardware for students with 
disabilities.
    In addition, NIDDR's technology research programs interface 
with the Department's and the Administration's larger goals in 
the areas of telecommunications, computer adaptations, and 
communications devices, and have served as a basis for the 
development of Section 504 and 508 policies regarding the use 
of accessible technology in the Department.
    OSERS, and NIDDR, are instrumental in introducing into the 
larger society the concept of universal design, so that our 
buildings and our telecommunications systems are accessible to 
all people as we design them.
    Ms. Heumann. Let me just say one other thing. As far as the 
President's specific initiative is concerned, we have staff 
from our office that are working very actively with Linda 
Roberts, who's heading up the technology initiative within the 
Department. We've been involved in peer review, and we've been 
involved in helping to establish the program to ensure that it 
addresses our concerns for the needs of disabled students.

                                Closing

    Ms. Pelosi. Thank you very much. I have more questions, but 
I don't have more time, so I'm going to have to, on behalf of 
the committee, thank you all for your very fine testimony, and 
more importantly, for your leadership on these important 
issues.
    The committee is in recess until 1:30.
    [The following questions submitted to be answered for the 
record.]

[Pages 727 - 1625--The official Committee record contains additional material here.]



                           W I T N E S S E S

                               __________
                                                                   Page
Bloom, T. R......................................................   443
Cichowski, C. A...........................................399, 471, 703
Corwin, T. M...................................................139, 665
Davidson, Robert.................................................   243
Davila, R. R.....................................................   471
Forgione, P. D...................................................   399
Garrett, Thaddeus, Jr............................................   593
Hehir, T. F......................................................   703
Heumann, J. E..................................................471, 703
Hicks, E. M......................................................   243
Jordan, I. K.....................................................   471
Longanecker, David...............................................   243
McLaughlin, Maureen..............................................   243
McNamara, S. A...................................................   443
McNeil, P. W.....................................................   665
Pompa, Delia.....................................................   139
Prieto, C. R...................................................243, 593
Riley, Hon. R. W.................................................     1
Rodriguez, R. F..................................................   471
Schroeder, F. K..................................................   703
Seelman, K. D....................................................   703
Skelly, T. P..................1, 139, 243, 399, 443, 471, 593, 665, 703
Smith, M. S......................................................1, 399
Swygert, H. P....................................................   593
Thompson, W. S...................................................   471
Tinsley, Tuck, III...............................................   471
Tirozzi, G. N....................................................   139
Van Riper, D. G..................................................   443







                               I N D E X

                              ----------                              

                        DEPARTMENT OF EDUCATION

                         Secretary of Education

                                                                   Page
Administrative expenses.....................................94, 95, 101
Administrative staff in schools (see School district 
  administrative staff)
Adult education (see also Literacy programs; OVAE)..............76, 126
Advanced placement fee program..............................1, 2, 4, 11
After-school learning centers.................................6, 15, 21
America Reads Challenge........3, 6, 13, 57, 75, 76, 80, 104, 122, 134, 
                                                                135-137
America's HOPE Scholarship..............8, 16, 17, 29, 48, 63, 101, 102
Balancing the budget and education funding.......................33, 52
Basic literacy performance levels (see also Voluntary national 
  assessment testing)........................................13, 77, 78
Bilingual education (see also OBEMLA).........................6, 14, 76
Biography of Richard W. Riley....................................    18
Block grants vs targeting education funds........................    55
Brain research (see NICHD)
Campaign funds...................................................    49
Challenges in American education.................................3, 128
Charter schools..............................................4, 12, 122
Closing remarks by Chairman......................................    64
College tuition/costs (see also Tax cut proposals).....15, 48, 49, 102, 
                                                                    130
Committee on Education and Training (CET)........................   132
DARE program.........................................21, 23, 24, 26, 51
Default rates....................................................   125
Department of Agriculture........................................    43
Department of Commerce...........................................    43
Department of Defense............................................    43
Department of Energy.............................................    43
Department of Health and Human Services (see also Head Start)....    43
Department of State..............................................    44
Department of the Interior.......................................    44
Department of the Treasury.......................................    44
Department of Transportation.....................................    44
Department of Veterans Affairs...................................    45
Discretionary grant process......................................    96
Early childhood development/education (see also NICHD)..61, 62, 64, 138
Ebonics..........................................................    58
Education program eliminations and consolidations.........29, 71-73, 82
Education programs (see Federal education programs)
Educational reform........................54, 77, 98, 99, 108, 109, 111
Educational standards (see Standards in education)
Educational technology..........................4, 11, 25, 83, 123, 129
Eisenhower professional development (see also Prof'l development; 
  OESE; OERI).................................................4, 12, 67
Even Start (see also OESE)....................................6, 14, 61
Family Educational Rights and Privacy Act (FERPA)................ 88-92
Family involvement...............................................   128
Federal education programs...................28, 29, 34-47, 81, 82, 133
Federal education programs outside the Department of Education...43-46, 
                                                                    133
Federal role.............................................25, 30, 33, 53
FIE--Fund for the Improvement of Education (see also OERI)....5, 12, 52
Flexibility in education funding (see also Waivers)..............    55
FY 1998 Department of Education budget request.....3, 10-17, 29, 33, 52 
                                                            ,72, 80, 83
GAO Study on Federal Grants......................................    66
Georgia Hope Scholarship program........................47, 63, 101-102
Goals 2000 (see also OESE)...3, 11, 12, 34, 53, 55, 57, 58, 73, 74, 133
Goals 2000 evaluation............................................    87
Goals 2000 funds to Oklahoma.....................................    73
Head Start.......................................................43, 61
Hiring welfare recipients........................................   137
HOPE Scholarship program (see America's HOPE Scholarship)
Howard University................................................    72
IDEA (see Special education)
Immigrant education...............................................6, 14
Indian education (see also OESE).................................    72
Interagency coordination..............................61, 118, 131, 132
Introduction of witnesses........................................     1
Jumbo the Elephant...............................................    28
Kentucky education reform program...............................54, 108
Learning disabilities (see also Special education).............103, 105
Literacy programs (see also Basic literacy performance levels).......6, 
                                                             76-78, 107
Maintenance of effort requirement................................66, 67
Mandatory programs...............................................    80
Master teachers (See also Standards in education; Professional 
  development)....................................................4, 20
McKinsey Report ``Connecting K-12 Schools to the Information 
  Superhighway''.................................................     4
Middle-income tax deduction (see Tax proposals)
National Aeronautics and Space Administration (NASA).............   132
National Assessment of Educational Progress (NAEP) (see Voluntary 
  national assessment tests)
National Board for Professional Teaching Standards................4, 12
National Education Goals (see Goals 2000)
National Institute on Child Health and Human Development (NICHD). 
                                                  61, 62, 106, 131, 138
National Science Foundation (NSF)................................   132
National voluntary achievement test (see Voluntary national 
  testing)
Nationally certified teachers (Master teachers)..................    20
OBEMLA (Office of Bilingual Education and Minority Language 
  Affairs).......................................................36, 72
OERI (Office of Educational Research and Improvement)....36-37, 52, 72, 
                                                                    132
OESE (Office of Elementary and Secondary Education)...........37-38, 72
Official time duties under agency-union agreements...............    85
Oklahoma Goals 2000 funding......................................73, 74
OPE (Office of Postsecondary Education).......................38-39, 72
Opening remarks of Ranking Minority Member.......................     2
Opening remarks of Secretary Riley...............................     3
Opening remarks of the Chairman..................................     1
OSERS (Office of Special Education and Rehabilitative Services).. 
                                                             39-41, 131
OVAE (Office of Vocational and Adult Education)..................42, 72
P. T. Barnum.....................................................28, 52
Parental involvement....................................13, 54, 61, 100
Pell Grants...............................................7, 15, 53, 63
Percentages of students at or above ``basic literacy'' 
  performance levels, 1971 to 1994...............................    78
Preparing students for work and further education................   130
Presidential Honor Scholarships..................................     9
Professional development (see also Eisenhower progr.; Master 
  teachers)....................................4, 20, 53, 58, 62, 67-69
Professional judgment budget for education.......................    52
Reading (See also American Reads Challenge).............13, 57, 58, 128
Rising enrollment................................................     7
Roberto Clemente High School in Chicago..........................    21
Safe and drug-free schools and communities....6, 15, 25, 26, 49-51, 70, 
                                                                    126
Safe and drug-free schools evaluation............................22, 49
School choice....................................................     4
School construction initiative....3, 7, 15, 20, 26, 27, 30, 31, 58, 71, 
                                                            95, 97, 111
School district administrative staff, by district size--Academic 
  year 1993-1994.................................................78, 79
School funding.......................................24, 25, 27, 59, 93
School-to-work opportunities (see also Work-study)............... 4, 11
Special education (see also OSERS)...........6, 14, 53, 57, 76, 77, 104
Stakeholder reviews............................................116, 117
Standards in education....5, 11-13, 21, 24, 53, 77, 78, 80, 98, 99, 129
Standards in education (see also Voluntary national assessment 
  tests; Master teachers)
State education reform (see also Educational reform; Standards).. 
                                                                98, 108
Strategic plan (Department of Education)........................112-122
Student aid (see specific programs; Student loans; OPE)
Student drug use (see also Safe and drug-free schools; DARE 
  program).......................................................   129
Student loan programs (see also OPE).......................7, 16, 31-33
Supplement, not supplant funding requirement.....................66, 67
Supreme Court decision on tax equity spending (see also School 
  funding).......................................................    24
Task force on professional development...........................    68
Tax cut proposals (see also College costs).........3, 7, 8, 16, 29, 130
Teacher training (see Professional development; Master teachers; 
  Standards)
Technology (see Educational technology)
Testing (see Voluntary national assessment tests)
The ``B'' average................................................    63
Title I (Education for the disadvantaged, LEA grants)....6, 14, 25, 33, 
                                                        34, 53, 60, 127
Title VI Innovative education program strategies State funds..... 74-76
TRIO programs (see also OPE)..................................... 9, 17
Tufts University--Honorary degree for Chairman...................    28
Use of official time.............................................    84
Vocational and adult education (see also OVAE)...................    72
Voluntary national assessment tests........5, 11-13, 19, 21, 29 51, 54, 
                                         59-62, 80, 93, 98-100 124, 125
Voluntary national assessment tests (see also Standards; 
  Profess'l development)
Waivers--Title I and Goals 2000..................................    34
Work-study program (see also OPE)................................ 9, 17

    Elementary and Secondary Education and Bilingual and Immigrant 
                               Education

Accountability for taxpayer dollars..............................   168
After-school programs............................................   169
America reads challenge.........................144, 155, 188, 218, 227
Balance between elementary-secondary and postsecondary funding...   228
Bilingual and immigrant education--contractual services..........   202
Bilingual education........................147, 161, 173, 182, 190, 211
Biographical sketch of Delia Pompa...............................   163
Biographical sketch of Gerald N. Tirozzi.........................   158
Charter schools......................................143, 171, 177, 224
Choice and accountability........................................   153
Collaboration with NASA..........................................   239
Collaborative effort with NICHD..................................   239
College attendance...............................................   238
College placement scores.........................................   237
Congressional justifications:
     Bilingual and immigrant education...........................   976
    Education for the disadvantaged..............................   785
    Education reform.............................................   753
    Impact aid...................................................   840
    Indian education.............................................   958
    School improvement programs..................................   870
Davis-Bacon act...........................................180, 185, 210
Dropout rates....................................................   238
Ebonics..........................................................   214
Ed-Flex..........................................................   217
Educating children with learning disabilities....................   217
Education for homeless children and youth........................   146
Eisenhower Professional Development............................142, 200
Federal role in national testing.................................   186
Federal role in school construction..............................   191
Flexibility vs. accountability...................................   168
Foreign language assistance......................................   162
Funding for existing programs vs. new initiatives................   202
Funding for Indian students......................................   165
Goals 2000................................................140, 201, 240
Higher standards...............................................151, 179
Immigrant education............................................162, 222
Impact aid................................................146, 190, 193
Impact of national board teacher certification...................   193
Indian education...............................................145, 165
Limited English proficient students..............................   147
Literacy and reading programs (see also America reads challenge).   187
Local control--Kentucky example..................................   216
Magnet schools...................................................   223
Math scores......................................................   230
Minority participation in special education and college bound 
  courses........................................................   231
National standards...............................................   213
Need for rigorous standards......................................   176
Number of education programs.....................................   187
Other programs...................................................   145
Overview of request..............................................   140
Parent involvement in education..................................   172
Performance indicators.........................................146, 147
Problems with low expectations...................................   179
Professional development (see also Eisenhower professional 
  development).................................................153, 169
Professional development of bilingual education teachers.........   174
Program effectiveness............................................   156
Proposed national standards of reading and math..................   215
Proposed national tests..............................175, 183, 185, 230
Public apathy about education....................................   171
Realistic goals for children.....................................   180
Reprogramming bilingual education funds..........................   173
Safe and Drug-Free Schools and Communities.....142, 155, 167, 184, 195, 
                                                     199, 206, 222, 225
School construction...................145, 154, 165, 180, 191, 207, 221
School infrastructure............................................   226
School-to-work...................................................   178
Set-asides for Native Americans..................................   201
The state of education and its challenges........................   234
Statement by Delia Pompa.......................................147, 160
Statement by Gerald N. Tirozzi.................................139, 151
Student achievement..............................................   235
Technology literacy challenge fund..............143, 154, 170, 196, 229
Technology (school technology)...................................   197
Title I, Education for the Disadvantaged.............141, 189, 203, 223
Title VI, Innovative education program strategies................   204
Violence prevention (see also safe and drug-free schools and 
  communities)...................................................   184
Witness list.....................................................   139

                    Postsecondary Education Programs

Administration Policy on State Student Incentive Grants..........   282
Administration Tax Proposals.....................................   368
Advanced Placement Fee Program...................................   345
Allocating Additional Resources to Pell Grants...................   281
Bethune-Cookman College..........................................   342
Biographical Sketch of David A. Longanecker......................   251
Byrd Honors Scholarships.............................281, 340, 344, 345
Congressional Justifications:
Student Financial Assistance.....................................  1234
    Student Loans Overview.......................................  1284
    Federal Administration of Student Aid Programs...............  1304
    Federal Family Education Loan Program........................  1322
     Higher Education............................................  1332
    Higher Education Facilities Loans (Liquidating)..............  1428
    College Housing and Academic Facilities Loans Program........  1431
    College Housing Loans (Liquidating)..........................  1441
    Historically Black College and University Capital Financing 
      Program Account............................................  1444
Community Colleges...............................................   382
Community Colleges and Welfare Reform............................   266
Corporate Tax Increase...........................................   256
Costs of Default and Income Contingency..........................   363
Default Rates....................................................   373
Default Rates in Perkins, FFEL, and FDSL.........................   298
Default Rates in Perkins Loan Program..........................299, 328
Defaults and Income-Contingency..................................   334
Direct Lending...................................................   379
Direct Loans...................................................284, 376
Direct Loans Year-3 Applicants...................................   346
Effects of Minimum Wage Increase on Work-Study.................278, 362
Elimination of the State Student Incentive Grant Program.........   394
Federal TRIO Program.............................................   266
FFEL and Direct Loans in Repayment...............................   334
Fraud and Abuse in Loan Programs.................................   269
Fund for the Improvement of Postsecondary Education............280, 286
Graduate Assistance in Areas of National Need..............296, 297, 34
Guarantee Agency Administrative Cost Allowances..................   283
Guaranty Agencies................................................   377
HBCUs and HSIs...................................................   380
Historical Information on State Student Incentive Grants.........   395
Historically Black Colleges and Universities.....................   272
Hope Scholarships.....................257, 259, 261, 262, 264, 271, 367
Hope Scholarships and other Tax Proposals........................   372
Impact of Regulations on Guaranty Agencies.......................   369
Institute for International Public Policy........................   336
International Education and Foreign Language Studies......290, 291, 344
Interprogram Transfers in Campus-Based Programs..................   358
Javits Fellowships...............................................   282
Key Findings from the Student Support Services Evaluation........   385
Key Findings from the Upward Bound Evaluation....................   384
Loan Program Choice..............................................   366
Loan Repayment...................................................   380
Loan Volume......................................................   341
Line-Item Veto...................................................   362
Management and Systems Issues....................................   378
Measure of New Award Effectiveness...............................   277
Merit-Based Scholarships.........................................   378
Minority Science Improvement Program...........................290, 338
Minority Teachers................................................   387
Minority Teacher Recruitment...............286, 287, 288, 335, 337, 342
National Early Intervention Scholarship and Partnership Program.. 
                                                               296, 341
National Student Loan Data System................................   371
Number of Available Teachers.....................................   267
Opening Statement................................................   243
Performance Measures--New Programs...............................   276
Perkins Loan Cancellations.......................................   358
Perkins Loan Volume Levels.......................................   361
Policy Consistency...................................252, 255, 272, 273
Policy Impacts on FFEL...........................................   365
Policy of Retaining FFEL, Direct Loans, and Perkins..............   337
Portion in Income-Contingent.....................................   334
Prepared Statement...............................................   247
Presidential Honors Scholarship................................274, 340
Preventing Tuition Increases.........................254, 256, 262, 265
Programs Funded in Fiscal Year 1997..............................   362
Proposed Changes for Independent Students in Need Analysis.....393, 397
Proposed Reductions in Department Administrative Costs...........   370
Purchasing Power of Pell Grants..................................   395
Reauthorization of the Higher Education Act......................   389
Return of Guaranty Agency Reserves...............................   366
Rising College Costs.............................................   256
School To Work...................................................   263
Small Lender Audit Exemption.....................................   284
State and Federal Aid for Education..............................   339
State and Federal Funding for Higher Education...................   379
State Government's Role in Postsecondary Education...............   393
Student Loan Default Rates.......................................   388
Student Loans....................................................   363
Supporting Postsecondary Education...............................   260
Tax Initiatives..................................................   256
Teaching Pipeline................................................   386
Title III Effectiveness..........................................   277
Title III, Endowment Grants....................................279, 284
Title III Evaluation.............................................   285
Title III Grantees...............................................   342
Title III, Part A Effectiveness..................................   284
Title III, Part A and HSI Funding Policy.........................   279
Title III, Part A Policy.........................................   278
Title III, Part B Funding Policy.................................   279
TRIO Program..........................293, 294, 295, 339, 382, 383, 397
Urban Community Service...................................292, 338, 344
Witnesses........................................................   243
Work Study--Minimum Wage.........................................   270

            Education Research, Statistics, and Improvement

After-School Learning Centers........................415, 420, 430, 436
America Reads Initiative.........................................   435
Biographical sketch of Marshall S. Smith.........................   410
Coordination with the Department of the Census...................   433
Congressional Justification......................................  1455
Education research fellowships...................................   419
Field-Initiated Studies..........................................   434
Fund for the Improvement of Education..........................418, 421
Improvement activities...........................................   408
National Tests............................................401, 411, 440
National Tests: Administration...................................   412
National Tests: Authorization....................................   418
National Tests: Funding..............................412, 417, 421, 433
National Research Institutes.....................................   436
Opening statement..............................................399, 403
Overview of progress in education................................   424
Profits from Federally-funded children's television..............   422
Program performance indicators............................402, 420, 430
Promoting higher standards for every child.......................   425
Regional Education Laboratories..................................   419
Research, development, and dissemination.............404, 415, 422, 431
Role in education reform.......................................434, 439
Staffing levels for the National Center for Education Statistics.   441
Statistics and Assessment.................................406, 420, 439
Teacher preparation..............................................   432
Technology programs..............................................   407
Value of Federal education research..............................   414
Witnesses........................................................   399

                    Office of the Inspector General

Accomplishments..................................................   450
Audit and Investigative Work.....................................   444
Biographical Sketch of Thomas Bloom..............................   454
Condition of Student Financial Assistance Programs...............   466
Congressional Justification......................................  1608
Correction of Problems and/or Weaknesses in SFA..................   467
Collections Resulting from OIG Work..............................   462
Direct Loans and Family Education Loan Programs..................   463
Drug-Free Schools Program........................................   459
Effect of Direct Loan Program on OIG.............................   458
Effectiveness of Direct Loan Program.............................   464
FY 1998 Budget Request...........................................   446
FY 1998 Priorities...............................................   450
Government Performance and Results Act...........................   460
Improvement Activities...........................................   468
Income Data Match with IRS.......................................   456
Management Initiatives...........................................   444
Opening Statement................................................   446
Performance Measures.............................................   456
Problems Regarding Occupational and Trade Schools................   465
Projected Increases in Complaints................................   466
Purpose of Operations............................................   446
Ratio of OIG Personnel to Department Personnel...................   457
Recommended Legislative Changes..................................   461
Reorganization Efforts...........................................   467
Requested Budget Increase........................................   443
Roberto Clemente High School.....................................   455
Statistical Summary..............................................   453
Student Aid Volume...............................................   458
Sustaining of OIG Audit Findings by Department...................   461
Towards a More Effective Organization............................   446
Use of Federal Funds for Political Purposes......................   464
Witnesses........................................................   443

           Special Institutions for Persons with Disabilities

American Printing House for the Blind:
    Advisory services............................................   499
    Assessing the needs of blind students........................   523
    Collaborative efforts on computer techology..................   577
    Educational and Technical Research...........................   500
    Educational materials........................................   499
    Efficiency efforts...........................................   501
    Employment levels............................................   575
    Enrollments of Precollege-level blind students...............   571
    Management initiatives.....................................497, 522
    Non-Federal revenue..........................................   575
    Number of blind individuals with access to computers.........   579
    Opening APH funding to competition...........................   571
    Production efficiencies......................................   574
    Steps to increase non-Federal revenues.......................   535
    Ten-year table of revenues...................................   569
Biographical sketches:
    Tuck Tinsley III.............................................   503
    Judith E. Heumann............................................   480
    I. King Jordan...............................................   487
    Robert R. Davila.............................................   495
Braille literacy.................................................   521
Budget request:
    Special Institutions.......................................474, 477
    American Printing House for the Blind.................496, 522, 577
    Gallaudet University..................................486, 524, 552
    National Technical Institute for the Deaf........488, 490, 523, 539
Congressional Justifications:
    American Printing House for the Blind.........................1,145
    Gallaudet University..........................................1,170
    National Technical Institute for the Deaf.....................1,155
Endowment Grant program..........474, 478, 485, 494, 550, 554, 567, 568
Government Performance and Results Act activities:
    American Printing House for the Blind......................520, 532
    National Technical Institute for the Deaf..................519, 532
    Gallaudet University.......................................504, 527
    Department activities........................................   475
Gallaudet University:
    Appropriation as a percent of Gallaudet revenue..............   535
    Collaboration at Gallaudet on early childhood education......   588
    Comparison groups of schools for Gallaudet...................   541
    Creating a sustainable resource base.........................   527
    Declining student enrollments................................   547
    Direct student loan program participation....................   591
    Downsizing efforts...........................................   591
    Efforts to reduce dependence on the Federal appropriation....   554
    Employment levels of nongraduates............................   546
    Graduation rates.............................................   541
    Impact of technology on deaf students........................   553
    Improving retention of Gallaudet students....................   547
    Increased revenue from tuition and fees......................   552
    Placement statistics.........................................   544
    Precollege national mission programs.........................   485
    Proceeds from sale of the Northwest Campus...................   553
    Program activities...........................................   484
    Schedule of Federal grants and pass through funds............   530
    Statement of current fund revenues...........................   529
    Student tuition and fees from Federal sources................   552
    Ten-year table of tuition and other fees.....................   548
    Total revenue estimates for the University...................   552
    Vision Implementation Plan...................................   537
    Withdrawals from and market value of Gallaudet endowment 
      funds......................................................   550
Monitoring activities by the Department of Education...........475, 478
National Technical Institute for the Deaf:
    Admissions...................................................   489
    Benefits of an NTID education................................   489
    Career development...........................................   492
    Collaboration between NTID and NIH...........................   585
    Endowment match planned for 1997 and 1998....................      
    Expansion of non-Federal revenues............................   558
    GAO issues yet to be resolved................................   526
    Graduation rates, employment rates, and persistence 
      activities...............................................533, 564
National Technical Institute for the Deaf--Continued
    Impact of RIT bond issue on NTID.............................   560
    Implementation of NTID's Strategic Plan....................539, 581
    Outreach.....................................................   493
    Progress of the committee on chargebacks.....................   555
    Progress on outreach activities..............................   585
    Research on graduate earnings................................   554
    Research activities..........................................   493
    Revenue from tuition increases...............................   564
    Student accomplishments......................................   492
    Supplemental Social Security Income Research.................   532
    Table of fundraising and other non-Federal revenues..........   559
    Ten-year table of tuition, room, board, and fees.............   556
    Ten-year table showing the Federal appropriation as a percent 
      of revenue.................................................   568
    Unused previously appropriated endowment funds...............   567
Opening statements:
    Judith E. Heuman...........................................474, 477
    I. King Jordan.............................................481, 483
    Tuck Tinsley III...........................................496, 498
    Robert R. Davila...........................................488, 490
Recommendations for reauthorization of IDEA:
    Judith E. Heumann............................................   580
    I. King Jordan...............................................   591
    Robert R. Davila.............................................   588
Remarks from the Honorable Anne M. Northrup......................   473
Remarks from the Honorable Louise M. Slaughter...................   471
Witnesses......................................................471, 473

                           Howard University

Additional funding request for residence halls and salary 
  compression....................................................   633
Alumni giving....................................................   636
Biographical sketch of H. Patrick Swygert........................   601
Congressional Justification......................................  1412
Coordination of GPRA with Special Institutions and Service 
  Academies......................................................   618
Costs associated with Federal Direct Student Loan program........   633
Early childhood development......................................   653
Employees per student compared to comparable institutions........   620
Employment trends..............................................620, 625
Endowment and decreasing dependency on federal funding...619, 640, 647, 
                                                                    650
Enrollment trends....................................632, 640, 646, 649
Exhibits.........................................................   603
Faculty salaries.................................................   649
Federal agency collaboration.....................................   654
Federal support................................................641, 642
Federal support per student......................................   627
Fiscal year 1998 budget request and impact of flat budget........   622
Health Sciences Library..........................................   651
Howard University Hospital................................637, 647, 657
Howard's comparison group of universities........................   629
Implementation of GPRA...........................................   617
Introduction of witnesses........................................   593
Justification of Federal funding for Howard University...........   626
Merit pay system.................................................   648
National Human Genome Research Institute initiative..............   625
Opening Statement................................................   594
Prepared statement...............................................   598
Research.......................................................648, 651
Retention and graduation rates.................................644, 650
Revenue..........................................................   638
Rising costs of higher education.................................   628
SAT scores.......................................................   639
Scholars.........................................................   641
Shortage of minority teachers..................................623, 661
Statement by Chairman Garrett....................................   593
Strategic Framework for Action.................................662, 663
Tuition..........................................................   645
Two dimensions of enrollment: recruitment and retention..........   632
University funding.............................................645, 658
University housing.............................................634, 640
Welfare reform...................................................   659
Witnesses........................................................   593

           Vocational and Adult Education and School-to-work

Adequate resources for programs..................................    86
Adult education............................................... 667, 693
Adult education and lifetime learning............................   691
Biographical sketch of Patricia W. McNeil........................   675
Building capacity and quality....................................   673
Career preparation for non-college-bound students................   685
College vs. training.............................................   692
Federal literacy programs........................................   676
Impact of America Reads program..................................   686
Impact of welfare reform legislation.............................   685
Improvements.....................................................   696
Improving education for all students.............................   666
Justification of increase in adult education funds...............   687
Libraries........................................................   676
Life-long learning for adults....................................   672
Meeting the educational needs of all children................. 683, 684
Meeting the needs of employers...................................   677
National assessment of Vocational Education......................   699
Number of programs...............................................   691
Opening statement................................................   665
Peer review......................................................   694
Performance measures................................ 667, 679, 680, 686
Perkins Act accountability proposals.............................   698
Preparing for college and careers................................   670
Reauthorizations of adult education and vocational education.....   678
Research, technical assistance, and evaluation...................   668
School-to-Work........................................... 681, 695, 697
Services for special populations.................................   681
State flexibility under the new welfare law......................   689
Statement by Patricia W. McNeil..................................   669
Status of vocational education legislation.......................   687
Tech-prep education..............................................   699
Welfare-to-work..................................................   688
Witnesses........................................................   665

 Special Education and Rehabilitation Services and Disability Research

America Reads Challenge..........................................   724
Assessments of children with disabilities........................   723
Biographical sketch of Judith E. Heumann.........................   713
Braille literacy.................................................   742
Closing..........................................................   726
Congressional Justifications:
    Special Education............................................  1005
    Rehabilitation Services and Disability Research..............  1074
Discipline in schools.................................... 714, 718, 733
Eisenhower professional development..............................   736
Fiscal year 1998 request.........................................   708
Hearing schedule.................................................   714
Independent living...............................................   714
Introduction of witnesses........................................   703
Learning disabilities interagency efforts........................   727
Literacy...................................................... 735, 742
National Institute of Child Health and Human Development 
  coordination...................................................   740
National Institute on Disability and Rehabilitation Research.....   712
Opening statement............................................. 703, 708
President's Technology Challenge.................................   725
Reading....................................................... 724, 733
Recreational services............................................   739
Rehabilitation Act reauthorization...............................   731
Rehabilitation Services and Disability Research request..........   710
Safety in schools and classrooms.................................   716
Special education court cases....................................   721
Special education demonstrations.................................   730
Special education discipline............................. 714, 718, 733
Special education disincentives to litigation....................   722
Special education excess cost................................. 720, 728
Special education Grants for Infants and Families............. 709, 746
Special education Grants to States............................ 709, 736
Special education impact of increases in funding.............. 718, 729
Special education legal fees.....................................   721
Special education mainstreaming..................................   743
Special education Medicaid funding............................ 719, 728
Special education parent school board conflicts..................   749
Special education Preschool Grants............................ 709, 744
Special education professional development.................... 725, 736
Special education Program Support and Improvement................   710
Special Education request........................................   709
Technology.......................................................   725
Vocational rehabilitation for individuals who are blind..........   741
Vocational rehabilitation program evaluation.....................   737
Vocational rehabilitation program improvement activities.........   714
Vocational rehabilitation projects with industry.................   740
Vocational rehabilitation State Grants...........................   711
Weapons in schools....................................... 714, 718, 733
Welcoming remarks................................................   723

                        Departmental Management

Congressional Justifications:
    Salaries and Expenses Overview...............................  1551
    Program Administration.......................................  1573
    Office for Civil Rights......................................  1591

                                <all>
</pre></body></html>
